Seq_No     Agency_Group     Agy_Bur                               Dept_or_Agy_Title                                          Bureau_Title                   Tot_CY_FTEs   Dir_CY_FTEs   Reim_CY_FTEs

05060003   Departments      005-03    Department of Agriculture                              Office of the Secretary                                                 82            82               0
05060004                    005-04                                                           Executive Operations                                                 2,515           392           2,123
05060005                    005-05                                                           Departmental Administration                                            500           470              30
05060006                    005-06                                                           Office of Communications                                                90            90               0
05060008                    005-08                                                           Office of the Inspector General                                        723           723               0
05060010                    005-10                                                           Office of the General Counsel                                          345           338               7
05060013                    005-13                                                           Economic Research Service                                              522           519               3
05060015                    005-15                                                           National Agricultural Statistics Service                             1,188         1,082             106
05060018                    005-18                                                           Agricultural Research Service                                        8,518         8,122             396
05060020                    005-20                                                           Cooperative State Research, Education, and Extension Service           451           442               9
05060032                    005-32                                                           Animal and Plant Health Inspection Service                           7,732         6,984             748
05060035                    005-35                                                           Food Safety and Inspection Service                                   9,661         9,445             216
05060037                    005-37                                                           Grain Inspection, Packers and Stockyards Administration                810           355             455
05060045                    005-45                                                           Agricultural Marketing Service                                       3,425         2,322           1,103
05060047                    005-47                                                           Risk Management Agency                                                 568           568               0
05060049                    005-49                                                           Farm Service Agency                                                  5,806         2,413           3,393
05060053                    005-53                                                           Natural Resources Conservation Service                              11,010         9,893           1,117
05060055                    005-55                                                           Rural Development                                                    7,020         1,575           5,445
05060068                    005-68                                                           Foreign Agricultural Service                                           985           836             149
05060084                    005-84                                                           Food and Nutrition Service                                           1,614         1,614               0
05060096                    005-96                                                           Forest Service                                                      35,390        34,731             659
050600ZZ                              ** Total, Department of Agriculture **                                                                                     98,955        82,996          15,959
05061005                    006-05    Department of Commerce                                 Departmental Management                                              1,212           390             822
05061006                    006-06                                                           Economic Development Administration                                    277           270               7
05061007                    006-07                                                           Bureau of the Census                                                 8,553         5,495           3,058
05061008                    006-08                                                           Economic and Statistical Analysis                                      563           519              44
05061025                    006-25                                                           International Trade Administration                                   2,476         2,427              49
05061030                    006-30                                                           Export Administration                                                  485           481               4
05061040                    006-40                                                           Minority Business Development Agency                                   120           120               0
05061048                    006-48                                                           National Oceanic and Atmospheric Administration                     12,734        11,570           1,164
05061051                    006-51                                                           U.S. Patent and Trademark Office                                     6,749             0           6,749
05061053                    006-53                                                           Technology Administration                                               51            50               1
05061054                    006-54                                                           National Technical Information Service                                 260             0             260
05061055                    006-55                                                           National Institute of Standards and Technology                       3,113         2,381             732
05061060                    006-60                                                           National Telecommunications and Information Administration             286           138             148
050610ZZ                              ** Total, Department of Commerce **                                                                                        36,879        23,841          13,038
05062010                    007-10    Department of Defense--Military                        Operation and Maintenance                                          409,436       330,922          78,514
05062020                    007-20                                                           Research, Development, Test, and Evaluation                         26,074        14,679          11,395
05062025                    007-25                                                           Military Construction                                                7,767         1,894           5,873
05062030                    007-30                                                           Family Housing                                                         787           787               0
05062040                    007-40                                                           Revolving and Management Funds                                     190,669             0         190,669
050620ZZ                              ** Total, Department of Defense--Military **                                                                              634,733       348,282         286,451
05072030                    018-30    Department of Education                                Office of Vocational and Adult Education                                19            19               0
05072040                    018-40                                                           Office of Postsecondary Education                                        7             7               0
05072045                    018-45                                                           Office of Student Financial Assistance                                 957           957               0
05072050                    018-50                                                           Office of Educational Research and Improvement                          15            15               0
05072080                    018-80                                                           Departmental Management                                              3,712         3,712               0
050720ZZ                              ** Total, Department of Education **                                                                                        4,710         4,710               0
05073005                    019-05    Department of Energy                                   National Nuclear Security Administration                             2,700         2,700               0
05073010                    019-10                                                           Environmental and Other Defense Activities                           3,624         3,624               0
05073020                    019-20                                                           Energy Programs                                                      4,657         3,407           1,250
05073050                    019-50                                                           Power Marketing Administration                                       4,799         1,272           3,527
05073060                    019-60                                                           Departmental Administration                                          1,165         1,165               0
050730ZZ                              ** Total, Department of Energy **                                                                                          16,945        12,168           4,777
05074010                    009-10    Department of Health and Human Services                Food and Drug Administration                                        10,071         8,779           1,292
05074015                    009-15                                                           Health Resources and Services Administration                         2,115         1,838             277
05074017                    009-17                                                           Indian Health Services                                              14,800        11,090           3,710
05074020                    009-20                                                           Centers for Disease Control and Prevention                           8,684         8,355             329
05074025                    009-25                                                           National Institutes of Health                                       17,464        12,875           4,589
05074030                    009-30                                                           Substance Abuse and Mental Health Services Administration              619           560              59
05074033                    009-33                                                           Agency for Healthcare Research and Quality                             294            22             272
05074038                    009-38                                                           Centers for Medicare and Medicaid Services                           4,632         4,552              80
05074070                    009-70                                                           Administration for Children and Families                             1,547         1,547               0
05074075                    009-75                                                           Administration on Aging                                                124           124               0
05074090                    009-90                                                           Departmental Management                                              1,804         1,569             235
05074091                    009-91                                                           Program Support Center                                               1,330            12           1,318
05074092                    009-92                                                           Office of the Inspector General                                      1,588         1,532              56
050740ZZ                              ** Total, Department of Health and Human Services **                                                                       65,072        52,855          12,217
05075035                    025-35    Department of Housing and Urban Development            Management and Administration                                       10,273         5,202           5,071




fair2002epaoig2. AgBu_FTE                                                                             1                                                                                            11/14/02
Seq_No     Agency_Group     Agy_Bur                               Dept_or_Agy_Title                                                  Bureau_Title       Tot_CY_FTEs   Dir_CY_FTEs   Reim_CY_FTEs

050750ZZ                              ** Total, Department of Housing and Urban Development **                                                               10,273         5,202           5,071
05076004                    010-04    Department of the Interior                                 Bureau of Land Management                                   10,536        10,287             249
05076006                    010-06                                                               Minerals Management Service                                  1,776         1,730              46
05076008                    010-08                                                               Office of Surface Mining Reclamation and Enforcement           637           636               1
05076010                    010-10                                                               Bureau of Reclamation                                        5,662         3,141           2,521
05076011                    010-11                                                               Central Utah Project                                            19            19               0
05076012                    010-12                                                               United States Geological Survey                              9,433         6,762           2,671
05076018                    010-18                                                               United States Fish and Wildlife Service                      8,736         8,017             719
05076024                    010-24                                                               National Park Service                                       20,393        19,846             547
05076076                    010-76                                                               Bureau of Indian Affairs                                     9,804         9,595             209
05076084                    010-84                                                               Departmental Management                                      1,560           473           1,087
05076085                    010-85                                                               Insular Affairs                                                 34            34               0
05076086                    010-86                                                               Office of the Solicitor                                        384           343              41
05076087                    010-88                                                               Office of Inspector General                                    255           252               3
05076088                    010-91                                                               Natural Resources Damage Assessment and Restoration              4             4               0
05076089                    010-90                                                               Office of Special Trustee for American Indians                 412           412               0
05076092                    010-92                                                               National Indian Gaming Commission                               73            73               0
050760ZZ                              ** Total, Department of the Interior **                                                                                69,718        61,624           8,094
05077003                    011-03    Department of Justice                                      General Administration                                       3,395         2,254           1,141
05077004                    011-04                                                               United States Parole Commission                                 95            95               0
05077005                    011-05                                                               Legal Activities and U.S. Marshals                          21,871        17,960           3,911
05077010                    011-10                                                               Federal Bureau of Investigation                             27,293        24,470           2,823
05077012                    011-12                                                               Drug Enforcement Administration                              9,223         8,171           1,052
05077015                    011-15                                                               Immigration and Naturalization Service                      36,816        36,698             118
05077020                    011-20                                                               Federal Prison System                                       35,907        33,138           2,769
05077021                    011-21                                                               Office of Justice Programs                                   1,201           688             513
050770ZZ                              ** Total, Department of Justice **                                                                                    135,801       123,474          12,327
05078005                    012-05    Department of Labor                                        Employment and Training Administration                       1,353         1,350               3
05078011                    012-11                                                               Pension and welfare benefit administration                     850           850               0
05078012                    012-12                                                               Pension Benefit Guaranty Corporation                           754             0             754
05078015                    012-15                                                               Employment Standards Administration                          4,291         4,274              17
05078018                    012-18                                                               Occupational Safety and Health Administration                2,316         2,303              13
05078019                    012-19                                                               Mine Safety and Health Administration                        2,310         2,310               0
05078020                    012-20                                                               Bureau of Labor Statistics                                   2,529         2,468              61
05078025                    012-25                                                               Departmental Management                                      3,029         2,287             742
050780ZZ                              ** Total, Department of Labor **                                                                                       17,432        15,842           1,590
05079005                    014-05    Department of State                                        Administration of Foreign Affairs                           28,318        17,683          10,635
05079015                    014-15                                                               International Commissions                                      373           345              28
05079025                    014-25                                                               Other                                                          276           276               0
050790ZZ                              ** Total, Department of State **                                                                                       28,967        18,304          10,663
05080004                    021-04    Department of Transportation                               Office of the Secretary                                        872           556             316
05080006                    021-06                                                               Transportation Security Administration                      14,800        14,800               0
05080008                    021-08                                                               Coast Guard                                                  6,182         5,423             759
05080012                    021-12                                                               Federal Aviation Administration                             51,435        50,030           1,405
05080015                    021-15                                                               Federal Highway Administration                               3,066         3,062               4
05080017                    021-17                                                               Federal Motor Carrier Safety Administration                    936           884              52
05080018                    021-18                                                               National Highway Traffic Safety Administration                 659           659               0
05080027                    021-27                                                               Federal Railroad Administration                                769           769               0
05080036                    021-36                                                               Federal Transit Administration                                 518           505              13
05080040                    021-40                                                               Saint Lawrence Seaway Development Corporation                  157           157               0
05080050                    021-50                                                               Research and Special Programs Administration                   930           322             608
05080056                    021-56                                                               Office of Inspector General                                    455           392              63
05080061                    021-61                                                               Surface Transportation Board                                   143           134               9
05080070                    021-70                                                               Maritime Administration                                        945           475             470
050800ZZ                              ** Total, Department of Transportation **                                                                              81,867        78,168           3,699
05081005                    015-05    Department of the Treasury                                 Departmental Offices                                         3,376         2,437             939
05081006                    015-04                                                               Financial Crimes Enforcement Network                           243           238               5
05081008                    015-08                                                               Federal Law Enforcement Training Center                        798           748              50
05081010                    015-10                                                               Financial Management Service                                 2,093         2,057              36
05081013                    015-13                                                               Bureau of Alcohol, Tobacco and Firearms                      5,129         5,029             100
05081015                    015-15                                                               United States Customs Service                               21,380        19,572           1,808
05081020                    015-20                                                               Bureau of Engraving and Printing                             2,677             0           2,677
05081025                    015-25                                                               United States Mint                                           2,536             0           2,536
05081035                    015-35                                                               Bureau of the Public Debt                                    1,523         1,518               5
05081045                    015-45                                                               Internal Revenue Service                                   100,768        99,901             867
05081055                    015-55                                                               United States Secret Service                                 5,991         5,991               0
05081057                    015-57                                                               Comptroller of the Currency                                  2,841             0           2,841
05081058                    015-58                                                               Office of Thrift Supervision                                 1,177             0           1,177
050810ZZ                              ** Total, Department of the Treasury **                                                                               150,532       137,491          13,041




fair2002epaoig2. AgBu_FTE                                                                                 2                                                                                    11/14/02
Seq_No     Agency_Group         Agy_Bur                              Dept_or_Agy_Title                                                      Bureau_Title                 Tot_CY_FTEs   Dir_CY_FTEs   Reim_CY_FTEs

05082015                        029-15    Department of Veterans Affairs                                 Veterans Health Administration                                      188,053       183,447           4,606
05082030                        029-30                                                                   Construction                                                            130           130               0
05082040                        029-40                                                                   Departmental Administration                                          18,836        14,446           4,390
050820ZZ                                  ** Total, Department of Veterans Affairs **                                                                                        207,019       198,023           8,996
07082500   Major Independents   202-00    Corps of Engineers-Civil Works                                                                                                      24,800        23,994             806
07082615                        200-15    Other Defense Civil Programs                                   American Battle Monuments Commission                                    368           368               0

07082618                        200-18                                                                   White House Commission on the National Moment of Rememberance             3             3               0
07082620                        200-20                                                                   Armed Forces Retirement Home                                            767           767               0
07082625                        200-25                                                                   Cemeterial Expenses                                                     101           101               0
07082645                        200-45                                                                   Selective Service System                                                166           166               0
070826ZZ                                  ** Total, Other Defense Civil Programs **                                                                                            1,405         1,405               0
07083000                        020-00    Environmental Protection Agency                                                                                                     17,645        17,243             402
07083200                        100-00    Executive Office of the President                                                                                                    1,757         1,757               0
07083500                        361-00    Federal Emergency Management Agency                                                                                                  5,009         4,413             596
07084005                        023-05    General Services Administration                                Real Property Activities                                              7,295             0           7,295
07084010                        023-10                                                                   Supply and Technology Activities                                      4,588            67           4,521
07084030                        023-30                                                                   General Activities                                                    2,346           950           1,396
070840ZZ                                  ** Total, General Services Administration **                                                                                        14,229         1,017          13,212
07084515                        184-15    International Assistance Programs                              Agency for International Development                                  2,406         2,400               6
07084520                        184-20                                                                   Overseas Private Investment Corporation                                 209             0             209
07084525                        184-25                                                                   Trade and Development Agency                                             48            48               0
07084535                        184-35                                                                   Peace Corps                                                           1,170         1,167               3
07084540                        184-40                                                                   Inter-American Foundation                                                45            45               0
07084550                        184-50                                                                   African Development Foundation                                           32            32               0
070845ZZ                                  ** Total, International Assistance Programs **                                                                                       3,910         3,692             218
07085000                        026-00    National Aeronautics and Space Administration                                                                                       19,005        18,908              97
07085200                        422-00    National Science Foundation                                                                                                          1,204         1,204               0
07086000                        027-00    Office of Personnel Management                                                                                                       2,984         2,173             811
07087000                        028-00    Small Business Administration                                                                                                        4,571         4,571               0
07090000                        016-00    Social Security Administration                                                                                                      63,464        63,168             296
08106000   Other Independents   306-00    Advisory Council on Historic Preservation                                                                                               34            34               0
08109000                        309-00    Appalachian Regional Commission                                                                                                         11            11               0
08110000                        310-00    Architectural and Transportation Barriers Compliance Board                                                                              30            30               0

08113000                        313-00    Barry Goldwater Scholarship and Excellence in Education Foun                                                                             2             2               0
08114500                        514-00    Broadcasting Board of Governors                                                                                                      2,505         2,505               0
08116500                        510-00    Chemical Safety and Hazard Investigation Board                                                                                          41            41               0
08118500                        465-00    Christopher Columbus Fellowship Foundation                                                                                               1             1               0
08123000                        323-00    Commission of Fine Arts                                                                                                                  8             8               0
08126000                        326-00    Commission on Civil Rights                                                                                                              76            76               0
08137000                        338-00    Committee for Purchase from People who are Blind or Severely                                                                            29            29               0
08138000                        339-00    Commodity Futures Trading Commission                                                                                                   510           510               0
08142000                        343-00    Consumer Product Safety Commission                                                                                                     480           480               0
08142500                        485-00    Corporation for National and Community Service                                                                                         633           633               0
08144000                        345-00    Court of Appeals for Veterans Claims                                                                                                    88            88               0
08145000                        511-00    Court Services and Offender Supervision Agency for the Distr                                                                         1,167         1,167               0
08146000                        347-00    Defense Nuclear Facilities Safety Board                                                                                                102           102               0
08146200                        517-00    Delta Regional Authority                                                                                                                 5             5               0
08146500                        513-00    Denali Commission                                                                                                                        7             7               0
08149000                        350-00    Equal Employment Opportunity Commission                                                                                              2,850         2,850               0
08150000                        351-00    Export-Import Bank of the United States                                                                                                420           420               0
08151000                        352-00    Farm Credit Administration                                                                                                             284             0             284
08154000                        355-00    Farm Credit System Insurance Corporation                                                                                                10             0              10
08155000                        356-00    Federal Communications Commission                                                                                                    1,975           190           1,785
08156010                        357-10    Federal Deposit Insurance Corporation                          Bank Insurance                                                        5,148         5,148               0
08156020                        357-20                                                                   Savings Association Insurance                                           763             0             763
08156030                        357-30                                                                   FSLIC Resolution                                                        505             0             505
08156040                        357-40                                                                   FDIC-Office of Inspector General                                        224             0             224
081560ZZ                                  ** Total, Federal Deposit Insurance Corporation **                                                                                   6,640         5,148           1,492
08159000                        360-00    Federal Election Commission                                                                                                            362           362               0
08161000                        362-00    Federal Financial Institutions Examination Council Appraisal                                                                             7             7               0
08163000                        364-00    Federal Housing Finance Board                                                                                                          125             0             125
08164000                        365-00    Federal Labor Relations Authority                                                                                                      215           215               0
08165000                        366-00    Federal Maritime Commission                                                                                                            132           132               0
08166000                        367-00    Federal Mediation and Conciliation Service                                                                                             292           286               6
08167000                        368-00    Federal Mine Safety and Health Review Commission                                                                                        48            48               0
08168000                        369-00    Federal Retirement Thrift Investment Board                                                                                             107           107               0
08169000                        370-00    Federal Trade Commission                                                                                                             1,080             0           1,080




fair2002epaoig2. AgBu_FTE                                                                                         3                                                                                             11/14/02
Seq_No     Agency_Group     Agy_Bur                             Dept_or_Agy_Title                        Bureau_Title   Tot_CY_FTEs    Dir_CY_FTEs    Reim_CY_FTEs

08171000                    372-00    Harry S. Truman Scholarship Foundation                                                       5              5               0
08173500                    467-00    Intelligence Community Management Account                                                  322            322               0
08177000                    378-00    International Trade Commission                                                             388            388               0
08180000                    381-00    James Madison Memorial Fellowship Foundation                                                 6              6               0
08181000                    382-00    Japan-United States Friendship Commission                                                    5              5               0
08186000                    387-00    Marine Mammal Commission                                                                    10             10               0
08188000                    389-00    Merit Systems Protection Board                                                             228            202              26
08188500                    487-00    Morris K. Udall Scholarship and Excellence in National Envir                                21             21               0
08192000                    393-00    National Archives and Records Administration                                             2,794          1,394           1,400
08193000                    394-00    National Capital Planning Commission                                                        57             57               0
08199000                    400-00    National Commission on Libraries and Information Science                                     8              8               0
08212000                    413-00    National Council on Disability                                                              13             13               0
08214000                    415-00    National Credit Union Administration                                                       997              2             995
08215000                    492-00    National Education Goals Panel                                                               2              2               0
08216000                    417-00    National Endowment for the Arts                                                            150            150               0
08217000                    418-00    National Endowment for the Humanities                                                      175            170               5
08217500                    474-00    Institute of Museum and Library Services                                                    44             44               0
08219000                    420-00    National Labor Relations Board                                                           1,985          1,985               0
08220000                    421-00    National Mediation Board                                                                    52             52               0
08223000                    424-00    National Transportation Safety Board                                                       443            443               0
08223500                    518-00    National Veterans Business Development Corporation                                          10             10               0
08228000                    429-00    Nuclear Regulatory Commission                                                            2,857          2,842              15
08230000                    431-00    Nuclear Waste Technical Review Board                                                        17             17               0
08231000                    432-00    Occupational Safety and Health Review Commission                                            69             69               0
08233000                    434-00    Office of Government Ethics                                                                 82             82               0
08234000                    435-00    Office of Navajo and Hopi Indian Relocation                                                 61             61               0
08235000                    436-00    Office of Special Counsel                                                                  106            106               0
08237000                    438-00    Panama Canal Commission                                                                      1              0               1
08240000                    512-00    Presidio Trust                                                                             470              0             470
08245000                    446-00    Railroad Retirement Board                                                                1,158          1,108              50
08248000                    449-00    Securities and Exchange Commission                                                       2,997          2,996               1
08251000                    452-00    Smithsonian Institution                                                                  5,513          5,504               9
08254000                    455-00    Tennessee Valley Authority                                                              13,100              0          13,100
08255000                    456-00    United States Holocaust Memorial Museum                                                    247            247               0
99999999                              ** Report Total **                                                                   1,773,555      1,340,340         433,215




fair2002epaoig2. AgBu_FTE                                                                            4                                                           11/14/02
 Fct_Code                                     Fct_Code_Text
A000        Administrative Support
A100        Electronic
A200        Health Care
A300        Safety
A400        Transportation
A500        Food and Drug
A600        Other Technical Testing or Inspection
A610        Management HeadquartersCTest and Evaluation.
A620        Test and Evaluation Operations.
A630        Management and Support to Test and Evaluation.
A699        Other Test and Evaluation Activities.
A700        Systems Certification Services
B000        Personnel Administrative Support
B100        Classification
B102        Classification Reviews
B200        Employee Development
B300        Staffing Reviews
B301        Processing
B302        Manpower Research and Analysis
B303        Manpower Development
B400        Employee Relations
B401        Benefits Reviews and Analysis
B500        Labor Relations and Support
B501        Agency Equal Employment Opportunity Reviews
B502        Negotiated Dispute Resolution
B600        Examining
B700        Personnel Management Specialist
B701        Personnel Operations Management
B702        Personnel IT Support
B710        Management HeadquartersCCivilian Personnel.
B720        Civilian Personnel Operations.
B810        Management HeadquartersCMilitary Personnel.
B820        Military Recruiting and Examining Operations.
B830        Military Personnel Operations.
B910        Management HeadquartersCPersonnel Social Action Programs.
B920        Personnel Social Action Program Operations.
B999        Other Personnel Activities.
C000        Administrative Support
C100        Voucher Examining
C110        Management HeadquartersCFinancial Management.
C200        Cash Receipt
C300        Accounting Technicians
C301        Accounts Payable
C302        Travel Processing
C303        Fixed Assets
C304        Accounts Receivable
C305        Collections
C306        Customer Billings
C307        General Accounting
C308        Financial Report Generation
C309        Cost Accounting
C310        Payroll Processing
C311        Claims Analysis
C312        Payments Issuance Support/Processing
C313        Financial Systems Support
C314        Financial Management and Program Planning
C315        Financial Management Operations
       Financial Systems Development and Planning
       C317 Financial Systems Operations
C316   C400 Budget Support
C317   Financial Systems Operations
C400   Budget Support
C401   Financial Analysis
C402   Cash and Debt Management
C403   Financial Program Management
C404   Business Performance Reporting
C405   Business Performance Analysis
C406   Cost Analysis
C407   Mortgage Analysis
C408   Asset Management and Disposal
C409   Property Oversight
C500   External Auditing
C501   Internal Auditing
C700   Finance/Accounting Services.
C999   Other Financial Management Activities.
D000   Administrative Support
D100   Regulatory Activities Support
D101   Regulatory Economists/Statisticians
D102   Regulatory Audits
D103   Salary/wages Reviews
D104   Labor Wage and Hour Compliance Reviews
       Education Benefits and Entitlements Analysis
D105   D106 Loan Guaranty Benefits and Entitlements Analysis
D106   Loan Guaranty Benefits and Entitlements Analysis
D107   Vocational Entitlements Analysis
D200   Data Collection and Analysis
D201   Customer Surveys and Evaluations
D300   Statistical Analysis
D350   Economic Policy
D351   Economic Aanalysis
D400   Compliance Surveys and Inspections
D410   Compliance Operations
D411   Compliance Assessments
D500   Benefits and Entitlements Services
D501   Customer Services
D502   Administrative Reviews
D503   Compensation Claims Reviews
D504   Insurance Analysis
D505   Compensation Claims Examining
D601   Revenue Agent
D602   Revenue Agent
D603   Tax Examiner
D604   Customer Service Contacts
D606   Asset Appraisal and Valuation
D700   Systems Design, Testing and Certification
D701   Program Marketing and Outreach
D702   Program Planning and Support
D703   Application Receipt and Processing
D704   Program Monitoring and Evaluation
D705   Program Marketing and Outreach
D706   Program Monitoring
D707   Program Evaluation
D708   Application Receipt/Processing
D709   Mortgage Underwriting
D710   Field Inspection Services
D711   External Equal Employment Opportunity Reviews
D712   Safety and Occupational Health Management
D713   Safety and Occupational Health Inspections
D720   Independent Appeals Reviews
D800   Air Traffic Control
D801   Air Traffic Systems Inspections
D900   Maritime Traffic Control
D910   Operation of Locks and Dams
D920   Buoy Maintenance
D930   Mine Safety and Health
E000   Administrative Support
E100   Hazardous Waste Management
E101   Environmental Restoration Analysis
E102   FIFRA/FDCA Risk Analysis
E103   FSCA Risk Analysis
E104   Environmental Clean-up Services
E110   Management HeadquartersCEnvironmental Security.
E120   Environmental and Natural Resource Services.
E200   Solid Waste Data Collection/Analysis
E220   Safety.
E225   Occupational Health Services.
E230   Explosives Safety.
E250   Response to Hazardous Material Mishaps.
E300   Pollution Prevention
E400   Air Pollution Data Collection/Analysis
E401   Clean Air Act Pollution Prevention
E500   Water Data Collection/Analysis
E501   Clean Water Act Compliance/Pollution Prevention
E502   Safe Drinking Water Act Compliance/Pollution Prevention
E503   Occupational Safety, Health and Environmental Compliance
E600   Environmental Planning/NEPA
E601   Environmental Impact Statements
E602   Environmental Impact Statement Reviews
E700   Resource Conservation and Recovery Act Compliance/Pollution Prevention
E800   Multimedia Compliance/Pollution Prevention
E801   Trusteeship
E999   Other Environmental Security Activities.
F000   Administrative Support
F100   Quality Assurance
F110   Management HeadquartersCSystems Acquisition.
F120   Systems AcquisitionCProgram Management.
F140   Technology Transfer and International Cooperative Program Management.
F150   Systems AcquisitionCResearch and Development Support.
F160   Systems AcquisitionCOther Program Support.
F199   Other Systems Acquisition Activities.
F200   Contracting (Operational)
F300   Contracting (Analysis)
F310   Management HeadquartersCProcurement and Contracting.
F320   Contract Administration and Operations.
F399   Other Procurement and Contracting Activities.
F400   Recurring Purchasing
F510   Engineering Support at Maintenance Depots.
F520   All Other Engineering Support.
G000   Administrative Support
G001   Care of Remains of Deceased Personnel & Funeral Services
G006   Commissary Management.
G008   Commissary Operations
G009   Clothing Sales Store Operations
G010   Recreational Library Services
G011   Morale, Welfare, and Recreation Services
G012   Community Services
G013   Military Exchange Operations.
G050   Management HeadquartersCCommunity and Family Services.
G055   Morale, Welfare, and Recreation (MWR) Services.
G060   Family Center Services.
G065   Child-Care and Youth Programs.
G080   Homeowners= Assistance Program.
G090   Employee Relocation Assistance Program.
G100   Disaster Relief Applications Services
G101   Disaster Relief Services
G102   Librarian Services
G103   Library Operations and Management
G104   Technical/Professional/Legal Library Information Services
G105   Recreational Library Operations.
G210   Postal Services.
G220   Military Bands.
G900   Chaplain Activities and Support Services
G901   Housing Administrative Services
G902   Casualty and Mortuary Affairs.
G904   Family Services
G905   Community Relations
G910   Temporary Lodging Services.
       Other Social Services
       G000 Administrative Support
G999   H010 Management HeadquartersCHealth Services.
H000   Administrative Support
H010   Management Headquarters - Health Services
H050   Hospital/Clinic Management.
H100   Medical Care.
H101   Hospital Care
H102   Surgical Care
H103   Surgical Services
H105   Nutritional Care
H106   Pathology Services
H107   Radiology Services
H108   Pharmacy Services
H109   Physical Therapy
H110   Materiel Services
H111   Orthopedic Services
H112   Ambulance Services
H113   Dental Care
H114   Dental Laboratories
H115   Clinics and Dispensaries
H116   Veterinary Services
H117   Medical Records
H118   Nursing Services
H119   Preventive Medicine
H120   Occupational Health
H121   Drug Rehabilitation
H125   Rehabilitation Services.
       Alcohol and Drug Rehabilitation.
       H201 Medical Services
H127   H202 Psychiatric and Psychology Services
H201   Medical Services
H202   Psychiatric and Psychology Services
H203   Ambulatory Care Services
H204   Domiciliary Care
H205   Extended Care Services
H206   Social Work
H207   Field Pathology & Laboratory Medicine
H208   Audiology & Speech Pathology Services
H209   Nuclear Medicine Services
H210   Pediatric Services
H211   Optometric Services
H212   Spinal Cord Injury Services
H213   GRECC Services
H214   Neurology Services
H215   Dermatology Services
H216   Radiation Therapy Services
H217   Mental Illness Research, Education & Clinic
H218   Rehabilitation Medicine Services
H219   Nutrition &Food Production Services
       Blind Rehabilitation Services
       H221 Recreation Services
H220   H222 Prosthetics & Sensory Aides Services
H221   Recreation Services
H222   Prosthetic & Sensory Aides Services
H223   Ambulatory Care Administration
H224   Learning Resource Centers
H225   Federal Employee Health Services
H226   VISN Services & VISN Support Service Center
H227   Veterans Canteen Service
H250   Medical and Dental Devices Development.
H300   Emergency Medical Services Management Planning
H301   Emergency Medical Services
H350   Hospital Food Services and Nutritional Care.
H400   Medical Evaluation Services
H401   Medical Officers
H402   Industrial Hygiene Reviews and Analysis
H403   Health Inspections
H404   Health Services Administration and Management
H450   Medical Records and Medical Transcription.
H500   Dialysis Services
H501   Anesthesiology
H502   Diagnostic Radiology
H503   Geriatrics
H504   Geriatric Research
H505   Geriatric Clinical Centers
H506   Orthopedic Shoe Services
H507   Orthotics Laboratory
H600   Hospital Administration
H601   Ward Administration
H602   Income Verification
H603   Claims Analysis
H604   Hospital Supply and Distribution
H605   Ambulatory Care Administration
H606   Information Resource Management Services
H607   Voluntary Services Administration
H608   Records Administration
       Bed Services and Patient Assistance
       H610 Waste Management
H609   H650 Hospital Supplies and Equipment.
H610   Waste Management
H650   Hospital Supplies and Equipment.
H710   Medical Transportation Services.
H999   Other Health Services
I000   Administrative Support
I100   Inspector General Services
I105   IG Legal Services
I110   Management HeadquartersCAudit.
I115   IG Program Manangement
I120   Audit Operations.
I200   Safety
I412   Investigative Data Analysis
I414   Field Technical Services
I415   Non-field Technical Support to Criminal Investigations
I416   Non-Field Administrative Support Criminal Investigations
I420   Financial Audits
I430   Performance Audits
I440   Management Evaluations/Audits
I441   Logistics Audits
I500   Background investigations
I501   IG Data Collection and Analysis
I502   Case Assessment/Management/Disposition
I510   Personnel Security Clearances and Background Investigations.
I520   Criminal, Counter Intelligence, and Administrative Investigative Services.
I530   Industrial Security Assessments.
I999   Other Audit and Investigative Activities.
J000   Administrative Support
J410   Organizational and Intermediate Repair and Maintenance Management.
J501   Aircraft
J502   Aircraft Engines
J503   Missiles
J504   Vessels
J505   Combat Vehicles
J506   Non-Combat Vehicles and Equipment
J507   Electronic and Communication Equipment
J510   Railway Equipment
J511   Special Equipment
J512   Armament
J513   Dining Facility Equipment
J514   Medical and Dental Equipment
J515   Containers, Textile, Tents, and Tarpaulins
J516   Metal Containers
J517   Training Devices and Audiovisual Equipment
J518   Support Equipment.
J519   Industrial Plant Equipment
J520   Test, Measurement and Diagnostic Equipment (TMDE)
J521   Other Test, Measurement and Diagnostic Equipment
J522   Aeronautical Support Equipment
J550   Software Support for Embedded and Mission Systems.
J555   Tactical Automatic Data Processing Equipment (ADPE).
J570   Armament and Ordnance.
J575   Munitions.
J600   Metal and Other Containers, Textiles, Tents and Tarpaulins.
J700   Portable Troop Support Equipment.
J750   Portable Field Medical and Dental Equipment.
J999   Organizational and Intermediate Maintenance and Repair of Other Equipment.
K000   Administrative Support
K410   Depot Management.
K531   Aircraft
K532   Aircraft Engines
K533   Missiles
K534   Vessels
K535   Combat Vehicles
K536   Non-Combat Vehicles and Equipment
K537   Electronic and Communication Equipment
K538   Railway Equipment
K539   Special Equipment
K540   Armament
K541   Industrial Plant Equipment
K542   Dining and Facility Equipment
K543   Medical and Dental Equipment
K544   Containers, Textile, Tents, and Tarpaulins
K545   Metal Containers
K546   Test, Measurement and Diagnostic Equipment (TMDE)
K547   Other Test, Measurement and Diagnostic Equipment
K548   Aeronautical Support Equipment
K549   Support Equipment.
K550   Software Support for Embedded and Mission Systems.
K555   Tactical Automatic Data Processing Equipment (ADPE).
K570   Armament and Ordnance.
K575   Munitions.
K600   Metal and Other Containers, Textiles, Tents and Tarpaulins.
K700   Portable Troop Support Equipment.
K750   Portable Field Medical and Dental Equipment.
K999   Depot Repair and Maintenance of Other Equipment.
L000   Administrative Support
L100   Application Services
L101   Application Reviews and Evaluations
L102   Independent Grant Review Appeals
L200   Grants Monitoring and Evaluation
M120   Combatant HeadquartersCCINC Command Authority.
M145   Combatant HeadquartersCMilitary Department Command Authority.
M150   Support to the CINCSCInformation.
M199   Other Operational Command and Control Activities.
M301   Management HeadquartersCIntelligence.
M302   Intelligence Policy and Coordination.
M306   Classification Management.
M310   Counterintelligence.
M312   Imagery Intelligence (IMINT).
M314   Imagery Acquisition.
M316   Geospatial Information Production.
M318   Geospatial Information Acquisition and Processing.
M320   Open Source Intelligence (OSINT) Collection/Processing.
M322   Language Exploitation.
M324   Multidisciplinary Collection and Processing.
M326   Intelligence Communications and Filtering.
M328   All Source Analysis.
M330   Intelligence Production Integration and Analytic Tools.
M334   Intelligence Requirements Management and Tasking.
M399   Other Intelligence Activities.
M410   Expeditionary Force Operations.
M610   Homeland Defense Operations.
M810   Military Space Operations.
P000   Administrative Support
P100   Installation Operation Contracts (Multi-function)
P110   Management HeadquartersCLogistics.
P120   Management HeadquartersCMaintenance.
Q120   Management HeadquartersCCivil Works.
Q220   Water Regulatory Oversight and Management.
       Natural Resources Oversight and Management.
Q240   Q260 Civil Works Planning Production and Management.
Q260   Civil Works Planning Production and Management.
Q420   Bank Stabilization.
Q440   Maintenance of Open Waterways for Navigation.
Q460   Maintenance of Jetties and Breakwaters.
Q520   Operation and Maintenance of Locks and Bridges.
Q540   Operation and Maintenance of Dams.
Q560   Operation and Maintenance of Hydropower Facilities.
Q580   Operation and Maintenance of the Washington Aqueduct.
Q620   Operation and Maintenance of Recreation Areas.
Q999   Other Civil Works Activities.
R000   Administrative Support
R100   Theoretical Research
       Biomedical Research
       R104 Animal Research
R103   R110 Management HeadquartersCResearch and Development.
R104   Animal Research
R110   Management HeadquartersCResearch and Development.
R120   Science and Technology.
R140   Management and Support to R&D.
R200   Basic R&D
R300   Developmental
R400   Testing
R500   Acceptance
R600   Applied Research
R660   RDT&E
R900   Operation and Maintenance of Physical Plant
R901   Building & Grounds Maintenance
R902   Models Design and Construction
R999   Other S&T and R&D Management and Support Activities.
S000   Administrative Support
S100   Management HeadquartersCInstallations.
S200   Installation, Base, or Facility Management.
S210   Building Management.
S310   Housing Management.
S410   Custodial Services.
S420   Collection and Disposal of Trash and Other Refuse.
S430   Collection and Disposal of Hazardous Material (HAZMAT).
S435   Pest Management.
S440   Fire Prevention and Protection.
S450   Laundry and Dry Cleaning Operations.
S499   Other Building and Housing Management Services.
S500   Management of Law Enforcement, Physical Security and Security Guard
S510   Law Enforcement, Physical Security, and Security Guard Operations.
S520   Support Services to Law Enforcement, Physical Security, and Security Guard
S540   Security of Classified Material.
S560   Special Guard Duties.
S700   Natural Resource Services
S701   Public Affairs/Relations
S702   Financial and Payroll Services
S703   Debt Collection
S706   Bus Services
S713   Food Services
S714   Furniture Repair
S715   Office Equipment Maintenance and Repair
S716   Motor Vehicle Operation
S717   Motor Vehicle Maintenance
S719   Confinement Facility Operations.
S720   Prison Operations and Maintenance
S721   Prison Security Operations (Guards)
S723   Other Prison Operations (Food, Administrative)
S724   Other Law Enforcement, Physical Security and Security Guard Operations.
S725   Electrical Plant and Distribution Systems Operation and Maintenance.
S726   Heating Plant and Distribution Systems Operation and Maintenance.
S727   Water Plant and Distribution Systems Operation and Maintenance.
S728   Sewage and Waste Plant and Distribution Systems Operation and Maintenance.
S729   Air-Conditioning and Cold Storage Plant and Distribution Systems Operation and
S730   Incinerator Plant and Sanitary Fill Operations.
S731   Supply Operations
S732   Warehousing and Distribution
S733   Building Services
S734   Leasing Services
S735   Engineering Services
S736   Plumbing Craft Support Services
S737   Electrical Craft Support Services
S739   Locksmithing
S740   Transportation Management Services
S741   Supply, Warehousing and Distribution Services Management
S742   Inventory Analysis and Management
S743   Vehicle Acquisition Support Services
S744   Fleet Management Services
S745   Security and Protection Services
S750   Museum Operations
S751   Curator Services
S752   Exhibits Management and Planning
S753   Facility Security Management
S760   Contractor-Operated Parts Stores & Civil Engineering Supply Stores
S799   Other Utility Plant and Distribution Systems Operation and Maintenance.
S999   Other Installation Services
T000   Administrative Support
T101   Management HeadquartersCSupply.
       Retail Supply Operations.
       T120 Wholesale/Depot Supply Operations.
T110   T130 Storage and Warehousing.
T120   Wholesale/Depot Supply Operations.
T130   Storage and Warehousing.
T140   Supply Cataloging.
T150   Warehousing and Distribution of Publications.
T160   Bulk Liquid Storage.
T165   Distribution of Petroleum Oil and Lubricant Products.
T167   Distribution of Liquid, Gaseous and Chemical Products.
T175   Troop Subsistence.
T177   Food Supply.
T180   Military Clothing.
T190   Preparation, Demilitarization and Disposal of Excess and Surplus Inventory.
T199   Other Supply Activities.
T600   Real Property Management
T601   Real Property Disposal
T602   Property Development
T603   Real Property Acquisition Support Services
T700   Miscellaneous Program Management
T701   Management HeadquartersCTransportation.
T710   Traffic/Transportation Management Services.
       Ocean Terminal Operations
       T801 Storage and Warehousing
       T802 Cataloging
T800   T803 Acceptance Testing
T801   Storage and Warehousing
T802   Cataloging
T803   Acceptance Testing
T804   Architect-Engineering
T805   Operation of Bulk Liquid Storage
T806   Printing and Reproduction
T807   Visual Information
       Air Transportation Services
       T811 Water Transportation Services
T810   T812 Rail Transportation Services
T811   Water Transportation Services
T812   Rail Transportation Services
T813   Engineering and Technical Services
T814   Aircraft Fueling Services
T815   Scrap Metal Operation
T817   Other Communications and Electronics Systems
T818   Systems Engineering and Installation of Communications Systems
T819   Preparation and Disposal of Excess and Surplus Property
T820   Administrative Support Services
T821   Special Studies and Analysis
T822   Operations Research
T823   Actuarial Services
       Motor Vehicle Transportation Services.
       T826 Air Traffic Control.
T824   T830 Interior/Facility Design
T826   Air Traffic Control.
T830   Interior/Facility Design
T831   Drafting Services
T832   Construction Management
T833   Civil Engineering & Analysis Services
T834   General Engineering & Analysis Services
T835   Chemical Engineering & Analysis Services
T836   Electrical Engineering & Analysis Services
T837   Fire Protection Engineering & Inspection
T838   Safety Engineering & Analysis Services
T839   Mining Engineering & Analysis Services
T840   Geodetic Engineering and Analysis Services
T841   Geological Analysis
T850   Forestry Management Support
T851   Forestry Operations
T852   Soil Conservation Evaluation & Analysis
T853   Soil Conservation Operations
       Royalty Management Operations.
       T855 Industrial Engineering
T854   T899 Other Transportation Services.
T855   Industrial Engineering
T899   Other Transportation Services.
T900   Training Aids, Devices, and Simulator Support
T999   Other Non-Manufacturing Operations
U000   Administrative Support
U001   Management HeadquartersCMilitary Education and Training.
U050   Military Institutional Education and Training Management.
U100   Recruit Training
U150   Multiple Category Training
U200   Officer-Acquisition (Pre-Commissioning) Training
U300   Specialized Skill Training
U301   Training Management
U302   Training Administration
U303   Training Technical Support
U304   Vocational Training
U305   Vocational Rehabilitation
U400   Flight Training
U500   Professional Development Training
U501   Management Training
U502   Medical & Health Training
       Engineering & Architectural Training
       U504 Legal Training
U503   U505 Business/Financial/Budget Training
U504   Legal Training
U505   Business/Financial/Budget Training
U506   Inspection (IG) Training
U510   Professional Military Education
U520   Graduate Education, Fully Funded, Full-time
U530   Other Full-time Education Programs
U540   Off-Duty and Voluntary Education Programs.
U550   Training Development and Support for Military Education and Training.
U599   Other Military Education and Training Activities.
U600   Civilian Education and Training
U605   Management HeadquartersCCivilian Education and Training.
U610   Law Enforcement Training
U620   Management of Civilian Institutional Training, Education, and Development.
U630   Acquisition Training, Education, and Development.
U640   Civil Works Training, Education, and Development.
U650   Intelligence Training, Education, and Development.
U660   Medical Training, Education, and Development.
U699   Other Civilian Training, Education and Development.
U700   Dependent Education
U710   Management HeadquartersCDependent Education.
U720   Dependent Education Field Management.
U760   Dependent EducationCTeacher Instruction.
U770   Dependent EducationCSubstitute Instruction.
U780   Dependent EducationCAides for Instruction.
U799   Other Dependent Education Activities.
U800   Training Development and Support
U999   Other Training Functions
W000   Administrative Support
W100   Management HeadquartersCCommunications, Computing and Information.
W210   Telephone Systems.
W220   Telecommunication Centers.
W299   Other Communications Systems.
W310   Computing Services and Data Base Management.
W399   Other Computing Services.
W410   Information Operations and Information Assurance/Security.
W430   Mapping and Charting.
W440   Meteorological and Geophysical Services.
W499   Other Information Operation Services.
W500   Data Maintenance
W501   Report Processing/Production
W600   Data Center Operations
W601   Information Technology Management
W824   Data Processing Services
W825   Maintenance of ADP Equipment
W826   Systems Design, Development and Programming Services
W827   Software Services
W828   Seat Management Services
W829   Client Services
W999   Other ADP Functions
X000   Administrative Support
X931   Ordnance.
X932   Products Made From Fabric or Similar Materials
X933   Container Products and Related Items
X934   Preparation of Food and Bakery Products
X935   Liquid, Gaseous and Chemical Products
X936   Rope, Cordage, and Twine Products; Chains and Metal Cable Products
X937   Logging and Lumber Products
X938   Communications and Electronic Products
X939   Construction Products
X940   Rubber and Plastic Products
X941   Optical and Related Products
X942   Sheet Metal Products
X943   Foundry Products
X944   Machined Parts
X999   Other Products Manufactured and Fabricated.
Y000   Administrative Support
Y105   Management HeadquartersCDefense Direction and Policy Integration.
Y115   Management HeadquartersCJoint Staff Direction of the Armed Forces.
Y130   Intelligence
Y150   Classified Activities
Y160   Corporate Planning
Y199   Other Force Management and General Support Activities.
Y210   Management HeadquartersCOperation Planning and Control..
Y215   Operation Planning and Control.
Y217   Combat Development Evaluations and Experimentation.
Y220   National Mobilization and Emergency Preparedness Management.
Y240   Management HeadquartersCManpower Management.
Y245   Manpower Management Operations.
Y310   Management HeadquartersCForeign Military Sales and Security Assistance.
Y315   Foreign Military Sales and Security Assistance Program Management.
Y320   Support External to DoDCNot Identified.
Y400   Legal Services
Y401   General Attorney's Services
Y403   Paralegal
Y405   Management HeadquartersCLegal Services.
Y410   Criminal Investigation
Y415   Legal Services and Support..
Y440   Federal Licensing and Permitting
Y450   Maritime Activities
Y451   Search and Rescue
Y452   Aids to Navigation
Y453   Marine Safety/Inspection
Y501   Management HeadquartersCPublic Affairs.
Y510   Budget and Financial Program Management
Y511   Budget Execution Support Services
Y515   Public Affairs Program Activities and Operations.
Y520   Public Works and Real Property Maintenance Program Management
Y525   Protocol Operations.
Y527   Other Protocol Activities.
Y530   Personnel, Community Activities and Manpower Program Management
Y540   Maintenance and Logistics Program Management
Y550   Information and Telecommunications Program Management
Y560     Management HeadquartersCVisual Information.
Y570     Visual Information Program Activities and Operations.
Y610     Management HeadquartersCLegislative Affairs.
Y620     Legislative Affairs.
Y650     Acquisition (Equipment and Weapons Systems)
Y651     Identifying and Developing Consumer/Customer Information Services
Y710     Management HeadquartersCHistorical Affairs
Y720     Historical or Heraldry Services.
Y730     Museum Operations.
Y810     Management HeadquartersCAdministrative Support.
Y815     Administrative Support Program Management.
Y820     Administrative Management and Correspondence Services.
Y830     Documentation Services.
Y840     Directives and Records Management Services.
Y850     Microfilming and Library Services.
Y860     Printing and Reproduction Services.
Y880     Document Automation and Production Services.
Y899     Other Administrative Support Activities.
Y999     Other Functions
Z000     Administrative Support
Z101     Corps of Engineers Program and Project Management.
Z110     Management of Major Construction of Real Property.
Z120     Real Estate/Real Property Acquisition.
Z135 T   itle, Outgranting, and Disposal of Real Estate/Real Property-National Projects.
Z138 T   itle, Outgranting and Disposal of Real Estate/Real Property-Local Projects.
Z145     Architect-Engineering-National Projects.
Z148     Architect-Engineering-Local Projects.
Z199     Other Real Property Program and Project Management Activities.
Z991     Minor Construction, Maintenance and Repair of Family Housing and Structures.
         Minor Construction, Maintenance and Repair of Buildings and Structures Other than
Z992     Family Housing.
Z993     Maintenance and Repair of Grounds and Surfaced Areas
Z997     Maintenance and Repair of Railroad Facilities
Z998     Maintenance and Repair of Waterways and Waterfront Facilities.
Z999     Maintenance, Repair and Minor Construction of Other Real Property.
A C NIELSEN
A M F GREENSBORO
AMORC
AARON
AARONSBURG
ABAC
ABBEVILLE
ABBEY DELL
ABBOT
ABBOTSFORD
ABBOTT
ABBOTT PARK
ABBOTTSTOWN
ABBYVILLE
ABEGALL
ABEL
ABELL
ABERCROMBIE
ABERDEEN
ABERDEEN GARDENS
ABERDEEN PROVING GROUND
ABERNANT
ABERNATHY
ABEYTAS
ABIE
ABILENE
ABINGDON
ABINGTON
ABIQUIU
ABITA SPRINGS
ABMPS
ABNAKI
ABNEY
ABRAHAM
ABRAM
ABRAMS
ABSARAKA
ABSAROKEE
ABSECON
ABSECON CITY
ABSECON HEIGHTS
ABSECON HIGHLANDS
ABSHERS
ABUMPS
ACACIA LAKE
ACADEMIA
ACADEMY
ACADEMY LIFE
ACAMPO
ACCIDENT
ACCOKEEK
ACCOMAC
ACCORD
ACCOVILLE
ACCR A DATA
ACE
ACEQUIA
ACHILLE
ACHILLES
ACKERLY
ACKERMANVILLE
ACKLEY
ACKWORTH
ACMAR
ACME
ACOMITA
ACORN
ACORN PARK
ACORNRIDGE
ACOSTA
ACRA
ACTION
ACTON
ACU TRAC
ACUSHNET
ACWORTH
ADA
ADAH
ADAIR
ADAIR VILLAGE
ADAIRO
ADAIRSVILLE
ADAIRVILLE
ADAK
ADAMANT
ADAMS
ADAMS BASIN
ADAMS CENTER
ADAMS CITY
ADAMS CORNERS
ADAMS COVE
ADAMS GARDENS
ADAMS LAKE
ADAMS LANDING
ADAMS MILLS
ADAMS RUN
ADAMSBURG
ADAMSDALE
ADAMSTOWN
ADAMSVILLE
ADAVILLE
ADCO
ADDICKS
ADDICKS BARKER
ADDIEVILLE
ADDINGTON
ADDIS
ADDISON
ADDISON TOWNSHIP
ADDY
ADDYSTON
ADEL
ADELAIDE
ADELANTO
ADELINE
ADELL
ADELMA BEACH
ADELPHI
ADELPHIA
ADEN
ADENA
ADGER
ADIN
ADIRONDACK
ADKINS
ADMIRE
ADNA
ADNER
ADOLPH
ADOLPHUS
ADONA
ADRIAN
ADVANCE
ADVANCE MILLS
ADVANTICA
ADVENT
ADVENTURELAND ESTATES
AEGON USA
AENEAS
AERIAL ACRES
AFFTON
AFLEX
AFRICA
AFTON
AFTON LAKE
AGAR
AGATE
AGATE BAY
AGATE BEACH
AGAWAM
AGENCY
AGENCY VILLAGE
AGENDA
AGES
AGES BROOKSIDE
AGGIELAND
AGNES
AGNESS
AGNEW
AGOURA
AGOURA HILLS
AGRA
AGRICULTURAL CENSUS
AGUA CALIENTE
AGUA DULCE
AGUA FRIA
AGUA LINDA
AGUA NUEVA
AGUANGA
AGUILA
AGUILAR
AGUILARES
AH GWAH CHING
AHMEEK
AHO
AHOSKIE
AHSAHKA
AHTANUM
AHWAHNEE
AID ASSC LUTHERANS
AIEA
AIKEN
AILEY
AIMWELL
AINSWORTH
AIR BASE
AIR PARK
AIR STATION CAPE COD
AIRLIE
AIRMONT
AIRVILLE
AIRWAY HEIGHTS
AITKIN
AJAX
AJLUNE
AJO
AKASKA
AKELEY
AKERS
AKHIOK
AKIACHAK
AKIAK
AKIN
AKK
AKRA
AKRON
AKRON BEACON JOURNAL
AKRON BUSINESS REPLY
AKRON FIRM CONCEPT
AKRON PUBLIC LIB
AKUNIA
AKUTAN
AKWESASNE
ALA COUSHATTA IND RES
ALABAMA
ALABAMA A AND M
ALABAMA HILLS
ALABAMA PORT
ALABASTER
ALACHUA
ALADDIN
ALAFAYA
ALAKANUK
ALAMANCE
ALAMEDA
ALAMEDA PT
ALAMILLO
ALAMO
ALAMO HEIGHTS
ALAMOGORDO
ALAMOSA
ALAMOTA
ALANGO
ALANREED
ALANSON
ALAPAHA
ALARKA
ALASKA
ALBA
ALBAN
ALBANY
ALBANY BRM
ALBANY CENTER
ALBANY TWP
ALBEE
ALBEMARLE
ALBERS
ALBERT
ALBERT CITY
ALBERT LEA
ALBERTA
ALBERTON
ALBERTSON
ALBERTSONS
ALBERTVILLE
ALBIA
ALBIN
ALBION
ALBORN
ALBRIGHT
ALBRIGHTSVILLE
ALBUQUERQUE
ALBURG
ALBURGH
ALBURNETT
ALBURTIS
ALCALDE
ALCESTER
ALCO
ALCOA
ALCOA CENTER
ALCOLU
ALCOT
ALCOVA
ALCOVE
ALDA
ALDAN
ALDEN
ALDEN MANOR
ALDENVILLE
ALDER
ALDER BEND
ALDER CREEK
ALDER GROVE
ALDERPOINT
ALDERSON
ALDERTON
ALDERWOOD MANOR
ALDIE
ALDINE
ALDRICH
ALEDO
ALEKNAGIK
ALEPPO
ALERT
ALEX
ALEXANDER
ALEXANDER CITY
ALEXANDER MILLS
ALEXANDER SPR
ALEXANDER SPRINGS
ALEXANDER VALLEY
ALEXANDRA BAY
ALEXANDRIA
ALEXANDRIA BAY
ALEXIS
ALFALFA
ALFARATA
ALFONSO
ALFORD
ALFORDSVILLE
ALFRED
ALFRED P HUGHES UNIT
ALFRED STATION
ALGER
ALGERITA
ALGERNON
ALGIERS
ALGOA
ALGODONES
ALGOMA
ALGONA
ALGONAC
ALGONQUIN
ALGOOD
ALHAMBRA
ALICE
ALICEVILLE
ALICIA
ALIDA
ALIEF
ALINDA
ALINE
ALIQ
ALIQUIPPA
ALIRE
ALISAL
ALISO VIEJO
ALIX
ALKABO
ALKOL
ALL HEALING SPRINGS
ALL STAR BASEBALL BALLOTING
ALLAKAKET
ALLAMUCHY
ALLAMUCHY TWP
ALLANDALE
ALLARDT
ALLBRIGHT
ALLEDONIA
ALLEENE
ALLEGAN
ALLEGANY
ALLEGANY SPRING
ALLEGHANY
ALLEGHENY
ALLEGHENY AREA
ALLEGHENYVILLE
ALLEGRE
ALLEMAN
ALLEMAND
ALLEN
ALLEN JAY
ALLEN JUNCTION
ALLEN PARK
ALLEN SPRINGS
ALLENDALE
ALLENDORF
ALLENHURST
ALLENPORT
ALLENS POINT
ALLENSBURG
ALLENSPARK
ALLENSTOWN
ALLENSVILLE
ALLENSWORTH
ALLENTON
ALLENTOWN
ALLENVILLE
ALLENWOOD
ALLERTON
ALLEY SPRINGS
ALLEYTON
ALLGOOD
ALLIANCE
ALLIANCE DATA SYSTEMS
ALLIED GROUP
ALLIGATOR POINT
ALLIN
ALLINGTOWN
ALLISON
ALLISON PARK
ALLISONA
ALLISONIA
ALLMERICA
ALLOCK
ALLONS
ALLOUEZ
ALLOWAY
ALLOY
ALLPORT
ALLRED
ALLSTATE
ALLSTON
ALLTEL
ALLWOOD
ALLYN
ALMA
ALMA CENTER
ALMA LAKE
ALMANOR
ALMEDIA
ALMELUND
ALMENA
ALMERIA
ALMIRA
ALMO
ALMO HEIGHTS
ALMOND
ALMONESSON
ALMONT
ALMONT TOWNSHIP
ALMORA
ALMYRA
ALNA
ALOHA
ALOMA
ALORTON
ALPAUGH
ALPENA
ALPENTAL
ALPHA
ALPHARETTA
ALPINE
ALPINE FOREST
ALPINE HAVEN
ALPINE MEADOWS
ALPINE VILLAGE
ALPLAUS
ALPS
ALQUINA
ALREAD
ALSACE MANOR
ALSEA
ALSEN
ALSEY
ALSIP
ALSTEAD
ALSTEAD CENTER
ALSTON
ALSVILLE
ALTA
ALTA HILL
ALTA LOMA
ALTA SIERRA
ALTA VISTA
ALTADENA
ALTAIR
ALTAMA
ALTAMAHAW
ALTAMONT
ALTAMONTE
ALTAMONTE SPRINGS
ALTAVILLE
ALTAVISTA
ALTDORF
ALTENBURG
ALTENWALD
ALTHA
ALTHEIMER
ALTMAR
ALTO
ALTO CREST
ALTO PASS
ALTO SPRINGS
ALTON
ALTON BAY
ALTONA
ALTONAH
ALTOONA
ALTRO
ALTURA
ALTURAS
ALTURAS RANCHERIA
ALTUS
ALTUS AFB
ALUM BRIDGE
ALUM CREEK
ALUM RIDGE
ALVA
ALVADA
ALVADORE
ALVARADO
ALVATON
ALVERDA
ALVERTON
ALVIN
ALVISO
ALVO
ALVORD
ALVORDTON
ALVWOOD
ALVY
ALWORTH
ALZADA
AM FALLS
AM FORK
AM QUI
AMA
AMADO
AMADOR CITY
AMADOR STATION
AMAGANSETT
AMAGON
AMALGA
AMALIA
AMANA
AMANDA
AMANDA PARK
AMANTHA
AMARANTH
AMARGOSA VALLEY
AMARILLO
AMARILLO GLOBE NEWS
AMARILLO HARDWARE
AMASA
AMAWALK
AMAZON.COM
AMAZONIA
AMBA
AMBER
AMBERG
AMBERSON
AMBIA
AMBIERVILLE
AMBLER
AMBOY
AMBRIDGE
AMBROSE
AMBROSIA LAKE
AMBURGEY
AMEAGLE
AMELIA
AMELIA CH
AMELIA CITY
AMELIA COURT HOUSE
AMELIA CT HSE
AMELIA ISLAND
AMELIA VILLAGE
AMENIA
AMER ASSC RETIRED PERSONS
AMERICA
AMERICAN CANYON
AMERICAN EXPRESS
AMERICAN FALLS
AMERICAN FORK
AMERICAN GREETING CARD
AMERICAN LAKE
AMERICAN NAT PROP & CASUALTY
AMERICAN REPUBLIC
AMERICAN SAVINGS
AMERICUS
AMERITECH
AMERITRUST
AMERY
AMES
AMES LAKE
AMESBURY
AMESVILLE
AMF
AMF GREENSBORO
AMF OHARE
AMHERST
AMHERST JUNCTION
AMHERSTDALE
AMIDON
AMIGO
AMIRET
AMISSVILLE
AMISTAD
AMITE
AMITY
AMITY HARBOR
AMITYVILLE
AMLIN
AMMA
AMMANSVILLE
AMMON
AMO
AMONATE
AMOR
AMORET
AMORITA
AMPERE
AMPTHILL
AMSDEN
AMSOUTH
AMSTERDAM
AMSTON
ANABEL
ANACOCO
ANACONDA
ANACORTES
ANACOSTIA ANNEX
ANADARKO
ANAHEIM
ANAHEIM HILLS
ANAHOLA
ANAHUAC
ANAKTUVUK PASS
ANALOMINK
ANAMOOSE
ANAMOSA
ANANDALE
ANASTASIA ISLAND
ANATONE
ANAWALT
ANCH
ANCHO
ANCHOR
ANCHOR BAY
ANCHOR POINT
ANCHORAGE
ANCHORVILLE
ANCO
ANCONA
ANCORA
ANCRAM
ANCRAMDALE
ANDALE
ANDALUSIA
ANDER
ANDERSON
ANDERSON ACRES
ANDERSON DAM
ANDERSON IS
ANDERSON ISLAND
ANDERSON SPRINGS
ANDERSONBURG
ANDERSONTOWN
ANDERSONVILLE
ANDES
ANDICE
ANDOVER
ANDREAS
ANDREW
ANDREWS
ANDREWS AIR FORCE BASE
ANDREWS BRIDGE
ANDRUS ISLAND
ANDYVILLE
ANETA
ANETH
ANGEL FIRE
ANGELA
ANGELICA
ANGELS CAMP
ANGELUS OAKS
ANGIE
ANGIER
ANGLE
ANGLE INLET
ANGLESEA
ANGLETON
ANGOLA
ANGOON
ANGORA
ANGOSTURA
ANGUS
ANGWIN
ANIAK
ANIMAS
ANITA
ANIWA
ANKENY
ANMOORE
ANN ARBOR
ANN ARBOR TOWNSHIP
ANNA
ANNA MARIA
ANNABELLA
ANNADA
ANNANDALE
ANNANDALE EST
ANNANDALE ESTATES
ANNANDALE ON HUDSON
ANNAPOLIS
ANNAPOLIS JUNCTION
ANNAWAN
ANNEMANIE
ANNIS
ANNISTON
ANNONA
ANNSVILLE
ANNVILLE
ANOKA
ANSELMO
ANSLEY
ANSON
ANSONIA
ANSONVILLE
ANSTED
ANTELOPE
ANTES FORT
ANTHEM
ANTHON
ANTHONY
ANTIGO
ANTIMONY
ANTIOCH
ANTIS
ANTIVILLE
ANTLER
ANTLERS
ANTLERS PARK
ANTOINE
ANTON
ANTON CHICO
ANTONIA
ANTONINO
ANTONITO
ANTRIM
ANTWERP
ANUTT
ANVIK
ANZA
APACHE
APACHE ACRES
APACHE CREEK
APACHE JUNCTION
APALACHICOLA
APALACHIN
APEX
APG
APGAR
APISON
APLIN
APLINGTON
APODACA
APOLLO
APOLLO BEACH
APOPKA
APPALACHIA
APPALACHIAN PWR
APPAM
APPLE CREEK
APPLE GROVE
APPLE RIVER
APPLE SPRINGS
APPLE VALLEY
APPLEBY
APPLEGATE
APPLETON
APPLETON CITY
APPLEYARD
APPLING
APPOMATTOX
APTOS
APULIA STATION
AQUA
AQUA RAMON
AQUADALE
AQUASCO
AQUASHICOLA
AQUEBOGUE
AQUILLA
AQUINNAH
AQUONE
ARAB
ARABELA
ARABI
ARAGO
ARAGON
ARANSAS PASS
ARANSPASS
ARAPAHO
ARAPAHOE
ARARAT
ARBA
ARBELA
ARBOGA
ARBOLES
ARBON
ARBOR
ARBOR HILL
ARBOR VITAE
ARBOVALE
ARBUCKLE
ARBUTUS
ARBYRD
ARCADE
ARCADIA
ARCADIA LAKES
ARCANUM
ARCATA
ARCATA GRAPHICS DISTRIBUTION
ARCH
ARCH CAPE
ARCH ROCK
ARCHBALD
ARCHBOLD
ARCHDALE
ARCHER
ARCHER CITY
ARCHERS LODGE
ARCHES
ARCHIBALD
ARCHIE
ARCO
ARCO STATION
ARCO-PLAZA
ARCOLA
ARCTIC VILLAGE
ARCTURUS
ARDARA
ARDEN
ARDEN HILLS
ARDENHURST
ARDENVOIR
ARDMORE
ARDOCH
ARDSLEY
ARDSLEY ON HUDSON
AREA OFFICE
AREDALE
ARENA
ARENAS VALLEY
ARENDAHL
ARENDTSVILLE
ARENZVILLE
ARGENTA
ARGILLITE
ARGO
ARGO FAY
ARGO VILLAGE
ARGONIA
ARGONNE
ARGORA
ARGOS
ARGUS
ARGUSVILLE
ARGYLE
ARGYLE TWP
ARI
ARICKAREE
ARIEL
ARIETTA
ARIMO
ARION
ARIPEKA
ARISPE
ARISTES
ARITON
ARIVACA
ARIZONA
ARIZONA BOYS RANCH
ARIZONA CITY
ARJAY
ARK
ARK VALLEY CORR FACL
ARKADELPHIA
ARKANSAS CITY
ARKANSAS LOUISIANA GAS
ARKANSAW
ARKDALE
ARKLA GAS
ARKOMA
ARKPORT
ARKVILLE
ARLAND
ARLANZA VILLAGE
ARLEE
ARLETA
ARLETTA
ARLEY
ARLINGTON
ARLINGTON CENTER
ARLINGTON HEIGHTS
ARLINGTON HTS
ARMA
ARMADA
ARMADA TOWNSHIP
ARMAGH
ARMBRUST
ARMED FORCES INAUGURAL COM
ARMED FORCES INST PATHOLOGY
ARMIESBURG
ARMINGTON
ARMINTO
ARMISTEAD
ARMONA
ARMONK
ARMOREL
ARMOUR
ARMOURDALE
ARMSTRONG
ARMSTRONG CREEK
ARMSTRONG MILLS
ARMUCHEE
ARMY CRIMINAL INVEST
ARMY FINANCE CENTER
ARMY TERMINAL
ARMY TIMES
ARNAUDVILLE
ARNECKEVILLE
ARNEGARD
ARNESEN
ARNETT
ARNEY
ARNOLD
ARNOLD AIR FORCE BASE
ARNOLD BAY
ARNOLD HEIGHTS
ARNOLDS PARK
ARNOLDSBURG
ARNOLDSVILLE
ARNOT
ARNOTS ADDITION
ARNOTT
AROCK
ARODA
AROMA
AROMA PARK
AROMAS
ARONA
AROYA
ARP
ARPAN
ARPIN
ARREY
ARRIBA
ARRINGTON
ARRINGTON CORNER
ARRIOLA
ARROW ROCK
ARROWBEAR LAKE
ARROWHEAD
ARROWHEAD FARMS
ARROWHEAD PROMOTION FULFILLM
ARROWSIC
ARROWSMITH
ARROYO
ARROYO GRANDE
ARROYO HONDO
ARROYO SECO
ARSENAL
ART
ARTAS
ARTEMAS
ARTEMUS
ARTESIA
ARTESIA CAMP
ARTESIA WELLS
ARTESIAN
ARTHUR
ARTHUR CITY
ARTHURDALE
ARTIC
ARTIE
ARTOIS
ARTONDALE
ARUNDEL
ARVADA
ARVERNE
ARVILLA
ARVIN
ARVONIA
ARY
ASAPH
ASBURY
ASBURY GARDENS
ASBURY PARK
ASCO
ASCUTNEY
ASH
ASH FLAT
ASH FORK
ASH GROVE
ASH HILL
ASH LAKE
ASH RIDGE
ASH SPRINGS
ASH TWP
ASHAIIU
ASHAROKEN
ASHAWAY
ASHBORO
ASHBURN
ASHBURN PARK
ASHBURNHAM
ASHBURY
ASHBY
ASHCAMP
ASHDOWN
ASHEBORO
ASHER
ASHERTON
ASHERVILLE
ASHEVILLE
ASHFIELD
ASHFORD
ASHINTILLY
ASHIPPUN
ASHKUM
ASHLAND
ASHLAND CITY
ASHLEY
ASHLEY FALLS
ASHMORE
ASHTABULA
ASHTON
ASHUELOT
ASHVILLE
ASHWAUBENON
ASHWOOD
ASIA
ASKOV
ASLO
ASOTIN
ASPEN
ASPEN HILL
ASPEN-GERBAZ
ASPERMONT
ASPERS
ASPINWALL
ASSARIA
ASSAWOMAN
ASSC DOCTORS INS
ASSEMBLY
ASSEMBLY POINT
ASSINIPPI
ASSONET
ASSUMPTION
ASTATULA
ASTI
ASTIN
ASTON
ASTOR
ASTORIA
ASTRODOME
ASTROWORLD
AT & T
AT&T
ATALISSA
ATASCADERO
ATASCOCITA
ATASCOSA
ATCHISON
ATCHISON TOPEKA SANTA FE
ATCO
ATER
ATGLEN
ATHBOY
ATHELSTANE
ATHENA
ATHENS
ATHENS TOWNSHIP
ATHENSVILLE
ATHERTON
ATHERTON CONTRACT BRANCH
ATHLESTAN
ATHOL
ATHOL SPRINGS
ATKA
ATKINS
ATKINSON
ATKINSONS MILLS
ATKINSONS MLS
ATKINSONVILLE
ATL
ATLANTA
ATLANTA BMC
ATLANTA NAVAL AIR STATION
ATLANTIC
ATLANTIC BCH
ATLANTIC BEACH
ATLANTIC CITY
ATLANTIC HIGHLANDS
ATLANTIC HL
ATLANTIC MINE
ATLANTICBEACH
ATLANTIS
ATLAS
ATLASBURG
ATMAUTLUAK
ATMORE
ATOKA
ATOMIC CITY
ATQASUK
ATT
ATTALLA
ATTAPULGUS
ATTERBURY
ATTICA
ATTICA JUNCTION
ATTILA
ATTLEBORO
ATTLEBORO FALLS
ATWATER
ATWELL
ATWOOD
AU GRES
AU SABLE
AU SABLE CHASM
AU SABLE FORKS
AU TRAIN
AUANCE
AUBERRY
AUBREY
AUBURN
AUBURN HILLS
AUBURN JUNCTION
AUBURN LAKE TRAILS
AUBURN TWP
AUBURNDALE
AUBURNTOWN
AUDUBON
AUDUBON PARK
AUGHWICK
AUGSBURG
AUGUST F. HAW
AUGUSTA
AUGUSTA SPGS
AUGUSTA SPRGS
AUGUSTA SPRINGS
AUGUSTA TWP
AUGUSTAVILLE
AUKE BAY
AULANDER
AULLVILLE
AULT
AULT FIELD
AULTMAN
AUMSVILLE
AUON
AURA
AURELIA
AURELIUS
AUREOLA
AURIESVILLE
AURORA
AURORA CENTER
AURORA SPRINGS
AURORAVILLE
AUSABLE CHASM
AUSTELL
AUSTERLITZ
AUSTIN
AUSTINBURG
AUSTINTOWN
AUSTINVILLE
AUSTONIO
AUSTWELL
AUTAUGAVILLE
AUTO
AUTRYVILLE
AUVERGNE
AUXIER
AUXVASSE
AV0N
AVA
AVALON
AVANT
AVAWAM
AVELLA
AVENAL
AVENEL
AVENTURA
AVENUE
AVERA
AVERILL
AVERILL PARK
AVERY
AVERY ISLAND
AVILA BEACH
AVILLA
AVINGER
AVIS
AVISTON
AVOCA
AVON
AVON BY THE SEA
AVON HEIGHTS
AVON LAKE
AVON PARK
AVON PARK AFB
AVON PARK LAKES
AVON PK
AVON PRODUCTS
AVONDALE
AVONDALE EST
AVONDALE ESTATES
AVONDALE-GOODYEAR
AVONMORE
AWENDAW
AWOSTING
AXEL
AXIS
AXSON
AXTEL
AXTELL
AXTON
AYCOCK
AYDEN
AYDLETT
AYER
AYERS
AYERSVILLE
AYLETT
AYLMER
AYLOR
AYNOR
AYR
AYRSHIRE
AZALEA
AZALEA PARK
AZALIA
AZLE
AZTEC
AZUCENA
AZUSA
AZWELL
BA
B H SPRINGS
BA
BABB
BABBITT
BABBTOWN
BABCOCK
BABSON PARK
BABY ROCK
BABYLON
BACHE
BACHE HALSEY STUART SHIELDS
BACHELOR
BACHMANVILLE
BACK GATE
BACKOO
BACKUS
BACLIFF
BACOBI
BACON HILL
BACONE
BACONTON
BACOVA
BACOVA JNCTN
BACOVA JUNCTION
BAD AXE
BAD NATION
BADEN
BADEN BADEN
BADER
BADGER
BADIN
BADIN LAKE
BAEDERWOOD
BAGDAD
BAGGS
BAGLEY
BAGNELL
BAGWELL
BAHAMA
BAHIA MAR
BAHNER
BAILEY
BAILEY CREEK
BAILEY ISLAND
BAILEY LAKES
BAILEY SWITCH
BAILEYS CROSSROADS
BAILEYS HARBOR
BAILEYS PRAIRIE
BAILEYTON
BAILEYVILLE
BAINBRIDGE
BAINBRIDGE ISLAND
BAINBRIDGE TOWNSHIP
BAINS
BAINVILLE
BAIRD
BAIRDFORD
BAIRDSTOWN
BAIRDTOWN
BAIROIL
BAISDEN
BAITING HOLLOW
BAKER
BAKER CITY
BAKER RANCH
BAKER-TAYLOR
BAKERHILL
BAKERS MILLS
BAKERS SUMMIT
BAKERSFIELD
BAKERSTOWN
BAKERSVILLE
BAKERTON
BAKERTOWN
BAKERVIEW
BAKERVILLE
BAKEWELL
BAL HARBOUR
BALA
BALA CYNWYD
BALANCE ROCK
BALATON
BALBEE
BALCH
BALCH SPRINGS
BALCOM
BALCONES
BALCONES HEIGHTS
BALD EAGLE
BALD HEAD
BALD HEAD ISLAND
BALD HILL
BALD KNOB
BALD MOUNTAIN
BALDWIN
BALDWIN CITY
BALDWIN HARBOR
BALDWIN HILLS
BALDWIN PARK
BALDWIN PLACE
BALDWIN TOWNSHIP
BALDWINSVILLE
BALDWINVILLE
BALDY MESA
BALFOUR
BALKAN
BALKO
BALL
BALL BLUFF
BALL GROUND
BALLANTINE
BALLARAT
BALLARD
BALLARDSVILLE
BALLENGEE
BALLENTINE
BALLICO
BALLINGER
BALLOU
BALLOUVILLE
BALLS MILLS
BALLSTON
BALLSTON CENTER
BALLSTON LAKE
BALLSTON SPA
BALLWIN
BALLY
BALM
BALMORAL
BALMORHEA
BALMVILLE
BALSAM
BALSAM GROVE
BALSAM LAKE
BALTA
BALTIC
BALTIMORE
BALTIMORE SUNPAPERS
BAMBERG
BAMBOO
BAMFORD
BAMMEL
BANCO
BANCROFT
BANCROFT HALL
BANDANA
BANDERA
BANDON
BANDY
BANDYTOWN
BANEBERRY
BANGALL
BANGOR
BANGOR SUBMARINE BASE
BANGS
BANKBOSTON
BANKERS TRUST
BANKERSMITH
BANKS
BANKS SPRINGS
BANKSTON
BANKSTOWN
BANKSVILLE
BANNER
BANNER ELK
BANNERVILLE
BANNING
BANNISTER
BANNOCK
BANNOCKBURN
BANQUETE
BANTA
BANTAM
BANTRY
BAPCHULE
BAPTIST CORNER
BAPTIST MEDICAL CENTER
BAPTISTOWN
BAR CODE
BAR CODE CHURCH STREET
BAR CODE TERM ANNEX
BAR CODED I R S
BAR HARBOR
BAR MILLS
BAR NUNN
BARABOO
BARADA
BARAGA
BARATARIA
BARB
BARBEAU
BARBER
BARBERS POINT
BARBERTON
BARBERVILLE
BARBOURS
BARBOURSVILLE
BARBOURVILLE
BARCLAY
BARCO
BARD
BARDOLPH
BARDONIA
BARDSTOWN
BARDWELL
BAREFOOT BAY
BAREFOOT BEACH
BARESVILLE
BAREVILLE
BARFIELD
BARGAINTOWN
BARGERSVILLE
BARGERVILLE
BARHAMSVILLE
BARING
BARIUM SPRINGS
BARK RIVER
BARKER
BARKERSVILLE
BARKEYVILLE
BARKHAMSTED
BARKING
BARKMAN
BARKSDALE
BARKSDALE AFB
BARLING
BARLOW
BARNABUS
BARNARD
BARNARDSVILLE
BARNEGAT
BARNEGAT LIGHT
BARNEGAT LIGHT BORO
BARNEGAT TOWNSHIP
BARNERVILLE
BARNES
BARNES CITY
BARNES CORNERS
BARNESBORO
BARNESTON
BARNESVILLE
BARNET
BARNET CENTER
BARNET SPRINGS
BARNETT
BARNETT TOWNSHIP
BARNETTS CREEK
BARNEVELD
BARNEY
BARNEYTOWN
BARNHART
BARNHART TOWN
BARNHILL
BARNITZ
BARNSBORO
BARNSDALL
BARNSTABLE
BARNSTEAD
BARNUM
BARNUM ISLAND
BARNUMSVILLE
BARNUMTOWN
BARNUMVILLE
BARNWELL
BARODA
BARONA RANCHERIA
BARR
BARRACKVILLE
BARRANCA
BARRE
BARRE JCT
BARRE JUNCTION
BARRE MILLS
BARREE
BARREN
BARREN SPRINGS
BARRETT
BARRETT PARKWAY
BARRETT SUPERETTE
BARRETVILLE
BARRICK CORNER
BARRIER
BARRIERS MILL
BARRINGTON
BARRINGTON HILLS
BARRINGTON WOODS
BARRON
BARRONETT
BARROW
BARRVILLE
BARRY
BARRY LAKES
BARRY SQUARE
BARRYMORE
BARRYTON
BARRYTOWN
BARRYVILLE
BARSTOW
BART
BARTELSO
BARTLESVILLE
BARTLETT
BARTLETT HOLLOW
BARTLETTSVILLE
BARTLEY
BARTO
BARTON
BARTON CITY
BARTON HILLS
BARTONIA
BARTONSVILLE
BARTONVILLE
BARTOW
BARTVILLE
BARWICK
BASALT
BASCO
BASCOM
BASE LINE
BASEHOR
BASILE
BASIN
BASIN CITY
BASIN HARBOR
BASINGER
BASKERVILLE
BASKET
BASKETT
BASKIN
BASKING RIDGE
BASOM
BASS
BASS ANGLERS SPORTS SOC
BASS BROOK
BASS HARBOR
BASS LAKE
BASS PRO SHOPS
BASS RIVER
BASSETT
BASSETT FORKS
BASSETTS
BASSETTS CREEK
BASSWOOD
BASTIAN
BASTRESS
BASTROP
BASYE
BAT CAVE
BATAVIA
BATCHELLERVILLE
BATCHELOR
BATCHTOWN
BATEMAN
BATES
BATES CITY
BATESBURG
BATESBURG-LEESVILLE
BATESLAND
BATESVILLE
BATH
BATH SPRINGS
BATHGATE
BATON
BATON ROUGE
BATSON
BATSTO
BATTE MTN
BATTENS CROSSROADS
BATTENVILLE
BATTERY PARK
BATTIEST
BATTLE
BATTLE CREEK
BATTLE GROUND
BATTLE LAKE
BATTLE MOUNTAIN
BATTLE RIVER
BATTLEBORO
BATTLEFIELD
BATTLEGROUND
BATTLEMENT MESA
BATTLETOWN
BATTLEVIEW
BAUCUM
BAUDETTE
BAUER
BAUGH
BAUGHMAN
BAUMGARDNER
BAUMSTOWN
BAUSMAN
BAUXITE
BAVARIA
BAVON
BAWCOMVILLE
BAXLEY
BAXTER
BAXTER ESTATES
BAXTER SPGS
BAXTER SPRINGS
BAXTERS
BAXTERVILLE
BAY
BAY ACRES
BAY CENTER
BAY CITY
BAY CREST
BAY HARBOR
BAY HARBOR ISLANDS
BAY HEAD
BAY HILLS
BAY MILLS
BAY MINETTE
BAY PINES
BAY POINT
BAY PORT
BAY SHORE
BAY TERRACE
BAY VIEW
BAY VILLAGE
BAYARD
BAYBERRY
BAYBERRY POINT
BAYBORO
BAYCHESTER
BAYCREST
BAYFIELD
BAYFORD
BAYLE
BAYLIS
BAYLISS
BAYONET POINT
BAYONNE
BAYOU BLUE
BAYOU CURRENT
BAYOU GOULA
BAYOU LA BATRE
BAYOU METO
BAYOU METRO
BAYOU PETITE PRAIRIE
BAYOU ROUGE
BAYOU VISTA
BAYPORT
BAYS
BAYSHORE
BAYSHORE GARDENS
BAYSIDE
BAYTOWN
BAYVIEW
BAYVILLE
BAYWAY
BAYWOOD PARK
BAZEMORE
BAZETTA
BAZINE
BDGE
BEACH
BEACH CENTER
BEACH CITY
BEACH HAMPTON
BEACH HAVEN
BEACH HAVEN WEST
BEACH LAKE
BEACH PARK
BEACHMONT
BEACHS CORNER
BEACHVIEW
BEACHVILLE
BEACHWOOD
BEACON
BEACON FALLS
BEACON HILL
BEACONSFIELD
BEALE
BEALE AFB
BEALETON
BEALLSVILLE
BEALS
BEALWOOD
BEAMAN
BEAN BLOSSOM
BEAN STATION
BEAR
BEAR BRANCH
BEAR BUTTE
BEAR CREEK
BEAR CREEK TWP
BEAR GAP
BEAR GROVE
BEAR LAKE
BEAR MINE
BEAR MOUNTAIN
BEAR POPLAR
BEAR RIVER
BEAR RIVER CITY
BEAR RIVER PINES
BEAR STEARNS
BEAR VALLEY
BEAR VALLEY SPRINGS
BEARCREEK
BEARDEN
BEARDS FORK
BEARDSLEY
BEARDSTOWN
BEARGRASS
BEARS RULE
BEARSDALE
BEARSVILLE
BEARTOWN
BEARVILLE
BEARVILLE NORTH
BEASLEY
BEASON
BEATRICE
BEATTIE
BEATTY
BEATTYVILLE
BEAUCOUP
BEAUDRY
BEAUFORT
BEAUFORT FARM
BEAUKISS
BEAULIEU
BEAULIEUS CORNER
BEAUMONT
BEAUTIFUL
BEAUTY
BEAUX ARTS
BEAUX ARTS VILLAGE
BEAVER
BEAVER BAY
BEAVER BOTTOM
BEAVER CITY
BEAVER CREEK
BEAVER CROSSING
BEAVER DAM
BEAVER DAMS
BEAVER FALLS
BEAVER FLS
BEAVER ISLAND
BEAVER LAKE
BEAVER MEADOW
BEAVER MEADOWS
BEAVER RIVER
BEAVER SPGS
BEAVER SPRINGS
BEAVERCREEK
BEAVERDALE
BEAVERDALE HEIGHTS
BEAVERDAM
BEAVERLETT
BEAVERLICK
BEAVERTON
BEAVERTOWN
BEAVERVILLE
BEBE
BECCARIA
BECHTELSVILLE
BECIDA
BECKEMEYER
BECKER
BECKERS CORNERS
BECKERSVILLE
BECKET
BECKET CENTER
BECKET CORNERS
BECKETT POINT
BECKHAMVILLE
BECKLEY
BECKS
BECKS MILLS
BECKVILLE
BECKWITH
BECKWOURTH
BEDDINGTON
BEDFORD
BEDFORD CORNERS
BEDFORD HEIGHTS
BEDFORD HILLS
BEDFORD HTS
BEDFORD PARK
BEDFORD VILLAGE
BEDIAS
BEDMINSTER
BEDROCK
BEE
BEE BAYOU
BEE BRANCH
BEE CAVE
BEE CAVES
BEE HOUSE
BEE RIDGE
BEE SPRING
BEEBE
BEEBE PLAIN
BEECH
BEECH BLUFF
BEECH BOTTOM
BEECH CREEK
BEECH CROFT
BEECH FLATS
BEECH GLEN
BEECH GROVE
BEECH ISLAND
BEECH MOUNTAIN
BEECHBURG
BEECHER
BEECHER CITY
BEECHER FALLS
BEECHERSTOWN
BEECHGROVE
BEECHHURST
BEECHMONT
BEECHVILLE
BEECHWOOD
BEECHY
BEEDEVILLE
BEEHIVE
BEEKMAN
BEEKMANTOWN
BEELER
BEEMER
BEEMERVILLE
BEERSHEBA SPRINGS
BEESLEYS POINT
BEESON
BEETON
BEETOWN
BEEVILLE
BEGGS
BEIRNE
BEJOU
BEL AIR
BEL AIR BEACH
BEL AIRE
BEL ALTON
BEL MARIN KEYES
BEL NOR
BEL RIDGE
BELAIR
BELAND
BELCAMP
BELCHER
BELCHERTOWN
BELCOURT
BELCOVILLE
BELDEN
BELDEN VILLAGE MALL
BELDENVILLE
BELDING
BELEN
BELEW CREEK
BELEWS CREEK
BELFAIR
BELFALLS
BELFAST
BELFAST MILLS
BELFIELD
BELFORD
BELFORT
BELFRY
BELGIUM
BELGRADE
BELGRADE LAKES
BELHAVEN
BELINGTON
BELK
BELKNAP
BELL
BELL ATLANTIC
BELL BUCKLE
BELL CANYON
BELL CENTER
BELL CITY
BELL FOUNTAIN
BELL GARDENS
BELL PLAIN
BELL RANCH
BELL SOUTH
BELL TELE
BELLA VILLA
BELLA VISTA
BELLAIRE
BELLAMY
BELLARTHUR
BELLBROOK
BELLCHESTER
BELLE
BELLE CENTER
BELLE CHASSE
BELLE CHASSE NAS
BELLE FOURCHE
BELLE GLADE
BELLE HAVEN
BELLE ISLE
BELLE MEAD
BELLE MINA
BELLE PLAIN
BELLE PLAINE
BELLE POINT
BELLE PRAIRIE
BELLE PRAIRIE CITY
BELLE RIVE
BELLE ROSE
BELLE TERRE
BELLE UNION
BELLE VALLEY
BELLE VERNON
BELLEAIR
BELLEAIR BEACH
BELLEAIR BLUFFS
BELLEAIR SHORES
BELLEFONTAINE
BELLEFONTAINE NEIGHBORS
BELLEFONTE
BELLEFONTNE
BELLEFOUNTAIN
BELLEGROVE
BELLEMONT
BELLEPLAIN
BELLERIVE
BELLEROSE
BELLEROSE MANOR
BELLEROSE TERRACE
BELLEROSE VILLAGE
BELLEVIEW
BELLEVILLE
BELLEVUE
BELLFLOWER
BELLFNTN
BELLINGER
BELLINGHAM
BELLMAWR
BELLMEAD
BELLMONT
BELLMORE
BELLONA
BELLOWS FALLS
BELLPORT
BELLROSE VILLAGE
BELLS
BELLS CROSS ROADS
BELLTOWN
BELLVALE
BELLVIEW
BELLVILLE
BELLVUE
BELLWOOD
BELMAR
BELMOND
BELMONT
BELMONT HEIGHTS
BELMONT HILLS
BELMONT SHORE
BELMORE
BELOIT
BELOTT
BELPRE
BELSANO
BELSHAW
BELSPRING
BELT
BELTON
BELTRAMI
BELTSVILLE
BELVA
BELVEDERE
BELVEDERE TIBURON
BELVIDERE
BELVIDERE CENTER
BELVIDERE CORNERS
BELVIDERE JUNCTION
BELVIEW
BELVILLE
BELVUE
BELWOOD
BEM
BEMENT
BEMIDJI
BEMIS
BEMIS HEIGHTS
BEMISS
BEMUS POINT
BEN ARNOLD
BEN AVON
BEN AVON HEIGHTS
BEN BOLT
BEN CLAIRE
BEN FRANKLIN
BEN HUR
BEN LOMOND
BEN WHEELER
BENA
BENAVIDES
BENBROOK
BENCH
BENCH DRIVE
BENCHLAND
BENCHLEY
BEND
BENDALE
BENDAVIS
BENDENA
BENDERSVILLE
BENDERTOWN
BENEDICT
BENEDICTA
BENET LAKE
BENEVOLENCE
BENEZETT
BENEZETTE
BENFER
BENGAL
BENGALL
BENGE
BENHAM
BENICIA
BENJAMIN
BENKELMAN
BENLD
BENNET
BENNETT
BENNETT SPRINGS
BENNETTS BAY
BENNETTSVILLE
BENNINGTON
BENNION
BENOIT
BENS RUN
BENSALEM
BENSCH RANCH
BENSENVILLE
BENSON
BENSON LANDING
BENSON MINES
BENT
BENT MOUNTAIN
BENTLEY
BENTLEY CREEK
BENTLEY SPRINGS
BENTLEYVILLE
BENTON
BENTON CITY
BENTON HARBOR
BENTON RIDGE
BENTONSPORT
BENTONVILLE
BENTREE
BENTS FORT
BENTS OLD FORT
BENWOOD
BENZONIA
BEOWAWE
BERCLAIR
BEREA
BERESFORD
BERGEN
BERGEN POINT
BERGENFIELD
BERGENLINE
BERGER
BERGHEIM
BERGHOLZ
BERGLAND
BERGMAN
BERGOO
BERGTON
BERGVILLE
BERINO
BERKELEY
BERKELEY HEIGHTS
BERKELEY SPRINGS
BERKELEY TOWNSHIP
BERKELEY TWP
BERKEY
BERKLEY
BERKSHIRE
BERKSHIRE CENTER
BERKSHIRE HEIGHTS
BERLIEN
BERLIN
BERLIN BORO
BERLIN CENTER
BERLIN HEIGHTS
BERLIN TOWNSHIP
BERLIN TWP
BERLINVILLE
BERMUDA DUNES
BERMUDA RUN
BERMUDIAN
BERN
BERNADOTTE
BERNAL
BERNALILLO
BERNARD
BERNARDO
BERNARDSTON
BERNARDSVILLE
BERNE
BERNER
BERNHARDS BAY
BERNHARTS
BERNICE
BERNIE
BERNVILLE
BEROUN
BERRIEN CENTER
BERRIEN SPGS
BERRIEN SPRINGS
BERRY
BERRY CREEK
BERRYMAN
BERRYSBURG
BERRYTON
BERRYTOWN
BERRYVILLE
BERTHA
BERTHOLD
BERTHOUD
BERTRAM
BERTRAND
BERVILLE
BERWICK
BERWIND
BERWYN
BERWYN HEIGHTS
BERYL
BERYL JUNCTION
BERZELIA
BESHOAR JCT
BESS
BESSEMER
BESSEMER CITY
BESSIE
BEST
BETHALTO
BETHANIA
BETHANNA
BETHANY
BETHANY BEACH
BETHAYRES
BETHCAR
BETHEL
BETHEL ISLAND
BETHEL PARK
BETHEL SPRINGS
BETHELRIDGE
BETHERA
BETHESDA
BETHLEHEM
BETHLEHEM CENTER
BETHPAGE
BETHUNE
BETO 1 - TDC
BETO 2 - TDC
BETSEY
BETSY LAYNE
BETSYTOWN
BETTENDORF
BETTERTON
BETTLES
BETTLES FIELD
BETTS
BETTSVILLE
BEULAH
BEULAH BEACH
BEULAH HEIGHTS
BEULAVILLE
BEVENT
BEVERAGE TOWN
BEVERLEY BEACH
BEVERLY
BEVERLY ENTERPRISES
BEVERLY FARMS
BEVERLY HILLS
BEVERLY HTS
BEVERLY MANOR
BEVERLY SHORES
BEVIER
BEVINGTON
BEVINSVILLE
BEVIS
BEXAR
BEXLEY
BEYER
BEYERSVILLE
BFLO
BHAM
BIBLE GROVE
BIBLE SCHOOL PARK
BICENTENNIAL
BICKLETON
BICKLEY
BICKMORE
BICKNELL
BIDDEFORD
BIDDEFORD POOL
BIDDLE
BIDWELL
BIEBER
BIEHLE
BIENVILLE
BIESECKER GAP
BIG ARM
BIG BAR
BIG BASIN
BIG BAY
BIG BEAR
BIG BEAR CITY
BIG BEAR LAKE
BIG BEND
BIG BOW
BIG BRANCH
BIG BROOK
BIG CABIN
BIG CANOE
BIG CHIMNEY
BIG CLIFTY
BIG COVE
BIG COVE TANNERY
BIG CREEK
BIG ELK
BIG FALLS
BIG FLAT
BIG FLATS
BIG FORK
BIG HORN
BIG INDIAN
BIG ISLAND
BIG LAKE
BIG LAUREL
BIG MINE RUN JUNCTION
BIG MOOSE
BIG MOUND
BIG OAK FLAT
BIG OTTER
BIG PINE
BIG PINE KEY
BIG PINEY
BIG POND
BIG POOL
BIG PRAIRIE
BIG RAPIDS
BIG READY
BIG RIDGE
BIG RIVER
BIG ROCK
BIG RUN
BIG SANDY
BIG SKY
BIG SPRING
BIG SPRINGS
BIG STONE
BIG STONE CITY
BIG STONE GAP
BIG SUR
BIG TIMBER
BIG TORCH KEY
BIG WATER
BIG WELLS
BIGBEE
BIGCREEK
BIGELOW
BIGFOOT
BIGFORK
BIGGERS
BIGGERTOWN
BIGGS
BIGGS FIELD
BIGGS JUNCTION
BIGGS PARK
BIGGSVILLE
BIGHILL
BIGHORN
BIGLER
BIGLERVILLE
BIGMOUNT
BIGNECK
BIGNELL
BIJOU
BIJOU HILLS
BIKLABITO
BILL
BILLERICA
BILLET
BILLINGS
BILLINGSLEY
BILLINGSPORT
BILLINGSVILLE
BILLINGTON
BILLSBURG
BILLSTOWN
BILLTOWN
BILLVILLE
BILTMOR
BILTMORE FOREST
BIM
BIMBLE
BINFORD
BINGEN
BINGER
BINGHAM
BINGHAM CANYON
BINGHAM CYN
BINGHAM FARMS
BINGHAM LAKE
BINGHAMPTON
BINGHAMTON
BINGHAMVILLE
BINO
BIOLA
BIPPUS
BIRCH
BIRCH BAY
BIRCH BEACH
BIRCH HARBOR
BIRCH ISLAND
BIRCH RIVER
BIRCH RUN
BIRCH TREE
BIRCHDALE
BIRCHLEAF
BIRCHRUNVILLE
BIRCHWOOD
BIRD CITY
BIRD IN HAND
BIRD ISLAND
BIRD TOWN
BIRDEYE
BIRDLAND
BIRDS
BIRDS LANDING
BIRDSBORO
BIRDSEYE
BIRDSNEST
BIRDSVILLE
BIRDVILLE
BIRKBECK
BIRKENFELD
BIRMINGHAM
BIRNAMWOOD
BIRNEY
BIROME
BIRON
BIS
BISBEE
BISBEE JCT
BISCAYNE PARK
BISCOE
BISHOP
BISHOP HILL
BISHOP'S CORNER
BISHOPHEAD
BISHOPS CORNER
BISHOPS HEAD
BISHOPVILLE
BISMARCK
BISON
BISSELL
BISTI
BITAHOCHEE
BITELY
BITTER CREEK
BITTER LAKE
BITTERSVILLE
BITTINGER
BITUMEN
BIVALVE
BIVINS
BIWABIK
BIXBY
BIXBY KNOLLS
BIXLER
BKLN
BLACHLY
BLACK
BLACK BROOK
BLACK BUTTE RANCH
BLACK CANYON CITY
BLACK CREEK
BLACK DIAMOND
BLACK EAGLE
BLACK EARTH
BLACK FOREST
BLACK FORK
BLACK HAWK
BLACK HORSE
BLACK JACK
BLACK LICK
BLACK MEADOW LANDING
BLACK MESA
BLACK MOUNTAIN
BLACK OAK
BLACK POINT
BLACK RIDGE
BLACK RIVER
BLACK RIVER FALLS
BLACK ROCK
BLACK SPRINGS
BLACK STATION
BLACK WALNUT
BLACKBERRY CITY
BLACKBIRD
BLACKBURN
BLACKDUCK
BLACKEY
BLACKFISH
BLACKFOOT
BLACKFORD
BLACKHAWK
BLACKHAWK VILLAGE
BLACKLICK
BLACKLOG
BLACKPIPE
BLACKRIDGE
BLACKSBURG
BLACKSHEAR
BLACKSTOCK
BLACKSTONE
BLACKSVILLE
BLACKTON
BLACKVILLE
BLACKWATER
BLACKWELL
BLACKWOOD
BLACKWOOD TERRACE
BLADE
BLADEN
BLADENBORO
BLADENSBURG
BLADES
BLADESTON
BLADON SPRINGS
BLAIN
BLAINE
BLAINE AIR FORCE STATION
BLAINESVILLE
BLAINSPORT
BLAIR
BLAIRS
BLAIRS MILL
BLAIRS MILLS
BLAIRSBURG
BLAIRSDEN
BLAIRSDEN-GRAEAGLE
BLAIRSTOWN
BLAIRSVILLE
BLAISDELL
BLAKE
BLAKELY
BLAKELY ISLAND
BLAKEMORE
BLAKES
BLAKESBURG
BLAKESLEE
BLANCA
BLANCH
BLANCHARD
BLANCHARDVILLE
BLANCHE
BLANCHESTER
BLANCO
BLAND
BLAND CORRECT
BLANDBURG
BLANDFORD
BLANDING
BLANDINSVILLE
BLANDLAKE
BLANDON
BLANDVILLE
BLANEY PARK
BLANFORD
BLANKET
BLANKS
BLANTON
BLASDELL
BLAUVELT
BLAWENBURG
BLAWNOX
BLAZE
BLCKBERRY CTY
BLEAKWOOD
BLEDSO
BLEDSOE
BLEECKER
BLEIBLERVILLE
BLENCOE
BLENDE
BLENHEIM
BLENKER
BLESSING
BLEVINS
BLEWETT
BLIND LAKE
BLING SPR LKS
BLISS
BLISS POND
BLISSFIELD
BLISSVILLE
BLK RIV FALLS
BLM
BLMGTN
BLOCHER
BLOCK ISLAND
BLOCKER
BLOCKSBURG
BLOCKTON
BLODGETT
BLODGETT MILLS
BLOMKEST
BLOOM
BLOOM CITY
BLOOMBURG
BLOOMDALE
BLOOMER
BLOOMERY
BLOOMFIELD
BLOOMFIELD HILLS
BLOOMFIELD TOWNSHIP
BLOOMFIELD TWP
BLOOMFIELD VILLAGE
BLOOMING GLEN
BLOOMING GROVE
BLOOMING PRAIRIE
BLOOMING VALLEY
BLOOMINGBURG
BLOOMINGDALE
BLOOMINGPORT
BLOOMINGROSE
BLOOMINGTON
BLOOMINGTON HEIGHTS
BLOOMINGTON HILLS
BLOOMINGTON SPRINGS
BLOOMINGVILLE
BLOOMSBURG
BLOOMSBURY
BLOOMSDALE
BLOOMVILLE
BLOSERVILLE
BLOSS
BLOSSBURG
BLOSSOM
BLOSSOM VALLEY
BLOSSVALE
BLOUNT
BLOUNT SPRINGS
BLOUNTS CREEK
BLOUNTSTOWN
BLOUNTSVILLE
BLOUNTVILLE
BLOWING ROCK
BLOXOM
BLUE
BLUE ANCHOR
BLUE ASH
BLUE BALL
BLUE BELL
BLUE CANYON
BLUE CREEK
BLUE DIAMOND
BLUE DOG LAKE
BLUE DOME
BLUE EARTH
BLUE EYE
BLUE GAP
BLUE GRASS
BLUE HILL
BLUE HILL FALLS
BLUE HILLS
BLUE ISLAND
BLUE JAY
BLUE LAGOON
BLUE LAKE
BLUE LEVEL
BLUE MOUND
BLUE MOUNDS
BLUE MOUNTAIN
BLUE MOUNTAIN LAKE
BLUE POINT
BLUE RAPIDS
BLUE RIDGE
BLUE RIDGE SUMMIT
BLUE RIVER
BLUE RIVER LODGE
BLUE ROCK
BLUE SHIELD
BLUE SPRING
BLUE SPRINGS
BLUE WATER ESTATES
BLUEBELL
BLUEBERRY
BLUEFIELD
BLUEGROVE
BLUEHOLE
BLUEJACKET
BLUEMONT
BLUETOWN
BLUEWATER
BLUEWELL
BLUFF
BLUFF CITY
BLUFF DALE
BLUFF ESTATES
BLUFF HALL
BLUFF PARK
BLUFF POINT
BLUFF SPRING
BLUFF SPRINGS
BLUFFDALE
BLUFFS
BLUFFTON
BLUFORD
BLUM
BLUMENTHAL
BLUN
BLUNDALE
BLUNT
BLUNTZER
BLVD STATION
BLY
BLYN
BLYTHE
BLYTHEDALE
BLYTHEVILLE
BLYTHEWOOD
BLYTON
BMC
BO BO
BOALSBURG
BOARD CAMP
BOARD TREE
BOARDMAN
BOAZ
BOB WHITE
BOBTOWN
BOBVILLE
BOCA
BOCA CHICA
BOCA GRANDE
BOCA RATON
BOCK
BODCAU
BODE
BODEGA
BODEGA BAY
BODEN
BODFISH
BODIE
BODINES
BODOC
BOEING
BOEKERTON
BOELUS
BOERNE
BOGACHIEL
BOGALUSA
BOGARD
BOGART
BOGATA
BOGER CITY
BOGGS
BOGGSTOWN
BOGGSVILLE
BOGHT CORNERS
BOGLE CORNER
BOGOTA
BOGUE
BOHANNON
BOHEMIA
BOHRMANS MILL
BOICEVILLE
BOILING SPG LKS
BOILING SPGS
BOILING SPRING LAKES
BOILING SPRINGS
BOIS BLANC ISLAND
BOIS D ARC
BOISE
BOISE CASCADE
BOISE CITY
BOISSEVAIN
BOISTFORT
BOK MAIL SERVICE
BOKCHITO
BOKEELIA
BOKOSHE
BOLAN
BOLAR
BOLCKOW
BOLEN TOWN
BOLES
BOLEY
BOLIGEE
BOLINAS
BOLINE
BOLING
BOLINGBROKE
BOLINGBROOK
BOLINGER
BOLIVAR
BOLIVIA
BOLLING
BOLLING AFB
BOLO
BOLT
BOLTON
BOLTON LANDING
BOLTON VALLEY
BOLTZ
BOMBAY
BOMBAY BEACH
BOMONT
BOMOSEEN
BON AIR
BON AMI
BON AQUA
BON MARCHE
BON SECOUR
BON WIER
BONAIR
BONAIRE
BONANZA
BONANZA CITY
BONAPARTE
BONAVENTURE
BONCARBO
BOND
BOND HILL
BONDS CORNER
BONDSVILLE
BONDUEL
BONDURANT
BONDVILLE
BONE
BONE CAVE
BONE GAP
BONESTEEL
BONETA
BONETRAILL
BONEVILLE
BONFIELD
BONHAM
BONIFAY
BONILLA
BONITA
BONITA BEACH
BONITA SPRINGS
BONLEE
BONNE TERRE
BONNEAU
BONNEAUVILLE
BONNELL
BONNER
BONNER SPRINGS
BONNERDALE
BONNERS FERRY
BONNET SHORES
BONNEY
BONNEY LAKE
BONNEY LK
BONNIE
BONNIE BELL
BONNIE DOONE
BONNIE VIEW
BONNIEVILLE
BONNOTS MILL
BONNY BROOK
BONNY DOON
BONNYMAN
BONO
BONPAS
BONSACK
BONSALL
BONUS
BOODY
BOOGERTOWN
BOOK
BOOKER
BOOMER
BOON
BOONE
BOONE GROVE
BOONES MILL
BOONESBORO
BOONESVILLE
BOONEVILLE
BOONS CAMP
BOONSBORO
BOONTON
BOONTON TOWNSHIP
BOONVILLE
BOOTH
BOOTHBAY
BOOTHBAY HARBOR
BOOTHVILLE
BOOTHWYN
BORAY
BORCULO
BORDEAUX
BORDELONVILLE
BORDEN
BORDEN SPRINGS
BORDENTOWN
BORDER
BORDERLAND
BORDERSVILLE
BORDERTOWN
BORDNERSVILLE
BORDOVILLE
BORDULAC
BORGER
BORING
BORODINO
BORON
BOROUGH
BOROUGH HALL
BORREGO SPRINGS
BORUP
BOSCAWEN
BOSCO
BOSCOBEL
BOSKYDELL
BOSLER
BOSQUE
BOSQUE FARMS
BOSQUEVILLE
BOSS
BOSSIER CITY
BOSTIC
BOSTIC YARD
BOSTON
BOSTON CITY HALL
BOSTON CORNER
BOSTON FINANCIAL DATA SERVIC
BOSTON HARBOR
BOSTON RAVINE
BOSTON RUN
BOSTONIA
BOSTWICK
BOSWELL
BOSWELLS TAVERN
BOSWORTH
BOTHELL
BOTHWELL
BOTKINBURG
BOTKINS
BOTNA
BOTSFORD
BOTTINEAU
BOTTLE CREEK
BOTTLE HOLLOW
BOTTS
BOUCKVILLE
BOUEFF
BOUGERE
BOUGHTONVILLE
BOULDER
BOULDER CITY
BOULDER CREEK
BOULDER HILL
BOULDER JUNCTION
BOULDIN ISLAND
BOULEVARD
BOULTONS BEACH
BOUND BRK
BOUND BROOK
BOUNDRY
BOUNTIFUL
BOUQUET CANYON
BOURBON
BOURBONNAIS
BOURG
BOURNE
BOURNEVILLE
BOUSE
BOUTON
BOUTSWELLS
BOUTTE
BOVARD
BOVEE
BOVEY
BOVILL
BOVINA
BOVINA CENTER
BOVINE
BOW
BOW MAR
BOWBELLS
BOWDEN
BOWDENS
BOWDLE
BOWDOIN
BOWDOINHAM
BOWDON
BOWDON JCT
BOWDON JUNCTION
BOWEN
BOWENS CORNERS
BOWERS
BOWERSTON
BOWERSTOWN
BOWERSVILLE
BOWERY HAVEN
BOWESMONT
BOWIE
BOWLEGS
BOWLER
BOWLESVILLE
BOWLING
BOWLING GREEN
BOWLING GRN
BOWLSVILLE
BOWLUS
BOWMAN
BOWMAN ADDITION
BOWMANS
BOWMANSDALE
BOWMANSTOWN
BOWMANSVILLE
BOWMONT
BOWRING
BOWSTRING
BOWYER
BOX CANYON
BOX CHURCH
BOX ELDER
BOX HILL
BOX SPRINGS
BOXBORO
BOXBOROUGH
BOXFORD
BOXHOLM
BOXVILLE
BOY LAKE
BOY RIVER
BOYCE
BOYCEVILLE
BOYD
BOYD TAVERN
BOYDELL
BOYDEN
BOYDS
BOYDTON
BOYDTOWN
BOYER
BOYERO
BOYERS
BOYERS JUNCTION
BOYERTOWN
BOYES
BOYES HOT SPRINGS
BOYES SPRINGS
BOYKIN
BOYKINS
BOYLE HEIGHTS
BOYLESTON
BOYLSTON
BOYNE CITY
BOYNE FALLS
BOYNTON
BOYNTON BEACH
BOYNTONVILLE
BOYS RANCH
BOYS TOWN
BOYSTOWN
BOZEMAN
BOZMAN
BOZOO
BOZRAH
BRA# 52
BRACEVILLE
BRACEY
BRACHT
BRACKEN
BRACKENRIDGE
BRACKETT
BRACKETTVILLE
BRACKNEY
BRADBURY
BRADDOCK
BRADDOCK HEIGHTS
BRADDOCK HILLS
BRADDYVILLE
BRADEN
BRADEN RIVER
BRADENTON
BRADENTON BEACH
BRADENVILLE
BRADEVELT
BRADFORD
BRADFORD GROUP
BRADFORDS CROSS ROADS
BRADFORDSVILLE
BRADFORDTON
BRADFORDWOODS
BRADGATE
BRADLEY
BRADLEY BEACH
BRADLEY PARK
BRADLEY QUARTERS
BRADLEY UNIV
BRADLEYVILLE
BRADNER
BRADSHAW
BRADY
BRADY LAKE
BRADYVILLE
BRAGG CITY
BRAGGADOCIO
BRAGGS
BRAHAM
BRAIDWOOD
BRAINARD
BRAINARDSVILLE
BRAINERD
BRAINTREE
BRAINTREE HIGHLANDS
BRAINTREE HLD
BRAINTREE PHANTOM
BRAITHWAITE
BRAMAN
BRAMAN CORNERS
BRAMANVILLE
BRAMBLE
BRAMBLETON
BRAMPTON
BRAMWELL
BRANCH
BRANCH #1
BRANCH DALE
BRANCH HILL
BRANCHBURG
BRANCHDALE
BRANCHLAND
BRANCHPORT
BRANCHTON
BRANCHVILLE
BRANDAMORE
BRANDEIS
BRANDENBURG
BRANDON
BRANDONVILLE
BRANDRETH
BRANDSVILLE
BRANDT
BRANDTSVILLE
BRANDY
BRANDY CAMP
BRANDY STA
BRANDY STATION
BRANDYWINE
BRANFORD
BRANNAN ISLAND
BRANON
BRANSCOMB
BRANSON
BRANSON WEST
BRANT
BRANT BEACH
BRANT LAKE
BRANT ROCK
BRANTFORD
BRANTINGHAM
BRANTLEY
BRANTWOOD
BRASELTON
BRASHEAR
BRASHER FALLS
BRASIE CORNERS
BRASSTOWN
BRATENAHL
BRATSBERG
BRATTLEBORO
BRATTLEBORO CENTER
BRATTON
BRAVE
BRAWLEY
BRAXTON
BRAY
BRAYMER
BRAYTON
BRAYTOWN
BRAZEAU
BRAZIL
BRAZILTON
BRAZITO
BRAZORIA
BRAZOS
BRAZOS POINT
BREA
BREAD LOAF
BREAKABEEN
BREAKS
BREAUX BRIDGE
BRECKENRIDGE
BRECKENRIDGE HILLS
BRECKSVILLE
BREDA
BREDLOW CORNER
BREEDEN
BREEDING
BREEDS
BREEDSVILLE
BREEN
BREESE
BREESPORT
BREEZE HILL
BREEZEWOOD
BREEZEWOOD PARK
BREEZEWOOD PK
BREEZY CORNER
BREEZY HILL
BREEZY POINT
BREIDABLICK
BREIEN
BREINIGSVILLE
BREITUNG
BREM
BREMEN
BREMER
BREMERTON
BREMO BLUFF
BREMOND
BRENHAM
BRENT
BRENTFORD
BRENTON
BRENTWOOD
BRERETON
BRESLAU
BRESSLER
BRETHREN
BRETTON WOODS
BRETZ
BRETZVILLE
BREVARD
BREVATOR
BREVIG MISSION
BREVIK
BREWER
BREWERTON
BREWINGTON WDS
BREWINGTON WOODS
BREWSTER
BREWTON
BRGWTR
BRGWTR CORS
BRIAN HEAD
BRIAR
BRIAR PARK
BRIARCLIFF
BRIARCLIFF MANOR
BRIARCLIFF MNR
BRIARWOOD
BRIARWOOD BEACH
BRIARWOOD TRACE
BRIARY
BRICE
BRICELYN
BRICEVILLE
BRICK
BRICKELL
BRICKER DEV
BRICKERVILLE
BRICKEYS
BRICKTON
BRICKTOWN
BRIDAL VEIL
BRIDGE CITY
BRIDGE HAMPTON
BRIDGE PORT
BRIDGEBORO
BRIDGEHAMPTON
BRIDGELAND
BRIDGEPORT
BRIDGER
BRIDGETON
BRIDGETON TERRACE
BRIDGETOWN
BRIDGEVIEW
BRIDGEVILLE
BRIDGEWATER
BRIDGEWATER CENTER
BRIDGEWATER CORN
BRIDGEWATER CORNERS
BRIDGEWATER FARMS
BRIDGEWTR COR
BRIDGEWTR CT
BRIDGMAN
BRIDGTON
BRIDPORT
BRIELLE
BRIER
BRIER HILL
BRIERFIELD
BRIGANTINE
BRIGANTINE CITY
BRIGGS
BRIGGSDALE
BRIGGSVILLE
BRIGHAM
BRIGHAM CITY
BRIGHT SHADE
BRIGHTON
BRIGHTON BEACH
BRIGHTON TWP
BRIGHTS CREEK
BRIGHTSIDE
BRIGHTWATERS
BRIGHTWOOD
BRILEYTOWN
BRILL
BRILLIANT
BRILLION
BRIMFIELD
BRIMHALL
BRIMLEY
BRIMSON
BRIMSTONE CORNERS
BRINCKLEY
BRINDLE TOWN
BRINEGAR
BRINGHURST
BRINKHAVEN
BRINKLEY
BRINKLOW
BRINKTOWN
BRINNON
BRINSMADE
BRINSON
BRINY BREEZES
BRISBANE
BRISBEN
BRISBIN
BRISCOE
BRISTOL
BRISTOLVILLE
BRISTOW
BRITT
BRITTANY
BRITTON
BRITTONS NECK
BRITTS
BRIXEY
BRKSTON
BRM
BRM AUTOMATED CUSTOMER MAIL
BRM CUSTOMER
BRM FIRM ZIP
BRM SOUTH BEND
BRM SPRINGFIELD
BRM UNIQUE FIRM ZIP
BRM-FIRM ZIP
BRO DART
BROAD AXE
BROAD BOTTOM
BROAD BROOK
BROAD CHANNEL
BROAD RUN
BROAD TOP
BROADACRE
BROADACRES
BROADALBIN
BROADBENT
BROADDUS
BROADFORD
BROADLAND
BROADLANDS
BROADMOOR
BROADUS
BROADVIEW
BROADVIEW ACRES
BROADVIEW HEIGHTS
BROADVIEW PARK PLAZA
BROADVIEW PK PLZ
BROADWATER
BROADWAY
BROADWAY MANCHESTER
BROADWELL
BROCK
BROCKET
BROCKPORT
BROCKTON
BROCKWAY
BROCKWAY TOWNSHIP
BROCKWAYS MILLS
BROCKWELL
BROCTON
BRODBECKS
BRODERICK
BRODHEAD
BRODHEADSVILLE
BRODNAX
BROGAN
BROGDON
BROGUE
BROGUEVILLE
BROHARD
BROHMAN
BROKAW
BROKEN ARROW
BROKEN BOW
BROMER
BROMIDE
BROMLEY
BROMLEY MOUNTAIN
BROMLEY MTN
BROMMERSTOWN
BRONAUGH
BRONSON
BRONSTON
BRONTE
BRONWOOD
BRONX
BRONXVILLE
BROOK
BROOK COVE
BROOK KNOLL
BROOK PARK
BROOKDALE
BROOKE
BROOKELAND
BROOKER
BROOKESMITH
BROOKEVILLE
BROOKFIELD
BROOKFIELD CENTER
BROOKHAVEN
BROOKHURST CENTER
BROOKINGS
BROOKLAND
BROOKLANDVILLE
BROOKLAWN
BROOKLET
BROOKLEY FIELD
BROOKLIN
BROOKLINE
BROOKLINE STATION
BROOKLINE VILLAGE
BROOKLYN
BROOKLYN CENTER
BROOKLYN HEIGHTS
BROOKLYN NAVY YARD
BROOKLYN PARK
BROOKLYN PK
BROOKNEAL
BROOKPARK
BROOKPORT
BROOKS
BROOKS AFB
BROOKS AFB BRANCH
BROOKS CROSS ROADS
BROOKS ISLE
BROOKSHIRE
BROOKSIDE
BROOKSIDE VILLAGE
BROOKSTON
BROOKSVILLE
BROOKTON
BROOKTONDALE
BROOKVIEW
BROOKVILLE
BROOKVILLE HEIGHTS
BROOKVILLE HTS
BROOKWOOD
BROOMALL
BROOMES ISLAND
BROOMFIELD
BROOTEN
BROSELEY
BROTHERS
BROUGHTON
BROUILLETTE
BROUSSARD
BROWARD MALL
BROWDER
BROWERVILLE
BROWN CITY
BROWN DEER
BROWN JUG CORNER
BROWN MOUNTAIN BEACH
BROWN SPRINGS
BROWN STATION
BROWN SUMMIT
BROWNDALE
BROWNDELL
BROWNELL
BROWNFIELD
BROWNHELM
BROWNING
BROWNINGS CORNER
BROWNINGTON
BROWNLEE
BROWNS
BROWNS CROSSROADS
BROWNS FORK
BROWNS HOLLOW
BROWNS MILLS
BROWNS PARK
BROWNS POINT
BROWNS SPRING
BROWNS STATION
BROWNS SUMMIT
BROWNS VALLEY
BROWNSBORO
BROWNSBURG
BROWNSDALE
BROWNSON
BROWNSTONE
BROWNSTOWN
BROWNSTOWN TOWNSHIP
BROWNSTOWN TWP
BROWNSVILLE
BROWNTON
BROWNTOWN
BROWNVILLE
BROWNVILLE JUNCTION
BROWNWOOD
BROXTON
BROYHILL FURNITURE
BRUCE
BRUCE CROSSING
BRUCE TOWNSHIP
BRUCETON
BRUCETON MILLS
BRUCETOWN
BRUCEVILLE
BRUCEVILLE EDDY
BRUIN
BRUINGTON
BRULE
BRULY SAINT MARTIN
BRUMLEY
BRUMMITT
BRUNDAGE
BRUNDIDGE
BRUNEAU
BRUNEAU VALLEY
BRUNER
BRUNI
BRUNING
BRUNNERVILLE
BRUNO
BRUNSON
BRUNSVILLE
BRUNSWICK
BRUSETT
BRUSH
BRUSH CREEK
BRUSH FORK
BRUSH HILL
BRUSH PRAIRIE
BRUSH VALLEY
BRUSHTON
BRUSHTOWN
BRUSHVALE
BRUSHY
BRUSHY CREEK
BRUSHY PRAIRIE
BRUSLY
BRUSSELS
BRUTUS
BRYAN
BRYAN MILLS
BRYANS MILL
BRYANS RD
BRYANS ROAD
BRYANSVILLE
BRYANT
BRYANT POND
BRYANTOWN
BRYANTSVILLE
BRYANTVILLE
BRYCE
BRYCE CANYON
BRYCELAND
BRYCEVILLE
BRYLANE
BRYN ATHYN
BRYN MAWR
BRYON
BRYSON
BRYSON CITY
BRYSONIA
BRYTE
BTV
BUCHANAN
BUCHANAN CNR
BUCHANAN CORNER
BUCHANAN DAM
BUCHTEL
BUCK
BUCK CREEK
BUCK HILL FALLS
BUCK RUN
BUCK SHOALS
BUCK VALLEY
BUCKCREEK
BUCKEYE
BUCKEYE LAKE
BUCKEYE VILLAGE
BUCKEYSTOWN
BUCKFIELD
BUCKHANNON
BUCKHART
BUCKHEAD
BUCKHOLTS
BUCKHORN
BUCKINGHAM
BUCKLAND
BUCKLEY
BUCKLEY AIR NATL GUARD BASE
BUCKLEY ANG
BUCKLIN
BUCKMAN
BUCKNER
BUCKS
BUCKS BAR
BUCKS BRIDGE
BUCKS HARBOR
BUCKS LAKE
BUCKS LANDING
BUCKSKIN
BUCKSKIN JOE
BUCKSPORT
BUCKTAIL
BUCKTOWN
BUCKVILLE
BUCODA
BUCYRUS
BUD
BUDA
BUDD LAKE
BUDDHA
BUECHE
BUECHEL
BUEL
BUELL
BUELLTON
BUELS GORE
BUENA
BUENA PARK
BUENA VENTURA LAKES
BUENA VISTA
BUEYEROS
BUFFALO
BUFFALO CENTER
BUFFALO CITY
BUFFALO CREEK
BUFFALO GAP
BUFFALO GROVE
BUFFALO HART
BUFFALO HILL
BUFFALO JUNCTION
BUFFALO LAKE
BUFFALO MILLS
BUFFALO PR
BUFFALO PRAIRIE
BUFFALO RIDGE
BUFFALO SPRINGS
BUFFALO SPRS
BUFFALO VALLEY
BUFFALO X RDS
BUFFALOVILLE
BUFFUMS
BUFFVILLE
BUFORD
BUGTOWN
BUGTUSSLE
BUHL
BUHLER
BUICK CITY
BUICK OLDSMOBILE CADILLAC
BUIE
BUIES CREEK
BULA
BULAN
BULGER
BULL CREEK VILLAGE
BULL SHOALS
BULL VALLEY
BULLARD
BULLFROG
BULLHEAD
BULLHEAD CITY
BULLITTSVILLE
BULLOCK
BULLOCKTOWN
BULLS GAP
BULLTOWN
BULLVILLE
BULPITT
BULVERDE
BUMPASS
BUMPUS MILLS
BUNA
BUNCETON
BUNCH
BUNCOMBE
BUNDYVILLE
BUNGAY
BUNGY
BUNKER
BUNKER HILL
BUNKER HILL VILLAGE
BUNKERTOWN
BUNKERVILLE
BUNKIE
BUNN
BUNNELL
BUNNLEVEL
BUNOLA
BUR MEDICINE SURGERY
BURAS
BURCHARD
BURCHINAL
BURDEN
BURDEN LAKE
BURDETT
BURDETTE
BURDICK
BURDINE
BURDOCK
BURFORDVILLE
BURGAW
BURGDORF
BURGESS
BURGETTSTN
BURGETTSTOWN
BURGHILL
BURGIN
BURGLEN HILLS
BURGOON
BURIEN
BURKBURNETT
BURKE
BURKE CITY
BURKE MOUNTAIN
BURKEMONT
BURKES GARDEN
BURKESVILLE
BURKET
BURKETT
BURKETTSVILLE
BURKEVILLE
BURKHARDT
BURKHART
BURKITTSVILLE
BURKMERE
BURKSVILLE
BURKVILLE
BURL
BURLEIGH
BURLESON
BURLEY
BURLINGAME
BURLINGHAM
BURLINGTN JCT
BURLINGTON
BURLINGTON CITY
BURLINGTON FLATS
BURLINGTON HOUSE
BURLINGTON JUNCTION
BURLINGTON TOWNSHIP
BURLISON
BURMAH
BURMESTER
BURMUDA
BURNA
BURNET
BURNET WOODS
BURNETT
BURNETTOWN
BURNETTSVILLE
BURNEY
BURNEYVILLE
BURNHAM
BURNING FORK
BURNINGTOWN
BURNIPS
BURNLEYS
BURNS
BURNS CITY
BURNS FLAT
BURNS HARBOR
BURNS JUNCTION
BURNS TOWN
BURNSIDE
BURNSTAD
BURNSVILLE
BURNT CABINS
BURNT CORN
BURNT HILLS
BURNT HOUSE
BURNT PRAIRIE
BURNT RANCH
BURNT WATER
BURNTOUT
BURNWELL
BURNWOOD
BURR
BURR HILL
BURR OAK
BURR RIDGE
BURR RIDGE IL
BURR RIDGEX
BURREL
BURRESS
BURRIDGE
BURRILLVILLE
BURRIS
BURROUGHS
BURROWS
BURRTON
BURRVILLE
BURRWOOD
BURSON
BURT
BURT LAKE
BURTCHVILLE
BURTCHVILLE TOWNSHIP
BURTON
BURTON CITY
BURTONSVILLE
BURTONVILLE
BURTRUM
BURWELL
BUS RPLY
BUSBY
BUSCH
BUSH
BUSHES
BUSHKILL
BUSHLAND
BUSHNELL
BUSHONG
BUSHTON
BUSHVILLE
BUSHWOOD
BUSHYHEAD
BUSICK
BUSINESS REPLY
BUSINESS REPLY FIRM ZIP
BUSINESS REPLY FIRMS
BUSINESS REPLY MAIL
BUSINESS REPLY MAIL SACRAMEN
BUSKIRK
BUSSERON
BUSSEY
BUSTAMANTE
BUSTINS ISLAND
BUSY
BUTE
BUTLER
BUTLER CENTER
BUTLERVILLE
BUTNER
BUTTE
BUTTE CITY
BUTTE CREEK
BUTTE DES MORTS
BUTTE FALLS
BUTTE LAROSE
BUTTE MEADOWS
BUTTE VALLEY
BUTTERFIELD
BUTTERFLY
BUTTERNUT
BUTTERNUTS
BUTTERS
BUTTEVILLE
BUTTON BAY
BUTTONWILLOW
BUTTONWOOD
BUTTS
BUTTZVILLE
BUTYLO
BUTZTOWN
BUXTON
BUYCK
BUYERSTOWN
BUZZARDS BAY
BVILLE
BYARS
BYBEE
BYERS
BYESVILLE
BYFIELD
BYLAS
BYNUM
BYNUMVILLE
BYPRO
BYRD
BYRDSTOWN
BYRNEDALE
BYRNESVILLE
BYROMVILLE
BYRON
BYRON CENTER
BYRON HILLS
BYU
BYU-IDAHO
BYWATER
BYWOOD
C GABLES
CIPS
C O ENL PERS MGMT CEN
C S U DOM HLS
C S U LONG BEACH
CABALLO
CABAZON
CABELA'S
CABERY
CABIN CREEK
CABIN JOHN
CABINET
CABINHILL
CABINS
CABLE
CABLE DATA
CABLEVISION
CABOOL
CABOT
CABRILLO
CACHE
CACHE JUNCTION
CACTUS
CACTUS FLATS
CACTUS SPRINGS
CADAMS
CADDO
CADDO GAP
CADDO MILLS
CADDO VALLEY
CADDOA
CADE
CADES
CADET
CADET STATION
CADEVILLE
CADILLAC
CADIZ
CADLEY
CADMUS
CADOGAN
CADOSIA
CADOTT
CADWELL
CADY
CADYS FALLS
CADYVILLE
CAHABA HEIGHTS
CAHOKIA
CAHONE
CAINEVILLE
CAINHOY
CAINS
CAINSVILLE
CAIRNBROOK
CAIRNS CORNER
CAIRO
CAJON JUNCTION
CAL MARNE TWR
CAL NEV ARI
CAL POLY STUDENT DORMS
CAL TECH
CALABASAS
CALABASAS HILLS
CALABASH
CALAIS
CALAMINE
CALAMUS
CALCASIEU
CALCASIEU MARINE TOWER
CALCIUM
CALCUTTA
CALDER
CALDWELL
CALE
CALEDONIA
CALERA
CALEXICO
CALF CREEK
CALHAN
CALHOUN
CALHOUN FALLS
CALICO
CALICO BASIN
CALICO RIDGE
CALICO ROCK
CALIENTE
CALIF CITY
CALIFON
CALIFORNIA
CALIFORNIA CITY
CALIFORNIA CONSERVATION CENT
CALIFORNIA HOT SPRINGS
CALIFORNIA MENS COLONY SLO
CALIFORNIA PINES
CALIFORNIA VALLEY
CALIFORNIA WATER SERVICE
CALIMESA
CALIO
CALION
CALIPATRIA
CALISTOGA
CALL
CALLAHAN
CALLANDS
CALLAO
CALLAWASSIE ISLAND
CALLAWAY
CALLENDER
CALLENSBURG
CALLER BOXES
CALLER FIRMS
CALLERY
CALLICOON
CALLICOON CENTER
CALLIHAM
CALLISON
CALLOWAY CORNERS
CALLVILLE BAY
CALMAR
CALMER
CALPELLA
CALPINE
CALUMET
CALUMET CITY
CALUMET PARK
CALVARY
CALVERT
CALVERT CITY
CALVERTON
CALVERTON PARK
CALVERTVILLE
CALVIN
CALWA
CALWOOD
CALYPSO
CAMAK
CAMANCHE
CAMANCHE LAKE
CAMANO CITY
CAMANO ISLAND
CAMARGO
CAMARILLO
CAMAS
CAMAS VALLEY
CAMBRA
CAMBRIA
CAMBRIA HEIGHTS
CAMBRIDGE
CAMBRIDGE CITY
CAMBRIDGE SPRINGS
CAMBRIDGEBORO
CAMBRIDGEPORT
CAMBY
CAMDEN
CAMDEN ON GAULEY
CAMDEN POINT
CAMDEN WYOMING
CAMDEN-WY
CAMDEN-WYO
CAMDEN-WYOMING
CAMDENTON
CAMELIA
CAMERON
CAMERON BROWN
CAMERON MILLS
CAMERON PARK
CAMERON STATION
CAMERON VILLAGE
CAMILLA
CAMILLUS
CAMINO
CAMMACK
CAMMACK VILLAGE
CAMMAL
CAMP
CAMP APPALACHIA
CAMP ATTERBURY
CAMP BEAUREGARD
CAMP BELL HALL
CAMP BRANCH
CAMP CLAIBORNE
CAMP CLARK
CAMP CONNELL
CAMP CREEK
CAMP CROOK
CAMP CURTIN
CAMP DENNISON
CAMP DIX
CAMP DODGE
CAMP DOUGLAS
CAMP ERNEST
CAMP GRAYLING
CAMP GROUND
CAMP GROVE
CAMP H M SMITH
CAMP HILL
CAMP JOHNSON
CAMP LAKE
CAMP LEJEUNE
CAMP MABRY
CAMP MCCOY
CAMP MEEKER
CAMP MURRAY
CAMP NELSON
CAMP PENDLETON
CAMP POINT
CAMP RICHARDSON
CAMP ROBERTS
CAMP ROBINSON
CAMP ROGERS
CAMP SHERMAN
CAMP SPRINGS
CAMP STAFFORD
CAMP STRAKE
CAMP UNION
CAMP VERDE
CAMP WASHINGTON
CAMP WILLIAMS
CAMP WOOD
CAMPAIGN
CAMPANIA
CAMPBELL
CAMPBELL HALL
CAMPBELL HILL
CAMPBELLS CROSSROADS
CAMPBELLS ISLAND
CAMPBELLSBURG
CAMPBELLSPORT
CAMPBELLSVILLE
CAMPBELLTON
CAMPBELLTOWN
CAMPGROUND
CAMPO
CAMPO ALTO
CAMPO SECO
CAMPOBELLO
CAMPSPRINGS
CAMPTI
CAMPTON
CAMPTONVILLE
CAMPTOWN
CAMPUS
CAMPUS CRUSADE FOR CHRIST
CAMPVILLE
CAMRODEN
CANA
CANAAN
CANAAN LAKE
CANAAN VALLEY
CANADA
CANADA DE LOS ALAMOS
CANADENSIS
CANADIAN
CANADIAN LAKES
CANADOHTA LAKE
CANADYS
CANAJOHARIE
CANAL FULTON
CANAL POINT
CANAL STREET
CANAL WHCHSTR
CANAL WINCHESTER
CANALOU
CANANDAIGUA
CANASERAGA
CANASTOTA
CANAVERAL AIR STATION
CANBY
CANDEN
CANDIA
CANDLER
CANDLEWICK LAKE
CANDO
CANDOR
CANE BEDS
CANE CREEK
CANE RIVER
CANE VALLEY
CANEADEA
CANEBRAKE
CANEHILL
CANELO
CANEY
CANEY VALLEY
CANEYVILLE
CANFIELD
CANISTEO
CANISTOTA
CANJILON
CANKTON
CANMER
CANNEL CITY
CANNELBURG
CANNELTON
CANNELTON HEIGHTS
CANNELTON HTS
CANNING
CANNON
CANNON AIR FORCE BASE
CANNON BALL
CANNON BEACH
CANNON FALLS
CANNONBALL
CANNONSBURG
CANNONVILLE
CANOE
CANOE CAMP
CANOGA
CANOGA PARK
CANON
CANON CITY
CANONCITO
CANONES
CANONSBURG
CANOOCHEE
CANOVA
CANTERBURY
CANTIL
CANTON
CANTON BUSINESS REPLY
CANTON CENTER
CANTON TWP
CANTON UNIQUE FIRM ZIP
CANTONMENT
CANTRALL
CANTRIL
CANTUA CREEK
CANTWELL
CANUTE
CANUTILLO
CANVAS
CANYON
CANYON CITY
CANYON COUNTRY
CANYON CREEK
CANYON CREST
CANYON LAKE
CANYONCITO
CANYONDAM
CANYONLANDS
CANYONVILLE
CAPA
CAPAC
CAPALDO
CAPAY
CAPE CANAVERAL
CAPE CARTERET
CAPE CHARLES
CAPE CORAL
CAPE CORAL CENTRAL
CAPE CORAL SOUTH
CAPE COTTAGE
CAPE ELIZABETH
CAPE FAIR
CAPE FEAR
CAPE FLATTERY
CAPE GIRARDEAU
CAPE HAZE
CAPE HORN
CAPE MAY
CAPE MAY C H
CAPE MAY COURT HOUSE
CAPE MAY POINT
CAPE MEARES
CAPE NEDDICK
CAPE PORPOISE
CAPE SAINT CLAIRE
CAPE VINCENT
CAPEHART
CAPELS
CAPEVILLE
CAPISTRANO BEACH
CAPITAL ONE
CAPITAN
CAPITOL
CAPITOL CITIES
CAPITOL HEIGHTS
CAPITOL HEIGHTS PO
CAPITOL HILL
CAPITOL ISLAND
CAPITOL ONE
CAPITOL REEF
CAPITOL VIEW
CAPITOLA
CAPLEN
CAPLINGER MILLS
CAPON BRIDGE
CAPON SPRINGS
CAPPELN
CAPPS
CAPPS CREEK
CAPRIVI
CAPROCK
CAPRON
CAPSHAW
CAPTAIN COOK
CAPTIVA
CAPTREE ISLAND
CAPULIN
CAPUTA
CARADAN
CARATUNK
CARAWAY
CARBON
CARBON CLIFF
CARBON GLOW
CARBON HILL
CARBONADO
CARBONDALE
CARBONTON
CARBONVILLE
CARBURY
CARCASSONNE
CARDALE
CARDIFF
CARDIFF BY THE SEA
CARDIN
CARDINAL
CARDINAL HALL
CARDINAL STA
CARDINGTON
CARDISS COLLINS P&DC
CARDONIA
CARDVILLE
CARDWELL
CAREFREE
CARENCRO
CARET
CARETTA
CAREY
CAREYWOOD
CARIBOU
CARIMONA
CARIO
CARL
CARL FISHER
CARL JUNCTION
CARLAND
CARLE PLACE
CARLETON
CARLILE
CARLIN
CARLINVILLE
CARLISLE
CARLISLE BARRACKS
CARLISLE BKS
CARLISLE SPRS
CARLOCK
CARLOS
CARLOS CITY
CARLOTTA
CARLSBAD
CARLSBORG
CARLSON
CARLSTADT
CARLTON
CARLYLE
CARMAN
CARMEAN
CARMEL
CARMEL BY THE SEA
CARMEL HIGHLANDS
CARMEL VALLEY
CARMEL VALLEY VILLAGE
CARMEN
CARMI
CARMICHAEL
CARMICHAELS
CARMINE
CARMONA
CARNARVON
CARNATION
CARNEGIE
CARNELIAN BAY
CARNES
CARNESVILLE
CARNEY
CARNEYS POINT
CARNFORTH
CARNIGAN
CARNTOWN
CARO
CAROGA
CAROGA LAKE
CAROL CITY
CAROL STREAM
CAROLEEN
CAROLINA
CAROLINA BCH
CAROLINA BEACH
CAROLINA FOREST
CAROLINA HILLS
CAROLINA SHORES
CAROLINE
CARONA
CAROUSEL CENTER
CARP
CARP LAKE
CARPENTER
CARPENTER BOTTOM
CARPENTERSVILLE
CARPENTERSVLE
CARPINTERIA
CARPIO
CARR
CARR CREEK
CARR MILL
CARRABELLE
CARRBORO
CARRIAGE HILL
CARRICITOS
CARRIE
CARRIER
CARRIER MILLS
CARRIERS MILLS
CARRIGAN
CARRINGTON
CARRIZO
CARRIZO SPRINGS
CARRIZOZO
CARROLL
CARROLL PARK
CARROLL PLT
CARROLL STATION
CARROLL VALLEY
CARROLLS
CARROLLTON
CARROLLTOWN
CARROLLTOWNE
CARROLLWOOD
CARROTHERS
CARRS
CARRSVILLE
CARSON
CARSON CITY
CARSON CITY MALL
CARSON COLONY
CARSON MEADOWS
CARSONTOWN
CARSONVILLE
CARTAGO
CARTER
CARTER CAMP
CARTER HAWLEY HALE
CARTER LAKE
CARTERET
CARTERSBURG
CARTERSVILLE
CARTERTON
CARTERVILLE
CARTHAGE
CARTHAGE LAKE
CARTHAGENA
CARTOOGECHAYE
CARTTER
CARTWRIGHT
CARUTH
CARUTHERS
CARUTHERSVILLE
CARVER
CARVER PARK
CARVERS
CARVERSVILLE
CARVILLE
CARY
CARY PLT
CARYTOWN
CARYVILLE
CASA
CASA BLANCA
CASA GRANDE
CASANOVA
CASAR
CASCABEL
CASCADE
CASCADE LOCKS
CASCADE SUMMIT
CASCADIA
CASCO
CASCO TOWNSHIP
CASE
CASELTON
CASEVILLE
CASEY
CASEY CREEK
CASEYVILLE
CASH
CASH MANAGEMENT
CASHIERS
CASHION
CASHMERE
CASHTON
CASHTOWN
CASINO BEACH
CASITAS SPRINGS
CASMALIA
CASNOVIA
CASON
CASPAR
CASPER
CASPIAN
CASPIANA
CASS
CASS CITY
CASS LAKE
CASSADAGA
CASSANDRA
CASSATT
CASSCOE
CASSEL
CASSELBERRY
CASSELTON
CASSIAN
CASSODAY
CASSOPOLIS
CASSTOWN
CASSVILLE
CASTAIC
CASTALIA
CASTALIAN SPG
CASTALIAN SPRINGS
CASTANA
CASTANEA
CASTE VILLAGE
CASTELL
CASTELLA
CASTILE
CASTINE
CASTL SHANNON
CASTLE
CASTLE CREEK
CASTLE DALE
CASTLE GATE
CASTLE HAYNE
CASTLE HILL
CASTLE HILLS
CASTLE POINT
CASTLE ROCK
CASTLE SHANNON
CASTLE VALLEY
CASTLE VILLAGE
CASTLEBERRY
CASTLEFORD
CASTLETON
CASTLETON ON HUDSON
CASTLEWOOD
CASTOR
CASTOR LANE
CASTOR PLUNGE
CASTORLAND
CASTRO CENTER
CASTRO VALLEY
CASTROVILLE
CASVILLE
CASWELL
CASWELL BEACH
CAT CREEK
CAT SPRING
CATALDO
CATALINA
CATALPA
CATARACT
CATARINA
CATASAUQUA
CATATONK
CATAULA
CATAUMET
CATAWBA
CATAWBA HEIGHTS
CATAWBA ISLAND
CATAWISSA
CATEECHEE
CATES
CATHARINE
CATHARPIN
CATHAY
CATHEAD
CATHEDRAL CITY
CATHERINE
CATHEYS VALLEY
CATHLAMET
CATHOLIC POINT
CATHOLIC UNIV
CATLETT
CATLETTSBURG
CATLIN
CATO
CATONSVILLE
CATOOSA
CATRON
CATSKILL
CATTARAUGUS
CATTOWN
CAULFIELD
CAUSEY
CAUTHORNVILLE
CAVALIER
CAVALIER AFS
CAVE
CAVE CITY
CAVE CREEK
CAVE IN ROCK
CAVE JUNCTION
CAVE RIDGE
CAVE ROCK
CAVE SPRING
CAVE SPRINGS
CAVEHILL
CAVENDISH
CAVETOWN
CAVITT
CAVOUR
CAWKER CITY
CAWOOD
CAYCE
CAYCE-W COLA
CAYCE-WEST COLUMBIA
CAYUCOS
CAYUGA
CAYUSE
CAYUTA
CAZ
CAZADERO
CAZENOVIA
CC
CD HEADQUARTERS
CDA
CDALE
CDS BRM
CEBOLLA
CECIL
CECIL FIELD
CECIL FIELD NAS
CECIL FIELD NAVAL AIR STATIO
CECIL FLD NAV
CECILIA
CECILTON
CEDAR
CEDAR BEACH
CEDAR BLUFF
CEDAR BLUFFS
CEDAR BONNET ISLAND
CEDAR BROOK
CEDAR CANYON
CEDAR CITY
CEDAR CREEK
CEDAR CREST
CEDAR CROSSING
CEDAR EAST BETHEL
CEDAR FALLS
CEDAR FLAT
CEDAR FORT
CEDAR GAP
CEDAR GLEN
CEDAR GROVE
CEDAR HAMMOCK
CEDAR HILL
CEDAR HILLS
CEDAR ISLAND
CEDAR KEY
CEDAR KNOLLS
CEDAR LAKE
CEDAR LANE
CEDAR LEDGE
CEDAR MILL
CEDAR MILLS
CEDAR MOUNTAIN
CEDAR PARK
CEDAR PASS
CEDAR PINES PK
CEDAR POINT
CEDAR RAPIDS
CEDAR RAVINE
CEDAR RIDGE
CEDAR RIVER
CEDAR RUN
CEDAR SHORES
CEDAR SPRINGS
CEDAR TERRACE
CEDAR VALE
CEDAR VALLEY
CEDARBROOK
CEDARBURG
CEDARBUTTE
CEDARCREEK
CEDAREDGE
CEDARFALLS
CEDARHURST
CEDARPINES PARK
CEDARS
CEDARTOWN
CEDARVALE
CEDARVIEW
CEDARVILLE
CEDARWOOD
CEDONIA
CEDRON
CEE VEE
CEFFCO
CEGO
CELE
CELEBRATION
CELERYVILLE
CELESTE
CELESTE HINKLE
CELESTINE
CELILO
CELINA
CELORON
CEMAR ESTATES
CEMENT
CEMENT CITY
CEMENT CREEK
CEMENTON
CEMENTVILLE
CENSUS BUREAU
CENTENARY
CENTENNIAL
CENTENNIAL HEIGHTS
CENTENNIAL HTS
CENTENNIALXX
CENTER
CENTER BARNSTEAD
CENTER BERLIN
CENTER BRUNSWICK
CENTER CAMBRIDGE
CENTER CITY
CENTER CONWAY
CENTER CREEK
CENTER CROSS
CENTER GROTON
CENTER GROVE
CENTER HARBOR
CENTER HILL
CENTER JCT
CENTER JUNCTION
CENTER LINE
CENTER LOVELL
CENTER MILLS
CENTER MORELAND
CENTER MORICHES
CENTER OSSIPEE
CENTER POINT
CENTER PORT
CENTER RIDGE
CENTER RUTLAND
CENTER SANDWICH
CENTER SQUARE
CENTER STRAFFORD
CENTER TUFTONBORO
CENTER VALLEY
CENTERBROOK
CENTERBURG
CENTERDALE
CENTEREACH
CENTERFIELD
CENTERHILL
CENTERIOR
CENTERLISLE
CENTERPOINT
CENTERPORT
CENTERTON
CENTERTOWN
CENTERVIEW
CENTERVILLE
CENTERVILLE BRANCH
CENTERVILLE-MOUNT CARMEL
CENTRAHOMA
CENTRAL
CENTRAL BRIDGE
CENTRAL CITY
CENTRAL CTY
CENTRAL FALLS
CENTRAL HEIGHTS
CENTRAL INTELLIGENCE AGENCY
CENTRAL ISLIP
CENTRAL LAKE
CENTRAL LAKES
CENTRAL MANOR
CENTRAL MCLEAN DETACHED UNIT
CENTRAL NYACK
CENTRAL P & DC
CENTRAL PARK
CENTRAL POINT
CENTRAL SQUARE
CENTRAL STATION
CENTRAL VALLEY
CENTRAL VILLAGE
CENTRALIA
CENTRE
CENTRE HALL
CENTRE HARBOR
CENTRE ISLAND
CENTRE VILLAGE
CENTREDALE
CENTREDALE FINANCE BRANCH
CENTREVILLE
CENTROBE
CENTUCK
CENTURIA
CENTURY
CENTURY CITY
CEREDO
CERES
CERESCO
CERRILLOS
CERRITOS
CERRO
CERRO GORDO
CERULEAN
CESTOHOWA
CEYLON
CH HGTS
CHACON
CHAD
CHADBOURN
CHADDS FORD
CHADRON
CHADWICK
CHADWICK BAY
CHADWICKS
CHAFFEE
CHAFFEE VILLAGE
CHAFLIN BRIDGE
CHAGRIN FALLS
CHAGRIN TOWNSHIP
CHAIN
CHAIN OF ROCKS
CHALFANT
CHALFANT VALLEY
CHALFONT
CHALK
CHALK BUTTE
CHALK HILL
CHALKYITSIK
CHALLENGE
CHALLIS
CHALMERS
CHALMETTE
CHAMA
CHAMBERINO
CHAMBERLAIN
CHAMBERS
CHAMBERS HILL
CHAMBERSBURG
CHAMBERSVILLE
CHAMBLEE
CHAMISAL
CHAMITA
CHAMNESSTOWN
CHAMOIS
CHAMPAIGN
CHAMPION
CHAMPION HUDDLE
CHAMPION INTRNTL
CHAMPION SPARK PLUG
CHAMPIONSGATE
CHAMPLAIN
CHAMPLIN
CHANA
CHANCE
CHANCELLOR
CHANDLER
CHANDLER HEIGHTS
CHANDLER HGTS
CHANDLER HTS
CHANDLER PARK
CHANDLERS VALLEY
CHANDLERSVILLE
CHANDLERVILLE
CHANGEWATER
CHANHASSEN
CHANNAHON
CHANNELVIEW
CHANNING
CHANTICLEER
CHANTILLY
CHANUTE
CHAPARRAL
CHAPEL HILL
CHAPEL HILL MALL
CHAPELHILL
CHAPELLE
CHAPIN
CHAPLIN
CHAPMAN
CHAPMAN RANCH
CHAPMANS
CHAPMANSBORO
CHAPMANTOWN
CHAPMANVILLE
CHAPPAQUA
CHAPPAQUIDDICK ISLAND
CHAPPELL
CHAPPELL HILL
CHAPPELLS
CHAPTICO
CHARBONNEAU
CHARCO
CHARDON
CHARENTON
CHARITON
CHARLACK
CHARLEMONT
CHARLEROI
CHARLES
CHARLES A HAYES
CHARLES CITY
CHARLES J COYLE
CHARLES PARK
CHARLES TOWN
CHARLESTON
CHARLESTON AFB
CHARLESTON FOUR CORNERS
CHARLESTON HEIGHTS
CHARLESTON HTS
CHARLESTOWN
CHARLESVILLE
CHARLEVOIX
CHARLO
CHARLOTTE
CHARLOTTE C H
CHARLOTTE CH
CHARLOTTE COURT HOUSE
CHARLOTTE HALL
CHARLOTTESVILLE
CHARLOTTESVLE
CHARLOTTEVILLE
CHARLSON
CHARLTON
CHARLTON CITY
CHARLTON DEPOT
CHARLTON HEIGHTS
CHARM
CHARMCO
CHARMIAN
CHARNITA
CHARTER OAK
CHARTERS
CHARTLEY
CHAS
CHAS HGTS
CHASE
CHASE CITY
CHASE LAKE
CHASE MANHATTAN
CHASE MILLS
CHASEBURG
CHASELEY
CHASEVILLE
CHASKA
CHASSELL
CHASTANG
CHAT
CHATAIGNIER
CHATEAUGAY
CHATFIELD
CHATHAM
CHATHAM CENTER
CHATOM
CHATSWORTH
CHATT
CHATTA
CHATTAHOOCHEE
CHATTANOOGA
CHATTAROY
CHATTERTON
CHAUMONT
CHAUNCEY
CHAUTAUQUA
CHAUVIN
CHAVIES
CHAZY
CHAZY LANDING
CHEAPSIDE
CHEAT LAKE
CHEBANSE
CHEBEAGUE ISLAND
CHEBOYGAN
CHECK
CHECK ROW
CHECKS IN THE MAIL
CHECOTAH
CHEEK
CHEEKTOWAGA
CHEESELOVERS
CHEESETOWN
CHEF MENTEUR
CHEFORNAK
CHEHALIS
CHEKSHANI CLIFFS
CHELAN
CHELAN FALLS
CHELATCHIE
CHELMSFORD
CHELSEA
CHELTENHAM
CHELYAN
CHEMEHUEVI
CHEMEHUEVI VALLEY
CHEMULT
CHEMUNG
CHENANGO BRIDGE
CHENANGO FORKS
CHENANGO LAKE
CHENEGA BAY
CHENEQUA
CHENEY
CHENEY CENTER
CHENEYVILLE
CHENGWATANA
CHENIERE
CHENOA
CHENOIS CREEK
CHEPACHET
CHERAW
CHERITON
CHEROKEE
CHEROKEE FALLS
CHEROKEE RANCH
CHEROKEE VILLAGE
CHERRY
CHERRY BOX
CHERRY BROOK
CHERRY CREEK
CHERRY FLATS
CHERRY FORK
CHERRY GROVE
CHERRY GROVE BEACH
CHERRY HILL
CHERRY HILL TOWNSHIP
CHERRY HILLS VILLAGE
CHERRY LANE
CHERRY PLAIN
CHERRY POINT
CHERRY RUN
CHERRY SPRING
CHERRY TREE
CHERRY VALLEY
CHERRYFIELD
CHERRYGROVE
CHERRYLOG
CHERRYPLAIN
CHERRYTOWN
CHERRYVALE
CHERRYVILLE
CHESANING
CHESAPEAKE
CHESAPEAKE BEACH
CHESAPEAKE CITY
CHESAW
CHESHIRE
CHESILHURST
CHESNEE
CHESNEY SHORES
CHEST SPRINGS
CHESTER
CHESTER DEPOT
CHESTER GAP
CHESTER HEIGHTS
CHESTER SPRINGS
CHESTER TOWNSHIP
CHESTERBROOK
CHESTERFIELD
CHESTERFIELD TOWNSHIP
CHESTERFLD
CHESTERHILL
CHESTERLAND
CHESTERTON
CHESTERTOWN
CHESTERVILLE
CHESTLINE
CHESTNUT
CHESTNUT DALE
CHESTNUT GROVE
CHESTNUT HILL
CHESTNUT MND
CHESTNUT MOUND
CHESTNUT MOUNTAIN
CHESTNUT RDG
CHESTNUT RIDGE
CHESTNUT STREET
CHESTNUTBURG
CHESTNUTRIDGE
CHESWICK
CHESWOLD
CHETEK
CHETOPA
CHEVAK
CHEVERLY
CHEVIOT
CHEVROLET
CHEVRON
CHEVY CHASE
CHEWALLA
CHEWELAH
CHEWS LANDING
CHEWSVILLE
CHEYENNE
CHEYENNE MOUNTAIN AFB
CHEYENNE MT COMPLEX
CHEYENNE RIVER RESERVATION
CHEYENNE WELLS
CHEYNEY
CHEYNNE SHARED FIRM BRM
CHI CHLL TAH
CHICAGO
CHICAGO HEIGHTS
CHICAGO LAWN
CHICAGO PARK
CHICAGO RIDGE
CHICHESTER
CHICKALOON
CHICKAMA
CHICKAMAUGA
CHICKASAW
CHICKASHA
CHICKEN
CHICO
CHICOPEE
CHICORA
CHICOT
CHICOTA
CHIDESTER
CHIEF NAVAL OPERATION
CHIEFLAND
CHIGNIK
CHIGNIK LAGOON
CHIGNIK LAKE
CHIHUAHUA
CHILCHINBITO
CHILCO
CHILCOOT
CHILDERSBURG
CHILDRESS
CHILDS
CHILDWOLD
CHILHOWEE
CHILHOWIE
CHILI
CHILILI
CHILLICOTHE
CHILLISQUAQUE
CHILLUM
CHILLY
CHILMARK
CHILO
CHILOQUIN
CHILSON
CHILTON
CHIMACUM
CHIMAYO
CHIMES
CHIMNEY POINT
CHIMNEY ROCK
CHINA
CHINA GROVE
CHINA LAKE
CHINA LAKE NWC
CHINA SPRING
CHINA TOWNSHIP
CHINA VILLAGE
CHINATOWN
CHINCHILLA
CHINCOTEAGUE ISLAND
CHINESE CAMP
CHINIAK
CHINLE
CHINO
CHINO HILLS
CHINO VALLEY
CHINOOK
CHINQUAPIN
CHIPITA PARK
CHIPLEY
CHIPMAN LAKE
CHIPMANS POINT
CHIPOLA
CHIPPENHOOK
CHIPPEWA BAY
CHIPPEWA FALLS
CHIPPEWA LAKE
CHIPPEWA ON THE LAKE
CHIRENO
CHIRIACO SMT
CHIRIACO SUMMIT
CHISAGO CITY
CHISAGO LAKE
CHISELVILLE
CHISHOLM
CHISOLM
CHITA
CHITINA
CHITT
CHITTENANGO
CHITTENDEN
CHIVINGTON
CHLOE
CHLORIDE
CHOCCOLOCCO
CHOCONUT CENTER
CHOCORUA
CHOCOWINITY
CHOCTAW
CHOCTAW BEACH
CHOICE
CHOKIO
CHOKOLOSKEE
CHOLAME
CHOPIN
CHOSKA
CHOTEAU
CHOUDRANT
CHOUPIQUE
CHOUTEAU
CHOWCHILLA
CHRIESMAN
CHRISMAN
CHRISNEY
CHRISTCHURCH
CHRISTIAN APPALACHIAN
CHRISTIAN BRDCST NETWORK
CHRISTIAN REFORMED CHURCH
CHRISTIAN VALLEY
CHRISTIANA
CHRISTIANSBG
CHRISTIANSBURG
CHRISTIE
CHRISTINE
CHRISTMAS
CHRISTMAS LAKE VILLAGE
CHRISTMAS VALLEY
CHRISTNSBRG
CHRISTOPHER
CHRISTOVAL
CHROMO
CHRYSLER
CHTG
CHUALAR
CHUATHBALUK
CHUBBUCK
CHUCKANUT
CHUCKATUCK
CHUCKEY
CHUCKY
CHUGIAK
CHUGWATER
CHULA
CHULA VISTA
CHULAFINNEE
CHULUOTA
CHUMSTICK
CHUNCHULA
CHUPADERO
CHURCH
CHURCH CREEK
CHURCH HILL
CHURCH OF JESUS CHRIST OF LD
CHURCH POINT
CHURCH ROAD
CHURCH ROCK
CHURCH STREET
CHURCH STREET BOXES
CHURCH STREET BRM
CHURCH VIEW
CHURCHILL
CHURCHLAND
CHURCHS FERRY
CHURCHTON
CHURCHTOWN
CHURCHVILLE
CHURDAN
CHURUBUSCO
CHUUK
CHUUK CAROLINE ISLANDS
CHVILLE
CIBECUE
CIBOLA
CIBOLO
CICERO
CID
CIMA
CIMARRON
CIMARRON HILLS
CIMIC
CINCINNATI
CINCINNATUS
CINCLANTFLT
CINDA
CINEBAR
CINNAMINSON
CIRCLE
CIRCLE CITY
CIRCLE PARK
CIRCLE PINES
CIRCLEVILLE
CISCO
CISMONT
CISNA RUN
CISNE
CISSNA PARK
CISTERN
CITO
CITRA
CITRONELLE
CITRUS CITY
CITRUS HEIGHTS
CITRUS RIDGE
CITRUS SPRINGS
CITY
CITY BY THE SEA
CITY HALL
CITY LIGHT AND WATER
CITY OF AMARILLO
CITY OF COLUMBIA
CITY OF COMMERCE
CITY OF INDUSTRY
CITY OF LUBBOCK
CITY OF MADISON
CITY OF PENSACOLA
CITY OF SUNRISE
CITY POINT
CITY PUBLIC SERV BOARD
CITY RANCH
CITY VIEW HEIGHTS
CITY WATER AND LIGHTS
CIVIL AERONAUTICS BOARD
CLACKAMAS
CLAFLIN
CLAIBORNE
CLAIR MEL CITY
CLAIRE CITY
CLAIREMONT
CLAIRFIELD
CLAIRTON
CLALLAM BAY
CLAM FALLS
CLAM GULCH
CLAM LAKE
CLANCY
CLANTON
CLAPHAM
CLAQUATO
CLARA
CLARA CITY
CLARCONA
CLARE
CLAREMONT
CLAREMORE
CLARENCE
CLARENCE CENTER
CLARENDON
CLARENDON HILLS
CLARENDON SPRINGS
CLARIDGE
CLARINDA
CLARINGTON
CLARION
CLARISSA
CLARITA
CLARK
CLARK CENTER
CLARK CO COURTHOUSE
CLARK COLONY
CLARK FORK
CLARK HILL
CLARK MILLS
CLARKDALE
CLARKEDALE
CLARKESVILLE
CLARKFIELD
CLARKIA
CLARKLAKE
CLARKRANGE
CLARKRIDGE
CLARKS
CLARKS FORK
CLARKS GREEN
CLARKS GROVE
CLARKS HILL
CLARKS LANDING
CLARKS MILLS
CLARKS POINT
CLARKS SUMMIT
CLARKSBORO
CLARKSBURG
CLARKSDALE
CLARKSFIELD
CLARKSON
CLARKSON VALLEY
CLARKSTON
CLARKSTOWN
CLARKSVILLE
CLARKSVILLE CITY
CLARKTON
CLARNO
CLARYVILLE
CLASSIFICATION & RATES ADMIN
CLATONIA
CLATSKANIE
CLAUDE
CLAUDVILLE
CLAUNCH
CLAVERACK
CLAWSON
CLAXTON
CLAY
CLAY CENTER
CLAY CITY
CLAY HILL
CLAY SPRINGS
CLAY TOWNSHIP
CLAY TWP
CLAYHATCHEE
CLAYHOLE
CLAYLICK
CLAYMONT
CLAYPOOL
CLAYSBURG
CLAYSVILLE
CLAYTON
CLAYTON CENTER
CLAYTON JUNCTION
CLAYTON LAKE
CLAYTONVILLE
CLAYVILLE
CLAYWORKS
CLE ELUM
CLEAR
CLEAR BROOK
CLEAR CREEK
CLEAR CREEK SPRINGS
CLEAR FORK
CLEAR LAKE
CLEAR LAKE CITY
CLEAR LAKE SHORES
CLEAR SPRING
CLEARBROOK
CLEARFIELD
CLEARFORK
CLEARING
CLEARLAKE
CLEARLAKE OAKS
CLEARLAKE PARK
CLEARMONT
CLEARVIEW
CLEARVIEW CITY
CLEARVILLE
CLEARWATER
CLEARWATER BEACH
CLEARWATER LAKE
CLEARWATER LK
CLEATON
CLEAVER
CLEAVESVILLE
CLEBURNE
CLEGHORN
CLEM
CLEMENT
CLEMENTON
CLEMENTS
CLEMENTSON
CLEMENTSVILLE
CLEMENTWOOD
CLEMMONS
CLEMONS
CLEMSON
CLEMVILLE
CLENDENIN
CLEO SPRINGS
CLEONA
CLEONE
CLEORA
CLERMONT
CLERMONT SOUTH BRANCH POSTAL
CLEVELAND
CLEVELAND CORNER
CLEVELAND HEIGHTS
CLEVELAND SPRINGS
CLEVELD
CLEVELND
CLEVER
CLEVERDALE
CLEVERSBURG
CLEVES
CLEWISTON
CLIFF
CLIFF ISLAND
CLIFF PARK
CLIFFDELL
CLIFFLAND
CLIFFORD
CLIFFORD AND WILLS
CLIFFSIDE
CLIFFSIDE PARK
CLIFFTOP
CLIFFWOOD
CLIFFWOOD BCH
CLIFFWOOD BEACH
CLIFFWOOD LAKE
CLIFTON
CLIFTON EAST END
CLIFTON FORGE
CLIFTON HEIGHTS
CLIFTON HILL
CLIFTON PARK
CLIFTON PARK CENTER
CLIFTON SPRINGS
CLIFTON TOWNSHIP
CLIFTY
CLIMAX
CLIMAX SPRINGS
CLIMBING HILL
CLINCHBURG
CLINCHCO
CLINCHFIELD
CLINCHPORT
CLINES CORNERS
CLINGMAN
CLINT
CLINTON
CLINTON CORNERS
CLINTON CRN
CLINTON TOWNSHIP
CLINTON TWP
CLINTONDALE
CLINTONIA TOWNSHIP
CLINTONVILLE
CLINTWOOD
CLIO
CLIPPER GAP
CLIPPER MILLS
CLITHERALL
CLIVE
CLOCKVILLE
CLODINE
CLONTARF
CLOPTON
CLOQUET
CLOSPLINT
CLOSTER
CLOTHIER
CLOUD CREST HILLS
CLOUD CRST HLS
CLOUD LAKE
CLOUDCROFT
CLOUDLAND
CLOUGH
CLOUGH CORNERS
CLOUTIERVILLE
CLOVER
CLOVER BOTTOM
CLOVERDALE
CLOVERLAND
CLOVERLEAF
CLOVERLY
CLOVERPORT
CLOVIS
CLOWE AND COWAN
CLUBB
CLUNE
CLUSTER SPRINGS
CLUTCH CITY
CLUTE
CLUTIER
CLY
CLYATTVILLE
CLYDE
CLYDE HILL
CLYDE PARK
CLYDE TOWNSHIP
CLYMAN
CLYMER
CLYO
CMAFB
CMP APPALCHIA
CMP PENDLETON
CNB
CNL WNCHSTR
CO BLUFFS
CO SPGS
CO SPGS UTILITIES
COACHELLA
COAHOMA
COAL
COAL BLUFF
COAL CABIN BEACH
COAL CENTER
COAL CITY
COAL CREEK
COAL FIRE
COAL GROVE
COAL HILL
COAL HOLLOW
COAL MINE MESA
COAL MOUNTAIN
COAL RUN
COAL SPRINGS
COAL TOWNSHIP
COAL VALLEY
COALBURG
COALBY
COALDALE
COALFIELD
COALGATE
COALGOOD
COALING
COALINGA
COALMONT
COALPORT
COALTON
COALVALE
COALVILLE
COALWOOD
COARSEGOLD
COAST GUARD FINANCE CENTER
COATESVILLE
COATOPA
COATS
COATSBURG
COATSVILLE
COBALT
COBALT CITY
COBB
COBB ISLAND
COBBLERVILLE
COBBS
COBBS CREEK
COBBS FORD
COBBTOWN
COBDEN
COBHAM
COBHILL
COBLE
COBLESKILL
COBRE
COBURG
COBURN
COCHECTON
COCHECTON CENTER
COCHISE
COCHITI LAKE
COCHITI PUEBLO
COCHITUATE
COCHRAN
COCHRANE
COCHRANTON
COCHRANVILLE
COCKERILL
COCKEYSVILLE
COCKEYSVILLE HUNT VALLEY
COCKRELL HILL
COCO RIVER
COCOA
COCOA BEACH
COCODRIE
COCOLALLA
COCOLAMUS
COCONUT CREEK
COCONUT GR
COCONUT GROVE
COCOVILLE
CODDINGTON
CODELL
CODEN
CODORA
CODORUS
CODY
COE
COEBURN
COELLO
COESSE
COEUR D ALENE
COEYMANS
COEYMANS HOLLOW
COFFEE CITY
COFFEE CREEK
COFFEE SPRINGS
COFFEEN
COFFEETOWN
COFFEEVILLE
COFFEY
COFFEY SUBDIV
COFFEY SUBDIVISION
COFFEYVILLE
COFFIELD UNIT - TDC
COFFMAN
COFFMAN COVE
COFIELD
COGAN HOUSE
COGAN STATION
COGDELL
COGGON
COGSWELL
COHAGEN
COHASSET
COHASSET BEACH
COHOCTAH
COHOCTON
COHOES
COHUTTA
COILA
COIN
COINJOCK
COITSVILLE
COKATO
COKEBURG
COKEDALE
COKER
COKER CREEK
COKERCREEK
COKEVILLE
COL
COL X RDS
COLABOZ
COLBERT
COLBROOK
COLBURN
COLBY
COLBYVILLE
COLCHESTER
COLCORD
COLD BAY
COLD BROOK
COLD INDIAN SPRINGS
COLD SPRGS HIGHLAND HTS
COLD SPRING
COLD SPRING HARBOR
COLD SPRING HIGHLAND HEIGHTS
COLD SPRING HILLS
COLD SPRINGS
COLDEN
COLDFOOT
COLDIRON
COLDSPRING
COLDWATER
COLDWATER CREEK
COLE CAMP
COLE SPUR
COLEBROOK
COLEBROOKDALE
COLEHARBOR
COLEMAN
COLEMAN FALLS
COLEMAN LAKE
COLEMANS LAKE
COLEMANVILLE
COLERAIN
COLERAIN TWP
COLERAINE
COLERIDGE
COLES
COLES CREEK
COLES POINT
COLESBURG
COLESVILLE
COLETA
COLEVILLE
COLFAX
COLGAN
COLGATE
COLGRADE
COLLAMER
COLLBRAN
COLLEGE
COLLEGE CAMPUS
COLLEGE CITY
COLLEGE CNR
COLLEGE CORNER
COLLEGE CREST
COLLEGE ESTATES
COLLEGE GROVE
COLLEGE HEIGHTS
COLLEGE HILL
COLLEGE HILL STATION
COLLEGE HILLS MALL
COLLEGE MISERICORDIA
COLLEGE MOUND
COLLEGE PARK
COLLEGE PLACE
COLLEGE POINT
COLLEGE SPRINGS
COLLEGE SQUARE
COLLEGE STATION
COLLEGE WARD
COLLEGEDALE
COLLEGEPORT
COLLEGEVILLE
COLLETT
COLLETTSVILLE
COLLEYVILLE
COLLIERS
COLLIERSVILLE
COLLIERVILLE
COLLIERVL
COLLIERVLE
COLLINGDALE
COLLINGS LAKES
COLLINGSWOOD
COLLINGTON
COLLINS
COLLINS CENTER
COLLINS LANDING
COLLINSTON
COLLINSVILLE
COLLINWOOD
COLLISON
COLLISTA
COLLISTER
COLLOMSVILLE
COLLYER
COLMA
COLMAN
COLMAR
COLMAR MANOR
COLMESNEIL
COLO
COLOGNE
COLOMA
COLOME
COLON
COLONA
COLONIA
COLONIAL BCH
COLONIAL BEACH
COLONIAL CRES
COLONIAL FINANCIAL
COLONIAL HEIGHTS
COLONIAL HGTS
COLONIAL HILL
COLONIAL MORTGAGE
COLONIAL PARK
COLONIAL PARK STATION
COLONIAL PENN (BRM)
COLONIAL PENN GROUP
COLONIAL TERRACE
COLONIE
COLONIE CENTER
COLONY
COLORA
COLORADO CITY
COLORADO LOTTERY
COLORADO SPRINGS
COLOSSE
COLP
COLQUITT
COLRAIN
COLS
COLS GROVE
COLSTRIP
COLT
COLTER BAY
COLTMAN
COLTON
COLTONS POINT
COLTS NECK
COLUMBIA
COLUMBIA AMF
COLUMBIA CENTER
COLUMBIA CITY
COLUMBIA CROSS ROADS
COLUMBIA FALLS
COLUMBIA HEIGHTS
COLUMBIA HOUSE
COLUMBIA HOUSE CASSETTES
COLUMBIA HOUSE P DUE
COLUMBIA HOUSE PREPAID
COLUMBIA HOUSE VIDEO
COLUMBIA STATION
COLUMBIANA
COLUMBIAVILLE
COLUMBINE
COLUMBINE VALLEY
COLUMBUS
COLUMBUS CITY
COLUMBUS GROVE
COLUMBUS GRV
COLUMBUS JCT
COLUMBUS JUNCTION
COLUMBUS TOWNSHIP
COLUSA
COLVER
COLVILLE
COLVIN
COLVIN ELMWOOD
COLWELL
COLWICH
COLWYN
COMANCHE
COMBES
COMBINE
COMBINED LOCKS
COMBS
COMBY
COMER
COMERICA
COMERS ROCK
COMET
COMFORT
COMFREY
COMINS
COMINTO
COMLY
COMM EQUAL OPPOR ARMED FORC
COMM ON CIVIL RIGHTS
COMM TECH USES COPYRIGHTS
COMMACK
COMMERCE
COMMERCE CITY
COMMERCE PARK
COMMERCE TOWNSHIP
COMMERCE TWP
COMMERCIAL ACCOUNTS
COMMERCIAL ACCTS
COMMERCIAL POINT
COMMISKEY
COMMODITY FUTURES TRADE
COMMODORE
COMMONWEALTH EDISON
COMMUNIA
COMMUNITY
COMO
COMOTARA
COMPASS
COMPTCHE
COMPTON
COMSTOCK
COMSTOCK PARK
COMUS
CON EDISON
CONANT
CONANTVILLE
CONASAUGA
CONATA
CONAWAY
CONCAN
CONCEPCION
CONCEPTION
CONCEPTION JUNCTION
CONCH KEY
CONCHAS DAM
CONCHO
CONCHO VALLEY
CONCONULLY
CONCORD
CONCORD CORNER
CONCORD FARRAGUT
CONCORDIA
CONCORDIA LAKE
CONCORDVILLE
CONCRETE
CONDA
CONDE
CONDON
CONE
CONEJO
CONEJOS
CONEMAUGH
CONESTEE
CONESTOGA
CONESUS
CONESVILLE
CONETOE
CONEWAGO
CONEWANGO VALLEY
CONFEDERATE
CONFIDENCE
CONFLUENCE
CONGAREE
CONGER
CONGER CORNERS
CONGERS
CONGERVILLE
CONGO
CONGRESS
CONGRESS LAKE
CONIFER
CONKLIN
CONKLIN FORKS
CONKLINGVILLE
CONLEY
CONNEAUT
CONNEAUT HARBOR
CONNEAUT LAKE
CONNEAUT LAKE PARK
CONNEAUTVILLE
CONNELL
CONNELLSVILLE
CONNELLY
CONNELLY SPG
CONNELLYS SPRINGS
CONNELSVILLE
CONNER
CONNERSVILLE
CONNERTON
CONNERVILLE
CONNOQUENESSING
CONNOR
CONNOR TWP
CONNORSVILLE
CONONCITO
CONOTTON
CONOVER
CONOWINGO
CONOY
CONQUEST
CONRAD
CONRAN
CONRATH
CONROE
CONROY
CONSHOHOCKEN
CONSOLIDATED SPACE OPERATION
CONSTABLE
CONSTABLEVILLE
CONSTANTIA
CONSTANTINE
CONSUELLA
CONSUMER PRODUCT SAFETY COMM
CONSUMERS ENERGY
CONTACT
CONTENT
CONTEST AND LARGE VOL
CONTEST MAIL
CONTINENTAL
CONTINENTAL DIVIDE
CONTOOCOOK
CONTRERAS
CONTROLLED DISTRIBUTION
CONVENT
CONVENT STATION
CONVERSE
CONVOY
CONWAY
CONWAY SPRINGS
CONYERS
CONYNGHAM
COODYS BLUFF
COOK
COOK ACRES
COOK SPRINGS
COOK STATION
COOKE
COOKE CITY
COOKEVILLE
COOKEVL
COOKEVLE
COOKS
COOKS CORNERS
COOKS RUN
COOKSBURG
COOKSON
COOKSTOWN
COOKSVILLE
COOKTOWN
COOKVILLE
COOL
COOL RIDGE
COOL RIDGE HEIGHTS
COOL SPRING
COOL SPRINGS
COOLEEMEE
COOLEY
COOLIDGE
COOLIN
COOLSPRING
COOLVILLE
COON HUNTER
COON RAPIDS
COON VALLEY
COONROD
COOPER
COOPER CITY
COOPER HILL
COOPER LANDING
COOPERS
COOPERS MILLS
COOPERS PLAINS
COOPERSBURG
COOPERSTOWN
COOPERSTOWN JUNCTION
COOPERSTWN
COOPERSVILLE
COOPERVILLE
COOS BAY
COOSA
COOSA PINES
COOSADA
COOSAW
COOSAWATCHIE
COOTER
COOTERS POINT
COPAKE
COPAKE FALLS
COPALIS BEACH
COPALIS CROSSING
COPAN
COPANO VILLAGE
COPAS
COPE
COPELAND
COPEMISH
COPEN
COPENHAGEN
COPEVILLE
COPIAGUE
COPLAY
COPLEY
COPLIN PLT
COPPELL
COPPER CENTER
COPPER CITY
COPPER HARBOR
COPPER HILL
COPPER MOUNTAIN
COPPER QUEEN
COPPERAS COVE
COPPERHILL
COPPEROPOLIS
COPPERSVILLE
COPPERTON
COPPESS CORNER
COPPOCK
COQUILLE
CORA
CORAL
CORAL GABLES
CORAL GBLS
CORAL SPRINGS
CORALVILLE
CORAM
CORAOPOLIS
CORAPEAKE
CORBETT
CORBETTSVILLE
CORBIN
CORBIN CITY
CORBINS CORNER
CORCORAN
CORD
CORDELE
CORDELL
CORDER
CORDERO
CORDES LAKES
CORDESVILLE
CORDOVA
CORE
COREA
COREY
CORFU
CORINNA
CORINNE
CORINTH
CORINTH CENTER
CORINTH CORNERS
CORK
CORLEY
CORLISS
CORMANT
CORMORANT
CORN
CORNEIL ESTATES
CORNELIA
CORNELIUS
CORNELL
CORNER
CORNERSBURG
CORNERSVILLE
CORNERVILLE
CORNETT
CORNETTSVILLE
CORNFIELDS
CORNING
CORNING GLASS WORKS
CORNISH
CORNISH FLAT
CORNISHVILLE
CORNLAND
CORNLEA
CORNUCOPIA
CORNVILLE
CORNWALL
CORNWALL BRIDGE
CORNWALL HUD
CORNWALL HUDSON
CORNWALL ON HUDSON
CORNWALL ON THE HUDSON
CORNWALLVILLE
CORNWELL
CORNWELLS HEIGHTS
COROLLA
CORONA
CORONA DE TUCSON
CORONA DEL MAR
CORONA-ELMHURST
CORONADO
CORRAL
CORRAL CITY
CORRAL DE TIERRA
CORRALES
CORRALITOS
CORRECTIONVILLE
CORRELL
CORRELL PARK
CORRIDON
CORRIGAN
CORRIGANVILLE
CORRY
CORRYTON
CORRYVILLE
CORSICA
CORSICANA
CORSO
CORSON
CORTARO
CORTE MADERA
CORTELYOU
CORTEZ
CORTLAND
CORTLANDT MANOR
CORTLANDVILLE
CORTON
CORUCO
CORUNNA
CORVALLIS
CORWIN
CORWIN SPRINGS
CORWITH
CORY
CORYDON
COS COB
COSBY
COSGRAVE
COSGROVE
COSHOCTON
COSMO
COSMOPOLIS
COSMOS
COSPERVILLE
COSSAYUNA
COSSAYUNA LAKE
COST
COSTA
COSTA MESA
COSTIGAN
COSTILLA
COSY VALLEY
COSYTOWN
COTATI
COTEAU
COTESFIELD
COTILE
COTO DE CAZA
COTOPAXI
COTTAGE CITY
COTTAGE GROVE
COTTAGE HILLS
COTTAGE LAKE
COTTAGEGROVE
COTTAGEVILLE
COTTEKILL
COTTER
COTTEREL
COTTLE
COTTLEVILLE
COTTON
COTTON CENTER
COTTON CITY
COTTON GIN
COTTON GROVE
COTTON PLANT
COTTON VALLEY
COTTONDALE
COTTONPORT
COTTONTON
COTTONTOWN
COTTONVILLE
COTTONWOOD
COTTONWOOD COVE
COTTONWOOD CREEK
COTTONWOOD FALLS
COTTONWOOD POINT
COTTONWOOD SHORES
COTTONWOOD STATION
COTTRELLVILLE
COTTRELLVILLE TOWNSHIP
COTUIT
COTULLA
COU FALLS
COUCH
COUCHTOWN
COUDERAY
COUDERSPORT
COUGAR
COULEE
COULEE CITY
COULEE DAM
COULTER
COULTERS
COULTERVILLE
COUNCE
COUNCIL
COUNCIL BLFS
COUNCIL BLUFFS
COUNCIL GROVE
COUNCIL HILL
COUNSELOR
COUNTRY CLUB HEIGHTS
COUNTRY CLUB HILLS
COUNTRY CLUB PLAZA
COUNTRY LAKES
COUNTRY MANOR
COUNTRY PARK ACRES
COUNTRY TERR
COUNTRY TERRACE
COUNTRYSIDE
COUNTS CROSS ROADS
COUPEVILLE
COUPLAND
COUPON
COURTDALE
COURTENAY
COURTESY REPLY
COURTESY REPLY FIRM ZIP
COURTLAND
COURTNEY
COURTOIS
COUSHATTA
COV
COVE
COVE CITY
COVE CREEK
COVE FORT
COVE GAP
COVE NECK
COVE SPRING
COVEDALE
COVEL
COVELL
COVELO
COVENA
COVENTRY
COVENTRYVILLE
COVER BRIDGE CANYON
COVER CITY
COVERED BRIDGE
COVERT
COVESVILLE
COVEYVILLE
COVINA
COVINGTON
COVNGTN
COW ISLAND
COWAN
COWAN HEIGHTS
COWANESQUE
COWANS GAP
COWANS VLG
COWANSVILLE
COWARD
COWARTS
COWDEN
COWDREY
COWEE
COWEN
COWETA
COWGILL
COWICHE
COWLES
COWLESVILLE
COWLEY
COWLIC
COWLING
COWPENS
COX
COXS CREEK
COXS MILLS
COXSACKIE
COXVILLE
COY
COY CITY
COYANOSA
COYLE
COYNE CENTER
COYOTE
COYVILLE
COZAD
COZADDALE
COZAHOME
COZY LAKE
CP LEJEUNE MCB
CP LEJEUNEMCB
CPE GIRARDEAU
CRAB MEADOW
CRAB ORCHARD
CRAB ORCHARD ESTATES
CRABB
CRABBS PRAIRIE
CRABTREE
CRABTREE VALLEY
CRACKVILLE
CRADDOCKVILLE
CRAFT
CRAFTON
CRAFTS FARROW
CRAFTSBURY
CRAFTSBURY COMMON
CRAGFORD
CRAGIN
CRAGSMOOR
CRAIG
CRAIG BEACH
CRAIGHEADS
CRAIGMONT
CRAIGS
CRAIGSVILLE
CRAIGTON
CRAIGVILLE
CRAINTOWN
CRAINVILLE
CRALEY
CRAMER
CRAMERS
CRAMERTON
CRAN NAV DPO
CRANBERRY
CRANBERRY GAP
CRANBERRY ISLES
CRANBERRY LAKE
CRANBERRY TOWNSHIP
CRANBERRY TWP
CRANBURY
CRANDALL
CRANDALLS LODGE
CRANDON
CRANE
CRANE FOREST
CRANE HILL
CRANE LAKE
CRANE NAV WEAP SPT
CRANE NAVAL DEPOT
CRANE NAVAL WEAPONS SUPPORT
CRANE NEST
CRANESVILLE
CRANFILLS GAP
CRANFORD
CRANKS
CRANSTON
CRANY
CRAPO
CRARY
CRARY MILLS
CRARYVILLE
CRATER LAKE
CRAVAT
CRAVEN
CRAWFORD
CRAWFORDSVILLE
CRAWFORDVILLE
CRAWLEY
CRAYNE
CRAYNOR
CRAZY HORSE
CREAL SPRINGS
CREAM
CREAM CITY
CREAM RIDGE
CREAMERY
CREAMRIDGE
CREATIVE MAILING SERVICE
CRECY
CREDIT CARD SERVICE CENTER
CREE LAKE
CREEDE
CREEDMOOR
CREEKSIDE
CREELSBORO
CREIGHTON
CREIGHTON UNIV
CRELLIN
CRENSHAW
CREOLA
CREOLE
CRESAPTOWN
CRESBARD
CRESCENT
CRESCENT BEACH
CRESCENT CITY
CRESCENT HEIGHTS
CRESCENT LAKE
CRESCENT MILLS
CRESCENT PARK
CRESCENT SPG
CRESCENT SPRINGS
CRESCENT VALLEY
CRESCO
CRESMONT
CRESS
CRESSEY
CRESSKILL
CRESSON
CRESSONA
CREST
CREST HILL
CREST PARK
CRESTED BUTTE
CRESTED BUTTE SO
CRESTHILL
CRESTLINE
CRESTLINE HEIGHTS
CRESTMONT
CRESTMORE
CRESTMORE HEIGHTS
CRESTON
CRESTONE
CRESTVIEW
CRESTVIEW HEIGHTS
CRESTVIEW HILLS
CRESTVIEW TERRACE
CRESTWOOD
CRESWELL
CRETCHER
CRETE
CREVE COEUR
CREW LAKE
CREWE
CREWS
CRICHTON
CRICKET
CRIDERS
CRIDERSVILLE
CRIGLER
CRIGLERSVILLE
CRIMCREST
CRIMORA
CRIPPLE CREEK
CRISFIELD
CRISP
CRITTENDEN
CRITZ
CRIVITZ
CRM AUTOMATED CUSTOMER MAIL
CRM FIRM ZIP
CROCHERON
CROCKER
CROCKETT
CROCKETT MILLS
CROCKETTS BLUFF
CROCKETVILLE
CROCUS
CROFTON
CROFTS CORNERS
CROFTVILLE
CROGHAN
CROLEY
CROMBERG
CROMONA
CROMPOND
CROMPTON HILL
CROMWELL
CROOK
CROOKED CREEK
CROOKED LAKE
CROOKED RIVER
CROOKED RIVER RANCH
CROOKS
CROOKSTON
CROOKSVILLE
CROPPER
CROPSEY
CROPSEYVILLE
CROPWELL
CROSBY
CROSBYTON
CROSS
CROSS ANCHOR
CROSS CANYON
CROSS CITY
CROSS CREEK
CROSS FORK
CROSS HILL
CROSS JCT
CROSS JUNCTION
CROSS KEY
CROSS KEYS
CROSS LAKE
CROSS LANES
CROSS PLAINS
CROSS RIVER
CROSS ROADS
CROSS TIMBERS
CROSS VILLAGE
CROSSETT
CROSSGROVE
CROSSING POINTE
CROSSINGS
CROSSINGVILLE
CROSSKEYS
CROSSLAKE
CROSSNORE
CROSSROADS
CROSSROADS CENTER
CROSSTOWN
CROSSVILLE
CROSSVL
CROSSVLE
CROSSWICKS
CROSWELL
CROTHERSVILLE
CROTON
CROTON FALLS
CROTON HUDSON
CROTON ON HUDSON
CROTONA PARK
CROTONVILLE
CROUCH
CROUSE
CROUSEVILLE
CROW
CROW AGENCY
CROW CREEK
CROW HILL
CROWDER
CROWDERS
CROWEBURG
CROWELL
CROWHEART
CROWLEY
CROWLEY LAKE
CROWN
CROWN CITY
CROWN HILL
CROWN KING
CROWN POINT
CROWNPOINT
CROWNSVILLE
CROWS LANDING
CROWVILLE
CROYDON
CROZET
CROZIER
CRUCIBLE
CRUGERS
CRUM
CRUM CREEK
CRUM LYNNE
CRUMLEY CROSSING
CRUMLEY XING
CRUMMIES
CRUMP
CRUMPLER
CRUMPTON
CRUMROD
CRUTCHFIELD
CRUZ CALLE
CRUZVILLE
CRYSTAL
CRYSTAL BAY
CRYSTAL BEACH
CRYSTAL CITY
CRYSTAL FALLS
CRYSTAL HILL
CRYSTAL HILLS
CRYSTAL LAKE
CRYSTAL LAKE PARK
CRYSTAL LAKES
CRYSTAL MOUNTAIN
CRYSTAL RIVER
CRYSTAL SPRING
CRYSTAL SPRINGS
CRYSTALAIRE
CRYSTOLA
CSI
CSOC
CT GEN MED CLAIMS OFFICE
CTC
CTR BARNSTEAD
CTR HARBOR
CTR MORICHES
CTR OSSIPEE
CTR SANDWICH
CTR STRAFFORD
CTR TUFTNBORO
CTR TUFTONBORO
CUB RUN
CUBA
CUBA CITY
CUBA MILLS
CUBERO
CUCAMONGA
CUCHARA
CUCHARA VALLEY
CUCHILLO
CUCUMBER
CUDAHY
CUDDEBACKVILLE
CUDDY
CUDJOE KEY
CUERO
CUERVO
CULBERSON
CULBERTSON
CULDESAC
CULLASAJA
CULLEN
CULLEOKA
CULLISON
CULLMAN
CULLODEN
CULLOM
CULLOWHEE
CULP CREEK
CULPEPER
CULVER
CULVER CITY
CULVER MILITARY ACADEMY
CUMBERLAND
CUMBERLAND CENTER
CUMBERLAND CITY
CUMBERLAND FORESIDE
CUMBERLAND FURNACE
CUMBERLAND GAP
CUMBERLAND HEIGHTS
CUMBOLA
CUMBY
CUMMAQUID
CUMMING
CUMMINGS
CUMMINGSTOWN
CUMMINGSVILLE
CUMMINGTON
CUMMINSVILLE
CUMNOCK
CUNARD
CUNDIFF
CUNDIYO
CUNDYS HARBOR
CUNEY
CUNNINGHAM
CUNOT
CUPERTINO
CUPRUM
CUPSAW LAKE
CURDSVILLE
CURLEW
CURLLSVILLE
CURRAN
CURRANVILLE
CURRIE
CURRITUCK
CURRY
CURRYVILLE
CURTICE
CURTIN
CURTIS
CURTIS BAY
CURTISS
CURTISVILLE
CURVITAS
CURWENSVILLE
CUSHING
CUSHING ISLAND
CUSHMAN
CUSHMAN DAM
CUSICK
CUSSETA
CUSSON
CUSTAR
CUSTER
CUSTER CITY
CUSTER PARK
CUSTOM HOUSE
CUT
CUT AND SHOOT
CUT OFF
CUTCHOGUE
CUTHBERT
CUTLER
CUTLER RIDGE
CUTLERVILLE
CUTSHIN
CUTTEN
CUTTINGSVILLE
CUTTYHUNK
CUTUNO
CUYAHOGA FALLS
CUYAHOGA HEIGHTS
CUYAMA
CUYAMUNGUE
CUYLER
CUYUNA
CUZCO
CUZZART
CYBERBILL
CYCLE
CYCLONE
CYGNET
CYLINDER
CYLON
CYN LAKE
CYNTHIANA
CYNWYD
CYPREMORT POINT
CYPRESS
CYPRESS CROSSROADS
CYPRESS GARDENS
CYPRESS GDNS
CYPRESS INN
CYPRESS VALLEY
CYRENE
CYRIL
CYRUS
D H HOLMES
D HANIS
DOTNY
DA COSTA
DABNEY
DABNEYS
DABOB
DABOLT
DACOMA
DACONO
DACULA
DADE CITY
DADEVILLE
DADVILLE
DAFFAN
DAFTER
DAGGETT
DAGGETTS
DAGMAR
DAGSBORO
DAGUS MINES
DAHINDA
DAHLEN
DAHLGREN
DAHLIA
DAHLONEGA
DAILEY
DAINGERFIELD
DAIRY
DAIRYLAND
DAIRYVILLE
DAISETTA
DAISY
DAISYTOWN
DAKOTA
DAKOTA CENTRAL MPC
DAKOTA CITY
DAKOTA DUNES
DALARK
DALBO
DALBY
DALBY SPRINGS
DALE
DALE CITY
DALESBURG
DALEVILLE
DALHART
DALLARDSVILLE
DALLAS
DALLAS CENTER
DALLAS CITY
DALLASANIA
DALLASTOWN
DALLESPORT
DALMATIA
DALTON
DALTON CITY
DALTON GARDENS
DALTON PASS
DALWORTHINGTON GARDENS
DALY CITY
DALZELL
DAMAR
DAMARISCOTTA
DAMARK
DAMASCUS
DAMERON
DAMES QUARTER
DAMIANSVILLE
DAMMERON
DAMMERON VALLEY
DAMON
DANA
DANA POINT
DANBORO
DANBURG
DANBURY
DANBY
DANBY CORNERS
DANCIGER
DANCY
DANDRIDGE
DANE
DANESE
DANEVANG
DANFORTH
DANIA
DANIA BEACH
DANIEL
DANIEL ISLAND
DANIEL J DOFFYN
DANIELS
DANIELS-RHYNE
DANIELSON
DANIELSVILLE
DANNEBROG
DANNELLY
DANNEMORA
DANNER
DANNEVIRKE
DANSVILLE
DANTE
DANUBE
DANVERS
DANVILLE
DANVILLE CENTER
DANVILLE EAST
DANWAY
DANZIG
DAPHNE
DARBY
DARBY TOWNSHIP
DARBYDALE
DARCO
DARDANELLE
DARDEN
DARDENNE
DARDENNE PRAIRIE
DARES BEACH
DARETOWN
DARFORK
DARFUR
DARIEN
DARIEN CENTER
DARK HOLLOW
DARK WATER
DARKRIDGE
DARKSVILLE
DARLINGTON
DARLINGTON HEIGHTS
DARMSTADT
DARNESTOWN
DARR
DARRAGH
DARRINGTON
DARROUZETT
DARROW
DARRTOWN
DARTMOUTH
DARWIN
DASHER
DASSEL
DATAW ISLAND
DATE
DATELAND
DATIL
DATTO
DAUBERVILLE
DAUFUSKIE ISLAND
DAUPHIN
DAUPHIN ISLAND
DAVANT
DAVELLA
DAVENPORT
DAVENPORT CENTER
DAVEY
DAVID
DAVID CITY
DAVIDSBURG
DAVIDSON
DAVIDSONVILLE
DAVIDSVILLE
DAVIE
DAVILLA
DAVIN
DAVIS
DAVIS CITY
DAVIS CREEK
DAVIS CROSSROADS
DAVIS ISLAND
DAVIS JCT
DAVIS JUNCTION
DAVIS MONTHAN AFB
DAVIS PARK
DAVIS PRAIRIE
DAVIS STATION
DAVIS WHARF
DAVISBORO
DAVISBURG
DAVISON
DAVISPORT
DAVISTON
DAVISTOWN
DAVISVILLE
DAVY
DAWES
DAWMONT
DAWN
DAWSON
DAWSON SPRINGS
DAWSON TOWNSHIP
DAWSONVILLE
DAY
DAY HEIGHTS
DAY RURAL
DAYHOIT
DAYKIN
DAYLIGHT
DAYS CREEK
DAYSVILLE
DAYTON
DAYTON BUSINESS REPLY MAIL
DAYTON COURTESY REPLY MAIL
DAYTONA BEACH
DAYTONA BEACH SHORES
DAYTONVILLE
DAYVILLE
DAZEY
DE ARMANVILLE
DE BARY
DE BEQUE
DE BERRY
DE BORGIA
DE FOREST
DE GONIA
DE GRAFF
DE KALB
DE KALB JUNCTION
DE LANCEY
DE LAND
DE LEON
DE LEON SPRINGS
DE LUCE
DE MOSSVILLE
DE PERE
DE PEYSTER
DE PUE
DE QUEEN
DE RUYTER
DE SMET
DE SOTO
DE SOTO SQUARE MALL
DE TOUR VILLAGE
DE TURKSVILLE
DE VALLS BLUFF
DE WITT
DE YOUNG
DEADWOOD
DEAL
DEAL ISLAND
DEAL PARK
DEALE
DEAN
DEAN CHAPEL
DEANE
DEANSBORO
DEANVILLE
DEARBORN
DEARBORN HEIGHTS
DEARING
DEARY
DEATH VALLEY
DEATH VALLEY JCT
DEATH VALLEY JUNCTION
DEATSVILLE
DEAVER
DEBARY
DEBERRIE
DEBLOIS
DEBORD
DECATUR
DECATURVILLE
DECHERD
DECKER
DECKER PRAIRIE
DECKERS
DECKERVILLE
DECLO
DECORAH
DECORATIVE CRAFT IDEAS
DECORRA
DECOTA
DECOURSEY
DECOY
DEDHAM
DEE
DEEDSVILLE
DEEP CREEK
DEEP GAP
DEEP RIVER
DEEP RUN
DEEP WATER
DEEPHAVEN
DEEPSTEP
DEEPWATER
DEER
DEER CREEK
DEER GROVE
DEER HARBOR
DEER ISLAND
DEER ISLE
DEER LAKE
DEER LODGE
DEER MOUNTAIN
DEER PARK
DEER PLAIN
DEER RIDGE
DEER RIV
DEER RIVER
DEER TRAIL
DEER VALLEY
DEER WELLS
DEERBROOK
DEERFIELD
DEERFIELD BEACH
DEERFIELD STREET
DEERING
DEERPARK
DEERSVILLE
DEERTON
DEERWOOD
DEETH
DEFAS PARK
DEFEATED
DEFENSE DEPOT
DEFENSE DEPOT OGDEN
DEFENSE FINANCE ACCOUNTING
DEFENSE GENERAL SUPPLY CT
DEFENSE INTELLIGENCE
DEFERIET
DEFIANCE
DEFOE
DEFORD
DEFREESTVILLE
DEFUNIAK SPRINGS
DEGOGNIA
DEGRASSE
DEGRAY
DEHART
DEHLCO
DEHUE
DEIBLERS
DEKALB
DEL BONITA
DEL CITY
DEL FAIR
DEL HAVEN
DEL KERN
DEL MAR
DEL MONTE PARK
DEL NORTE
DEL REY
DEL REY OAKS
DEL RIO
DEL SUR
DEL VALLE
DELACROIX
DELAFIELD
DELAIR
DELAMERE
DELANCO
DELAND
DELANO
DELANSON
DELAPLAINE
DELAPLANE
DELAVAN
DELAWANNA
DELAWARE
DELAWARE CITY
DELAWARE PARK
DELAWARE RUN
DELAWARE WATER GAP
DELBARTON
DELCAMBRE
DELCO
DELEVAN
DELFT
DELHI
DELIA
DELIGHT
DELL
DELL CITY
DELL COMPUTERS
DELL GROVE
DELL RAPIDS
DELLEKER
DELLROSE
DELLROY
DELLSLOW
DELLVILLE
DELLWOOD
DELMAR
DELMITA
DELMONT
DELOIT
DELONG
DELPHI
DELPHI FALLS
DELPHIA
DELPHOS
DELRAN
DELRAY
DELRAY BEACH
DELROSE
DELTA
DELTA GARDEN
DELTA JUNCTION
DELTAVILLE
DELTON
DELTONA
DELTONA PINES
DELUXE CHECK
DELUXE CHECK PRINTERS
DEMA
DEMAREST
DEMING
DEMOCRAT
DEMOPOLIS
DEMOREST
DEMOSSVILLE
DEMOTTE
DEMPSTER
DEMPSTER BEACH
DEMSTER
DENAIR
DENBIGH
DENBO
DENBY
DENDRON
DENHAM
DENHAM SPRINGS
DENHART
DENHAWKEN
DENHOFF
DENHOLM
DENIO
DENISON
DENMAN
DENMARK
DENNARD
DENNEBITO
DENNEHOTSO
DENNING
DENNIS
DENNIS MILLS
DENNIS PORT
DENNISON
DENNISON CORNERS
DENNISPORT
DENNISTON
DENNISTOWN
DENNISVILLE
DENNY
DENNY CREEK
DENNY TERRACE
DENNYSVILLE
DENSMORE
DENSON SPRING
DENT
DENTON
DENTSVILLE
DENVER
DENVER CITY
DENVER FEDERAL CENTER
DENVER WATER BOARD
DENVILLE
DEODATE
DEORA
DEPAUVILLE
DEPAUW
DEPEW
DEPEYSTER
DEPOE BAY
DEPORT
DEPOSIT
DEPUE
DEPUE JUNCTION
DEPUTY
DEQUINCY
DERBY
DERBY LINE
DERBY REFINING
DERIDDER
DERINDA CENTER
DERMOTT
DERONDA
DERRICK CITY
DERRS
DERRY
DERRY CHURCH
DERUYTER
DERWENT
DERWOOD
DES ALLEMANDS
DES ARC
DES LACS
DES MOINES
DES MONTES
DES PERES
DES PLAINES
DESCANSO
DESDEMONA
DESERET
DESERT AIRE
DESERT CENTER
DESERT HILLS
DESERT HOT SPRINGS
DESERT LAKE
DESERT SHORES
DESHA
DESHLER
DESLOGE
DESMET
DESOTO
DESPL/RSMT BUS RPLY
DESSAU
DESTIN
DESTREHAN
DETMOLD
DETOUR
DETROIT
DETROIT BEACH
DETROIT EDISON COMPANY
DETROIT LAKES
DETROIT RIVER STATION
DEUNQUAT
DEVALLS BLUFF
DEVAULT
DEVENS
DEVEREUX HEIGHTS
DEVERS
DEVILLE
DEVILS ELBOW
DEVILS LAKE
DEVILS LK
DEVILS TOWER
DEVINE
DEVOL
DEVON
DEVONIA
DEVONSHIRE
DEVONSHIRE HEIGHTS
DEVONSHIRE HT
DEVORE HEIGHTS
DEVOTION
DEWALT
DEWAR
DEWART
DEWDROP
DEWEES ISLAND
DEWEESE
DEWEY
DEWEY BEACH
DEWEYVILLE
DEWITT
DEWITTVILLE
DEWMAINE
DEWY ROSE
DEXTER
DEXTER CITY
DEXTER TWP
DEXTERVILLE
DFAS
DI GIORGIO
DIABLO
DIAGONAL
DIALION
DIALVILLE
DIAMOND
DIAMOND BAR
DIAMOND BLUFF
DIAMOND CENTER
DIAMOND CITY
DIAMOND COVE
DIAMOND ISLAND
DIAMOND LAKE
DIAMOND POINT
DIAMOND PT
DIAMOND SHAMROCK
DIAMOND SPRINGS
DIAMOND VALLEY
DIAMONDTOWN
DIAMONDVILLE
DIANA
DIAZ
DIBBLE
DIBOLL
DICE
DICK JOHNSON
DICKEL
DICKENS
DICKENSONVILLE
DICKERSON
DICKERSON RUN
DICKERT
DICKEY
DICKEYVILLE
DICKINSON
DICKINSON CENTER
DICKSON
DICKSON CITY
DIEHLSTADT
DIENERS HILL
DIERINGER
DIERKS
DIES
DIETERICH
DIETRICH
DIGGINS
DIGGS
DIGHTON
DIKE
DILIA
DILKON
DILL CITY
DILLARD
DILLE
DILLER
DILLES BOTTOM
DILLEY
DILLINER
DILLINGHAM
DILLMAN
DILLON
DILLON BEACH
DILLONS
DILLONVALE
DILLSBORO
DILLSBURG
DILLTOWN
DILLWYN
DILWORTH
DIME BOX
DIMMETTE
DIMMICK
DIMMITT
DIMOCK
DIMONDALE
DINERO
DINGESS
DINGLE
DINGMANS FERRY
DINGUS
DINOSAUR
DINSDALE
DINSMORE
DINUBA
DINWIDDIE
DIOMEDE
DIONA
DIPLOMAT
DIPLOMAT PLAZA
DIRECT ACCESS DIAGNOSTICS
DIRGIN
DISAUTEL
DISCOVERY BAY
DISNEY
DISNEY PRODUCTIONS
DISPUTANTA
DISSEN
DISSTON PLAZA
DIST FULFILLMENT SVC
DISTANT
DISTRICT
DISTRICT DIRECTOR IRS
DISTRICT HEIGHTS
DITTMER
DIV MOTOR VEH
DIVERNON
DIVIDE
DIVIDING CREEK
DIVOT
DIX
DIX HILLS
DIXBORO
DIXFIELD
DIXIANA
DIXIE
DIXIE VALLEY
DIXIELAND
DIXMONT
DIXMOOR
DIXON
DIXON SPRINGS
DIXONS MILLS
DIXONVILLE
DIZNEY
DOAK SPRINGS
DOANE
DOANS
DOBBIN
DOBBINS
DOBBINS AIR FORCE BASE
DOBBINS HEIGHTS
DOBBINSVILLE
DOBBS FERRY
DOBSON
DOCENA
DOCK
DOCKERY
DOCKTON
DOCKWEILER
DOCTORS INLET
DOCTORTOWN
DODD CITY
DODDRIDGE
DODDS
DODDS BRIDGE
DODDSVILLE
DODDTOWN
DODGE
DODGE CENTER
DODGE CITY
DODGEVILLE
DODSON
DOE HILL
DOE RUN
DOEBAY
DOERUN
DOGPATCH
DOGTOWN
DOGUE
DOGWOOD
DOGWOOD ACRES
DOGWOOD CITY
DOGWOOD TERRACE
DOLA
DOLAN
DOLAN SPRINGS
DOLAND
DOLES
DOLGEVILLE
DOLINGER
DOLLAR BAY
DOLLIVER
DOLLVILLE
DOLOMITE
DOLORES
DOLPH
DOLPHIN
DOLTON
DOMESTIC
DOMINGO
DOMINGUEZ
DOMINICK V DANIELS
DOMINION PARK
DOMINO
DONA
DONA ANA
DONA VISTA
DONAHUE
DONALD
DONALDS
DONALDSON
DONALDSONVILLE
DONALDSONVLLE
DONALSONVILLE
DONEGAL
DONEGAL HEIGHTS
DONEGAL SPRINGS
DONELSON
DONGOLA
DONIE
DONIPHAN
DONNA
DONNALLY MILL
DONNAN
DONNELLSON
DONNELLY
DONNELLYTOWN
DONNELSVILLE
DONNER
DONNER LAKE
DONNYBROOK
DONORA
DONOVAN
DOOLE
DOOLEYVILLE
DOOLIE
DOON
DOONAN CORNERS
DORA
DORA BEND
DORA LAKE
DORAL BRANCH
DORAN
DORAVILLE
DORCAS
DORCHESTER
DORCHESTER CENTER
DORENA
DORIS
DORLOO
DORMANSVILLE
DORMONT
DORNSIFE
DOROTHY
DORR
DORRANCE
DORRINGTON
DORRIS
DORSET
DORSEY
DORTCHES
DORTON
DORTON BRANCH
DOS CABEZAS
DOS PALOS
DOS RIOS
DOSIER
DOSS
DOSWELL
DOT
DOT LAKE
DOTELLE
DOTHAN
DOTSERO
DOTSON
DOTT
DOTY
DOTY GARDEN
DOUBLE ADOBE
DOUBLE BRANCHES
DOUBLE ISLAND
DOUBLE OAK
DOUBLE SHOALS
DOUBLE SPRINGS
DOUBLEDAY SELECT
DOUBLING GAP
DOUBS
DOUCETTE
DOUDS
DOUGHERTY
DOUGHTON
DOUGLAS
DOUGLAS CITY
DOUGLAS FLAT
DOUGLAS GROVE
DOUGLASS
DOUGLASSVILLE
DOUGLASTON
DOUGLASVILLE
DOUSMAN
DOUTYVILLE
DOVE CANYON
DOVE CREEK
DOVER
DOVER AIR FORCE BASE
DOVER ANNEX
DOVER FOXCROFT
DOVER HILL
DOVER PLAINS
DOVER TOWNSHIP
DOVER TWP
DOVRAY
DOW
DOW CHEMICAL MI DIVISION
DOW CHEMICAL USA
DOW CITY
DOWAGIAC
DOWDEN ACRES
DOWELL
DOWELLTOWN
DOWLING
DOWLING PARK
DOWNER
DOWNERS GROVE
DOWNEY
DOWNIEVILLE
DOWNING
DOWNINGTOWN
DOWNINGVILLE
DOWNS
DOWNSVILLE
DOWNTOWN STA
DOWNTOWN STATION
DOWS
DOWTOWN CARRIER ANNEX
DOWUS
DOYLE
DOYLES MILLS
DOYLESBURG
DOYLESTOWN
DOYLEVILLE
DOYLINE
DOYON
DOZIER
DR MARTIN LUTHER KING JR
DRACUT
DRAFFENVILLE
DRAFFIN
DRAGOON
DRAIN
DRAKE
DRAKES BRANCH
DRAKESBORO
DRAKESBURG
DRAKESVILLE
DRAPER
DRASCO
DRAVOSBURG
DRAYDEN
DRAYTON
DRAYTON PLAINS
DRAYTON PLNS
DREHERSVILLE
DREKA
DRENNEN
DRESBACH
DRESDEN
DRESDEN STATION
DRESHER
DRESSER
DRESSLERVILLE
DREW
DREWRYVILLE
DREWSEY
DREWSVILLE
DREXEL
DREXEL GARDENS
DREXEL GDNS
DREXEL HILL
DREXEL HILLS
DREXELBROOK
DREYER
DREYFUS
DRIFT
DRIFTING
DRIFTON
DRIFTWOOD
DRIGGS
DRIPPING SPRINGS
DRISCOLL
DRIVER
DRIVERS
DRIVERS LIC DIV
DROCTON
DROOP
DRUID
DRUID HILLS
DRUMMOND
DRUMMOND ISLAND
DRUMMONDS
DRUMORE
DRUMRIGHT
DRUMS
DRUMS CROSSROADS
DRURY
DRURY RUN
DRY BRANCH
DRY CREEK
DRY FORK
DRY PRONG
DRY RIDGE
DRY RUN
DRY VALLEY
DRY WOOD LAKE
DRYAD
DRYBRANCH
DRYDEN
DRYFORK
DRYHILL
DRYTOWN
DRYVILLE
DRYWOOD
DU BOIS
DU PONT
DU QUOIN
DUAN
DUANE
DUANESBURG
DUARTE
DUBACH
DUBBERLY
DUBINA
DUBLIN
DUBOIS
DUBOIS CROSSROADS
DUBOIS XRDS
DUBOISTOWN
DUBRE
DUBUQUE
DUCE
DUCHESNE
DUCK
DUCK CREEK
DUCK CREEK VILLAGE
DUCK KEY
DUCK LAKE
DUCK RIVER
DUCK VALLEY
DUCKTOWN
DUCKWATER
DUCO
DUCOR
DUDLEY
DUDLEY HILL
DUDLEY SHOALS
DUDLEYVILLE
DUE WEST
DUEBER
DUENWEG
DUETTE
DUFF
DUFFAU
DUFFIELD
DUFUR
DUGGER
DUGGINSVILLE
DUGSPUR
DUGWAY
DUHRING
DUKE
DUKE CENTER
DUKE FIELD AFS
DUKEDOM
DULAC
DULCE
DULLES
DULLES P & D CENTER
DULUTH
DULZURA
DUMAS
DUMFRIES
DUMMER
DUMMERSTON
DUMONT
DUN & BRADSTREET
DUNAIRE
DUNBAR
DUNBARTON
DUNBRIDGE
DUNCAN
DUNCAN FALLS
DUNCANNON
DUNCANS BRIDGE
DUNCANS MILLS
DUNCANSVILLE
DUNCANVILLE
DUNCOMBE
DUNCOTT
DUNDALK
DUNDALK SPARROWS POINT
DUNDAS
DUNDEE
DUNDORE
DUNEDIN
DUNELLEN
DUNFERMLINE
DUNGANNON
DUNGENESS
DUNGLEN
DUNHAM
DUNHAM HOLLOW
DUNKEL
DUNKELBERGERS
DUNKEN
DUNKERTON
DUNKINS MILL
DUNKIRK
DUNKSBURG
DUNLAP
DUNLAP ACRES
DUNLAP LAKE
DUNLAPSVILLE
DUNLAY
DUNLEARY
DUNLEVY
DUNLO
DUNLOW
DUNMOR
DUNMORE
DUNN
DUNN CENTER
DUNN LORING
DUNNEGAN
DUNNELL
DUNNELLON
DUNNIGAN
DUNNING
DUNNSTOWN
DUNNSVILLE
DUNNVILLE
DUNPHY
DUNREITH
DUNSBACH FERRY
DUNSEITH
DUNSMUIR
DUNSTABLE
DUNTON
DUNWOODY
DUPLESSIS
DUPO
DUPONT
DUPREE
DUPUYER
DUQUESNE
DUQUESNE UNIV
DUQUETTE
DUQUOIN
DURALEIGH
DURAN
DURAND
DURANGO
DURANT
DURANTS NECK
DURBIN
DURHAM
DURHAMVILLE
DURIAN
DURKEE
DURLACH
DURYEA
DUSHORE
DUSON
DUSTIN
DUSTY
DUSTY BEND
DUTCH FLAT
DUTCH FORK
DUTCH HARBOR
DUTCH JOHN
DUTCH TOWN
DUTCHTOWN
DUTTON
DUTY FERRY
DUTZOW
DUVALL
DUWAMISH
DUXBURY
DVILLE
DWALE
DWARF
DWIGHT
DYCKESVILLE
DYCUSBURG
DYE
DYER
DYERSBURG
DYERSVILLE
DYESS
DYESS AFB
DYKE
DYKERSBURG
DYKESVILLE
DYNAMIC RESOURCE GROUP
DYSART
E AMHERST
E ANDOVER
E ARLINGTON
E ASHTABULA
E ATLANTIC BEACH
E BAY MUN UTIL D
E BERKSHIRE
E   BETHANY
E   BLACKSTONE
E   BLOOMFIELD
E   BOSTON
E   BRAINTREE
E   BRIDGEWATER
E   BURKE
E   CANDIA
E   CHARLESTON
E   CHILLISQUAQ
E   CONCORD
E   DENNIS
E   DERRY
E   DORSET
E   DUBLIN
E   DUMMERSTON
E   ELLSWORTH
E   FAIRFIELD
E   FALMOUTH
E   FARMINGDALE
E   FLAT ROCK
E   FORT MYERS
E   FRANKLIN
E   FREEDOM
E   FREETOWN
E   FREETWN
E   FULTONHAM
E   GLASTONBURY
E   GLSTNBRY
E   GRANVILLE
E   GREENWICH
E   HAMPSTEAD
E   HAMPTON
E   HARTFORD
E   HARWICH
E   HAVEN
E   HEBRON
E   HILLS
E   HTFD
E   ISLIP
E   KILLINGLY
E   KINGSFORD
E   KINGSTON
E   LAKE
E   LAURINBURG
E   LAWRENCEVLE
E   LEMPSTER
E   LEWISBURG
E   LONGMEADOW
E   MARION
E   MASSAPEQUA
E   MC KEESPORT
E   MCKEESPORT
E   MEADOW
E   MIDDLEBURY
E   MILLSBORO
E   MILLSTONE
E   MONTPELIER
E MORICHES
E NORTHPORT
E NORWICH
E OTIS
EPA
E PALO ALTO
E PATCHOGUE
E PEMBROKE
E PENNSBORO
E PEPPERELL
E PITTSBURGH
E QUOGUE
E ROCHESTER
E ROCKAWAY
E ROCKLAND KEY
E RODMAN
E SANDWICH
E SEBAGO
E SETAUKET
E SMETHPORT
E SOMERVILLE
E SPRINGFIELD
E ST JOHNSBRY
E ST LOUIS
E STONEHAM
E SULLIVAN
E SWANZEY
E SYRACUSE
E THETFORD
E TOWN
E VANDERGRIFT
E VIEW
E WAKEFIELD
E WALLINGFORD
E WALPOLE
E WAREHAM
E WATERFORD
E WATERTOWN
E WILLISTON
E WINDSOR
E WINDSOR HL
E WOODSTOCK
E YAPHANK
EAB PLAZA
EADS
EAGAN
EAGAR
EAGARVILLE
EAGLE
EAGLE BAY
EAGLE BEND
EAGLE BRIDGE
EAGLE BUTTE
EAGLE CENTER
EAGLE CITY
EAGLE CREEK
EAGLE CREST
EAGLE GROVE
EAGLE HARBOR
EAGLE LAKE
EAGLE LAKE RESORT
EAGLE MILLS
EAGLE MOUNTAIN
EAGLE NEST
EAGLE PARK
EAGLE PASS
EAGLE POINT
EAGLE POINT BAY
EAGLE RIVER
EAGLE ROCK
EAGLE SPRINGS
EAGLE STATION
EAGLE TREE
EAGLE VALLEY
EAGLES MERE
EAGLES NEST
EAGLESWOOD TOWNSHIP
EAGLETON
EAGLETOWN
EAGLEVILLE
EAKIN
EAKLY
EARL
EARL MAY SEED
EARL PARK
EARLE
EARLE NAVAL WEAPONS STATION
EARLETON
EARLEVILLE
EARLHAM
EARLIMART
EARLING
EARLINGTON
EARLMOUNT
EARLSBORO
EARLTON
EARLVILLE
EARLY
EARLY BRANCH
EARLYSVILLE
EARP
EARTH
EARTH CITY
EARTH RESOURCES OBS
EASLEY
EAST
EAST ACRES
EAST AKRON
EAST ALAMOSA
EAST ALBANY
EAST ALSTEAD
EAST ALTON
EAST AMANA
EAST AMHERST
EAST AMWELL
EAST AMWELL TOWNSHIP
EAST AMWELL TWP
EAST ANDOVER
EAST ARLINGTON
EAST ASHTABULA
EAST ATLANTIC BEACH
EAST AURORA
EAST BALDWIN
EAST BANGOR
EAST BARNARD
EAST BARRE
EAST BECKLEY
EAST BEND
EAST BERKSHIRE
EAST BERLIN
EAST BERNARD
EAST BERNE
EAST BERNSTADT
EAST BETHANY
EAST BETHEL
EAST BLACKSTONE
EAST BLOOMFIELD
EAST BLUE HILL
EAST BLYTHE
EAST BOOTHBAY
EAST BOSTON
EAST BRADY
EAST BRAINTREE
EAST BRANCH
EAST BREMERTON
EAST BREWTON
EAST BRIDGEWATER
EAST BRIMFIELD
EAST BROOKFIELD
EAST BROOKLYN
EAST BRUNSWICK
EAST BUFFALO
EAST BURKE
EAST BUTLER
EAST CABOT
EAST CALAIS
EAST CAMBRIDGE
EAST CAMDEN
EAST CAMERON
EAST CANAAN
EAST CANDIA
EAST CANTON
EAST CAPE GIRARDEAU
EAST CARBON
EAST CAROLINA UNIV
EAST CARONDELET
EAST CARVER
EAST CASE
EAST CHARLEMONT
EAST CHARLESTON
EAST CHATHAM
EAST CHICAGO
EAST CHINA
EAST CHINA TOWNSHIP
EAST CHINA TWP
EAST CLARIDON
EAST CLEVELAND
EAST CLINTON
EAST COLUMBIA
EAST CONCORD
EAST CONNEAUT
EAST CONNERSVILLE
EAST CORINTH
EAST COTTER
EAST CRAFTSBURY
EAST CUSTER
EAST DANVILLE
EAST DEERFIELD
EAST DENNIS
EAST DERRY
EAST DES MOINES
EAST DETROIT
EAST DICKINSON
EAST DIXFIELD
EAST DORSET
EAST DOUGLAS
EAST DOVER
EAST DUBLIN
EAST DUBUQUE
EAST DUNDEE
EAST DURHAM
EAST EARL
EAST ELDORADO
EAST ELLIJAY
EAST ELLSWORTH
EAST ELMHURST
EAST ELMORE
EAST END
EAST ENOSBURG
EAST ENTERPRISE
EAST FAIRFIELD
EAST FALLOWFIELD TOWNSHIP
EAST FALMOUTH
EAST FARMINGDALE
EAST FARMINGTON
EAST FARMS
EAST FAYETTEVILLE
EAST FISHKILL
EAST FLAGSTAFF
EAST FLAT ROCK
EAST FLOYD
EAST FORK
EAST FOURTEENTH
EAST FRANKLIN
EAST FREEDOM
EAST FREEHOLD
EAST FREETOWN
EAST FULTON
EAST FULTONHAM
EAST GADSDEN
EAST GALESBURG
EAST GENOA
EAST GILLESPIE
EAST GLACIER
EAST GLACIER PARK
EAST GLASTONBURY
EAST GLENVILLE
EAST GRANBY
EAST GRAND FORKS
EAST GRAND RAPIDS
EAST GRANVILLE
EAST GREENBUSH
EAST GREENVILLE
EAST GREENWICH
EAST GRIDLEY
EAST GULF
EAST GULL LAKE
EAST HADDAM
EAST HADDONFIELD
EAST HAMILTON
EAST HAMPSTEAD
EAST HAMPTON
EAST HANNIBAL
EAST HANOVER
EAST HARDIN
EAST HARDWICK
EAST HARTFORD
EAST HARTLAND
EAST HARWICH
EAST HAVEN
EAST HAZEL CREST
EAST HEBRON
EAST HELENA
EAST HERKIMER
EAST HICKORY
EAST HIGHGATE
EAST HIGHLAND
EAST HILL
EAST HILLS
EAST HODGE
EAST HOLDEN
EAST HOMER
EAST HOPE
EAST HTFD
EAST HUBBARDTON
EAST IRVINE
EAST IRVINGTON
EAST ISLIP
EAST JAMAICA
EAST JEFFERSON
EAST JENKINS
EAST JEWETT
EAST JOHNSON
EAST JORDAN
EAST KANE
EAST KEANSBURG
EAST KEATING
EAST KILLINGLY
EAST KINGSFORD
EAST KINGSTON
EAST LAKE
EAST LANCASTER
EAST LANSDOWNE
EAST LANSING
EAST LAPORT
EAST LAURINBURG
EAST LAYTON
EAST LEMPSTER
EAST LEROY
EAST LEVERETT
EAST LEXINGTON
EAST LIBERTY
EAST LINE
EAST LIVERMORE
EAST LIVERPOOL
EAST LONG BEACH
EAST LONGMEADOW
EAST LOS ANGELES
EAST LYME
EAST LYNDON
EAST LYNN
EAST LYNNE
EAST MACHIAS
EAST MAINE
EAST MANSFIELD
EAST MARION
EAST MARLBORO
EAST MASONVILLE
EAST MASSAPEQUA
EAST MATUNUCK
EAST MAYFIELD
EAST MC DOWELL
EAST MC KEESPORT
EAST MCDONOUGH
EAST MCKEESPORT
EAST MEADOW
EAST MEREDITH
EAST MIDDLEBURY
EAST MILLBURY
EAST MILLINOCKET
EAST MILLSBORO
EAST MILLSTONE
EAST MILTON
EAST MINES
EAST MISSOULA
EAST MOLINE
EAST MONBO
EAST MONROE
EAST MONTPELIER
EAST MONTPELIER CENTER
EAST MORICHES
EAST MOUNTAIN
EAST MUNCY
EAST NASSAU
EAST NEW MARKET
EAST NEWARK
EAST NEWPORT
EAST NICHOLS
EAST NICOLAUS
EAST NORTHPORT
EAST NORWALK
EAST NORWICH
EAST OAKFIELD
EAST OLYMPIA
EAST OOLITIC
EAST ORANGE
EAST ORCHARD MESA
EAST ORLAND
EAST ORLEANS
EAST OROSI
EAST ORWELL
EAST OTIS
EAST OTTO
EAST PALATKA
EAST PALESTINE
EAST PALMYRA
EAST PALO ALTO
EAST PARSONFIELD
EAST PATCHOGUE
EAST PEACHAM
EAST PECOS
EAST PEMBROKE
EAST PEORIA
EAST PEPPERELL
EAST PETERSBURG
EAST PGH
EAST PHARSALIA
EAST PINEVILLE
EAST PITCAIRN
EAST PITTSBURGH
EAST PITTSFORD
EAST PLEASANT PLAIN
EAST POESTENKILL
EAST POINT
EAST POLAND
EAST PORT ORCHARD
EAST POULTNEY
EAST PRAIRIE
EAST PRINCETON
EAST PROSPECT
EAST PROVIDENCE
EAST PUTNAM
EAST PUTNEY
EAST QUILCENE
EAST QUINCY
EAST QUOGUE
EAST RANCHO DOMINGUEZ
EAST RANDOLPH
EAST RENOVO
EAST RIDGE
EAST ROCHESTER
EAST ROCKAWAY
EAST ROCKLAND KEY
EAST ROXBURY
EAST RUPERT
EAST RUTHERFORD
EAST RYEGATE
EAST SAINT JOHNSBURY
EAST SAINT LOUIS
EAST SALEM
EAST SANDWICH
EAST SCHODACK
EAST SEBAGO
EAST SELAH
EAST SETAUKET
EAST SHELBURN
EAST SHELDON
EAST SHOALS
EAST SIDE
EAST SIDNEY
EAST SMETHPORT
EAST SMITHFIELD
EAST SOMERVILLE
EAST SPARTA
EAST SPENCER
EAST SPRINGFIELD
EAST ST LOUIS
EAST STONE GAP
EAST STROUDSBURG
EAST SULLIVAN
EAST SUTTON RIDGE
EAST SWANZEY
EAST SYRACUSE
EAST TALLASSEE
EAST TAUNTON
EAST TAWAS
EAST TEMPLETON
EAST TEXAS
EAST THETFORD
EAST THOMPSON
EAST TOWNSEND
EAST TROY
EAST UNION
EAST VAIL
EAST VANDERGRIFT
EAST VASSALBORO
EAST VAUGHN
EAST VESTAL
EAST VIEW
EAST VINELAND
EAST WAKEFIELD
EAST WALLINGFORD
EAST WALPOLE
EAST WAREHAM
EAST WARREN
EAST WATERBORO
EAST WATERFORD
EAST WATERTOWN
EAST WELLINGTON
EAST WENATCHEE
EAST WENONA
EAST WEST CENTER
EAST WESTON
EAST WEYMOUTH
EAST WHITE PLAINS
EAST WILLIAMSON
EAST WILLINGTON
EAST WILLISTON
EAST WILTON
EAST WINDHAM
EAST WINDSOR
EAST WINDSOR HILL
EAST WINFIELD
EAST WINNFIELD
EAST WINTHROP
EAST WOODSTOCK
EAST WORCESTER
EAST YAPHANK
EAST YORK
EASTABOGA
EASTAMPTON
EASTAMPTON TOWNSHIP
EASTANOLLEE
EASTBOROUGH
EASTBROOK
EASTCHESTER
EASTEND
EASTERN
EASTERN AIRLINES
EASTFORD
EASTGATE
EASTHAM
EASTHAMPTON
EASTLAKE
EASTLAKE WEIR
EASTLAND
EASTLAND COMMONS
EASTLAND HILL
EASTMAN
EASTMAN KODAK
EASTMANVILLE
EASTMONT
EASTON
EASTONVILLE
EASTOVER
EASTPOINT
EASTPOINTE
EASTPORT
EASTSIDE
EASTSIDE CPO COOS BAY
EASTSOUND
EASTVIEW
EASTVILLE
EASTWICK
EASTWOOD
EATON
EATON CENTER
EATON PARK
EATON RAPIDS
EATONS NECK
EATONTON
EATONTOWN
EATONVILLE
EAU CLAIRE
EAU GALLE
EAU GALLIE
EAU PLEINE
EBARB
EBEN
EBEN JCT
EBEN JUNCTION
EBENEZER
EBENSBURG
EBERLE
EBERVALE
EBONY
EBRO
ECCLES
ECHELON
ECHO
ECHO BAY
ECHO LAKE
ECHO PARK
ECHO VALLEY
ECHOLA
ECHOLS
ECKARD
ECKELSON
ECKERMAN
ECKERT
ECKERTY
ECKHART MINES
ECKLES
ECKLEY
ECKMAN
ECKVILLE
ECLECTIC
ECLETO
ECONOMY
ECORSE
ECTOR
EDCOUCH
EDDINGTON
EDDY
EDDYSTONE
EDDYVILLE
EDELSTEIN
EDEN
EDEN ISLE
EDEN MILLS
EDEN PRAIRIE
EDEN VALLEY
EDENBURG
EDENDALE
EDENTON
EDENVILLE
EDFORD
EDGAR
EDGAR SPRINGS
EDGARD
EDGARTON
EDGARTOWN
EDGE
EDGE HILL
EDGEBROOK
EDGECOMB
EDGEFIELD
EDGEGROVE
EDGELEY
EDGELY
EDGEMERE
EDGEMONT
EDGEMOOR
EDGERTON
EDGEWATER
EDGEWATER BEACH
EDGEWATER PARK
EDGEWATER TERRACE
EDGEWOOD
EDGEWOOD ARSENAL
EDGEWOOD PARK
EDGEWORTH
EDGINGTON
EDINA
EDINBORO
EDINBURG
EDINBURGH
EDISON
EDISONVILLE
EDISTO
EDISTO BEACH
EDISTO ISLAND
EDLER
EDMESTON
EDMON
EDMOND
EDMONDS
EDMONDSON
EDMONSON
EDMONSTON
EDMONTON
EDMORE
EDMUND
EDMUNDS
EDMUNDSON
EDNA
EDNA BAY
EDNEYVILLE
EDOM
EDON
EDROY
EDSON
EDUC DEV CTR CORRESP
EDUCATIONAL TESTING SERVICE
EDWALL
EDWARD
EDWARDS
EDWARDS AIR FORCE BASE
EDWARDS CROSSROADS
EDWARDSBURG
EDWARDSPORT
EDWARDSVILLE
EDWIN
EEK
EEL RIVER
EFFIE
EFFINGHAM
EFFORT
EFLAND
EG&G
EGAN
EGBERT
EGE
EGEGIK
EGELAND
EGG HARBOR
EGG HARBOR CITY
EGG HARBOR TOWNSHIP
EGG HARBOR TWP
EGGERTSVILLE
EGGLESTON
EGIN
EGLANTINE
EGLIN
EGLIN AFB
EGLON
EGNAR
EGRALHARVE
EGREMONT
EGYPT
EGYPTIAN HILLS
EGYPTIAN SHORES
EHEART
EHRENBERG
EHRENFELD
EHRHARDT
EHRMANDALE
EIDSON
EIELSON AFB
EIGHT MILE
EIGHT MILE HOUSE
EIGHTY EIGHT
EIGHTY FOUR
EILEEN
EISENSTEIN
EITZEN
EKALAKA
EKIN
EKRON
EKWOK
EL ANCON
EL CAJON
EL CAMPO
EL CENIZO
EL CENTRO
EL CERRITO
EL DORADO
EL DORADO HILLS
EL DORADO SPG
EL DORADO SPRINGS
EL DUENDE
EL GATO
EL GRANADA
EL GUIQUE
EL HUERFANO
EL INDIO
EL JARDIN
EL JEBEL
EL JOBEAN
EL LAGO
EL LLANITO
EL LLANO
EL MACERO
EL MIRAGE
EL MONTE
EL MORO
EL NIDO
EL PASO
EL PASO NATURAL GAS
EL PASO WATER UTILITIES
EL PORTAL
EL PORTERO
EL PORVENIR
EL PRADO
EL PUEBLO
EL RANCHO
EL RANCHO LOMA LINDA
EL RENO
EL RINCON DE LOS TRUJILLOS
EL RITO
EL SAUZ
EL SEGUNDO
EL SERENO CAR
EL SOBRANTE
EL TORO
EL VADO
EL VALLE
EL VERANO
EL VISTA
ELA
ELAINE
ELAM
ELAMTON
ELAND
ELBA
ELBE
ELBERFELD
ELBERON
ELBERON PARK
ELBERT
ELBERTA
ELBERTON
ELBING
ELBOW LAKE
ELBRIDGE
ELBURN
ELBURZ
ELCHO
ELCO
ELDENA
ELDER BEERMAN
ELDERON
ELDERSBURG
ELDERSVILLE
ELDERTON
ELDERWOOD
ELDON
ELDORA
ELDORADO
ELDORADO AFS
ELDORADO SPRINGS
ELDRED
ELDRIDGE
ELEANOR
ELECTRA
ELECTRIC CITY
ELECTRON
ELECTRONIC DATA SYSTEMS
ELECTRONIC DATA SYSTEMS INC
ELEELE
ELEPHANT BUTTE
ELEROY
ELEVA
ELEVATION
ELEVEN MILE
ELEVEN MILE CORNER
ELEVON
ELFERS
ELFIN COVE
ELFRIDA
ELGER BAY
ELGIN
ELGIN AFB
ELGOOD
ELI
ELIAS
ELIASVILLE
ELIDA
ELIHU
ELIM
ELIMSPORT
ELIOT
ELIZ CITY
ELIZA
ELIZABETH
ELIZABETH CITY
ELIZABETH CITY COAST GUARD A
ELIZABETH LAKE
ELIZABETHPORT
ELIZABETHTON
ELIZABETHTOWN
ELIZABETHVILLE
ELIZABTHTWN
ELIZAVILLE
ELK
ELK BEND
ELK CITY
ELK CREEK
ELK FALLS
ELK GARDEN
ELK GROVE
ELK GROVE VILLAGE
ELK GROVE VLG
ELK HORN
ELK MILLS
ELK MOUND
ELK MOUNTAIN
ELK PARK
ELK PLAIN
ELK POINT
ELK RANCH
ELK RAPIDS
ELK RIDGE
ELK RIVER
ELK RUN HEIGHTS
ELK SPRINGS
ELK VALLEY
ELKA PARK
ELKADER
ELKATAWA
ELKFORK
ELKHART
ELKHART LAKE
ELKHEAD
ELKHORN
ELKHORN CITY
ELKHURST
ELKIN
ELKINS
ELKINS PARK
ELKINSVILLE
ELKLAND
ELKMONT
ELKO
ELKPORT
ELKRIDGE
ELKS POINT
ELKTON
ELKVIEW
ELKVILLE
ELKWOOD
ELLABELL
ELLAMORE
ELLAVILLE
ELLEN GOWAN
ELLENBORO
ELLENBURG
ELLENBURG CENTER
ELLENBURG DEPOT
ELLENDALE
ELLENSBURG
ELLENTON
ELLENVILLE
ELLENWOOD
ELLER
ELLERBE
ELLERSLIE
ELLERY
ELLET
ELLETTSVILLE
ELLICOTT
ELLICOTT CITY
ELLICOTTVILLE
ELLIJAY
ELLINGER
ELLINGTON
ELLINGTON FIELD
ELLINWOOD
ELLIOT
ELLIOTSVILLE
ELLIOTSVL
ELLIOTSVLE
ELLIOTT
ELLIOTTSBURG
ELLIOTTSON
ELLIOTTVILLE
ELLIS
ELLIS GROVE
ELLIS ISLAND
ELLIS PRAIRIE
ELLISBORO
ELLISBURG
ELLISFORD
ELLISGROVE
ELLISON
ELLISON BAY
ELLISTON
ELLISVILLE
ELLOREE
ELLPORT
ELLSBERRY
ELLSBURG
ELLSINORE
ELLSTON
ELLSWORTH
ELLSWORTH AFB
ELLWOOD
ELLWOOD CITY
ELM
ELM CITY
ELM CREEK
ELM GROVE
ELM HALL
ELM LAKE
ELM MOTT
ELM RIVER
ELM SPRINGS
ELMA
ELMATON
ELMDALE
ELMENDORF
ELMENDORF AFB
ELMER
ELMER CITY
ELMHURST
ELMHURST A
ELMIRA
ELMIRA HEIGHTS
ELMIRA HGTS
ELMIRA HTS
ELMO
ELMODEL
ELMONT
ELMORA
ELMORE
ELMORE CITY
ELMROCK
ELMSFORD
ELMVILLE
ELMWOOD
ELMWOOD PARK
ELNA
ELNORA
ELOISE
ELON
ELORA
ELOY
ELRAMA
ELRICK
ELROD
ELROSA
ELROY
ELSA
ELSAH
ELSANOR
ELSBERRY
ELSDON
ELSIE
ELSINORE
ELSMERE
ELSMORE
ELSTON
ELSTONVILLE
ELTHAM
ELTON
ELTOPIA
ELVASTON
ELVERSON
ELVERTA
ELVINS
ELVIRA
ELWELL
ELWIN
ELWOOD
ELWYN
ELWYN TERRACE
ELY
ELY COLONY
ELYRIA
ELYS
ELYSBURG
ELYSIAN
ELYSIAN FIELDS
EMBARRASS
EMBDEN
EMBLEM
EMBRY HLS
EMBUDO
EMC
EMDEN
EMEIGH
EMELINE
EMELLE
EMERADO
EMERALD
EMERALD BAY
EMERALD HILLS
EMERALD ISLE
EMERSON
EMERY
EMERY AIR FREIGHT
EMERYVILLE
EMERYWOOD
EMIGRANT
EMIGRANT GAP
EMIGRANT PASS
EMIGRANT TRAIL
EMIGSVILLE
EMILEE
EMILY
EMINENCE
EMINGTON
EMISON
EMIT
EMLENTON
EMLYN
EMMA
EMMALANE
EMMALENA
EMMAUS
EMMET
EMMETSBURG
EMMETT
EMMETT TOWNSHIP
EMMITSBURG
EMMONAK
EMMONS
EMORY
EMORY GAP
EMPEYVILLE
EMPIRE
EMPIRE STATE
EMPLOYERS HEALTH INSURE COS
EMPORIA
EMPORIUM
EMRICK
EMSWORTH
ENAVILLE
ENCAMPMENT
ENCHANTED HILLS
ENCINAL
ENCINITAS
ENCINO
ENDEAVOR
ENDERLIN
ENDERS
ENDICOTT
ENDOKA
ENDWELL
ENERGAS
ENERGY
ENERGY CENTER
ENETAI
ENFIELD
ENFIELD CENTER
ENGADINE
ENGELHARD
ENGELMAN
ENGINEERING SUPPORT CENTER
ENGLAND
ENGLAND RANCH
ENGLE
ENGLEMANN
ENGLESIDE
ENGLESVILLE
ENGLEVALE
ENGLEWOOD
ENGLEWOOD BEACH
ENGLEWOOD CLIFFS
ENGLISH
ENGLISH BAY
ENGLISH CREEK
ENGLISH LAKE
ENGLISH VILLAGE
ENGLISHTOWN
ENHAUT
ENID
ENIGMA
ENION
ENKA
ENKA VILLAGE
ENLOE
ENNICE
ENNING
ENNIS
ENO VALLEY
ENOCH
ENOCHS
ENOCHSBURG
ENOLA
ENON
ENON VALLEY
ENOREE
ENOS
ENOSBURG
ENOSBURG CENTER
ENOSBURG FALLS
ENRIGHT
ENROSE
ENSENADA
ENSIGN
ENSLEY
ENT AIR FORCE BASE
ENTERLINE
ENTERPRISE
ENTIAT
ENTLERVILLE
ENTRIKEN
ENUMCLAW
ENVILLE
ENVIR PRO AGENCY
ENVIR PROTECT AGENCY
EOLA
EOLIA
EOLINE
EPES
EPHESUS
EPHRAIM
EPHRATA
EPHRATAH
EPIPHANY
EPPARDS POINT
EPPING
EPPS
EPRISE
EPSOM
EPWORTH
EPWORTH HEIGHTS
EQUAL EMP OPPORTUNITY COMM
EQUALITY
EQUINUNK
EQUITABLE LIFE ASSURANCE
ERA
ERASTUS
ERATH
ERBACON
ERBIE
ERDA
ERDAHL
ERDENHEIM
ERDMAN
ERHARD
ERIAL
ERICK
ERICSON
ERIE
ERIE INS EXCHANGE
ERIE SHORES
ERIEVILLE
ERILINE
ERIN
ERIN PRAIRIE
ERLANDS POINT
ERLANGER
ERLTON
ERLY
ERMA
ERMINE
ERNEST
ERNESTVILLE
ERNUL
EROS
ERROL
ERSKINE
ERSKINE LAKES
ERVING
ERWIN
ERWIN HEIGHTS
ERWINNA
ERWINVILLE
ESADORE LAKE
ESBON
ESCALANTE
ESCALON
ESCANABA
ESCAPEES RV CLUB
ESCOBARES
ESCOBAS
ESCOBOSA
ESCOHEAG
ESCONDIDA
ESCONDIDO
ESHBACH
ESHCOL
ESKDALE
ESKO
ESKRIDGE
ESLER
ESMOND
ESMONT
ESOM HILL
ESOPUS
ESPANOLA
ESPARTO
ESPERANCE
ESPINOZA
ESPLANADE
ESPY
ESPYVILLE
ESSARY SPRINGS
ESSERVILLE
ESSEX
ESSEX CENTER
ESSEX FELLS
ESSEX JUNCTION
ESSEXVILLE
ESSIE
ESSIG
ESSINGTON
ESTACA
ESTACADA
ESTANCIA
ESTCOURT STATION
ESTELL MANOR
ESTELLE
ESTELLINE
ESTER
ESTERO
ESTES
ESTES PARK
ESTHER
ESTHERTON
ESTHERVILLE
ESTHERWOOD
ESTILL
ESTILL SPRINGS
ESTILLFORK
ESTRELLA
ETHAN
ETHEL
ETHELSVILLE
ETHER
ETHERTON
ETHETE
ETHLYN
ETHRIDGE
ETIWANDA
ETLAH
ETLAN
ETNA
ETNA GREEN
ETNA-TROY
ETOILE
ETON
ETOWAH
ETOWN
ETSU
ETTER
ETTERS
ETTERVILLE
ETTRICK
ETTY
EU
EUCHA
EUCLID
EUCLID HEIGHTS
EUDORA
EUDOWOOD
EUFAULA
EUFOLA
EUGENE
EULA
EULALIA
EULALIE
EULESS
EULOGY
EULONIA
EUNICE
EUNOLA
EURE
EUREKA
EUREKA CENTER
EUREKA SPGS
EUREKA SPRINGS
EUSTACE
EUSTIS
EUTAW
EUTAW SPRINGS
EUTAWVILLE
EVA
EVADALE
EVALINE
EVAN
EVANGELINE
EVANS
EVANS CITY
EVANS JUNCTION
EVANS MILLS
EVANSDALE
EVANSPORT
EVANSTON
EVANSVILLE
EVANSVILLE DRESS REGIONAL AI
EVANT
EVARO
EVART
EVARTS
EVELETH
EVELYN HILLS
EVENDALE
EVENING SHADE
EVENSVILLE
EVER
EVERDELL
EVEREST
EVERETT
EVERETTS
EVERETTVILLE
EVERGLADES BR
EVERGLADES CITY
EVERGREEN
EVERGREEN PARK
EVERHARTVILLE
EVERITT
EVERLY
EVERMAN
EVERSON
EVERTON
EVESHAM
EVESHAM TWP
EVILLE
EVINGTON
EVINSTON
EWA BEACH
EWAN
EWART
EWATERFRD
EWELL
EWEN
EWING
EWING TOWNSHIP
EWING TWP
EWINGTON
EWTRFORD
EX SPGS
EX SPRGS
EX SPRINGS
EXCEL
EXCELLO
EXCELSIOR
EXCELSIOR EST
EXCELSIOR SPG
EXCELSIOR SPRINGS
EXCHANGE
EXEC OFFICE OTHER ORGAN
EXECUTIVE PARK
EXELAND
EXETER
EXIRA
EXLINE
EXMORE
EXPERIMENT
EXPORT
EXPRESS MAIL REPORTING SYSTE
EXTENSION
EXTON
EYERS GROVE
EYLAR
EYNON
EYOTA
EZEL
EZRA
EZZELL
FM
FABENS
FABER
FABIUS
FABYAN
FACKLER
FACTORY VILLAGE
FACTORYVILLE
FADETTES
FAGLEYSVILLE
FAGUS
FAIR ACRES
FAIR BLUFF
FAIR GROVE
FAIR HARBOR
FAIR HAVEN
FAIR HOPE
FAIR LAWN
FAIR OAKS
FAIR OAKS RANCH
FAIR PLAY
FAIR VIEW
FAIRACRES
FAIRBANKS
FAIRBORN
FAIRBURN
FAIRBURY
FAIRCHANCE
FAIRCHILD
FAIRCHILD AIR FORCE BASE
FAIRCHILDS
FAIRDALE
FAIRDEALING
FAIRFAX
FAIRFAX STATION
FAIRFIELD
FAIRFIELD BAY
FAIRFIELD CENTER
FAIRFIELD GLADE
FAIRFIELD POND
FAIRFIELD TERRACE
FAIRFLD GLADE
FAIRFOREST
FAIRGROUND
FAIRGROUNDS
FAIRGROVE
FAIRHAVEN
FAIRHOLM
FAIRHOPE
FAIRLAND
FAIRLAWN
FAIRLEA
FAIRLEE
FAIRLESS HILLS
FAIRMAN
FAIRMEAD
FAIRMONT
FAIRMONT CITY
FAIRMONT HEIGHTS
FAIRMOUNT
FAIRMOUNT CITY
FAIRMOUNT SPR
FAIROAKS
FAIRPLAINS
FAIRPLAY
FAIRPOINT
FAIRTON
FAIRVIEW
FAIRVIEW CROSS ROADS
FAIRVIEW CROSSROADS
FAIRVIEW DRIVE
FAIRVIEW HEIGHTS
FAIRVIEW HILL
FAIRVIEW PARK
FAIRVIEW PK
FAIRVIEW VILLAGE
FAIRVILLE
FAIRWATER
FAIRWAY
FAIRWOOD
FAIRWOOD CTR.
FAISON
FAITH
FAKER
FALCON
FALCON AFB
FALCON HEIGHTS
FALCON VILLAGE
FALCONER
FALCONERVILLE
FALFURRIAS
FALK
FALKENBURG BRANCH
FALKIRK
FALKLAND
FALKVILLE
FALL BRANCH
FALL CITY
FALL CREEK
FALL LAKE
FALL RIVER
FALL RIVER MILLS
FALL ROCK
FALLBROOK
FALLEN LEAF
FALLENTIMBER
FALLING ROCK
FALLING SPRING
FALLING SPRNG
FALLING WATERS
FALLON
FALLON COLONY
FALLON NAVAL AIR STATION
FALLS
FALLS CHURCH
FALLS CITY
FALLS CREEK
FALLS MILL
FALLS MILLS
FALLS OF ROUGH
FALLS ROUGH
FALLS VILLAGE
FALLSBURG
FALLSINGTON
FALLSTON
FALLSVALE
FALMOUTH
FALMOUTH FORESIDE
FALSE PASS
FALUN
FAMILY FASHIONS BY AVON
FAMILY SUPPORT ADMINISTRATIO
FANCHER
FANCY FARM
FANCY GAP
FANCY HILL
FANCY PRAIRIE
FANDON
FANNETT
FANNETTSBURG
FANNIE
FANNIN
FANNING SPRINGS
FANROCK
FANSHAWE
FANWOOD
FAR
FAR HILLS
FAR ROCKAWAY
FARBER
FARDEN
FARELLY LAKE
FARGO
FARIBAULT
FARINA
FARISITA
FARISTA
FARLEN
FARLER
FARLEY
FARLEYS POINT
FARLINGTON
FARM CREDIT ADMIN
FARM HILL
FARM RIDGE
FARMDALE
FARMER
FARMER CITY
FARMER MARKET
FARMERS
FARMERS BRANCH
FARMERS INS
FARMERS INS GROUP
FARMERS RETREAT
FARMERSBURG
FARMERSTOWN
FARMERSVILLE
FARMERSVILLE STATION
FARMERVILLE
FARMINGDALE
FARMINGTON
FARMINGTON FALLS
FARMINGTON HILLS
FARMINGTON HLS
FARMINGTON MALL
FARMINGVILLE
FARMLAND
FARMVILLE
FARNAM
FARNER
FARNHAM
FARNHAMVILLE
FARNSWORTH
FARR WEST
FARRAGUT
FARRANDSVILLE
FARRAR
FARRELL
FARRIS
FARROW TERRACE
FARRSVILLE
FARSON
FARWELL
FASHING
FASSETT
FATE
FATHER FELIX VARELA
FAUBUSH
FAUCETT
FAULKNER
FAULKTON
FAUNSDALE
FAUST
FAWN
FAWN GROVE
FAWNSKIN
FAXON
FAY
FAYAL
FAYETTE
FAYETTE CITY
FAYETTEVILLE
FAYETTEVILLE MUNICIPAL AIRPO
FAYFIELD
FAYSON LAKE
FAYSON LAKES
FAYSTON
FAYSVILLE
FAYVILLE
FAYWOOD
FBI
FBI ACADEMY
FBI IDENTIFICATION UNIT
FDCI
FDL
FE WARREN AFB
FEARISVILLE
FEARNOT
FEARRINGTON VILLAGE
FEASTERVILLE
FEASTERVILLE TREVOSE
FEATHER FALLS
FEATHERVILLE
FECHTIG
FED COMMUNICATIONS COMM
FED EMER MNGT AGENCY
FED LABOR RELATIONS AUTH
FED MEDIATION AND CONCIL SER
FED RECORDS CENTER
FEDERAL
FEDERAL AVIATION ADMINISTRAT
FEDERAL AVIATION AGENCY
FEDERAL BLDG
FEDERAL BLDG COURTHOUSE
FEDERAL BLDG/US COURTHOUSE
FEDERAL COMMUNICATIONS COM
FEDERAL DAM
FEDERAL ELECTION COMM
FEDERAL ENERGY REG COMM
FEDERAL EXPRESS
FEDERAL HEIGHTS
FEDERAL MARITIME COMMISSION
FEDERAL RESERVE
FEDERAL RESERVE BOARD
FEDERAL TRADE COMM
FEDERAL WAY
FEDERALSBURG
FEDERATED FUNERAL
FEDHAVEN
FEDOR
FEDORA
FEDSCREEK
FEED SPRINGS
FEEDING HILLS
FEESBURG
FEEZOR
FELCH
FELCHVILLE
FELDA
FELDERVILLE
FELICITY
FELLOWS
FELLOWSHIP
FELLSBURG
FELLSMERE
FELT
FELTON
FELTONVILLE
FELTS MILLS
FEMME OSAGE
FENCE
FENCE LAKE
FENDLEY
FENELTON
FENN
FENN HAVEN
FENNER
FENNIMORE
FENNVILLE
FENTER
FENTON
FENTRESS
FENWICK
FENWICK IS
FENWICK ISLAND
FENWOOD
FERDA
FERDIG
FERDINAND
FERGES
FERGESTOWN
FERGUS FALLS
FERGUSON
FERGUSON HILL
FERGUSONVILLE
FERMANAGH
FERN
FERN CREEK
FERN GLEN
FERN PARK
FERNALD
FERNANDINA BEACH
FERNDALE
FERNEY
FERNLEY
FERNVILLE
FERNWOOD
FERRELLS CREEK
FERRELLSBURG
FERRELVIEW
FERRIDAY
FERRIN
FERRIS
FERRISBURG
FERRON
FERRUM
FERRYSBURG
FERRYVILLE
FERTILE
FERTILITY
FESSENDEN
FESTINA
FESTUS
FETTERS HOT SPRINGS
FETTERVILLE
FEURA BUSH
FHA COMPTROLLER
FIAT
FIATT
FIBRE
FIDDLETOWN
FIDELITY
FIDELITY INVESTMENTS
FIDELITY SERVICE COMPANY
FIDELITY UNION BKCARD
FIELD
FIELD PUBLICATIONS
FIELDALE
FIELDING
FIELDON
FIELDS
FIELDS LANDING
FIELDS STA
FIELDSBORO
FIELDSVILLE
FIELDTON
FIERRO
FIESTA KEY
FIFE
FIFE LAKE
FIFIELD
FIFTH WARD
FIFTY LAKES
FIFTY SEVENTH AVENUE
FIFTY SIX
FIG
FIGIS
FIGRIDGE
FILBERT
FILER
FILER CITY
FILER CORNERS
FILION
FILLEY
FILLMORE
FINANCIAL PLAZA
FINCASTLE
FINCHFORD
FINCHVILLE
FINDERNE
FINDLAY
FINDLEY LAKE
FINE
FINE LAKES
FINEVIEW
FINGAL
FINGER
FINGERHUT
FINGERHUT (PRE PAID)
FINGERHUT BUS REPLY
FINGERHUT DISTRIBUTION
FINGERHUT SWEEPSTAKES
FINGERVILLE
FINK
FINKSBURG
FINLAND
FINLAYSON
FINLEY
FINLEY AIR FORCE STATION
FINLEYVILLE
FINLY
FINNEY HEIGHTS
FINNEYTOWN
FIR GROVE
FIRCREST
FIRDALE
FIRE ISLAND
FIRE ISLAND PINES
FIREBAUGH
FIREBRICK
FIRESTEEL
FIRESTONE
FIRESTONE PARK
FIRESTONE TIRE
FIRM BRM
FIRM CASES
FIRM HOLDOUTS
FIRM ZIP
FIRM ZIP CODES
FIRM ZIP CON
FIRM ZIP CONCEPT
FIRM ZIP CONCEPT (BRM)
FIRM ZIP CONCEPT (COURTESY)
FIRMS
FIRMS-BUSINESS REPLY
FIRMS-COURTESY REPLY
FIRMZIP
FIRST FEDERAL OF MICHIGAN
FIRST INTERSTATE
FIRST MESA
FIRST UNION
FIRST VIEW
FIRTH
FIRWOOD
FISCHER
FISCUS
FISH CAMP
FISH CREEK
FISH HAVEN
FISH HOUSE
FISH LAKE
FISHER
FISHER BODY #1 BOC
FISHER BODY BOC
FISHER GUIDE CPC
FISHER ISLAND
FISHER TOWN
FISHERDALE
FISHERS
FISHERS FERRY
FISHERS HILL
FISHERS ISLAND
FISHERS LANDING
FISHERSVILLE
FISHERTOWN
FISHERVILLE
FISHHEAD
FISHING CREEK
FISHKILL
FISHS EDDY
FISHTAIL
FISHTRAP
FISHVILLE
FISK
FISKBURG
FISKDALE
FISKEVILLE
FISTY
FITCH
FITCHBURG
FITCHVILLE
FITHIAN
FITTSTOWN
FITZE
FITZGERALD
FITZHUGH
FITZPATRICK
FITZWILLIAM
FIVE CORNERS
FIVE FORKS
FIVE ISLANDS
FIVE MILE
FIVE MILE TERRACE
FIVE POINTS
FIVE POINTS HAMILTON
FIVEFORKS
FIVEMILE POINT
FIVEPOINTVILLE
FL REG LIB BL
FL REGIONAL LIBRARY FOR BLIN
FLAG
FLAG CENTER
FLAG POND
FLAGG
FLAGG SPRING
FLAGLER
FLAGLER BEACH
FLAGSTAFF
FLAGTOWN
FLAHERTY
FLAMINGO LODGE
FLANAGAN
FLANARY
FLANDERS
FLANDREAU
FLASHER
FLAT
FLAT CREEK
FLAT FORK
FLAT LICK
FLAT RIVER
FLAT ROCK
FLAT SPRINGS
FLAT TOP
FLATGAP
FLATONIA
FLATS
FLATWOOD
FLATWOODS
FLAXTON
FLAXVILLE
FLAY
FLEET
FLEET MARINE FORCE ATLANTIC
FLEETVILLE
FLEETWOOD
FLEISCHMANNS
FLEMING
FLEMING ISLAND
FLEMING NEON
FLEMINGSBURG
FLEMINGSBURG JUNCTION
FLEMINGTON
FLEMINGVILLE
FLENSBURG
FLETCHER
FLICK POINT
FLICKSVILLE
FLINGSVILLE
FLINT
FLINT HILL
FLINTHILL
FLINTON
FLINTRIDGE
FLINTSTONE
FLINTVILLE
FLIPPIN
FLO
FLOE
FLOM
FLOMATON
FLOMOT
FLOODWOOD
FLOR
FLORA
FLORA VISTA
FLORADALE
FLORAHOME
FLORAL
FLORAL CITY
FLORAL PARK
FLORALA
FLORAVILLE
FLORDELL HILLS
FLOREFFE
FLORENCE
FLORENCE VILLA
FLORENCEVILLE
FLORESVILLE
FLORHAM PARK
FLORIAN
FLORID
FLORIDA
FLORIDA CITY
FLORIDA GULF COAST UNIV
FLORIEN
FLORIN
FLORIS
FLORISSANT
FLORISSANT FOSSIL BEDS NATIO
FLORISTON
FLOSSMOOR
FLOURNOY
FLOURTOWN
FLOVILLA
FLOWELL
FLOWELLA
FLOWER
FLOWER MOUND
FLOWEREE
FLOWERFIELD
FLOWERMOUND
FLOWERS LANDING
FLOWERY BRANCH
FLOY
FLOYD
FLOYD DALE
FLOYDADA
FLOYDS KNOBS
FLUKER
FLUSHING
FLUVANNA
FLY
FLY CREEK
FLYGER
FLYING H
FLYNN
FMY
FOBES HILL
FOCUS ON THE FAMILY
FOGELSVILLE
FOGERTOWN
FOLA
FOLCROFT
FOLEY
FOLK
FOLKSTON
FOLLANSBEE
FOLLETT
FOLLETTS
FOLLY BEACH
FOLSOM
FOLSOMDALE
FOLSOMVILLE
FOMBELL
FOND DU LAC
FONDA
FONDA JCT
FONDALE
FONDE
FONDREN
FONESWOOD
FONTANA
FONTANA DAM
FONTANELLE
FONTANET
FONTENELLE
FOOD & AGRICULTURE ORGAN OF
FOOSLAND
FOOTHILL RANCH
FOOTSVILLE
FOOTVILLE
FORAKER
FORBES
FORBES PARK
FORBES RD
FORBES ROAD
FORBES VILLAGE
FORBESTOWN
FORBING
FORCE
FORD
FORD CITY
FORD CLIFF
FORD HEIGHTS
FORD MOTOR COMPANY
FORDLAND
FORDOCHE
FORDS
FORDS BRANCH
FORDS CORNER
FORDS PRAIRIE
FORDSVILLE
FORDTRAN
FORDVILLE
FORDYCE
FOREIGN CLAIMS SETTLEMENT
FOREMAN
FOREST
FOREST ACRES
FOREST CITY
FOREST DALE
FOREST FALLS
FOREST GLADE
FOREST GREEN
FOREST GROVE
FOREST HEIGHTS
FOREST HILL
FOREST HILLS
FOREST HLS
FOREST HOME
FOREST JUNCTION
FOREST KNOLLS
FOREST LAKE
FOREST LAKES
FOREST OAKS
FOREST PARK
FOREST PARK BEACH
FOREST RANCH
FOREST RIVER
FOREST SPRINGS
FORESTBURG
FORESTBURGH
FORESTDALE
FORESTER CHAPEL
FORESTGROVE
FORESTHILL
FORESTON
FORESTPORT
FORESTPORT STATION
FORESTVIEW
FORESTVILLE
FORGAN
FORGE VILLAGE
FORISTELL
FORK
FORK UNION
FORKED RIVER
FORKLAND
FORKS
FORKS OF SALMON
FORKS TOWNSHIP
FORKSVILLE
FORKTON
FORMAN
FORMOSA
FORMOSO
FORNEY
FORREST
FORREST CITY
FORRESTER CENTER
FORRESTON
FORSAN
FORSYTH
FORT ANN
FORT APACHE
FORT ASHBY
FORT ATKINSON
FORT BARNWELL
FORT BAYARD
FORT BELVOIR
FORT BENNING
FORT BENT
FORT BENTON
FORT BIDWELL
FORT BLACKMORE
FORT BLISS
FORT BRAGG
FORT BRAGG MILITARY
FORT BRANCH
FORT BRIDGER
FORT CALHOUN
FORT CAMPBELL
FORT CARSON
FORT CASWELL
FORT CHAFFEE
FORT CHISWELL
FORT CLARK
FORT COBB
FORT COLLINS
FORT COVINGTON
FORT DAVIS
FORT DE RUSSY
FORT DEARBORN
FORT DEFIANCE
FORT DEPOSIT
FORT DETRICK
FORT DEVENS
FORT DICK
FORT DIX
FORT DODGE
FORT DOUGLAS
FORT DRUM
FORT DUCHESNE
FORT EDWARD
FORT EUSTIS
FORT FAIRFIELD
FORT FISHER AIR FORCE STATIO
FORT FLAGLER
FORT GAINES
FORT GARLAND
FORT GATES
FORT GAY
FORT GEORGE
FORT GEORGE G MEADE
FORT GEORGE MEADE
FORT GIBSON
FORT GILLEM
FORT GORDON
FORT GRANT
FORT GRATIOT
FORT GRATIOT TOWNSHIP
FORT HALL
FORT HAMILTON
FORT HANCOCK
FORT HARRISON
FORT HERKIMER
FORT HILL
FORT HOOD
FORT HOOD 1ST CAVLRY DIV
FORT HOOD 2ND ARMRD DIV
FORT HOWARD
FORT HUACHUCA
FORT HUNTER
FORT HUNTER LIGGETT
FORT IRWIN
FORT JACKSON
FORT JENNINGS
FORT JESSUP
FORT JOHNSON
FORT JONES
FORT KENT
FORT KENT MILLS
FORT KLAMATH
FORT KNOX
FORT LARAMIE
FORT LAUDERDALE
FORT LAWN
FORT LAWTON
FORT LEAVENWORTH
FORT LEE
FORT LEONARD WOOD
FORT LESLEY J MCNAIR
FORT LEWIS
FORT LITTLETON
FORT LOGAN
FORT LORAMIE
FORT LOUDON
FORT LOWELL
FORT LUPTON
FORT LYON
FORT MACARTHUR
FORT MACON COAST GUARD BASE
FORT MADISON
FORT MC CLELLAN
FORT MC COY
FORT MC KAVETT
FORT MC PHERSON
FORT MCCOY
FORT MCDOWELL
FORT MCNAIR
FORT MCPHERSON
FORT MEADE
FORT MILL
FORT MILLER
FORT MITCHELL
FORT MOHAVE
FORT MONMOUTH
FORT MONROE
FORT MONTGOMERY
FORT MORGAN
FORT MOTTE
FORT MYER
FORT MYERS
FORT MYERS BEACH
FORT NEAL
FORT NECESSITY
FORT OGDEN
FORT OGLETHORPE
FORT PAYNE
FORT PECK
FORT PIERCE
FORT PIERRE
FORT PILLOW
FORT PLAIN
FORT POLK
FORT RALEIGH CITY
FORT RANSOM
FORT RECOVERY
FORT RICE
FORT RICHARDSON
FORT RILEY
FORT RINGGOLD
FORT RIPLEY
FORT RITCHIE
FORT RITNER
FORT ROBINSON
FORT ROCK
FORT ROSS
FORT RUCKER
FORT RUSSELL
FORT SALONGA
FORT SAM HOUSTON
FORT SCOTT
FORT SCOTT CAMPS
FORT SCREVEN
FORT SENECA
FORT SEYBERT
FORT SHAFTER
FORT SHAW
FORT SHERIDAN
FORT SILL
FORT SMITH
FORT SNELLING
FORT SNELLING MILITARY RESV
FORT SPRING
FORT STANTON
FORT STEELE
FORT STEVENS
FORT STEWART
FORT STOCKTON
FORT STORY
FORT SUMNER
FORT SUPPLY
FORT THOMAS
FORT THOMPSON
FORT TILDEN
FORT TOTTEN
FORT TOWSON
FORT VALLEY
FORT WAINWRIGHT
FORT WALTON BEACH
FORT WASHAKIE
FORT WASHINGTON
FORT WAYNE
FORT WHITE
FORT WINGATE
FORT WINGATE ARMY DEPOT
FORT WOLTERS
FORT WORDEN
FORT WORTH
FORT WRIGHT
FORT YATES
FORT YUKON
FORTESCUE
FORTINE
FORTNEY
FORTSON
FORTSVILLE
FORTUNA
FORTUNA AFS
FORTUNA AIR FORCE STA
FORTUNA LEDGE
FORTVILLE
FORTY FORT
FORTY FOUR
FOSCOE
FOSS
FOSSIL
FOSSTON
FOSSUM
FOSTER
FOSTER CITY
FOSTER FALLS
FOSTER POND
FOSTERS
FOSTERVILLE
FOSTORIA
FOUKE
FOULES
FOUNTAIN
FOUNTAIN BLUFF
FOUNTAIN CITY
FOUNTAIN GREEN
FOUNTAIN GRN
FOUNTAIN HILL
FOUNTAIN HILLS
FOUNTAIN INN
FOUNTAIN LAKE
FOUNTAIN PRAIRIE
FOUNTAIN RUN
FOUNTAIN SPRINGS
FOUNTAIN VALLEY
FOUNTAINTOWN
FOUNTAINVILLE
FOUR BUTTES
FOUR CORNERS
FOUR FORKS
FOUR LAKES
FOUR MILE
FOUR MILE CORNER
FOUR MILE LK
FOUR OAKS
FOUR POINTS
FOUR SEASONS
FOUR STATES
FOURMILE
FOURMILE HILL
FOUTS SPRINGS
FOWBELSBURG
FOWLER
FOWLERSVILLE
FOWLERTON
FOWLERVILLE
FOWLSTOWN
FOX
FOX CHAPEL
FOX CHASE MANOR
FOX CREEK
FOX HILL
FOX IS
FOX ISLAND
FOX LAKE
FOX LAKE HILLS
FOX POINT
FOX RIVER GROVE
FOX RIVER GRV
FOX RIVER VALLEY GARDENS
FOX RV VLY GN
FOX VALLEY
FOXBORO
FOXBOROUGH
FOXBURG
FOXCROFT
FOXCROFT SQUARE
FOXFIELD
FOXFIRE
FOXFIRE VILLAGE
FOXFIRE VLG
FOXHOLM
FOXHOME
FOXPARK
FOXPORT
FOXRIDGE
FOXTON
FOXTOWN
FOY
FOYIL
FRACKVILLE
FRAGARIA
FRAILEY
FRAKES
FRAME
FRAME SWITCH
FRAMETOWN
FRAMINGHAM
FRAMINGHAM CENTER
FRAMINGHAM SO
FRANCES
FRANCESTOWN
FRANCESVILLE
FRANCIS
FRANCIS CREEK
FRANCIS PLACE
FRANCISCO
FRANCISVILLE
FRANCITAS
FRANCONIA
FRANK
FRANKCLAY
FRANKENMUTH
FRANKENSTEIN
FRANKEWING
FRANKFORD
FRANKFORT
FRANKFORT CENTER
FRANKFORT HEIGHTS
FRANKLIN
FRANKLIN CENTER
FRANKLIN D ROOSEVELT
FRANKLIN DEPOT
FRANKLIN FURN
FRANKLIN FURNACE
FRANKLIN GROVE
FRANKLIN GRV
FRANKLIN HEIGHTS
FRANKLIN HILL
FRANKLIN HILLS
FRANKLIN HLS
FRANKLIN LAKES
FRANKLIN MINT
FRANKLIN PARK
FRANKLIN SPRINGS
FRANKLIN SQUARE
FRANKLIN TWP
FRANKLINTON
FRANKLINTOWN
FRANKLINVILLE
FRANKSTON
FRANKSTON LAKE
FRANKSVILLE
FRANKTON
FRANKTOWN
FRANKVILLE
FRANNIE
FRANZEN
FRASER
FRAZEE
FRAZER
FRAZEYSBURG
FRAZIER
FRAZIER PARK
FRAZIERS BOTTOM
FRED
FREDA
FREDBG
FREDERIC
FREDERICA
FREDERICK
FREDERICKBG
FREDERICKBUR
FREDERICKSBG
FREDERICKSBRG
FREDERICKSBUR
FREDERICKSBURG
FREDERICKSVILLE
FREDERICKTOWN
FREDERIKA
FREDETTEVILLE
FREDON
FREDON TOWNSHIP
FREDONIA
FREDRICKSBURG
FREDRICKTWN
FREDVILLE
FREE SOIL
FREE UNION
FREEBORN
FREEBURG
FREEBURN
FREEDOM
FREEDOM TWP
FREEHOLD
FREELAND
FREELANDVILLE
FREEMAN
FREEMAN SPUR
FREEMANS MILLS
FREEMANSBURG
FREEPORT
FREER
FREESTONE
FREETOWN
FREETOWN CORNERS
FREEVILLE
FREISTATT
FREMONT
FREMONT CENTER
FREMONT VALLEY
FRENCH
FRENCH CAMP
FRENCH CORRAL
FRENCH CREEK
FRENCH GULCH
FRENCH ISLAND
FRENCH LICK
FRENCH SETTLEMENT
FRENCH VILLAGE
FRENCH WOODS
FRENCHBORO
FRENCHBURG
FRENCHGLEN
FRENCHMAN
FRENCHMANS BAYOU
FRENCHTON
FRENCHTOWN
FRENCHVILLE
FRENS
FRESH MEADOWS
FRESH POND
FRESNAL CANYON
FRESNO
FRESNO BEE
FRESNO CITY UTILITIES
FRESNO CNTY MUNICIPAL COURT
FREW
FREWSBURG
FREYBURG
FREYSVILLE
FRIANT
FRIAR
FRIAR STATION
FRIARS HILL
FRIDAY
FRIDAY HARBOR
FRIDLEY
FRIED
FRIEDENS
FRIEDENSBURG
FRIEDHEIM
FRIEND
FRIENDLY
FRIENDLY VALLEY
FRIENDSHIP
FRIENDSHIP HEIGHTS
FRIENDSVILLE
FRIENDSWOOD
FRIERSON
FRIES
FRIESLAND
FRIO TOWN
FRIONA
FRIPP ISLAND
FRISBIE
FRISBY
FRISCO
FRISCO CITY
FRISTOE
FRITCH
FRITCHTON
FRITZ
FRITZ CREEK
FRITZTOWN
FROELICH
FROG LEVEL
FROG POND
FROGMORE
FROGSBORO
FROGTOWN
FROHNA
FROID
FROMBERG
FRONT ROYAL
FRONTENAC
FRONTIER
FRONTON
FROST
FROST TOWN
FROSTBURG
FROSTPROOF
FROZEN CREEK
FRS
FRUIT COVE
FRUIT HEIGHTS
FRUIT HILL
FRUIT VALLEY
FRUITA
FRUITDALE
FRUITHURST
FRUITLAND
FRUITLAND PARK
FRUITPORT
FRUITRIDGE
FRUITVALE
FRUITVILLE
FRUTO
FRY
FRY CANYON
FRYBURG
FRYDEK
FRYE
FRYE ISLAND
FRYEBURG
FRYSTOWN
FS
FT BAYARD
FT BENJAMIN HARRISON
FT BENT
FT BIDWELL
FT BLISS
FT CARSON
FT COLLINS
FT DEVENS
FT FLAGLER
FT GARLAND
FT GEORGE G MEADE
FT GORDON
FT GRANT
FT HALL
FT HAYS STATE
FT HUACHUCA
FT INDIANTOWN
FT JENNINGS
FT LAUDERDALE
FT LAWN
FT LEAVENWORTH
FT LEWIS
FT LITTLETON
FT LOGAN
FT LORAMIE
FT LOUDON
FT LOWELL
FT LUPTON
FT LYON
FT MACARTHUR
FT MCCLELLAN
FT MEADE
FT MILL
FT MITCHELL
FT MYER
FT MYERS
FT MYERS BEACH
FT NECESSITY
FT OGDEN
FT OSAGE
FT PAYNE
FT PLAIN
FT RECOVERY
FT SEYBERT
FT STANTON
FT STEWART
FT SUMNER
FT TOTTEN
FT TOWSON
FT TRUMBULL
FT WALTON BEACH
FT WASH
FT WASHINGTON
FT WAYNE
FT WORDEN
FT WORTH
FT WRIGHT
FT YATES
FT YUKON
FTN GREEN
FUGET
FULDA
FULFILLMENT
FULGHAM
FULKS RUN
FULLER THEOLOGICAL SEMINARY
FULLERTON
FULLERVILLE
FULP
FULSHEAR
FULTON
FULTON ACRES
FULTON BEACH
FULTON SPRINGS
FULTONDALE
FULTONHAM
FULTONVILLE
FULTS
FULTZ
FUNK
FUNKHOUSER
FUNKLEY
FUNKS GROVE
FUNKSTOWN
FUNSTON
FUQUAY VARINA
FURLONG
FURLOW
FURMAN
FURNEY RICHARDSON
FURNISS
FURNISS STA
FUSONIA
FUSSEL
FUTURE CITY
FVILLE
FYFFE
GEICO
GI
GMAC
GPO
G P O OFFICIAL MAIL
G W UNIV
GA INDUSTRIAL INSTITUTE
GAARS MILL
GAASTRA
GABBS
GABELSVILLE
GABLE
GABLES
GABLES BY THE SEA
GABRIELS
GACKLE
GADSDEN
GAFFNEY
GAGE
GAGES LAKE
GAGETOWN
GAGEVILLE
GAHAGAN
GAHANNA
GAIL
GAILLARD CROSSROADS
GAINES
GAINES LANDING
GAINESBORO
GAINESTOWN
GAINESVILLE
GAITHER
GAITHERSBURG
GAKONA
GALATA
GALATIA
GALAX
GALAXY
GALBRAITH
GALCHUTT
GALE
GALEN
GALENA
GALENA KNOLLS
GALENA PARK
GALES ADDITION
GALES CREEK
GALES FERRY
GALESBURG
GALESVILLE
GALETON
GALEVILLE
GALICE
GALIEN
GALILEE
GALION
GALISTEO
GALIVANTS FERRY
GALLAGHER
GALLAND
GALLANT
GALLATIN
GALLATIN GATEWAY
GALLAWAY
GALLEGOS
GALLIANO
GALLINA
GALLINAS
GALLION
GALLIPOLIS
GALLIPOLIS FERRY
GALLITZIN
GALLOWAY
GALLOWAY TOWNSHIP
GALLUP
GALLUP MILLS
GALLUPVILLE
GALMEY
GALT
GALVA
GALVESTON
GALVEZ
GALVIN
GALWAY
GALWAY LAKE
GAMALIEL
GAMBELL
GAMBIER
GAMBILL
GAMBLE
GAMBRILL
GAMBRILLS
GAME LODGE
GAMERCO
GAMEWELL
GAMMA
GANADO
GANDEEVILLE
GANDY
GANDY SPUR
GANDYS BEACH
GANGES
GANISTER
GANN VALLEY
GANNETT
GANNTOWN
GANO
GANS
GANSER BAR
GANSEVOORT
GANSVILLE
GANTT
GAP
GAP MILLS
GAPLAND
GAPVILLE
GAR CREEK
GARARDS FORT
GARBER
GARBERVILLE
GARCENO
GARCIA
GARCIASVILLE
GARDAR
GARDEN
GARDEN CITY
GARDEN CITY BEACH
GARDEN CITY PARK
GARDEN CITY SOUTH
GARDEN CREEK
GARDEN GROVE
GARDEN HILL
GARDEN HOME
GARDEN PLAIN
GARDEN PR
GARDEN PRAIRIE
GARDEN RIDGE
GARDEN VALLEY
GARDENA
GARDENDALE
GARDENS CORNER
GARDENVIEW
GARDENVILLE
GARDENWAY MANUFACTURING
GARDI
GARDINER
GARDNER
GARDNERS
GARDNERSVILLE
GARDNERVILLE
GAREY
GARFIELD
GARFIELD HEIGHTS
GARFIELD PLT
GARIBALDI
GARITA
GARLAND
GARLAND CITY
GARLAND SPRINGS
GARLOCK
GARNAVILLO
GARNEILL
GARNER
GARNERVILLE
GARNET LAKE
GARNETT
GAROGA
GARRARD
GARRATTSVILLE
GARRETSON
GARRETT
GARRETT BRIDGE
GARRETT PARK
GARRETTSVILLE
GARRISON
GARRISONVILLE
GARRYOWEN
GARSKE
GARTH
GARVIN
GARVIN RIDGE
GARWIN
GARWOOD
GARY
GARY CITY
GARYSBURG
GARYVILLE
GAS
GAS CITY
GAS HILLS
GASBURG
GASCONADE
GASCOYNE
GASKILL
GASPORT
GASQUET
GASSAWAY
GASSETTS
GASSOWAY
GASSVILLE
GASTON
GASTONIA
GASTONVILLE
GATCHEL
GATCHELLVILLE
GATE
GATE CITY
GATES
GATES MILLS
GATESVILLE
GATESWOOD
GATEWAY
GATEWOOD
GATLINBURG
GATZKE
GAULEY BRIDGE
GAULEY MILLS
GAUSDALE
GAUSE
GAVILAN
GAVIOTA
GAY
GAY HEAD
GAY HILL
GAY STREET
GAYFERS
GAYLESVILLE
GAYLORD
GAYLORDSVILLE
GAYS
GAYS CREEK
GAYS MILLS
GAYSVILLE
GAYVILLE
GAZA
GAZELLE
GBG
GDN CITY PARK
GEARHART
GEARY
GECC
GEDDES
GEDNEY
GEERS CORNERS
GEFF
GEICO CLAIMS
GEICO INSURANCE
GEICO UNDERWRITING
GEIGER
GEIGERTOWN
GEISINGER MED
GEISINGER MEDICAL CENTER
GEISMAR
GEM
GEM LAKE
GEM VILLAGE
GEMMELL
GEN SERVICES ADMIN
GENE AUTRY
GENEGANTSLET
GENERAL ACCOUNTING OFFICE
GENERAL DELIVERY
GENERAL ELEC CREDIT
GENERAL LAFAYETTE
GENERAL MOTORS
GENERAL TELE CO OF SW
GENESEE
GENESEE DEPOT
GENESEO
GENEVA
GENEVA ON THE LAKE
GENEVIA
GENOA
GENOA BLUFF
GENOA CITY
GENOA TWP
GENOLA
GENTILLY
GENTRY
GENTRYVILLE
GEO KOCH SONS
GEOLOGICAL SURVEY
GEORGE
GEORGE MASON
GEORGE SCHOOL
GEORGE WASHINGTON
GEORGE WEST
GEORGES MILLS
GEORGES RUN
GEORGETOWN
GEORGETOWN UNIV
GEORGIA
GEORGIANA
GEORGTOWN STATION
GEOTOWN
GEPP
GERALD
GERALDINE
GERANIUM
GERARD
GERBER
GERIDGE
GERING
GERLACH
GERLAW
GERMAN
GERMAN FLATTS
GERMAN VALLEY
GERMANIA
GERMANSVILLE
GERMANTON
GERMANTOWN
GERMANTOWN HILLS
GERMANVILLE
GERMFASK
GERONIMO
GERRARDSTOWN
GERRY
GERTON
GERTRUDE
GERVAIS
GETHER
GETTYSBURG
GETZVILLE
GEUDA SPRINGS
GEYSER
GEYSERVILLE
GFAFB POSTAL SERVICE CENTER
GHEEN
GHEENS
GHENT
GHOLSON
GHOST WRITERS
GIARD
GIATTO
GIBBON
GIBBON GLADE
GIBBONSVILLE
GIBBS
GIBBSBORO
GIBBSTOWN
GIBERSON
GIBRALTAR
GIBSLAND
GIBSON
GIBSON CITY
GIBSON CREEK
GIBSON ISLAND
GIBSONBURG
GIBSONIA
GIBSONTON
GIBSONVILLE
GIDDINGS
GIDEON
GIESE
GIFFORD
GIG HARBOR
GILA
GILA BEND
GILA BEND AF AUX FIELD
GILA CLIFF DWELLINGS NATIONA
GILARK
GILBERT
GILBERTON
GILBERTOWN
GILBERTS
GILBERTSVILLE
GILBERTVILLE
GILBOA
GILBY
GILCHRIST
GILCREST
GILDFORD
GILE
GILEAD
GILFORD
GILGO BEACH
GILKEY
GILL
GILLEM BRANCH
GILLESPIE
GILLETT
GILLETT GROVE
GILLETTE
GILLHAM
GILLIAM
GILLISONVILLE
GILLMORE
GILLSVILLE
GILLUM
GILLY
GILMAN
GILMAN CITY
GILMAN HOT SPRINGS
GILMANTON
GILMANTON IRON WORKS
GILMANTON IW
GILMANTOWN
GILMER
GILMORE
GILMORE CITY
GILMOUR
GILROY
GILSON
GILSUM
GILT EDGE
GILTNER
GIMLET
GINGER HILL
GINTER
GIPSY
GIRARD
GIRARDVILLE
GIRDLER
GIRDLETREE
GIRDWOOD
GIRVIN
GISELA
GIST SETTLEMENT
GITTS RUN
GIVEN
GLACE
GLACIER
GLAD VALLEY
GLADBROOK
GLADDEN
GLADE
GLADE HILL
GLADE PARK
GLADE SPRING
GLADE VALLEY
GLADES
GLADEVILLE
GLADEWATER
GLADSTONE
GLADWIN
GLADWYNE
GLADY
GLADYS
GLANDORF
GLASCO
GLASFORD
GLASGO
GLASGOW
GLASGOW VILLAGE
GLASS
GLASS LAKE
GLASSBORO
GLASSELL
GLASSELL PARK
GLASSER
GLASSPORT
GLASSTON
GLASTONBURY
GLAZE CITY
GLAZIER
GLEASON
GLEASONTON
GLECKER
GLEED
GLEESON
GLEN
GLEN ALLEN
GLEN ALLENW
GLEN ALPINE
GLEN ARBOR
GLEN ARM
GLEN AUBREY
GLEN AVON
GLEN BURNIE
GLEN CAMPBELL
GLEN CANYON
GLEN CARBON
GLEN CASTLE
GLEN CITY
GLEN COVE
GLEN DALE
GLEN DANIEL
GLEN DEAN
GLEN DOWER
GLEN EASTON
GLEN ECHO
GLEN EDEN
GLEN ELDER
GLEN ELLEN
GLEN ELLYN
GLEN FERRIS
GLEN FLORA
GLEN FORK
GLEN FORNEY
GLEN GARDNER
GLEN HAVEN
GLEN HEAD
GLEN HOPE
GLEN JEAN
GLEN LYN
GLEN LYON
GLEN MARY
GLEN MAWR
GLEN MILLS
GLEN MORGAN
GLEN OAKS
GLEN PARK
GLEN RAVEN
GLEN RICHEY
GLEN RIDDLE
GLEN RIDDLE LIMA
GLEN RIDGE
GLEN ROBBINS
GLEN ROCK
GLEN ROGERS
GLEN ROSE
GLEN SAINT MARY
GLEN SPEY
GLEN SPRINGS
GLEN ULLIN
GLEN WHITE
GLEN WILD
GLEN WILTON
GLENALLEN
GLENARDEN
GLENARM
GLENBEULAH
GLENBROOK
GLENBROOK HEIGHTS
GLENBURN
GLENBURNIE
GLENCLIFF
GLENCOE
GLENCOVE
GLENCROSS
GLENDALE
GLENDALE GALLERIA
GLENDALE HEIGHTS
GLENDALE HTS
GLENDALE SPGS
GLENDALE SPRINGS
GLENDIVE
GLENDO
GLENDON
GLENDORA
GLENEDEN BEACH
GLENELG
GLENFIELD
GLENFORD
GLENGARY
GLENHAM
GLENHAVEN
GLENHAYES
GLENIRON
GLENMONT
GLENMOORE
GLENMORA
GLENN
GLENN DALE
GLENN HEIGHTS
GLENN SPRINGS
GLENNALLEN
GLENNIE
GLENNS
GLENNS FERRY
GLENNVILLE
GLENOAK
GLENOLA
GLENOLDEN
GLENOMA
GLENOVER
GLENPOOL
GLENRIO
GLENROCK
GLENS FALLS
GLENS FORK
GLENSHAW
GLENSHIRE
GLENSIDE
GLENSTED
GLENTANA
GLENVAR
GLENVIEW
GLENVIEW NAS
GLENVIL
GLENVILLE
GLENWILD
GLENWILLARD
GLENWILLOW
GLENWOOD
GLENWOOD CITY
GLENWOOD CPO
GLENWOOD LANDING
GLENWOOD SPGS
GLENWOOD SPRINGS
GLENWORTH
GLEZEN
GLIDDEN
GLIDE
GLN ALLN
GLOBE
GLOBE VILLAGE
GLOCESTER
GLORIA GLENS
GLORIETA
GLOSTER
GLOU POINT
GLOUCESTER
GLOUCESTER CITY
GLOUCESTER POINT
GLOUCESTER PT
GLOUSTER
GLOUSTER POINT
GLOVER
GLOVERSVILLE
GLOVERVILLE
GLYMPVILLE
GLYNDON
GLYNN
GM SERVICE PARTS OPERATIONS
GM TRUCK AND BUS
GMF
GNADENHUTTEN
GNATSTOWN
GNAW BONE
GOAT ISLAND RESORT
GOBBLERS POINT
GOBER
GOBERNADOR
GOBLER
GOBLES
GOBLESVILLE
GODDARD
GODDARD FLIGHT CENTER
GODEFFROY
GODFREY
GODLEY
GODWIN
GOEHNER
GOESSEL
GOETZVILLE
GOFF
GOFFS
GOFFSTOWN
GOFORTH
GOLCONDA
GOLD
GOLD BAR
GOLD BEACH
GOLD CANYON
GOLD CREEK
GOLD HILL
GOLD LAKE ESTATES
GOLD POINT
GOLD RIVER
GOLD RUN
GOLDBERRY
GOLDBOND
GOLDEN
GOLDEN ACRES
GOLDEN BEACH
GOLDEN CITY
GOLDEN EAGLE
GOLDEN GATE
GOLDEN HILLS
GOLDEN ISLES
GOLDEN LAKE
GOLDEN MEADOW
GOLDEN POND
GOLDEN RIDGE
GOLDEN SHORES
GOLDEN VALLEY
GOLDENDALE
GOLDENGATE
GOLDENROD
GOLDENS BRG
GOLDENS BRIDGE
GOLDENVALLEY
GOLDFIELD
GOLDMAN
GOLDONNA
GOLDSBERRY
GOLDSBORO
GOLDSBY
GOLDSMITH
GOLDSMITHS
GOLDSTON
GOLDTHWAITE
GOLDVEIN
GOLDVILLE
GOLDWIN
GOLETA
GOLF
GOLF MANOR
GOLIAD
GOLINDA
GOLONDRINAS
GOLOVIN
GOLTRY
GOLTS
GOLVA
GOMER
GONIC
GONVICK
GONZAGA UNIV
GONZALES
GONZALES RANCH
GONZALEZ
GOOBER HILL
GOOBERVILLE
GOOCH MILL
GOOCHLAND
GOOD
GOOD HART
GOOD HOPE
GOOD PINE
GOOD SAMARITAN
GOOD SAMARITAN VILLAGE
GOOD SPRING
GOOD SPRINGS
GOOD THUNDER
GOODE
GOODELL
GOODELLS
GOODENOW
GOODFELLOW AFB
GOODFELLOW TERRACE
GOODFIELD
GOODHOPE
GOODHUE
GOODING
GOODISON
GOODLAND
GOODLETTSVILLE
GOODLETTSVL
GOODLETTSVLE
GOODLUCK
GOODMAN
GOODNEWS BAY
GOODNOW
GOODRICH
GOODRIDGE
GOODSON
GOODSPRING
GOODSPRINGS
GOODVIEW
GOODVILLE
GOODWATER
GOODWAY
GOODWELL
GOODWILL
GOODWIN
GOODWINE
GOODWOOD
GOODY
GOODYEAR
GOODYEAR TIRE
GOODYEARS BAR
GOODYEARS CORNERS
GOOFY RIDGE
GOOSE CREEK
GOOSE GREEN
GOOSE LAKE
GOOSE PRAIRIE
GOOSE ROCK
GOOSEBERRY
GOOSELAKE
GOOSETOWN
GOPHER
GORDA
GORDO
GORDON
GORDON HEIGHTS
GORDON LAKES
GORDONS
GORDONSVILLE
GORDONTOWN
GORDONVILLE
GORE
GOREE
GOREVILLE
GORHAM
GORHAMTOWN
GORIN
GORMAN
GORMANIA
GORST
GORUM
GOSHEN
GOSNELL
GOSPORT
GOSS
GOSSETT
GOTEBO
GOTHA
GOTHAM
GOTHENBURG
GOTTSCHALKS
GOUCH MILL
GOUDEAU
GOUGH
GOUGLERSVILLE
GOULD
GOULD CITY
GOULD HILL
GOULDBUSK
GOULDS
GOULDS MILL
GOULDSBORO
GOURD
GOUVERNEUR
GOVANS
GOVE
GOVERNMENT CAMP
GOVERT
GOWANDA
GOWEN
GOWEN CITY
GOWER
GOWRIE
GR BLANC
GRABALL
GRABILL
GRACE
GRACE CHAPEL
GRACE CITY
GRACE CTY
GRACE HILL
GRACE STA
GRACEHAM
GRACELAND
GRACELAND HEIGHTS
GRACELAND HTS
GRACEMONT
GRACETON
GRACEVILLE
GRACEWOOD
GRACEY
GRACIE
GRADY
GRADYVILLE
GRAEAGLE
GRAETTINGER
GRAF
GRAFF
GRAFORD
GRAFTON
GRAHAM
GRAHAMSVILLE
GRAHAMVILLE
GRAHN
GRAIN VALLEY
GRAINFIELD
GRAMBLING
GRAMERCY
GRAMLING
GRAMMER
GRAMPIAN
GRAMPIAN HLS
GRANADA
GRANADA HILLS
GRANBURY
GRANBY
GRANBY CENTER
GRANBY VALLEY
GRAND BAY
GRAND BEACH
GRAND BLANC
GRAND BLUFF
GRAND CANE
GRAND CANYON
GRAND CANYON CAVERNS
GRAND CENTRAL
GRAND CENTRAL BRM
GRAND CHAIN
GRAND CHENIER
GRAND CHUTE
GRAND COTEAU
GRAND COULEE
GRAND CROSSING
GRAND DETOUR
GRAND FALLS
GRAND FORKS
GRAND FORKS AFB
GRAND FORKS AIR FORCE BASE
GRAND GORGE
GRAND HAVEN
GRAND ISLAND
GRAND ISLE
GRAND JCT
GRAND JUNCTION
GRAND LAKE
GRAND LAKE STREAM
GRAND LEDGE
GRAND MARAIS
GRAND MARSH
GRAND MEADOW
GRAND MESA
GRAND MOUND
GRAND OAKS
GRAND PASS
GRAND PORTAGE
GRAND PRAIRIE
GRAND RAPIDS
GRAND RIDGE
GRAND RIVER
GRAND RIVERS
GRAND RONDE
GRAND SALINE
GRAND TERRACE
GRAND TOWER
GRAND VALLEY
GRAND VIEW
GRANDFALLS
GRANDFATHER
GRANDFIELD
GRANDIN
GRANDIN ROAD
GRANDVIEW
GRANDVIEW HEIGHTS
GRANDVIEW ON HUDSON
GRANDVIEW PLAZA
GRANDVILLE
GRANDY
GRANGE
GRANGE CITY
GRANGE HALL
GRANGEBURG
GRANGER
GRANGER HUNTER
GRANGERLAND
GRANGERVILLE
GRANGEVILLE
GRANITE
GRANITE BAY
GRANITE CANON
GRANITE CANYON
GRANITE CITY
GRANITE FALLS
GRANITE QUARRY
GRANITE SHOALS
GRANITE SHOALS LAKE SHORES
GRANITE SPRINGS
GRANITEVILLE
GRANJENO
GRANNIS
GRANO
GRANT
GRANT CITY
GRANT GROVE
GRANT PARK
GRANT ROAD ADDITION
GRANT TOWN
GRANT TOWNSHIP
GRANT VALLEY
GRANTFORK
GRANTHAM
GRANTON
GRANTS
GRANTS LICK
GRANTS PASS
GRANTSBORO
GRANTSBURG
GRANTSDALE
GRANTSVILLE
GRANTVILLE
GRANVILLE
GRANVILLE CENTER
GRANVILLE SUMMIT
GRAPEFIELD
GRAPELAND
GRAPEVIEW
GRAPEVILLE
GRAPEVINE
GRAPHITE
GRASHUL
GRASMERE
GRASONVILLE
GRASS CREEK
GRASS LAKE
GRASS RANGE
GRASS ROPE
GRASS VALLEY
GRASSFLAT
GRASSHOPPER JUNCTION
GRASSTON
GRASSY
GRASSY BUTTE
GRASSY CREEK
GRASSY KEY
GRASSY MEADOWS
GRASSY POINT
GRASSY SOUND
GRATERFORD
GRATIOT
GRATIS
GRATON
GRATTAN
GRATTON
GRATZ
GRAVEL BEACH
GRAVEL HILL
GRAVEL RIDGE
GRAVEL SWITCH
GRAVELLY
GRAVELRIDGE
GRAVELTON
GRAVES
GRAVES MILL
GRAVESVILLE
GRAVETTE
GRAVITY
GRAVLEETON
GRAVOIS MILLS
GRAWN
GRAY
GRAY COURT
GRAY GABLES
GRAY HAWK
GRAY MOUNTAIN
GRAY SUMMIT
GRAYBURG
GRAYLAND
GRAYLING
GRAYMONT
GRAYRIDGE
GRAYS
GRAYS CHAPEL
GRAYS HARBOR CITY
GRAYS KNOB
GRAYS LANDING
GRAYS POINT
GRAYS RIVER
GRAYSLAKE
GRAYSON
GRAYSON VALLEY
GRAYSVILLE
GRAYTOWN
GRAYVILLE
GRDN CITY
GREASEWOOD
GREASEWOOD SPRINGS
GREASON
GREASY CREEK
GREAT BARRINGTON
GREAT BEND
GREAT CACAPON
GREAT DIAMOND ISLAND
GREAT FALLS
GREAT LAKES
GREAT LAKES AREA OFFICE
GREAT MEADOWS
GREAT MILLS
GREAT NECK
GREAT NECK ESTATES
GREAT NK
GREAT NOTCH
GREAT POND
GREAT RIVER
GREAT SCOTT
GREAT VALLEY
GREATER INDIANA DISTRICT
GREATERVILLE
GREBLE
GREECE
GREELEY
GREELEY SQUARE
GREELEYVILLE
GREEN
GREEN ACRES
GREEN BAY
GREEN BLUFF
GREEN BROOK
GREEN BUSH
GREEN CAMP
GREEN CASTLE
GREEN CENTER
GREEN CITY
GREEN CORNER
GREEN COVE SPRINGS
GREEN CREEK
GREEN FARMS
GREEN FIELDS
GREEN FOREST
GREEN GABLES
GREEN GROVE
GREEN HALL
GREEN HARBOR
GREEN HILL
GREEN ISLAND
GREEN ISLE
GREEN LAKE
GREEN LANE
GREEN LAWN
GREEN LAWN TERRACE
GREEN LEVEL
GREEN MEADOW
GREEN MOUNTAIN
GREEN MOUNTAIN FALLS
GREEN MT
GREEN OAK TWP
GREEN OAKS
GREEN PARK
GREEN PK
GREEN POINT
GREEN POND
GREEN RIDGE
GREEN RIVER
GREEN ROAD
GREEN ROCK
GREEN SEA
GREEN SPRING
GREEN SPRINGS
GREEN SULPHUR SPRINGS
GREEN TOWNSHIP
GREEN VALLEY
GREEN VALLEY LAKE
GREEN VILLAGE
GREEN WAY
GREENACRES
GREENBACK
GREENBACKVILLE
GREENBAY
GREENBELT
GREENBRAE
GREENBRIER
GREENBURGH
GREENBURR
GREENBURY
GREENBUSH
GREENCASTLE
GREENCREEK
GREENDALE
GREENDELL
GREENE
GREENE JUNCTION
GREENEHAVEN
GREENEVILLE
GREENFIELD
GREENFIELD CENTER
GREENFIELD MANOR
GREENFIELD PARK
GREENFIELD TOWNSHIP
GREENFIELD TWP
GREENFORD
GREENHAVEN
GREENHILLS
GREENHURST
GREENLAND
GREENLAWN
GREENLEAF
GREENLEAFTON
GREENMEAD
GREENMOUNT
GREENMOUNTAIN
GREENOCK
GREENOUGH
GREENPARK
GREENPOND
GREENPORT
GREENS BAYOU
GREENS FARMS
GREENS FORK
GREENSBORO
GREENSBORO BEND
GREENSBORO BMC
GREENSBORO BUSINESS REPLY
GREENSBORO COURTESY REPLY
GREENSBORO-HIGH POINT-WINSTO
GREENSBOROUGH
GREENSBURG
GREENSPRING
GREENSTONE
GREENTOP
GREENTOWN
GREENTREE
GREENUP
GREENVALE
GREENVIEW
GREENVILLAGE
GREENVILLE
GREENVILLE JUNCTION
GREENWALD
GREENWATER
GREENWAY
GREENWAY PLAZA
GREENWD
GREENWELL SPRINGS
GREENWICH
GREENWICH TOWNSHIP
GREENWOOD
GREENWOOD HILL
GREENWOOD LAKE
GREENWOOD TOWNSHIP
GREENWOOD VILLAGE
GREER
GREERS FERRY
GREGG
GREGGTON
GREGORY
GREGORYTOWN
GREIG
GRELTON
GRENADA
GRENELEFE
GRENELL
GRENLOCH
GRENOLA
GRENORA
GRENVILLE
GRESHAM
GRESHVILLE
GRETHEL
GRETNA
GREY CLOUD ISLAND
GREY EAGLE
GREY FOREST
GREYBROOK LAKE
GREYBULL
GREYCLIFF
GREYSTONE
GREYSTONE PARK
GRICE
GRIDLEY
GRIDLEYVILLE
GRIESEMERSVILLE
GRIFFIN
GRIFFING
GRIFFING PARK
GRIFFITH
GRIFFITH SPRING
GRIFFITHSVILLE
GRIFFITHTOWN
GRIFFITHVILLE
GRIFTON
GRIGG
GRIGGSVILLE
GRIGSBY
GRIMES
GRIMESLAND
GRIMESVILLE
GRIMMS LANDING
GRIMSBY
GRIMSLEY
GRIMSTEAD
GRIMVILLE
GRINDERS
GRINDSTONE
GRINDSTONE CITY
GRINDSTONE CREEK RANCHERIA
GRINNELL
GRISDALE
GRISHAM
GRISSOM A R B
GRISSOM AIR RESERVE BASE
GRISSOM ARB
GRISWOLD
GRIZZLY FLATS
GRN MOUNTAIN
GRNPARK
GRNWOOD
GROESBECK
GROFFDALE
GROGAN
GROLIER BOOKS
GRONINGEN
GROOM
GROOM CREEK
GROOMTOWN
GROSCLOSE
GROSS
GROSSE ILE
GROSSE POINTE
GROSSE POINTE FARMS
GROSSE POINTE PARK
GROSSE POINTE SHORES
GROSSE POINTE WOODS
GROSSE TETE
GROSVENOR
GROSVENOR DALE
GROTON
GROTON CITY
GROTON LONG POINT
GROTTO
GROTTOES
GROUSE CREEK
GROUSELAND
GROUT
GROVANIA
GROVE
GROVE CENTER
GROVE CITY
GROVE CITY FACTORY SHOPS
GROVE HALL
GROVE HILL
GROVELAND
GROVEOAK
GROVEPORT
GROVER
GROVER BEACH
GROVER HILL
GROVER HILLS
GROVERTOWN
GROVES
GROVESPRING
GROVETON
GROVETOWN
GROVEVILLE
GRT NECK
GRUBBS
GRUBVILLE
GRUETLI
GRUETLI LAAGER
GRULLA
GRUNDY
GRUNDY CENTER
GRUVER
GRYGLA
GSA CONSUMER PRODUCTS INFO
GSA CRYSTAL CITY
GSA REGION 3
GSA SURPLUS SALES
GSA-TCS
GT BARRINGTON
GT BEND
GT NECK
GTE BUSINESS COMM SYST
GU ACHI
GUACHUPANGUE
GUADALUPE
GUADALUPITA
GUAGE
GUAGOLOTES
GUAJILLO
GUALALA
GUASTI
GUATAY
GUBSER MILL
GUELPH
GUEMES
GUEMES ISLAND
GUERNEVILLE
GUERNEWOOD
GUERNSEY
GUERRA
GUERRANT
GUERRIER
GUEYDAN
GUFFEY
GUFFIN BAY
GUIDE ROCK
GUILD
GUILDERLAND
GUILDERLAND CENTER
GUILDHALL
GUILFORD
GUILFORD CENTER
GUILFORD SPRS
GUIN
GUINDA
GUION
GUIQUE
GULF
GULF BREEZE
GULF CREST
GULF GATE BRANCH
GULF HAMMOCK
GULF OIL
GULF SHORES
GULF STREAM
GULFPORT
GULKANA
GULLEDGE
GULLIVER
GULLY
GULNARE
GULSTON
GUM BRANCH
GUM SPRING
GUM SPRINGS
GUM SPRINGS ROAD
GUM TREE
GUMBERRY
GUMBO
GUMSPRING
GUMTREE
GUN BARREL CITY
GUNDER
GUNLOCK
GUNN CITY
GUNNISON
GUNPOWDER
GUNTER
GUNTER A F S
GUNTER AFB
GUNTER AFS
GUNTER AFS-ECI
GUNTER ECI
GUNTERSVILLE
GURDON
GURLEY
GURLEYVILLE
GURN SPRING
GURNEE
GURNEY
GUSHER
GUSS
GUSTAVE
GUSTAVUS
GUSTINE
GUSTON
GUTHRIE
GUTHRIE CENTER
GUTTENBERG
GUY
GUYMON
GUYS
GUYS MILLS
GUYSIE
GUYSVILLE
GUYTON
GWENFORD
GWINN
GWINNER
GWYME
GWYNEDD
GWYNEDD VALLEY
GWYNN
GWYNN OAK
GWYNNEVILLE
GYPSUM
GYPSY
HIA
H L CROSSROADS
HP
H SPG NAT PK
HABBERTON
HABERSHAM
HACHITA
HACIENDA HEIGHTS
HACK
HACKBERRY
HACKENSACK
HACKER VALLEY
HACKETT
HACKETTSTOWN
HACKLEBURG
HACKSNECK
HACODA
HADAR
HADDAM
HADDAM NECK
HADDIX
HADDOCK
HADDON
HADDON HEIGHTS
HADDONFIELD
HADENSVILLE
HADLEY
HADLOCK
HADLYME
HAFER
HAGALI
HAGAMAN
HAGAN
HAGAR SHORES
HAGARS GROVE
HAGARSTOWN
HAGARVILLE
HAGEDORNS MILLS
HAGER
HAGER CITY
HAGERHILL
HAGERMAN
HAGERSTOWN
HAGEWOOD
HAGOOD
HAGUE
HAHATONKA
HAHIRA
HAHNAMAN
HAHNSTOWN
HAHNVILLE
HAID
HAIG
HAIGLER
HAIKU
HAILE
HAILESBORO
HAILEY
HAILEYVILLE
HAILSTONE
HAINES
HAINES CITY
HAINES CREEK
HAINES CTY
HAINES FALLS
HAINESPORT
HAINESPORT TOWNSHIP
HAINESVILLE
HAKALAU
HALBERT
HALBUR
HALCOTT CENTER
HALCOTTSVILLE
HALCYON
HALDANE
HALDEMAN
HALDEN
HALDER
HALE
HALE CENTER
HALEBURG
HALEDON
HALEEKA
HALEIWA
HALES CORNERS
HALES EDDY
HALES LOCATION
HALESITE
HALETHORPE
HALEY
HALEYVILLE
HALF DAY
HALF MOON BAY
HALF WAY
HALFMOON
HALFVILLE
HALFWAY
HALIBUT COVE
HALIFAX
HALL
HALL SUMMIT
HALLAM
HALLAND
HALLANDALE
HALLANDALE BEACH
HALLECK
HALLETT
HALLETTSVILLE
HALLEY
HALLEY JUNCTION
HALLIBURTON
HALLIDAY
HALLIDAYBORO
HALLIE
HALLIEFORD
HALLIS
HALLOCK
HALLORAN SPRINGS
HALLOWELL
HALLS
HALLS CROSSING
HALLS MILLS
HALLSBORO
HALLSBURG
HALLSTEAD
HALLSVILLE
HALLTOWN
HALLWOOD
HALMA
HALO
HALSEY
HALSTAD
HALSTEAD
HALSTED
HALTOM CITY
HALYOKE
HAM LAKE
HAMAR
HAMBERG
HAMBLETON
HAMBLETVILLE
HAMBURG
HAMBY
HAMDEN
HAMEL
HAMER
HAMERSVILLE
HAMETOWN
HAMILL
HAMILTON
HAMILTON CITY
HAMILTON CORNER
HAMILTON DOME
HAMILTON GRANGE STATION
HAMILTON PARK
HAMILTON SQUARE
HAMILTON TOWNSHIP
HAMILTON TWP
HAMITER
HAMLER
HAMLET
HAMLETSBURG
HAMLIN
HAMMER
HAMMERSLEY FK
HAMMET
HAMMETT
HAMMIL VALLEY
HAMMON
HAMMOND
HAMMOND CROSSROADS
HAMMONDSPORT
HAMMONDSVILLE
HAMMONDVILLE
HAMMONSVILLE
HAMMONTON
HAMON
HAMPDEN
HAMPDEN SYDNEY
HAMPDEN TOWNSHIP
HAMPSHIRE
HAMPSTEAD
HAMPTON
HAMPTON BAYS
HAMPTON BEACH
HAMPTON COVE
HAMPTON FALLS
HAMPTONVILLE
HAMS PRAIRIE
HAMS STATION
HAMSFORK
HAMSHIRE
HAMTOWN
HAMTRAMCK
HANA
HANAFORD
HANAHAN
HANALEI
HANAMAULU
HANAPEPE
HANCEVILLE
HANCOCK
HANCOCKS BRIDGE
HANDLEY
HANDY
HANES
HANES/LEGGS
HANEYVILLE
HANFORD
HANFORD WORKS
HANGAARD
HANGING ROCK
HANKAMER
HANKINS
HANKINSON
HANKS
HANKS STATION
HANKSVILLE
HANLEY
HANLEY FALLS
HANLEY HILLS
HANLONTOWN
HANNA
HANNA CITY
HANNACROIX
HANNAFORD
HANNAH
HANNASTOWN
HANNAWA FALLS
HANNERSVILLE
HANNIBAL
HANNIBAL CENTER
HANNOVER
HANO
HANOVER
HANOVER BEACH
HANOVER DIRECT
HANOVER HOUSE
HANOVER PARK
HANOVER TOWNSHIP
HANOVERTON
HANSBORO
HANSCOM AFB
HANSELL
HANSEN
HANSEN HILLS
HANSEN ROAD
HANSFORD
HANSKA
HANSON
HANSONVILLE
HANSTON
HANSVILLE
HAPEVILLE
HAPPY
HAPPY CAMP
HAPPY JACK
HAPPY VALLEY
HAPPYLAND
HARAHAN
HARALSON
HARBERT
HARBESON
HARBINE
HARBINGER
HARBISON
HARBOR
HARBOR ACRES
HARBOR BEACH
HARBOR CITY
HARBOR HEIGHTS
HARBOR HILLS
HARBOR ISLAND
HARBOR ISLE
HARBOR POINT
HARBOR SPRINGS
HARBOR VIEW
HARBORCREEK
HARBORSIDE
HARBORTON
HARBVILLE
HARCO
HARCOURT
HARD ROCK
HARDAWAY
HARDBURLY
HARDEEVILLE
HARDEN CITY
HARDENVILLE
HARDESTY
HARDIN
HARDING
HARDINSBURG
HARDINVILLE
HARDMAN CENTER
HARDSHELL
HARDTNER
HARDWICH
HARDWICK
HARDWOOD
HARDY
HARDYVILLE
HARE
HARFORD
HARG
HARGILL
HARGIS
HARKER HEIGHTS
HARKERS IS
HARKERS ISLAND
HARKEYVILLE
HARKINS CROSSROADS
HARKNESS
HARLAN
HARLEIGH
HARLEM
HARLEM SPRINGS
HARLEQUIN BOOKS
HARLETON
HARLEYSVILLE
HARLEYVILLE
HARLINGEN
HARLOW
HARLOWTON
HARMAN
HARMANS
HARMON
HARMONSBURG
HARMONY
HARMONY CORNERS
HARMONYVILLE
HARNED
HARNELL PARK
HARNEY PEAK
HAROLD
HARP TOWNSHIP
HARPER
HARPER TAVERN
HARPER WOODS
HARPERS CROSSROADS
HARPERS FERRY
HARPERSFIELD
HARPERSVILLE
HARPSTER
HARPSWELL
HARPURSVILLE
HARRAH
HARRELL
HARRELLS
HARRELLSVILLE
HARRIET
HARRIET CARTER GIFTS
HARRIETSTOWN
HARRIETT
HARRIETTA
HARRIMAN
HARRINGTON
HARRINGTON PARK
HARRIS
HARRISBURG
HARRISBURG JUNCTION
HARRISON
HARRISON CITY
HARRISON CROSS ROADS
HARRISON TOWNSHIP
HARRISON TWP
HARRISON VALLEY
HARRISONBURG
HARRISONVILLE
HARRISTON
HARRISTOWN
HARRISVILLE
HARROD
HARRODS
HARRODS CREEK
HARRODSBURG
HARROGATE
HARROLD
HARSENS ISLAND
HARSHAW
HARSTINE
HART
HART LOT
HARTFIELD
HARTFORD
HARTFORD CITY
HARTFORD INSURANCE GROUP
HARTFRD
HARTINGTON
HARTLAND
HARTLAND FOUR CORNERS
HARTLAND TWP
HARTLETON
HARTLEY
HARTLEYVILLE
HARTLINE
HARTLY
HARTMAN
HARTS
HARTS LOCATION
HARTSBURG
HARTSDALE
HARTSEL
HARTSELLE
HARTSFIELD
HARTSGROVE
HARTSHORN
HARTSHORNE
HARTSTOWN
HARTSVILLE
HARTVILLE
HARTWELL
HARTWICK
HARTWICK SEMINARY
HARTWOOD
HARVARD
HARVARD SQUARE
HARVEL
HARVEST
HARVESTER
HARVEY
HARVEY CEDARS
HARVEYS LAKE
HARVEYSBURG
HARVEYVILLE
HARVIELL
HARWICH
HARWICH PORT
HARWICHPORT
HARWICK
HARWINTON
HARWOOD
HARWOOD HEIGHTS
HARWOOD HGTS
HARWOOD STATION
HASBROUCK HEIGHTS
HASHTOWN
HASKELL
HASKELL HEIGHTS
HASKELLS
HASKINS
HASLAM
HASLET
HASLETT
HASSAN
HASSARD
HASSE
HASSELL
HASTAIN
HASTINGS
HASTINGS HUDSON
HASTINGS IMPERIAL MALL
HASTINGS ON HUDSON
HASTY
HASWELL
HAT CREEK
HATBORO
HATCH
HATCHECHUBBEE
HATCHEL
HATCHER
HATCHS CORNER
HATCHVILLE
HATFIELD
HATHAWAY
HATHAWAY PINES
HATHORNE
HATLEY
HATTERAS
HATTIEVILLE
HATTON
HAUBSTADT
HAUGAN
HAUGEN
HAUGHTON
HAUKANIER
HAUNTOWN
HAUPPAUGE
HAUSER
HAUULA
HAVACO
HAVANA
HAVASU CITY
HAVELOCK
HAVEN
HAVENSVILLE
HAVERFORD
HAVERHILL
HAVERSTRAW
HAVERTOWN
HAVILAH
HAVILAND
HAVILLAH
HAVRE
HAVRE DE GRACE
HAW BRANCH
HAW RIVER
HAWAIIAN ELECTRIC COMPANY
HAWAIIAN GARDENS
HAWARDEN
HAWESVILLE
HAWI
HAWICK
HAWK
HAWK POINT
HAWK RUN
HAWK SPRINGS
HAWKEYE
HAWKINS
HAWKINSVILLE
HAWKS
HAWLEY
HAWLEY LAKE
HAWLEYS
HAWLEYTON
HAWLEYVILLE
HAWORTH
HAWSTONE
HAWTHORN
HAWTHORN WDS
HAWTHORN WOODS
HAWTHORNE
HAWTHORNE ARMY AMMUNITION PL
HAXTUN
HAY
HAY SPRINGS
HAYDEN
HAYDEN LAKE
HAYDENVILLE
HAYES
HAYES CENTER
HAYESVILLE
HAYFIELD
HAYFORK
HAYLAND
HAYLEY
HAYMAKERTOWN
HAYMARKET
HAYMOUNT
HAYNES
HAYNESVILLE
HAYNEVILLE
HAYPOINT
HAYS
HAYS GROVE
HAYSI
HAYSVILLE
HAYT CORNERS
HAYTI
HAYTI HEIGHTS
HAYWARD
HAYWOOD
HAYWOOD CITY
HAZARD
HAZARDVILLE
HAZEL
HAZEL CREST
HAZEL DELL
HAZEL GREEN
HAZEL HURST
HAZEL PARK
HAZEL RUN
HAZELGREEN
HAZELHURST
HAZELTON
HAZELWOOD
HAZELWOOD ACRES
HAZEN
HAZLEHURST
HAZLET
HAZLETON
HBG
HBG INTER AIRP
HBJ
HBURG
HEAD 990F ISLAND
HEAD OF GRASSY
HEAD OF THE HARBOR
HEAD WATERS
HEADLAND
HEADLEE RANCH
HEADQUARTERS
HEADRICK
HEADSVILLE
HEAFFORD JUNCTION
HEALDSBURG
HEALDTON
HEALDVILLE
HEALING SPRGS
HEALING SPRINGS
HEALY
HEARN
HEARN ISLAND
HEARNE
HEART BUTTE
HEARTVILLE
HEARTWELL
HEARTWELLVILLE
HEATERS
HEATH
HEATH SPRINGS
HEATHCOTE
HEATHER
HEATHER GLEN
HEATHROW
HEATHSVILLE
HEATON
HEAVENER
HEBBRONVILLE
HEBE
HEBER
HEBER CITY
HEBER SPRINGS
HEBERLIG
HEBERT
HEBO
HEBRON
HECKER
HECKSCHERSVILLE
HECKSCHERVILLE
HECKTON
HECLA
HECTOR
HECTORVILLE
HEDGESVILLE
HEDLEY
HEDRICK
HEDRICK GROVE
HEDWIG VILLAGE
HEEKIN
HEENEY
HEER PARK
HEFLIN
HEGELER
HEGEWISCH
HEGINS
HEGLAR
HEIDELBERG
HEIDENHEIMER
HEIDLERSBURG
HEIDRICK
HEIGHTS
HEIGHTS CORNER
HEIL
HEILMAN
HEILMANDALE
HEILWOOD
HEIMDAL
HEINER
HEISE
HEISKELL
HEISLERVILLE
HEISSON
HEIZER
HELECHAWA
HELEN
HELENA
HELENDALE
HELENVILLE
HELENWOOD
HELFENSTEIN
HELIX
HELLAM
HELLEN MILLS
HELLERTOWN
HELLIER
HELM
HELMAR
HELMER
HELMETTA
HELMIC
HELMSBURG
HELMUTH
HELMVILLE
HELOTES
HELPER
HELT
HELTON
HELTONVILLE
HELVETIA
HEMAN
HEMATITE
HEMBY
HEMBY BRIDGE
HEMET
HEMINGFORD
HEMINGWAY
HEMLOCK
HEMLOCK GROVE
HEMPHILL
HEMPLE
HEMPSTEAD
HENAGAR
HENDERSON
HENDERSON GROVE
HENDERSON HARBOR
HENDERSONVILLE
HENDLEY
HENDREN
HENDRICKS
HENDRICKSVILLE
HENDRICKSVLE
HENDRIX
HENDRON
HENDRUM
HENEFER
HENKHAUS
HENLAWSON
HENLEY
HENLY
HENNEPIN
HENNESSEY
HENNIKER
HENNING
HENRICO
HENRIETTA
HENRIETTE
HENRIEVILLE
HENRY
HENRY FIELD SEED
HENRYETTA
HENRYS CHAPEL
HENRYTON
HENRYVILLE
HENSEL
HENSHAW
HENSLER
HENSLEY
HENSONVILLE
HENTON
HEPBURN
HEPBURN HTS
HEPBURNVILLE
HEPHZIBAH
HEPLER
HEPPNER
HEPZIBAH
HERALD
HERALDS PRAIRIE
HERBERT
HERBINE
HERBORN
HERBSTER
HERCULANEUM
HERCULES
HERD
HEREFORD
HERINGTON
HERKIMER
HERLONG
HERMAN
HERMANN
HERMANSVILLE
HERMANTOWN
HERMINIE
HERMISTON
HERMITAGE
HERMLEIGH
HERMON
HERMOSA
HERMOSA BEACH
HERNANDEZ
HERNANDO
HERNANDO BEACH
HERNDON
HERNSHAW
HEROD
HEROLD
HERON
HERON BAY
HERON LAKE
HERREID
HERRICK
HERRICK CENTER
HERRICKS
HERRIMAN
HERRIN
HERRINGS
HERROLD
HERRON
HERRON IS
HERRON ISLAND
HERRSCHNERS
HERRVILLE
HERSCHER
HERSEY
HERSHEY
HERSHEY HEIGHTS
HERSMAN
HERTEL
HERTFORD
HERVEY CITY
HESELTON
HESHBON PARK
HESPER
HESPERIA
HESPERUS
HESSDALE
HESSEL
HESSMER
HESSTON
HESSVILLE
HESTAND
HESTER
HETH
HETLAND
HETTICK
HETTINGER
HEUVELTON
HEW
HEW FOOD AND DRUG ADMIN
HEW OFFICE EDUCATION
HEW OTHER OFFICES
HEWETT
HEWINS
HEWITT
HEWITTSVILLE
HEWITTVILLE
HEWLETT
HEWLETT BAY
HEWLETT BAY PARK
HEWLETT HARBOR
HEWLETT NECK
HEXT
HEYBURN
HEYWORTH
HFD
HGN
HI HAT
HI LAND
HI NELLA
HI ROLLS MT PARK
HI VISTA
HIALEAH
HIALEAH GARDENS
HIALEAH LAKES
HIATTVILLE
HIAWASSEE
HIAWATHA
HIBBING
HIBBS
HIBERNIA
HIBERNIA NATL BK
HIBISCUS
HICKAM AFB
HICKMAN
HICKORY
HICKORY BLUFF
HICKORY CORNERS
HICKORY FLAT
HICKORY GROVE
HICKORY HILL
HICKORY HILLS
HICKORY ISLE
HICKORY KNOLL
HICKORY PLAINS
HICKORY POINT
HICKORY RIDGE
HICKORY VALLEY
HICKORYTOWN
HICKOX
HICKS
HICKS CROSSROADS
HICKSON
HICKSVILLE
HICKSVILLE BRM FIRMS
HICKSVILLE CRM FIRMS
HICO
HIDALGO
HIDDEN HILLS
HIDDEN SPRINGS
HIDDEN TIMBER
HIDDEN VALLEY
HIDDENITE
HIDE A WAY LAKE
HIDE AWAY HILLS
HIDEAWAY HLS
HIGBEE
HIGDEN
HIGDON
HIGDONVILLE
HIGGANUM
HIGGINS
HIGGINS BAY
HIGGINS LAKE
HIGGINSON
HIGGINSPORT
HIGGINSVILLE
HIGGSON
HIGGSTON
HIGH
HIGH AMANA
HIGH BAR HARBOR
HIGH BRIDGE
HIGH CREST
HIGH FALLS
HIGH FOREST
HIGH GATE
HIGH HILL
HIGH ISLAND
HIGH LAKE
HIGH MEADOWS
HIGH PNT
HIGH POINT
HIGH POINT PARK
HIGH RIDGE
HIGH ROCK
HIGH ROLLS
HIGH ROLLS MOUNTAIN PARK
HIGH SHOALS
HIGH SPIRE
HIGH SPRINGS
HIGH VIEW
HIGHBLUFF
HIGHBRIDGE
HIGHFALLS
HIGHFIELD
HIGHGATE
HIGHGATE CENTER
HIGHGATE FALLS
HIGHGATE SPRINGS
HIGHGROVE
HIGHLAND
HIGHLAND BEACH
HIGHLAND CENTER
HIGHLAND CITY
HIGHLAND FALLS
HIGHLAND HAVEN
HIGHLAND HEIGHTS
HIGHLAND HILLS
HIGHLAND HOME
HIGHLAND HTS
HIGHLAND LAKE
HIGHLAND LAKES
HIGHLAND MILLS
HIGHLAND PARK
HIGHLAND PLT
HIGHLAND SPGS
HIGHLAND SPRINGS
HIGHLAND TWP
HIGHLAND VILLAGE
HIGHLANDS
HIGHLANDS RANCH
HIGHLANDTOWN
HIGHLANDVILLE
HIGHMORE
HIGHMOUNT
HIGHSPIRE
HIGHTOWER
HIGHTOWN
HIGHTSTOWN
HIGHVIEW
HIGHVILLE
HIGHWAY
HIGHWAY 40
HIGHWAY FOUR FORTY ONE
HIGHWOOD
HIGLEY
HIKO
HILAND
HILBERT
HILDA
HILDALE
HILDEBRAN
HILDRETH
HILER
HILES
HILFORD
HILGER
HILHAM
HILL
HILL AIR FORCE BASE
HILL CHURCH
HILL CITY
HILL COUNTRY VILLAGE
HILL CREEK
HILL WEST
HILLAND
HILLANDALE
HILLBURN
HILLCREST
HILLCREST CIR
HILLCREST CIRCLE
HILLCREST HGTS
HILLDALE
HILLEMANN
HILLER
HILLERMAN
HILLFIELD
HILLGROVE
HILLHAM
HILLHEAD
HILLIARD
HILLIARDS
HILLISBURG
HILLISTER
HILLJE
HILLMAN
HILLPOINT
HILLROSE
HILLS
HILLS AND DALES
HILLS FLAT
HILLS TERRACE
HILLSBORO
HILLSBORO BEACH
HILLSBOROUGH
HILLSDALE
HILLSGROVE
HILLSIDE
HILLSVIEW
HILLSVILLE
HILLTOP
HILLTOP LAKES
HILLTOP MALL
HILLTOP UNIT TDC
HILLTOWN
HILLVIEW
HILLY
HILMAR
HILMOE
HILO
HILSHIRE VILLAGE
HILT
HILTON
HILTON HEAD ISLAND
HILTONIA
HILTONS
HIMA
HIMROD
HIMYAR
HINCKLEY
HINDMAN
HINDOSTAN FALLS
HINDOSTAN FLS
HINDSBORO
HINDSVILLE
HINES
HINESBURG
HINESTON
HINESVILLE
HINGHAM
HINKLE
HINKLETOWN
HINKLEY
HINMANS CORNERS
HINMANSVILLE
HINSDALE
HINSONTON
HINTON
HIPPO
HIRAM
HISEGA
HISEVILLE
HISLE
HITCHCOCK
HITCHINS
HITCHITA
HITE
HITEMAN
HITHER PLAINS
HITTERDAL
HITTLE
HIWASSE
HIWASSEE
HIXSON
HIXTON
HLLCRST HEIGHTS
HLLS & DLES
HMPDEN SYDNEY
HNTGTN
HO HO KUS
HOAG
HOAG CORNERS
HOAGLAND
HOARD
HOBACK JUNCTION
HOBART
HOBART MILLS
HOBARTON
HOBBIEVILLE
HOBBS
HOBBSVILLE
HOBE SOUND
HOBERG
HOBGOOD
HOBOKEN
HOBSON
HOBUCKEN
HOCHHEIM
HOCKESSIN
HOCKINGPORT
HOCKLEY
HOCKLEY MINE
HODE
HODGDON
HODGE
HODGEN
HODGENVILLE
HODGES
HODGES GAP
HODGESVILLE
HODGKINS
HODGSON
HOEHNE
HOENE SPRING
HOERNERSTOWN
HOFA PARK
HOFFER
HOFFMAN
HOFFMAN EST
HOFFMAN ESTATES
HOFFMEISTER
HOG ISLAND
HOG SHOOTER
HOGANSBURG
HOGANSVILLE
HOGARTY
HOGELAND
HOGESTOWN
HOGTOWN
HOHENWALD
HOISINGTON
HOKAH
HOKENDAUQUA
HOKES BLUFF
HOKO
HOLABIRD
HOLBROOK
HOLCOMB
HOLCOMB VILLAGE
HOLCOMBE
HOLCOMBVILLE
HOLDEN
HOLDEN BEACH
HOLDEN VILLAGE
HOLDENVILLE
HOLDER
HOLDERNESS
HOLDINGFORD
HOLDREGE
HOLDRIDGE
HOLGATE
HOLICONG
HOLIDAY
HOLIDAY CITY
HOLIDAY HILLS
HOLIDAY INN
HOLIDAY INNS
HOLIDAY ISLAND
HOLIDAY LAKE
HOLIDAY SHORES
HOLLADAY
HOLLADAY COTTONWOOD
HOLLAND
HOLLAND PATENT
HOLLANDALE
HOLLANDSBURG
HOLLANSBURG
HOLLENBERG
HOLLEY
HOLLIDAY
HOLLIDAYSBURG
HOLLINGER
HOLLINS
HOLLIS
HOLLIS CENTER
HOLLIS CROSSROADS
HOLLISTER
HOLLISTON
HOLLOMAN AIR FORCE BASE
HOLLOW ROCK
HOLLOWAY
HOLLOWAYVILLE
HOLLOWVILLE
HOLLSOPPLE
HOLLY
HOLLY GROVE
HOLLY HILL
HOLLY HILLS
HOLLY PARK
HOLLY POND
HOLLY RIDGE
HOLLY SPRINGS
HOLLYBRK LK
HOLLYBROOK
HOLLYBROOK LAKE
HOLLYBUSH
HOLLYTREE
HOLLYWOOD
HOLLYWOOD HEIGHTS
HOLLYWOOD HILLS
HOLLYWOOD PARK
HOLMAN
HOLMAN STATION
HOLMDEL
HOLMDEL VILLAGE
HOLMEN
HOLMES
HOLMES BEACH
HOLMES CENTER
HOLMES CITY
HOLMES MILL
HOLMESVILLE
HOLMQUIST
HOLSEY
HOLST
HOLSTEIN
HOLT
HOLTON
HOLTS SUMMIT
HOLTSON CROSSROADS
HOLTSVILLE
HOLTVILLE
HOLTWOOD
HOLUALOA
HOLY CITY
HOLY CROSS
HOLY TRINITY
HOLYOKE
HOLYROOD
HOME
HOME PLACE
HOME SHOPPING
HOME SHOPPING CLUB
HOME SHOPPING NETWORK
HOMEDALE
HOMELAKE
HOMELAND
HOMER
HOMER CITY
HOMERVILLE
HOMES
HOMESIDE LENDING INC
HOMESTEAD
HOMESTEAD AIR FORCE BASE
HOMESTEAD VLG
HOMESTOWN
HOMESVILLE
HOMETOWN
HOMEWD
HOMEWOOD
HOMEWORTH
HOMINY
HOMOSASSA
HOMOSASSA SPRINGS
HON
HONAKER
HONAUNAU
HONCUT
HONDO
HONDORUS
HONEA PATH
HONEOYE
HONEOYE FALLS
HONESDALE
HONEY BROOK
HONEY CREEK
HONEY CREEK SQUARE
HONEY GROVE
HONEY ISLAND
HONEYBEE
HONEYCAMP
HONEYDEW
HONEYFORD
HONEYVILLE
HONEYWELL CORNERS
HONNEDAGA LAKE
HONO
HONOBIA
HONOKAA
HONOLULU
HONOMU
HONOR
HONORA
HONORAVILLE
HOOD
HOOD RIVER
HOODS CROSSROADS
HOODSPORT
HOOKDALE
HOOKER
HOOKERTON
HOOKS
HOOKSETT
HOOKSTOWN
HOOKTOWN
HOOLEHUA
HOONAH
HOOPA
HOOPER
HOOPER BAY
HOOPERS VALLEY
HOOPERSVILLE
HOOPESTON
HOOPLE
HOOPPOLE
HOOSAC TUNNEL
HOOSICK
HOOSICK FALLS
HOOSICK JUNCTION
HOOSIER
HOOSIER HIGHLANDS
HOOSIERVILLE
HOOTENVILLE
HOOVEN
HOOVER
HOOVERSVILLE
HOP BOTTOM
HOPATCONG
HOPE
HOPE FALLS
HOPE HULL
HOPE MILLS
HOPE SCHOOL
HOPE VALLEY
HOPEDALE
HOPEFUL HEIGHTS
HOPELAND
HOPEMONT
HOPETON
HOPEVILLE
HOPEWELL
HOPEWELL ESTATES
HOPEWELL JCT
HOPEWELL JUNCTION
HOPEWELL TOWNSHIP
HOPEWELL TWP
HOPKINS
HOPKINS PARK
HOPKINSVILLE
HOPKINTON
HOPLAND
HOPPER
HOPWOOD
HOQUIAM
HORACE
HORACE HARDING
HORACE MANN INS
HORATIO
HORD
HORDVILLE
HORICON
HORINE
HORIZON CITY
HORN CREEK
HORNBEAK
HORNBECK
HORNBROOK
HORNELL
HORNER
HORNERSVILLE
HORNET
HORNICK
HORNINGFORD
HORNITOS
HORNSBY
HORNSBY BEND
HORNTOWN
HORREL HILL
HORSE BRANCH
HORSE CAVE
HORSE CREEK
HORSE SHOE
HORSE SHOE RUN
HORSE SPRINGS
HORSEHEADS
HORSENECK BEACH
HORSEPEN
HORSESHOE BAY
HORSESHOE BCH
HORSESHOE BEACH
HORSESHOE BEND
HORSESHOE LAKE
HORSHAM
HORTENSE
HORTON
HORTONVILLE
HOSCHTON
HOSFORD
HOSKINS
HOSKINSTON
HOSMER
HOSPERS
HOSPITAL
HOSSTON
HOST
HOSTETTER
HOT SPGS VL
HOT SPRING LANDING
HOT SPRINGS
HOT SPRINGS VILLAGE
HOT SULPHUR SPRINGS
HOTCHKISS
HOTCHKISS SCHOOL
HOTEVILLA
HOTWELLS
HOUCK
HOUGHS NECK
HOUGHTON
HOUGHTON LAKE
HOUGHTON LAKE HEIGHTS
HOULTON
HOUMA
HOUNSFIELD
HOUSATONIC
HOUSE
HOUSE CREEK
HOUSE SPRINGS
HOUSEVILLE
HOUSING AND URBAN DEV
HOUSING ASSISTANCE ADM
HOUSTON
HOUSTON HEIGHTS
HOUSTON LAKE
HOUSTON SPUR
HOUSTONIA
HOUSTONVILLE
HOUSUM
HOUTZDALE
HOUTZDALE CRRCTNL INST
HOVEN
HOVLAND
HOWARD
HOWARD BEACH
HOWARD CITY
HOWARD LAKE
HOWARD LANDING
HOWARD UNIV
HOWARDS GROVE
HOWARDS GROVE BR #4
HOWARDSTOWN
HOWARDSVILLE
HOWARDTON
HOWARDVILLE
HOWE
HOWE ST STATION
HOWELL
HOWELLS
HOWELLVILLE
HOWENSTEIN
HOWERTONS
HOWES
HOWES CAVE
HOWESVILLE
HOWEY IN THE HILLS
HOWLAND
HOWLETT HILL
HOXEYVILLE
HOXIE
HOYLETON
HOYT
HOYT HEIGHTS
HOYT LAKES
HOYTE
HOYTSVILLE
HOYTVILLE
HQ SO REG U S P S
HQUSACOE
HS
HSBC
HSBC ATRIUM
HTD
HTFD
HTS CRNR
HUACHUCA CITY
HUACHUCA TERRACE
HUALAPAI
HUB
HUB CITY
HUBBARD
HUBBARD LAKE
HUBBARD WOODS
HUBBARDSTON
HUBBARDSVILLE
HUBBARDTON
HUBBARDTOWN
HUBBELL
HUBBELL CORS
HUBBELL TRADING POST NATIONA
HUBBELLS CORNER
HUBER
HUBER HEIGHTS
HUBER HGTS
HUBER HTS
HUBERT
HUBERTUS
HUBLERSBURG
HUBLEY
HUBLY
HUD FED HOUSING ADM
HUD FED NATL MORTGAGE
HUDDLESTON
HUDDY
HUDGINS
HUDSON
HUDSON BEND
HUDSON FALLS
HUDSON LAKE
HUDSON MILLS
HUDSON OAKS
HUDSONVILLE
HUEGELY
HUEY
HUEYSVILLE
HUEYTOWN
HUFF
HUFFMAN
HUFFTON
HUFSMITH
HUGER
HUGGERS LANDING
HUGGINS
HUGHES
HUGHES SPRINGS
HUGHESTON
HUGHESTOWN
HUGHESVILLE
HUGHSON
HUGHSONVILLE
HUGO
HUGOTON
HUGUENOT
HULBERT
HULBERTON
HULEN
HULETT
HULETTS LANDING
HULL
HULLS COVE
HULLSVILLE
HULMEVILLE
HUMANSVILLE
HUMAROCK
HUMBIRD
HUMBLE
HUMBOLDT
HUME
HUMESTON
HUMMELS WHARF
HUMMELSTOWN
HUMNOKE
HUMPHREY
HUMPHREYS
HUMPTULIPS
HUNDON
HUNDRED
HUNGERFORD
HUNGRY HORSE
HUNKER
HUNLOCK CREEK
HUNNEWELL
HUNT
HUNT CITY
HUNT VALLEY
HUNTER
HUNTER AAF
HUNTER ARMY AIR FIELD
HUNTERS
HUNTERS CREEK VILLAGE
HUNTERS POINT
HUNTERS RUN
HUNTERSLAND
HUNTERSTOWN
HUNTERSVILLE
HUNTERTOWN
HUNTIMER
HUNTING
HUNTING CREEK
HUNTING VALLEY
HUNTINGBURG
HUNTINGDON
HUNTINGDON VALLEY
HUNTINGTON
HUNTINGTON BAY
HUNTINGTON BEACH
HUNTINGTON CENTER
HUNTINGTON LOWER VILLAGE
HUNTINGTON MILLS
HUNTINGTON PARK
HUNTINGTON STATION
HUNTINGTON WOODS
HUNTINGTOWN
HUNTLAND
HUNTLEIGH
HUNTLEY
HUNTLY
HUNTS CORNERS
HUNTS POINT
HUNTSBURG
HUNTSDALE
HUNTSVILLE
HUNTSVILLE UTILITIES
HURDLAND
HURDLE MILLS
HURDSFIELD
HURFFVILLE
HURLBURT FIELD
HURLETON
HURLEY
HURLEYVILLE
HURLOCK
HURON
HURON COLONY
HURON TWP
HURRICANE
HURRICANE GROVE
HURRICANE MILLS
HURSHTOWN
HURST
HURST SPRINGS
HURSTOWN
HURSTVILLE
HURT
HURTSBORO
HUSK
HUSLIA
HUSON
HUSSER
HUSTISFORD
HUSTLE
HUSTLER
HUSTON
HUSTONTOWN
HUSTONTWN
HUSTONVILLE
HUSUM
HUTCHINS
HUTCHINSON
HUTCHINSON ISLAND
HUTSONVILLE
HUTTIG
HUTTO
HUTTON
HUTTONSVILLE
HUXFORD
HUXLEY
HVILLE
HWY ACCIDENT BUREAU
HYAK
HYAMPOM
HYANNIS
HYANNIS PORT
HYATTSTOWN
HYATTSVILLE
HYATTVILLE
HYBART
HYDABURG
HYDE
HYDE PARK
HYDE PARK ESTATES
HYDEN
HYDER
HYDES
HYDESVILLE
HYDETOWN
HYDEVILLE
HYDRO
HYDROPOLIS
HYE
HYGIENE
HYMERA
HYNDMAN
HYNDSVILLE
HYNER
HYPOLUXO
HYRUM
HYSHAM
HYTOP
IBM
IRS
I R S SERVICE CENTER
IUPUI
IAEGER
IAGO
IANTHA
IATAN
IATT LAKE
IBAPAH
IBERIA
IBERVILLE
IBEX
ICARD
ICKESBURG
ICONIUM
IDA
IDA GROVE
IDABEL
IDAHO
IDAHO CITY
IDAHO FALLS
IDAHO SPRINGS
IDAHOME
IDALIA
IDALOU
IDAMAY
IDANHA
IDAVILLE
IDEAL
IDEAL BEACH
IDER
IDLEDALE
IDLEWILD
IDLEWOOD
IDLEYLD PARK
IDMAN
IDYLLWILD
IGERNA
IGIUGIG
IGLOO
IGNACIO
IGO
IHLEN
IJAMSVILLE
IKES FORK
IL MUTUAL LIFE & CASUALTY
ILA
ILASCO
ILCHESTER
ILES PARK PLACE
ILFELD
ILIAMNA
ILIFF
ILION
ILL NATL INS
ILL OFFICE EDUC
ILL PUBLIC AID
ILL SECY STATE
ILLINOIS CITY
ILLIOPOLIS
ILSE
ILWACO
IMBLER
IMBODEN
IMBS
IMLAY
IMLAY CITY
IMLAYSTOWN
IMLER
IMMACULATA
IMMANUEL MISSION
IMMIG AND NATURAL RECORDS
IMMIG AND NATURALIZATION SER
IMMOKALEE
IMNAHA
IMOGENE
IMPACT
IMPERIAL
IMPERIAL BEACH
INA
INADALE
INAVALE
INCHELIUM
INCLINE VILLAGE
IND ORDER OF FORESTERS
INDEPENDENCE
INDEPENDENCE TOWNSHIP
INDEPENDENCE TWP
INDEPENDENT
INDEPENDENT ELECT OF AMER
INDEX
INDIAHOMA
INDIALANTIC
INDIAN
INDIAN AGENCY
INDIAN BEACH
INDIAN COVE
INDIAN CREEK
INDIAN CREEK SETTLEMENT
INDIAN CREEK VILLAGE
INDIAN CRK STLMT
INDIAN GAP
INDIAN GROVE
INDIAN HARBOR BEACH
INDIAN HARBOUR BEACH
INDIAN HEAD
INDIAN HEAD PARK
INDIAN HEAD PK
INDIAN HILL
INDIAN HILLS
INDIAN IS
INDIAN ISLAND
INDIAN LAKE
INDIAN LAKE ESTATES
INDIAN LAND
INDIAN MILLS
INDIAN MOUND
INDIAN NECK
INDIAN ORCHARD
INDIAN POINT
INDIAN RIVER
INDIAN RIVER SHORES
INDIAN ROCK
INDIAN ROCKS BEACH
INDIAN SHORES
INDIAN SPRINGS
INDIAN SPRINGS AIR FORCE AUX
INDIAN SPRINGS VILLAGE
INDIAN TRAIL
INDIAN TWP
INDIAN VALLEY
INDIAN VILLAGE
INDIAN WELLS
INDIANA
INDIANA BEACH
INDIANAPOLIS
INDIANHEAD LAKE ESTATES
INDIANHEAD PARK
INDIANHEAD PK
INDIANOLA
INDIANTOWN
INDIO
INDORE
INDUS
INDUSTRIAL
INDUSTRIAL HILLSIDE
INDUSTRY
INDUSTRY-ROCK FALLS
INEZ
INGALLS
INGER
INGLE
INGLEFIELD
INGLENOOK
INGLESIDE
INGLESIDE ON THE BAY
INGLESMITH
INGLEWOOD
INGLIS
INGOLD
INGOMAR
INGRAHAM
INGRAM
INGRAM DISTRIBUTION GROUP
INGUADONA
INK
INKERMAN
INKOM
INKS LAKE VILLAGE
INKSTER
INLAND
INLET
INMAN
INMAN SQUARE
INNIS
INNSBROOK
INOLA
INSKO
INSPECTION SERVICE FORENSIC
INSTITUTE
INTER AMER DEFENSE BOARD
INTERBAY
INTERCESSION CITY
INTERCHANGE SQUARE
INTERCOURSE
INTERIOR
INTERLACHEN
INTERLAKEN
INTERLOCHEN
INTERNAL REVENUE
INTERNAL REVENUE SERVICE
INTERNATL BNK RECON AND DEL
INTERVALE
INTL FALLS
INVER GROVE HEIGHTS
INVERNESS
INVERRARY
INWOOD
INYOKERN
IOKA
IOLA
IONA
IONE
IONIA
IOTA
IOTLA
IOWA
IOWA BEEF PACKERS
IOWA CENTER
IOWA CITY
IOWA COLONY
IOWA FALLS
IOWA HILL
IOWA PARK
IPAVA
IPSWICH
IRA
IRA TOWNSHIP
IRA TWP
IRAAN
IRASBURG
IRASVILLE
IREDELL
IRELAND
IRENE
IRETON
IRISH CORNERS
IRISH GREEN
IRISHTOWN
IRMA
IRMO
IRON
IRON BELT
IRON CITY
IRON GATE
IRON GATES
IRON MOUNTAIN
IRON MTN
IRON RIDGE
IRON RIVER
IRON SPRINGS
IRON STATION
IRONA
IRONBOUND
IRONDALE
IRONDEQUOIT
IRONHILLS
IRONIA
IRONS
IRONSIDE
IRONSIDES
IRONTO
IRONTON
IRONVILLE
IRONWOOD
IROQUOIS
IRRIGON
IRS
IRS REMITTANCE
IRS SERVICE CENTER
IRVINE
IRVING
IRVING PARK RD P&D CENTER
IRVING TRUST
IRVINGTON
IRVINGTON ON HUDSON
IRVONA
IRWIN
IRWINDALE
IRWINTON
IRWINVILLE
ISAAR
ISABAN
ISABEL
ISABELLA
ISANTI
ISCHUA
ISELIN
ISHPEMING
ISLA VISTA
ISLAMORADA
ISLAND
ISLAND CITY
ISLAND FALLS
ISLAND GROVE
ISLAND HEIGHTS
ISLAND LAKE
ISLAND PARK
ISLAND POND
ISLAND ROAD
ISLAND TREES
ISLANDIA
ISLANDTON
ISLE
ISLE AU HAUT
ISLE LA MOTTE
ISLE OF PALMS
ISLE OF SPRINGS
ISLE OF WIGHT
ISLE SAINT GEORGE
ISLE ST GEORGE
ISLESBORO
ISLESFORD
ISLETA
ISLETON
ISLINGTON
ISLIP
ISLIP MANOR
ISLIP TERRACE
ISMAY
ISOM
ISONVILLE
ISSAQUAH
ISSUE
ISTACHATTA
ISU
ITALY
ITASCA
ITASKA
ITHACA
ITHAN
ITMANN
ITT
IUKA
IVA
IVALEE
IVAN
IVANHOE
IVEL
IVERSON
IVESDALE
IVEY
IVINS
IVOR
IVORYDALE
IVORYTON
IVY
IVY GROVE
IVYDALE
IVYLAND
IVYTON
IXONIA
IZORO
J C PENNEY
J C PENNY'S
J CREW
J JILL
JABEZ
JACHIN
JACINTO
JACINTO CITY
JACK
JACKASS FLATS
JACKHORN
JACKMAN
JACKPOT
JACKS CABIN
JACKS CREEK
JACKS VALLEY
JACKSBORO
JACKSON
JACKSON BELDEN
JACKSON CENTER
JACKSON HALL
JACKSON HEIGHTS
JACKSON HILL
JACKSON HOLE
JACKSON HTS
JACKSON JUNCTION
JACKSON MOUNTAIN
JACKSON PARK
JACKSON SMT
JACKSON SPGS
JACKSON SPRINGS
JACKSON TOWNSHIP
JACKSON TWP
JACKSONBORO
JACKSONBURG
JACKSONPORT
JACKSONS CREEK
JACKSONS GAP
JACKSONTOWN
JACKSONVILLE
JACKSONVILLE BEACH
JACKSONVILLE N A S
JACKSONVILLE NAVAL AIR STATI
JACKSONWALD
JACOB
JACOB LAKE
JACOBS
JACOBS CREEK
JACOBS MILLS
JACOBSBURG
JACOBSON
JACOBUS
JACONA
JACUMBA
JADWIN
JAFFREY
JAKES CORNER
JAKIN
JAL
JALAPPA
JAMAICA
JAMAICA BEACH
JAMAICA EST
JAMAICA PLAIN
JAMBOREE
JAMES
JAMES CITY
JAMES CREEK
JAMES ISLAND
JAMES RIVER TRADER
JAMES VALLEY
JAMESBURG
JAMESON
JAMESPORT
JAMESTOWN
JAMESTWN
JAMESVILLE
JAMIESON
JAMISON
JAMISON CITY
JAMUL
JAN PHYL VILLAGE
JANE
JANE LEW
JANESVILLE
JANOUSEK
JANSEN
JAPAN
JARALES
JARBIDGE
JARBO
JARDINE
JAROSO
JARRATT
JARREAU
JARRELL
JARRETTOWN
JARRETTSVILLE
JARVIS
JARVISBURG
JASONVILLE
JASPER
JAVA
JAVA CENTER
JAVA VILLAGE
JAX
JAX BCH
JAX BEACH
JAX NAVAL AIR
JAX NAVAL HOS
JAY
JAY ADVERTISING
JAY CITY
JAY EM
JAY PEAK
JAYTON
JC
JC PENNEY
JC PENNEY COMPANY
JEAN
JEANERETTE
JEANNETTE
JEDDITO
JEDDO
JEFF
JEFF CITY
JEFFERS
JEFFERSON
JEFFERSON CITY
JEFFERSON HILLS
JEFFERSON MANOR
JEFFERSON PARK
JEFFERSON PROVING GROUND
JEFFERSON PRV GRND
JEFFERSON SQUARE
JEFFERSON TOWNSHIP
JEFFERSON TWP
JEFFERSON VALLEY
JEFFERSONTON
JEFFERSONTOWN
JEFFERSONVILLE
JEFFERY
JEFFREY
JEFFREY CITY
JEFFRIS
JEISEYVILLE
JEKYLL ISLAND
JELLICO
JELM
JEMEZ PUEBLO
JEMEZ SPRINGS
JEMISON
JENA
JENERA
JENISON
JENKINJONES
JENKINS
JENKINS BRIDGE
JENKINS TOWNSHIP
JENKINSBURG
JENKINSVILLE
JENKINTOWN
JENKS
JENKSVILLE
JENNER
JENNERS
JENNERSTOWN
JENNEVILLE
JENNIE
JENNINGS
JENNINGS LODGE
JENNY LAKE
JENSEN
JENSEN BEACH
JENSON
JERE BAXTER
JEREMIAH
JERICHO
JERICHO CENTER
JERICHO MILLS
JERICO
JERICO SPGS
JERICO SPRINGS
JERIEL
JERMYN
JEROME
JEROME AVENUE
JEROMESVILLE
JERRY CITY
JERSEY
JERSEY CITY
JERSEY MILLS
JERSEY SHORE
JERSEY VILLAGE
JERSEYTOWN
JERSEYVILLE
JERUSALEM
JESSE
JESSIE
JESSIEVILLE
JESSUP
JESTER
JESUP
JET
JETERSVILLE
JETMORE
JETSON
JEVNE
JEWELL
JEWELL MANOR
JEWELL RIDGE
JEWELL VALLEY
JEWETT
JEWETT CITY
JICARILLA APACHE INDIAN RESE
JIGGER
JIGGS
JIM FALLS
JIM THORPE
JINGO
JINKS
JMST
JNCTN CITY
JOAN
JOANNA
JOAQUIN
JOB
JOBS CORNERS
JOBSTOWN
JODIE
JOE
JOE CREEK
JOEL
JOELTON
JOES
JOES POND
JOETOWN
JOFFRE
JOHANNESBURG
JOHN DAY
JOHN F KENNEDY CENTER
JOHN HANCOCK MUTUAL INS
JOHN MARTIN RESERVOIR
JOHNETTA
JOHNNIE
JOHNS CREEK
JOHNS ISLAND
JOHNS PASS
JOHNS RUN
JOHNSBURG
JOHNSBURY
JOHNSON
JOHNSON & JOHNSON
JOHNSON BOTTOM
JOHNSON CITY
JOHNSON CORNER
JOHNSON CREEK
JOHNSON LAKE
JOHNSON LK
JOHNSON PARK
JOHNSON VALLEY
JOHNSON VILLAGE
JOHNSONBURG
JOHNSONS BAYOU
JOHNSONS BAYU
JOHNSONS CORNER
JOHNSONVILLE
JOHNSTON
JOHNSTON CITY
JOHNSTONVILLE
JOHNSTOWN
JOHNSVILLE
JOICE
JOINER
JOINERVILLE
JOINT STAFF
JOLIET
JOLIETT
JOLIETTE
JOLLEY
JOLLY ACRES
JOLLYVILLE
JOLO
JOLON
JONAH
JONANCY
JONAS RIDGE
JONATHAN
JONBEN
JONES
JONES AND LAUGHLIN
JONES BROOK
JONES CREEK
JONES CROSSROADS
JONES MILL
JONES MILLS
JONES PRAIRIE
JONES SPRINGS
JONESBORO
JONESBORO HEIGHTS
JONESBOROUGH
JONESBURG
JONESPORT
JONESTOWN
JONESTWN
JONESVILLE
JONICAN
JOPLIN
JOPPA
JOPPATOWN
JOPPATOWNE
JORDAN
JORDAN MINES
JORDAN VALLEY
JORDAN VILLAGE
JORDANVILLE
JORDON HILL
JOSEPH
JOSEPH CITY
JOSEPHINE
JOSEPHVILLE
JOSHUA
JOSHUA TREE
JOSSERAND
JOUBERT
JOURDANTON
JOURNAL NEWSPAPER
JOVITA
JOWERS
JOY
JOYCE
JOYCETON
JOYNES
JPV
JT WEEKER INTL SERVICE CNTR
JUANITA
JUD
JUDA
JUDAH
JUDITH GAP
JUDSON
JUDSONIA
JULESBURG
JULIAETTA
JULIAN
JULIEN
JULIETTE
JULIFF
JULIUSTOWN
JUMP RIVER
JUMPING BRANCH
JUNCTION
JUNCTION CITY
JUNE LAKE
JUNE LAKE JUNCTION
JUNEAU
JUNEDALE
JUNGO
JUNIATA
JUNIATA TERR
JUNIOR
JUNIPER
JUNIPER HILLS
JUNIUS
JUNKS
JUNO BEACH
JUNTA
JUNTURA
JUPITER
JUPITER INLET COLONY
JUPITER POINT
JURUPA
JUSTELL
JUSTICE
JUSTICEBURG
JUSTIN
JUSTUS
KC
KOA
K U MED CENTER
KAAAWA
KABETOGAMA
KACHINA VILLAGE
KADESH
KADOKA
KAGEL CANYON
KAH NEE TA
KAHLOTUS
KAHNEETA
KAHOKA
KAHUKU
KAHULUI
KAIBAB
KAIBITO
KAILUA
KAILUA KONA
KAIN
KAISER
KAKE
KAKTOVIK
KALAHEO
KALALOCK
KALAMA
KALAMAZOO
KALAUPAPA
KALBER
KALER
KALEVA
KALIDA
KALIOPI
KALISPELL
KALKASKA
KALO
KALONA
KALSKAG
KALTAG
KALVESTA
KAMAS
KAMAY
KAMEY
KAMIAH
KAMILCHE
KAMPESKA
KAMPSVILLE
KAMPVILLE
KAMPVILLE BEACH
KAMPVILLE COURT
KAMRAR
KAMUELA
KANAB
KANARANZI
KANARRAVILLE
KANASKAT
KANAWHA
KANAWHA CITY
KANAWHA FALLS
KANAWHA HEAD
KANDIYOHI
KANE
KANEOHE
KANESVILLE
KANEVILLE
KANGLEY
KANKAKEE
KANNAPOLIS
KANONA
KANOPOLIS
KANORADO
KANOSH
KANS CITY
KANS CTY
KANS CY
KANSAS
KANSAS CITY
KANSAS CITY NORTH
KANSAS CTY
KANSAS CY
KANSAS LOTTERY
KANSAS SETTLEMENT
KANSASVILLE
KANTNER
KANTZ
KAPAA
KAPAAU
KAPLAN
KAPOLEI
KAPOWSIN
KAPP HEIGHTS
KAPPA
KAPPS MILL
KARBERS RIDGE
KARLIN
KARLSRUHE
KARLSTAD
KARLUK
KARNACK
KARNAK
KARNES CITY
KARNS
KARNS CITY
KARO
KARTHAUS
KARVAL
KARY
KASAAN
KASBEER
KASEVILLE
KASEYVILLE
KASIESVILLE
KASIGLUK
KASILOF
KASKA
KASOAG
KASOTA
KASPER
KASSON
KATEMCY
KATHLEEN
KATHRYN
KATHWOOD
KATONAH
KATTELVILLE
KATTSKILL BAY
KATY
KAUFFMAN
KAUFMAN
KAUKAUNA
KAUMAKANI
KAUNAKAKAI
KAUNEONGA LAKE
KAW
KAW CITY
KAWEAH
KAWKAWLIN
KAYARE
KAYCEE
KAYENTA
KAYFORD
KAYJAY
KAYLOR
KAYSER ROTH
KAYSVILLE
KAYUTA LAKE
KC
KEAAU
KEALAKEKUA
KEALIA
KEAMS CANYON
KEANSBURG
KEARNEY
KEARNEYSVILLE
KEARNS
KEARNY
KEARSARGE
KEASBEY
KEATCHIE
KEATING
KEATING SUMMIT
KEATON
KEAUHOU
KEAVY
KECHI
KEDRON
KEECH
KEECHI
KEEDYSVILLE
KEEFETON
KEEGO
KEEGO HARBOR
KEELER
KEELER BAY
KEELERS BAY
KEELINE
KEELING
KEEN MOUNTAIN
KEENE
KEENE SUMMIT
KEENE VALLEY
KEENES
KEENESBURG
KEENEYVILLE
KEENSBURG
KEESEVILLE
KEETLEY
KEEWATIN
KEEZLETOWN
KEGLEY
KEGO
KEHLEY RUN JUNCTION
KEISER
KEISTERVILLE
KEITH
KEITHSBURG
KEITHVILLE
KEIZER
KEKAHA
KELAYRES
KELDRON
KELFORD
KELL
KELLER
KELLER CORNER
KELLERMAN
KELLERSVILLE
KELLERTON
KELLERVILLE
KELLEY
KELLEYS IS
KELLEYS ISLAND
KELLEYSBURG
KELLIHER
KELLNER
KELLNERSVILLE
KELLOGG
KELLOGGSVILLE
KELLY
KELLY LAKE
KELLY POINT
KELLY SPRINGS
KELLY USA
KELLY USA BR
KELLY X RDS
KELLYS
KELLYS KORNER
KELLYSVILLE
KELLYTON
KELLYTOWN
KELLYVILLE
KELMONT EAST
KELSAY
KELSEY
KELSEYVILLE
KELSO
KELTON
KEMAH
KEMBLESVILLE
KEMMERER
KEMP
KEMPER
KEMPNER
KEMPS LANDING
KEMPSTER
KEMPTON
KENAI
KENANSVILLE
KENASTON
KENBRIDGE
KENDAL GREEN
KENDALIA
KENDALL
KENDALL CREEK
KENDALL PARK
KENDALL SQUARE
KENDALLVILLE
KENDLETON
KENDRICK
KENDRICKS FERRY
KENDRICKTOWN
KENDUSKEAG
KENEDY
KENEFIC
KENEFICK
KENEL
KENESAW
KENHORST
KENILWORTH
KENINGTON
KENLY
KENMARE
KENMORE
KENN
KENNA
KENNAN
KENNARD
KENNARD CORNER
KENNEBEC
KENNEBUNK
KENNEBUNKPORT
KENNEDALE
KENNEDY
KENNEDY HEIGHTS
KENNEDY SHORES
KENNEDY SPACE CENTER
KENNEDYVILLE
KENNELLS BEACH
KENNER
KENNERDELL
KENNESAW
KENNETH
KENNETH CITY
KENNETH COPELAND MINISTRIES
KENNETT
KENNETT SQ
KENNETT SQUARE
KENNEWICK
KENNEY
KENNYDALE
KENO
KENOCKEE
KENOCKEE TOWNSHIP
KENOSHA
KENOVA
KENOZA LAKE
KENROY
KENSAL
KENSEH
KENSEN
KENSETT
KENSINGTON
KENT
KENT CITY
KENT CLIFFS
KENT WOODLANDS
KENTFIELD
KENTLAND
KENTON
KENTON HILLS
KENTONTOWN
KENTONVALE
KENTS HILL
KENTUCK
KENTUCKY LOTTERY CORORATION
KENTUCKY OAKS MALL
KENTWOOD
KENVIL
KENVIR
KENWOOD
KENYON
KEO
KEOKEE
KEOKUK
KEOMAH
KEOSAUQUA
KEOTA
KEPNER
KERBY
KERBY KNOB
KERENS
KERHONKSON
KERKHOVEN
KERMAN
KERMIT
KERNAN
KERNERSVILLE
KERNVILLE
KERR
KERRICK
KERRIK
KERRSTOWN
KERRSTOWN SQ
KERRSVILLE
KERRTOWN
KERRVILLE
KERSEY
KERSHAW
KESHENA
KESLERS CROSS LANES
KESLEY
KESSLER
KESSLERS MILL
KESWICK
KETCHIKAN
KETCHUM
KETCHUMVILLE
KETRON IS
KETRON ISLAND
KETTERING
KETTLE
KETTLE FALLS
KETTLE ISLAND
KETTLE RIVER
KETTLEMAN CITY
KETTLERSVILLE
KEUKA PARK
KEUTERVILLE
KEVIL
KEVIN
KEW GARDEN HILLS
KEW GARDENS
KEWA
KEWADIN
KEWANEE
KEWANNA
KEWASKUM
KEWAUNEE
KEWEENAW BAY
KEY BISCAYNE
KEY CENTER
KEY COLONY BEACH
KEY LARGO
KEY WEST
KEY WEST NAVAL AIR STATION
KEYAPAHA
KEYES
KEYESPORT
KEYMAR
KEYPORT
KEYSBURG
KEYSER
KEYSTONE
KEYSTONE HEIGHTS
KEYSTONE ISLANDS
KEYSTONE STEEL AND WIRE
KEYSVILLE
KEYTESVILLE
KEYTON
KEZAR FALLS
KIAHSVILLE
KIAMESHA LAKE
KIANA
KIAWAH ISLAND
KIBBEE
KIBBLE
KICKAPOO
KIDDER
KIDRON
KIEF
KIEFER
KIEFFER
KIEL
KIELER
KIESTER
KIHEI
KILA
KILAUEA
KILBOURN
KILBOURNE
KILBUCK
KILBY
KILDARE
KILDEER
KILFOIL
KILGORE
KILKENNY
KILL BUCK
KILL DEVIL HILLS
KILLARNEY
KILLAWOG
KILLBUCK
KILLDEER
KILLDUFF
KILLEEN
KILLEN
KILLIAN
KILLINGER
KILLINGLY
KILLINGLY CENTER
KILLINGTON
KILLINGWORTH
KILLONA
KILMARNOCK
KILMER GMF
KILSYTH
KIM
KIMBALL
KIMBALL INTL
KIMBALL JUNCTION
KIMBALL TOWNSHIP
KIMBALLS
KIMBALLTON
KIMBERLEY
KIMBERLIN HEIGHTS
KIMBERLING CITY
KIMBERLY
KIMBERTON
KIMBOLTON
KIMBRO
KIMESVILLE
KIMMELL
KIMMINS
KIMMSWICK
KIMPER
KIN-LI-CHEE
KINARD
KINARDS
KINCAID
KINCHELOE
KINDE
KINDER
KINDERHOOK
KINDRED
KINDTS CORNER
KING
KING AND QN C H
KING AND QUEEN COURT HOUSE
KING CITY
KING COVE
KING FERRY
KING GEORGE
KING HILL
KING OF PRUSSIA
KING QUEEN CH
KING RIVER
KING SALMON
KING WILLIAM
KINGDOM CITY
KINGFIELD
KINGFISHER
KINGHURST
KINGMAN
KINGMAN TWP
KINGMONT
KINGQUEEN COURT HOUSE
KINGS
KINGS BAY
KINGS BEACH
KINGS CREEK
KINGS FERRY
KINGS MILLS
KINGS MOUNTAIN
KINGS PARK
KINGS POINT
KINGS SETTLEMENT
KINGS STATION
KINGSBURG
KINGSBURY
KINGSDALE
KINGSDOWN
KINGSFORD
KINGSFORD HEIGHTS
KINGSGATE
KINGSLAND
KINGSLEY
KINGSLEY FIELD
KINGSPORT
KINGSPRT
KINGSTON
KINGSTON MINES
KINGSTON SPGS
KINGSTON SPRINGS
KINGSTOWN
KINGSTOWNE
KINGSTREE
KINGSVILLE
KINGSVILLE NAVAL
KINGSVILLE NAVAL AIR STATION
KINGSWOOD TERRA
KINGVALE
KINGVILLE
KINGWOOD
KINKAID
KINKLER
KINLOCH
KINMOUNT
KINMUNDY
KINNAKEET
KINNEAR
KINNELON
KINNEY
KINNICKINNIC
KINNICONICK
KINO
KINROSS
KINSALE
KINSEY
KINSLEY
KINSLEY RANCH
KINSMAN
KINSTON
KINTA
KINTNERSVILLE
KINTYRE
KINZERS
KINZUA
KIONA
KIOWA
KIPLING
KIPNUK
KIPTON
KIRBY
KIRBYVILLE
KIRK
KIRKE VAN ORSDEL
KIRKERSVILLE
KIRKLAND
KIRKLIN
KIRKLYN
KIRKMAN
KIRKSEY
KIRKSVILLE
KIRKVILLE
KIRKWOOD
KIRKWOOD VOORHEES
KIRLEY
KIROLI WOODS
KIRON
KIRSCHNERVILLE
KIRTLAND
KIRTLAND AFB
KIRTLAND HILLS
KIRTLEY
KIRVIN
KIRWIN
KISATCHIE
KISMET
KISSEE MILLS
KISSEL HILL
KISSIMMEE
KISTLER
KIT CARSON
KITCHAWAN
KITCHELL
KITCHINGS MILL
KITE
KITSAP LAKE
KITTANNING
KITTERY
KITTERY POINT
KITTITAS
KITTREDGE
KITTRELL
KITTS HILL
KITTY HAWK
KITZMILLER
KITZVILLE
KIVALINA
KLABER
KLAGETOH
KLAMATH
KLAMATH AIR FORCE STATION
KLAMATH FALLS
KLAMATH RIVER
KLAWOCK
KLEBERG
KLEIN
KLEINFELTERSVILLE
KLEMME
KLICKITAT
KLIEVER
KLINE
KLINES CORNER
KLINES GROVE
KLINGER
KLINGERSTOWN
KLONDIKE
KLONDYKE
KLOSSNER
KLOTEN
KNAB
KNAPP
KNAPP CREEK
KNAPP LAKE
KNAPPS STATION
KNAUERS
KNEECE
KNEELAND
KNICKERBOCKER
KNIERIM
KNIFE FALLS
KNIFE LAKE
KNIFE RIVER
KNIFLEY
KNIGHT
KNIGHT PRAIRIE
KNIGHTDALE
KNIGHTS FERRY
KNIGHTS LANDING
KNIGHTS POINT
KNIGHTSEN
KNIGHTSTOWN
KNIGHTSVILLE
KNIGHTVILLE
KNIPPA
KNITTEL
KNOB FORK
KNOB LICK
KNOB NOSTER
KNOBEL
KNOBSVILLE
KNOEBELS GRV
KNOKE
KNOLLWOOD
KNOLLWOOD BEACH
KNOTT
KNOTTS ISLAND
KNOTTSVILLE
KNOUSETOWN
KNOWLES
KNOWLESVILLE
KNOWLTON
KNOWLTON HEIGHTS
KNOWSVILLE
KNOX
KNOX CITY
KNOX DALE
KNOXBORO
KNOXVILLE
KOBUK
KOCH RIDGE
KODAK
KODAK APPARATUS DIVISION
KODAK OFFICE
KODAK PARK
KODIAK
KOELTZTOWN
KOEN
KOENIG
KOENTON
KOERTH
KOHINOOR JUNCTION
KOHLER
KOHRVILLE
KOKHANOK
KOKHONAK
KOKOMO
KOLEEN
KOLIGANEK
KOLIN
KOLOA
KOMATSU DRESSER
KONA
KONAWA
KONES CORNER
KONGIGANAK
KONGSBERG
KOOSHAREM
KOOSKIA
KOOTENAI
KOPPEL
KOPPERL
KOPPERSTON
KORAN
KORBEL
KORN KREST
KORNMAN
KORTCAMP
KORTES DAM
KORTRIGHT
KORTRIGHT CENTER
KOSHKONONG
KOSMOS
KOSMOSDALE
KOSRAE
KOSRAE CAROLINE ISLANDS
KOSSE
KOSSUTH
KOSZTA
KOTLIK
KOTZEBUE
KOUNTZE
KOUTS
KOVAR
KOWANDA
KOYUK
KOYUKUK
KRAEMER
KRAGNES
KRAIN
KRAKOW
KRAMER
KRAMER JUNCTION
KRANZBURG
KRATZERVILLE
KREAMER
KREBS
KREMLIN
KREMMLING
KRESGEVILLE
KRESS
KRESSON
KREUTZ CREEK
KRINGSBUSH
KROGER
KRONBORG
KRONENWETTER
KROTZ SPRINGS
KRUGERVILLE
KRUM
KRUMSVILLE
KRUMVILLE
KRYPTON
KS CITY
KUALAPUU
KUGLER
KULA
KULLI
KULM
KULP
KULPMONT
KULPSVILLE
KULPTOWN
KUMLER
KUNA
KUNESH
KUNIA
KUNKLE
KUNKLETOWN
KURDO
KURE BEACH
KUROKI
KURTEN
KURTHWOOD
KURTISTOWN
KURTZ
KUTTAWA
KUTZTOWN
KWETHLUK
KWIGILLINGOK
KY WST
KYANA
KYBURZ
KYKOTSMOVI
KYKOTSMOVI VILLAGE
KYLE
KYLERTOWN
KYLES FORD
KYLEVILLE
KYROCK
L ANSE
L' ANSE
LA
LA BARGE
LA BARR MEADOWS
LA BELLE
LA BLANCA
LA BOLSA
LA CAMP
LA CANADA
LA CANADA FLINTRIDGE
LA CASITA
LA CENTER
LA CHUTE
LA CIENGA
LA CLEDE
LA CONNER
LA COSTE
LA CRESCENT
LA CRESCENTA
LA CROSSE
LA CUEVA
LA CYGNE
LA FARGE
LA FARGEVILLE
LA FAYETTE
LA FERIA
LA FOLLETTE
LA FONTAINE
LA FRANCE
LA GLORIA
LA GRAN HGHLS
LA GRANDE
LA GRANGE
LA GRANGE HIGHLANDS
LA GRANGE PARK
LA GRANGE PK
LA GRNG PK
LA HABRA
LA HABRA HEIGHTS
LA HABRA HTS
LA HARPE
LA HONDA
LA ISLA
LA JARA
LA JOLLA
LA JOSE
LA JOYA
LA JUNTA
LA LOMA
LA LOTTERY
LA LUZ
LA MADERA
LA MARQUE
LA MESA
LA MESILLA
LA MIRADA
LA MOILLE
LA MONTE
LA MOTTE
LA MOURE
LA NETT
LA PALMA
LA PALOMA
LA PINE
LA PLACE
LA PLANT
LA PLATA
LA PLATTE
LA PLUME
LA POINTE
LA PORTE
LA PORTE CITY
LA PRAIRIE
LA PRYOR
LA PUEBLA
LA PUENTE
LA PUSH
LA QUINTA
LA REFORMA
LA ROSE
LA RUE
LA RUSSELL
LA SAL
LA SALLE
LA SELVA BEACH
LA ST UNIV
LA TECH
LA TIJERA
LA TUNA CANYON
LA UNION
LA VALLE
LA VALLEY
LA VERGNE
LA VERKIN
LA VERNE
LA VERNIA
LA VETA
LA VILLA
LA VILLITA
LA VISTA
LA WARD
LA/ARK JUNCT
LAAGER
LABADIE
LABADIEVILLE
LABARRE
LABELLE
LABETTE
LABOLT
LABOR MGMT SERV ADMIN
LABORATORY
LAC COURTE OREILLES INDIAN R
LAC DU FLAMBEAU
LAC DU FLAMBEAU RESERVATION
LACAMAS
LACAMP
LACARNE
LACASSINE
LACELLE
LACEY
LACEY SPRING
LACEY TOWNSHIP
LACEYS SPRING
LACEYVILLE
LACHINE
LACK
LACKAWANNA
LACKAWAXEN
LACKEY
LACKLAND AFB
LACLEDE
LACOMBE
LACON
LACONA
LACONIA
LACOOCHEE
LACOTA
LACROSSE
LACY
LACY LAKEVIEW
LADD
LADD JUNCTION
LADDONIA
LADELLE
LADERA RANCH
LADIES ISLAND
LADIESBURG
LADOGA
LADONA
LADONIA
LADORA
LADSON
LADUE
LADY LAKE
LADYSMITH
LAFARGEVILLE
LAFAYETTE
LAFAYETTE HILL
LAFAYETTE SQUARE
LAFE
LAFFERTY
LAFITTE
LAFKIN
LAFLIN
LAFOLLETTE
LAFONTAINE
LAFOX
LAGO
LAGO VISTA
LAGRANGE
LAGRANGEVILLE
LAGRO
LAGUNA
LAGUNA BEACH
LAGUNA HEIGHTS
LAGUNA HILLS
LAGUNA NIGUEL
LAGUNA PARK
LAGUNA VISTA
LAGUNA WOODS
LAGUNITA
LAGUNITAS
LAHAINA
LAHASKA
LAHMANSVILLE
LAHOMA
LAHORE
LAIE
LAINGS
LAINGSBURG
LAIR
LAIRD
LAIRD HILL
LAIRDSVILLE
LAJITAS
LAKE
LAKE ADELLE
LAKE ALFRED
LAKE ALICE
LAKE ALMANOR
LAKE ALVIN
LAKE ANDES
LAKE ANGELUS
LAKE ANN
LAKE ANNETTE
LAKE AQUILLA
LAKE ARIEL
LAKE ARROWHEAD
LAKE ARTHUR
LAKE BARRINGTON
LAKE BARRINGTON SHORES
LAKE BENTON
LAKE BLUFF
LAKE BONAPARTE
LAKE BRANDT
LAKE BRIDGEPORT
LAKE BRONSON
LAKE BROWNWOOD
LAKE BRUIN
LAKE BUENA VISTA
LAKE BUTLER
LAKE BYRON
LAKE CABLE
LAKE CAMELOT
LAKE CAMPBELL
LAKE CARMEL
LAKE CARMI
LAKE CARROLL
LAKE CENTRALIA
LAKE CHARLES
LAKE CHEROKEE
LAKE CHESTERFIELD
LAKE CICOTT
LAKE CITY
LAKE CLARKE SHORES
LAKE CLEAR
LAKE COLBY
LAKE COMO
LAKE CREEK
LAKE CRESCENT
LAKE CREST
LAKE CRYSTAL
LAKE DALECARLIA
LAKE DALLAS
LAKE DELAWARE
LAKE DELTA
LAKE DELTON
LAKE DESOLATION
LAKE DUNMORE
LAKE EDGEWOOD
LAKE EDWARDS
LAKE ELIZABETH
LAKE ELMO
LAKE ELMORE
LAKE ELSINORE
LAKE EMERALD
LAKE EMILY
LAKE EMMA
LAKE FOREST
LAKE FOREST PARK
LAKE FORK
LAKE GARDA
LAKE GARDENS
LAKE GARFIELD
LAKE GENEVA
LAKE GEORGE
LAKE GREGORY
LAKE GROVE
LAKE HALLIE
LAKE HAMILTON
LAKE HARBOR
LAKE HARMONY
LAKE HAVASU CITY
LAKE HELEN
LAKE HERMAN
LAKE HIAWATHA
LAKE HILL
LAKE HINEVAH
LAKE HOLCOMBE
LAKE HOLIDAY
LAKE HOPATCONG
LAKE HORTONIA
LAKE HUBERT
LAKE HUGHES
LAKE HUNTINGTON
LAKE IN THE HILLS
LAKE INTERVALE
LAKE IROQUOIS
LAKE ISABELLA
LAKE ITASCA
LAKE JACKSON
LAKE JACKSON BRANCH
LAKE JACKSONVILLE
LAKE JAMES
LAKE JOY
LAKE JUNALUSKA
LAKE KATONAH
LAKE KATRINE
LAKE KIOWA
LAKE KITCHAWAN
LAKE LAFAYETTE
LAKE LAMOILLE
LAKE LANCELOT
LAKE LEELANAU
LAKE LILLIAN
LAKE LINCOLN
LAKE LINCOLNDALE
LAKE LINDEN
LAKE LINGANORE
LAKE LOS ANGELES
LAKE LOTAWANA
LAKE LURE
LAKE LUZERNE
LAKE LYNN
LAKE MADISON
LAKE MAHOPAC
LAKE MARY
LAKE MATTAWA
LAKE MAXINE
LAKE MC DONALD
LAKE MCCOY
LAKE MEAD RANCHEROS
LAKE METIGOSHE
LAKE MILLS
LAKE MILTON
LAKE MINCHUMINA
LAKE MITCHELL
LAKE MOHEE
LAKE MOHEGAN
LAKE MONROE
LAKE MONTCELO
LAKE MONTEZUMA
LAKE MONTICELLO
LAKE MOREY
LAKE MURRAY
LAKE MURRAY SHORES
LAKE NATOMA
LAKE NEBAGAMON
LAKE NEPESSING
LAKE NICHOLS
LAKE NOJI
LAKE NORDEN
LAKE ODESSA
LAKE OF THE FOREST
LAKE OF THE PINES
LAKE OF THE WOODS
LAKE ORION
LAKE OSWEGO
LAKE OZARK
LAKE OZETTE
LAKE PANAMOKA
LAKE PANASOFFKEE
LAKE PANORAMA
LAKE PARK
LAKE PEEKSKILL
LAKE PLACID
LAKE PLEASANT
LAKE POINSETT
LAKE POINT
LAKE POWELL
LAKE PRESTON
LAKE PROVIDENCE
LAKE QUIVIRA
LAKE RESCUE
LAKE RIDGE
LAKE RONKONKOMA
LAKE RONKONKOMA HEIGHTS
LAKE SAINT LOUIS
LAKE SAN MARCOS
LAKE SARA
LAKE SAWYER
LAKE SECOR
LAKE SHERWOOD
LAKE SHORE
LAKE SINAI
LAKE SLAGLE
LAKE SPRING
LAKE ST CATHERINE
LAKE ST JOHN
LAKE STATION
LAKE STEVENS
LAKE STOCKHOLM
LAKE SUCCESS
LAKE SULLIVAN
LAKE SUMNER
LAKE SUZY
LAKE SWANNANOA
LAKE TACOMA
LAKE TAMARACK
LAKE TAPAWINGO
LAKE TAPPS
LAKE THUNDERBIRD
LAKE TOMAHAWK
LAKE TOXAWAY
LAKE VALLEY
LAKE VICTOR
LAKE VIEW
LAKE VIEW TERRACE
LAKE VIKING
LAKE VILLA
LAKE VILLAGE
LAKE WACCAMAW
LAKE WALES
LAKE WAUKOMIS
LAKE WAZEECHA
LAKE WHITE
LAKE WILDWOOD
LAKE WILLIAMS
LAKE WILSON
LAKE WINDSOR
LAKE WINNEBAGO
LAKE WINOLA
LAKE WISSOTA
LAKE WORTH
LAKE WYLIE
LAKE ZURICH
LAKEBAY
LAKEDALE
LAKEFIELD
LAKEHEAD
LAKEHILLS
LAKEHURST
LAKEHURST NAEC
LAKELAND
LAKELINE
LAKEMONT
LAKEMOOR
LAKEMORE
LAKENAN
LAKEPARK
LAKEPORT
LAKERIDGE
LAKES OF FOUR SEASONS
LAKESHORE
LAKESIDE
LAKESIDE CITY
LAKESIDE HEIGHTS
LAKESIDE MARBLEHEAD
LAKESIDE PARK
LAKESIDE VILLAGE
LAKESIDE-MARBLEHEAD
LAKETON
LAKETOWN
LAKEVIEW
LAKEVIEW ESTATES
LAKEVIEW HEIGHTS
LAKEVIEW PARK
LAKEVILLE
LAKEVILLE ESTATES
LAKEWAY
LAKEWOOD
LAKEWOOD CLUB
LAKEWOOD HARBOR
LAKEWOOD PARK
LAKEWOOD RANCH
LAKEWOOD VILLAGE
LAKIN
LAKOTA
LAMA
LAMAR
LAMARD
LAMARTINE
LAMASCO
LAMB
LAMBERT
LAMBERT LAKE
LAMBERTON
LAMBERTVILLE
LAMBETH CHURCH
LAMBRIC
LAMBROOK
LAMBS CREEK
LAMBS GROVE
LAMBSBURG
LAME DEER
LAMERO
LAMESA
LAMINE
LAMKIN
LAMMERS
LAMOILLE
LAMOINE
LAMONA
LAMONI
LAMONT
LAMOTT
LAMOTTE
LAMOURE
LAMOURIE
LAMPASAS
LAMPE
LAMPETER
LAMY
LANAGAN
LANAI CITY
LANARK
LANARK VILLAGE
LANCASTER
LANCASTER JUNCTION
LANCE CREEK
LANCER
LANCING
LAND O LAKES
LAND O' LAKES
LANDA
LANDAFF
LANDENBERG
LANDER
LANDERS
LANDES STATION
LANDESS
LANDFALL VILLAGE
LANDGROVE
LANDING
LANDINGVILLE
LANDIS
LANDISBG
LANDISBURG
LANDISVILLE
LANDO
LANDON
LANDOVER
LANDOVER HILLS
LANDRUM
LANDS END
LANDVILLE
LANE
LANE CITY
LANEBURG
LANEDALE
LANELY
LANEPORT
LANES PRAIRIE
LANESBORO
LANESBOROUGH
LANESVILLE
LANETT
LANEVIEW
LANEVILLE
LANEXA
LANGDALE
LANGDON
LANGDON CORNERS
LANGELOTH
LANGES CORNER
LANGFORD
LANGHORNE
LANGLEY
LANGLEY AIR FORCE BASE
LANGLEY PARK
LANGLEYVILLE
LANGLOIS
LANGOR
LANGSTON
LANGSVILLE
LANGTRY
LANGWORTHY
LANHAM
LANHAM SEABROOK
LANIER
LANKIN
LANNON
LANOKA HARBOR
LANSDALE
LANSDOWNE
LANSE
LANSFORD
LANSING
LANSINGBURG
LANTANA
LANTON
LANTRY
LANTY
LANYON
LAONA
LAOTTO
LAPARK
LAPAZ
LAPEER
LAPEL
LAPINE
LAPLACE
LAPLATA
LAPOINT
LAPORTE
LAPORTE CITY
LAPWAI
LAQUEY
LARAMIE
LARCHLAND
LARCHMONT
LARCHWOOD
LARDO
LAREDO
LARGE
LARGO
LARIAT
LARIMER
LARIMER HILL
LARIMERS CORNER
LARIMORE
LARK
LARKFIELD
LARKINSBURG
LARKSLANE
LARKSPUR
LARKSVILLE
LARNED
LAROCHE
LAROSE
LARRABEE
LARRYS CREEK
LARRYVILLE
LARSEN
LARSEN BAY
LARSLAN
LARSON
LARTO
LARUE
LARWILL
LAS ANIMAS
LAS CRUCES
LAS LOMAS
LAS MESITAS
LAS MILPAS
LAS NUTRIAS
LAS PALOMAS
LAS PLACITAS
LAS PLUMAS
LAS RUSIAS
LAS TABLAS
LAS VEGAS
LAS VEGAS BUSINESS REPLY
LASARA
LASAUSES
LASCAR
LASCASSAS
LASHMEET
LASKER
LASSELLSVILLE
LAST CHANCE
LAST CHANCE RESORT
LASTRUP
LATAH
LATANIER
LATCH
LATEX
LATEXO
LATHAM
LATHAMS CORNERS
LATHROP
LATHROP WELLS
LATHRUP VILLAGE
LATIMER
LATON
LATONIA
LATONIA LAKES
LATONIA LKS
LATOUR
LATROBE
LATTA
LATTASBURG
LATTIMER MINES
LATTIMORE
LATTINGTOWN
LATTY
LAUBACHS
LAUD
LAUD BY THE SEA
LAUDER HILL
LAUDERDALE
LAUDERDALE BY THE SEA
LAUDERDALE ISLES
LAUDERDALE LAKES
LAUDERHILL
LAUGHLIN
LAUGHLIN AFB
LAUGHLINTOWN
LAUPAHOEHOE
LAURA
LAUREL
LAUREL BAY
LAUREL BLOOMERY
LAUREL FORK
LAUREL HILL
LAUREL HOLLOW
LAUREL LAKE
LAUREL PARK
LAUREL RUN
LAUREL SPGS
LAUREL SPRINGS
LAURELDALE
LAURELES
LAURELTON
LAURELVILLE
LAURENCE
LAURENCE HARBOR
LAURENS
LAURIE
LAURIER
LAURINBURG
LAURIUM
LAURYS STATION
LAUZEN
LAVA HOT SPRINGS
LAVACA
LAVALE
LAVALETTE
LAVALLETTE
LAVEEN
LAVELLE
LAVERNE
LAVERNIA
LAVEROCK
LAVINA
LAVINIA
LAVISTA
LAVON
LAVONIA
LAW
LAW ENFORCE ASSIST ADM
LAWAI
LAWEN
LAWHON
LAWLER
LAWLEY
LAWN
LAWN HILL
LAWN RIDGE
LAWNCREST
LAWNDALE
LAWNFORD ACRE
LAWNSIDE
LAWNTON
LAWRENCE
LAWRENCE PARK
LAWRENCEBURG
LAWRENCEPORT
LAWRENCEVILLE
LAWS
LAWSON
LAWSONVILLE
LAWTELL
LAWTEY
LAWTON
LAWTONS
LAWYERSVILLE
LAXON
LAY
LAYFIELD
LAYLAND
LAYNESVILLE
LAYTON
LAYTONSVILLE
LAYTONVILLE
LAYTONVILLE RANCHERIA
LAYTOWN
LAZBUDDIE
LAZEAR
LAZY LAKE
LB
LCO COMMERCIAL CENT
LDHL
LDS CHURCH
LE CENTER
LE CLAIRE
LE GRAND
LE MARS
LE MOYEN
LE RAY
LE RAYSVILLE
LE ROY
LE SUEUR
LEABURG
LEACH
LEACHVILLE
LEACOCK
LEAD
LEAD HILL
LEADAY
LEADERS HEIGHTS
LEADINGTON
LEADORE
LEADVILLE
LEADWOOD
LEAF PARK
LEAF RIVER
LEAGUE CITY
LEAGUEVILLE
LEAH
LEAKESVILLE JUNCTION
LEAKEY
LEAKSVILLE
LEAL
LEAMAN PLACE
LEAMINGTON
LEANDER
LEANDO
LEARY
LEASBURG
LEATHERSVILLE
LEATHERWOOD
LEAVENWORTH
LEAVITTSBURG
LEAWOOD
LEB
LEBAM
LEBANON
LEBANON CENTER
LEBANON CHURCH
LEBANON JCT
LEBANON JUNCTION
LEBANON SPRINGS
LEBEAU
LEBEC
LEBLANC
LEBO
LEBURN
LECANTO
LECK KILL
LECKIE
LECKKILL
LECKRONE
LECOMA
LECOMPTE
LECOMPTON
LECONTES MILLS
LEDBETTER
LEDERACH
LEDGER
LEDGEWOOD
LEDOUX
LEDYARD
LEE
LEE CENTER
LEE CITY
LEE HALL
LEE MONT
LEE VINING
LEECH LAKE
LEECHBURG
LEECO
LEEDALE
LEEDEY
LEEDS
LEEDS POINT
LEEPER
LEES CAMP
LEES CREEK
LEES CROSS RD
LEES LICK
LEES SUMMIT
LEESBURG
LEESPORT
LEESVILLE
LEET
LEETON
LEETONIA
LEETSDALE
LEEVILLE
LEEWOOD
LEFLORE
LEFOR
LEFORS
LEFT HAND
LEGGETT
LEGGS PRODUCTS
LEHEW
LEHI
LEHIGH
LEHIGH ACRES
LEHIGH VALLEY
LEHIGHTON
LEHMAN
LEHMAN CAVES
LEHR
LEIBEYVILLE
LEIBHARDT
LEICESTER
LEIDING
LEIDY
LEIGH
LEIGHTON
LEIMERT PARK
LEIPSIC
LEISENRING
LEISURE
LEISURE CITY
LEISURE WORLD
LEITCHFIELD
LEITER
LEITERS FORD
LEITH
LEIVASY
LEJEUNE
LEJUNIOR
LELAND
LELAND GROVE
LELIA LAKE
LEMASTERS
LEMAY
LEMERT
LEMHI
LEMING
LEMINGTON
LEMITAR
LEMMON
LEMMON VALLEY
LEMOINE TOWN
LEMOLO
LEMON COVE
LEMON GROVE
LEMON SPRINGS
LEMONS
LEMONT
LEMONT FCE
LEMONT FRNCE
LEMONT FURNACE
LEMOORE
LEMOORE NAVAL AIR STATION
LEMOYNE
LEMPSTER
LENA
LENAPAH
LENEXA
LENGBY
LENHARTSVILLE
LENKER MANOR
LENKERVILLE
LENNEP
LENNI
LENNIG
LENNON
LENNOX
LENNUT
LENOIR
LENOIR CITY
LENOIR RHYNE
LENOLA
LENORA
LENORAH
LENORE
LENOX
LENOX DALE
LENOX HILL
LENOX SQ FINANCE
LENOX SQUARE FINANCE
LENOX TOWNSHIP
LENOXBURG
LENOXVILLE
LENT
LENTNER
LENZBURG
LEO
LEOLA
LEOLYN
LEOMA
LEOMINSTER
LEON
LEON CORNERS
LEON JUNCTION
LEON VALLEY
LEONA
LEONA VALLEY
LEONARD
LEONARD CHAPEL
LEONARDO
LEONARDSVILLE
LEONARDTOWN
LEONARDVILLE
LEONIA
LEONIDAS
LEONORE
LEONTA
LEONVILLE
LEOPOLD
LEOPOLIS
LEOTA
LEOTI
LEPANTO
LEQUIRE
LERAYSVILLE
LERNA
LERONA
LEROSE
LEROY
LESAGE
LESHARA
LESLIE
LESTER
LESTER PRAIRIE
LESTERVILLE
LETART
LETCHER
LETHA
LETOHATCHEE
LETONA
LETORT
LETTER GAP
LETTERKENNY ARMY DEPO
LETTS
LETTSWORTH
LEUCADIA
LEUPP
LEUPP CORNER
LEVAN
LEVANT
LEVASY
LEVEE HEIGHTS
LEVEL CORNER
LEVEL CROSS
LEVEL PLAINS
LEVELLAND
LEVELOCK
LEVELROAD
LEVELS
LEVENS ADDITION
LEVERETT
LEVERETT SALTONSTALL BLDG
LEVERETTS CHAPEL
LEVERING
LEVI
LEVIAS
LEVITA
LEVITTOWN
LEVY
LEW BEACH
LEWELLEN
LEWES
LEWES BEACH
LEWIS
LEWIS CENTER
LEWIS RUN
LEWIS STATION
LEWISBERRY
LEWISBORO
LEWISBURG
LEWISDALE
LEWISETTA
LEWISPORT
LEWISTON
LEWISTON WOODVILLE
LEWISTOWN
LEWISTOWN JUN
LEWISTWN
LEWISVILLE
LEX
LEX PK
LEXA
LEXINGTON
LEXINGTON PARK
LEXMARK
LEXSY
LEYBA
LEYDEN
LIBBY
LIBER
LIBERAL
LIBERTY
LIBERTY CENTER
LIBERTY CITY
LIBERTY CORNER
LIBERTY FARMS
LIBERTY HIGHLANDS
LIBERTY HILL
LIBERTY HOUSE
LIBERTY LAKE
LIBERTY MILLS
LIBERTY MUTUAL
LIBERTY MUTUAL INSURANCE
LIBERTY PARK
LIBERTY SQUARE
LIBERTY TOWNSHIP
LIBERTY TWP
LIBERTYTOWN
LIBERTYVILLE
LIBRARY
LIBUSE
LICK CREEK
LICK MOUNTAIN
LICKBURG
LICKING
LICKING CREEK
LICKINGVILLE
LIDA
LIDDERDALE
LIDDIEVILLE
LIDGERWOOD
LIDO BEACH
LIDY HOT SPRINGS
LIEBENTHAL
LIEGE
LIFE INVESTORS INC
LIFEWAY CHRISTIAN RESOURCES
LIGGETT
LIGHT
LIGHT STREET
LIGHTCAP
LIGHTFOOT
LIGHTHOUSE POINT
LIGNITE
LIGNUM
LIGON
LIGONIER
LIGUORI
LIHUE
LIKELY
LILAC
LILBOURN
LILBURN
LILEDOWN
LILESVILLE
LILLE
LILLIAN
LILLIAN VERNON
LILLIE
LILLIEVILLE
LILLINGTON
LILLIS
LILLIWAUP
LILLY
LILLY DALE
LILLYDALE
LILLYVILLE
LILY
LILY DALE
LILY ISLAND
LILYDALE
LIMA
LIMA CENTER
LIMA TWP
LIMABURG
LIMAVILLE
LIMBY
LIME
LIME CITY
LIME RIDGE
LIME ROCK
LIME SPRINGS
LIME VALLEY
LIMEDALE
LIMEHOUSE
LIMEKILN
LIMEPORT
LIMERICK
LIMESTONE
LIMESTONEVLE
LIMEVILLE
LIMINGTON
LIMON
LINCH
LINCKLAEN
LINCOLN
LINCOLN ACRES
LINCOLN BOYHOOD NATL MEM
LINCOLN CITY
LINCOLN COLLIERY
LINCOLN HEIGHTS
LINCOLN PARK
LINCOLN VILLAGE FIN UNIT
LINCOLN'S NEW SALEM
LINCOLNDALE
LINCOLNS NEW SALEM
LINCOLNSHIRE
LINCOLNSHIRE WOODS
LINCOLNTON
LINCOLNVILLE
LINCOLNVILLE CENTER
LINCOLNWOOD
LINCROFT
LIND
LINDALE
LINDBERG
LINDBERGH
LINDEN
LINDEN BEACH
LINDEN HILL
LINDENAU
LINDENHURST
LINDENTREE
LINDENWALD
LINDENWOLD
LINDENWOOD
LINDER
LINDFORD
LINDLEY
LINDON
LINDRITH
LINDSAY
LINDSBORG
LINDSEY
LINDSEYVILLE
LINDSIDE
LINDSTROM
LINDY LAKE
LINE LEXINGTON
LINE MOUNTAIN
LINEBORO
LINEFORK
LINESVILLE
LINEVILLE
LINFIELD
LINGLE
LINGLESTOWN
LINGLEVILLE
LINGO
LINKWOOD
LINLITHGO
LINN
LINN CREEK
LINN GROVE
LINN GRV
LINN VALLEY
LINNDALE
LINNEUS
LINNTOWN
LINO LAKES
LINROSE
LINTHICUM
LINTHICUM HEIGHTS
LINTON
LINVILLE
LINVILLE FALLS
LINWOOD
LINWOOD PARK
LINWORTH
LIONILLI
LIONS
LIONSHEAD LAKE
LIONVILLE
LIPAN
LIPPERT
LIPSCOMB
LISBON
LISBON FALLS
LISBURN
LISCO
LISCOMB
LISLE
LISMAN
LISMORE
LISSIE
LISTIE
LISTONBURG
LITCHFIELD
LITCHFIELD PARK
LITCHVILLE
LITERBERRY
LITHIA
LITHIA SPRINGS
LITHIA SPRS
LITHIUM
LITHONIA
LITHOPOLIS
LITITZ
LITOMYSL
LITROE
LITTCARR
LITTELL
LITTIG
LITTLE
LITTLE AMERICA
LITTLE BIRCH
LITTLE BLACK
LITTLE BLUE
LITTLE BOSTON
LITTLE BROOKLYN
LITTLE CAILLOU
LITTLE CANADA
LITTLE CEDAR
LITTLE CHICAGO
LITTLE CHUTE
LITTLE COMPTON
LITTLE CREEK
LITTLE DEER ISLE
LITTLE DIAMOND ISLAND
LITTLE DIOMEDE
LITTLE DIXIE
LITTLE EAGLE
LITTLE EGG HARBOR TWP
LITTLE EGYPT
LITTLE ELM
LITTLE FALLS
LITTLE FERRY
LITTLE FIVE POINTS PSTL STR
LITTLE GENESEE
LITTLE GERMAN
LITTLE HOCKING
LITTLE HORSE CREEK
LITTLE INDIAN
LITTLE KANSAS
LITTLE LAKE
LITTLE LONDON
LITTLE MACKINAW
LITTLE MAHANY
LITTLE MARAIS
LITTLE MARSH
LITTLE MEADOWS
LITTLE MOUNTAIN
LITTLE NECK
LITTLE ORLEANS
LITTLE PLYMOUTH
LITTLE PLYMTH
LITTLE POINT
LITTLE RED
LITTLE RIVER
LITTLE ROCK
LITTLE ROCK AIR FORCE BASE
LITTLE SANDY
LITTLE SAUK
LITTLE SILVER
LITTLE SILVER POINT
LITTLE SIOUX
LITTLE SUAMICO
LITTLE SWAN
LITTLE SWITZERLAND
LITTLE TORCH KEY
LITTLE TUCSON
LITTLE TURKEY
LITTLE VALLEY
LITTLE WALNUT VILLAGE
LITTLE WASH
LITTLE WASHINGTON
LITTLE WATER
LITTLE YORK
LITTLEFIELD
LITTLEFORK
LITTLEPORT
LITTLERIVER
LITTLEROCK
LITTLESBURG
LITTLESTOWN
LITTLETON
LITTLETON CITY OFFICES
LITTLEVINE
LIVE OAK
LIVELY
LIVELY GROVE
LIVERMORE
LIVERMORE FALLS
LIVERPOOL
LIVINGSTON
LIVINGSTON MANOR
LIVINGSTONVILLE
LIVONA
LIVONIA
LIVONIA CENTER
LIZELLA
LIZEMORES
LIZTON
LK BARRINGTON
LK ELSINORE
LK FOREST
LK FOREST PARK
LK FOREST PK
LK GROVE
LK HIAWATHA
LK IN THE HLS
LK INTERVALE
LK LOTAWANA
LK MARY
LK PLACID
LK PROVIDENCE
LK WALES
LK WYLIE
LLANERCH
LLANO
LLANO QUEMADO
LLAVES
LLEWELLYN
LLOYD
LLOYD HARBOR
LLOYD NECK
LOA
LOACHAPOKA
LOAD
LOAG
LOAMI
LOBACHSVILLE
LOBATA
LOBATOS
LOBECO
LOBELVILLE
LOCH ALPINE
LOCH ARBOUR
LOCH LOMOND
LOCH RAVEN
LOCH RAVEN VILLAGE
LOCH SHELDRAKE
LOCHBUIE
LOCHGELLY
LOCHIEL
LOCHLOOSA
LOCHMERE
LOCHRIDGE
LOCK HAVEN
LOCK SPRINGS
LOCKBOURNE
LOCKBRIDGE
LOCKE
LOCKE MILLS
LOCKEFORD
LOCKESBURG
LOCKHART
LOCKHEED
LOCKLAND
LOCKNEY
LOCKPORT
LOCKRIDGE
LOCKWOOD
LOCO
LOCO HILLS
LOCUST
LOCUST DALE
LOCUST FORK
LOCUST GAP
LOCUST GROVE
LOCUST HILL
LOCUST POINT
LOCUST RIDGE
LOCUST RUN
LOCUST VALLEY
LOCUSTDALE
LOCUSTVILLE
LOCUSTWOOD
LODA
LODGE
LODGE CORNER
LODGE GRASS
LODGEPOLE
LODI
LODI TOWNSHIP
LODIBURG
LODOGA
LOEBAU
LOEHMANNS PLAZA
LOFALL
LOG CABIN
LOG LANE VILLAGE
LOG MOUNTAIN
LOGAN
LOGAN MILLS
LOGAN STATION
LOGAN TOWNSHIP
LOGANDALE
LOGANSPORT
LOGANTON
LOGANVILLE
LOGGY BAYOU
LOGSDEN
LOGTOWN
LOGVILLE
LOHMAN
LOHN
LOHRVILLE
LOLA
LOLETA
LOLITA
LOLLIE
LOLO
LOMA
LOMA LINDA
LOMA MAR
LOMA RICA
LOMAN
LOMAX
LOMBARD
LOMBARDVILLE
LOMETA
LOMIRA
LOMITA
LOMPICO
LOMPOC
LONACONING
LONDON
LONDON MILLS
LONDON TWP
LONDONDERRY
LONE
LONE ELM
LONE GROVE
LONE HICKORY
LONE JACK
LONE MOUNTAIN
LONE OAK
LONE PINE
LONE ROCK
LONE STAR
LONE TREE
LONE WOLF
LONEDELL
LONEPINE
LONETREE
LONG BARN
LONG BEACH
LONG BEACH SHARED FIRM
LONG BEACH TOWNSHIP
LONG BOAT KEY
LONG BOTTOM
LONG BRANCH
LONG CREEK
LONG EDDY
LONG GREEN
LONG GROVE
LONG ISLAND
LONG ISLAND CITY
LONG KEY
LONG LAKE
LONG LANE
LONG MOTT
LONG NECK
LONG PINE
LONG POINT
LONG POND
LONG PRAIRIE
LONG SHOALS
LONG VALLEY
LONG VIEW
LONGACRE
LONGBOAT KEY
LONGBRANCH
LONGBRIDGE
LONGDALE
LONGFELLOW
LONGFORD
LONGISLAND
LONGLAKE
LONGLEAF
LONGLEVEL
LONGMEADOW
LONGMIRE
LONGMONT
LONGPORT
LONGRUN
LONGS
LONGSTOWN
LONGSTREET
LONGSWAMP
LONGTON
LONGTOWN
LONGVIEW
LONGVIEW HEIGHTS
LONGVILLE
LONGWOOD
LONGWORTH
LONO
LONOKE
LONSDALE
LOOGOOTEE
LOOKEBA
LOOKOUT
LOOKOUT HEIGHTS
LOOKOUT MOUNTAIN
LOOMIS
LOON LAKE
LOONEYVILLE
LOOP
LOOP STATION
LOOSE CREEK
LOPENO
LOPEZ
LOPEZ ISLAND
LOPEZVILLE
LORADO
LORAH
LORAIN
LORAINE
LORAL SYSTEMS
LORAN
LORANE
LORANGER
LORAY
LORBERRY
LORDS POINT
LORDS VALLEY
LORDSBURG
LORDSTOWN
LORDVILLE
LORE CITY
LOREAUVILLE
LORENA
LORENTON
LORENTZ
LORENZO
LORETTA
LORETTO
LORIDA
LORIMOR
LORING
LORIS
LORRAINE
LORTON
LORTON LICK
LOS ALAMITOS
LOS ALAMOS
LOS ALTOS
LOS ALTOS HILLS
LOS ANGELES
LOS ANGELES AFB
LOS BANOS
LOS CHAVEZ
LOS COYOTES
LOS CUATES
LOS EBANOS
LOS FELIZ
LOS FRESNOS
LOS FUERTES
LOS GATOS
LOS INDIOS
LOS LUCEROS
LOS LUNAS
LOS MOLINOS
LOS NIETOS
LOS OJOS
LOS OLIVOS
LOS OSOS
LOS PACHECOS
LOS PADILLAS
LOS PINAS
LOS RANCHOS DE ALBUQUERQUE
LOS RANCHOS DEL RIO
LOS SAENZ
LOS TRUJILLOS
LOSANTIVILLE
LOSANTVILLE
LOST CABIN
LOST CITY
LOST CORNER
LOST CREEK
LOST HILLS
LOST ISLAND LAKE
LOST NATION
LOST RIVER
LOST SPRINGS
LOSTANT
LOSTCREEK
LOSTINE
LOSTWOOD
LOTHAIR
LOTHIAN
LOTSEE
LOTT
LOTTIE
LOTTS
LOTTS CREEK
LOTTSBURG
LOTUS
LOU DEL
LOUANN
LOUDON
LOUDONVILLE
LOUDVILLE
LOUELLEN
LOUGHMAN
LOUIS
LOUISA
LOUISBURG
LOUISE
LOUISIANA
LOUISIANA LOTTERY
LOUISIANA TECH
LOUISIANA TECH UNIV
LOUISVILLE
LOUNSBERRY
LOUP CITY
LOURDES
LOUVALE
LOUVIERS
LOVE VALLEY
LOVEJOY
LOVELACE
LOVELACEVILLE
LOVELADIES
LOVELADY
LOVELAND
LOVELL
LOVELOCK
LOVELY
LOVES PARK
LOVETTSVILLE
LOVEVILLE
LOVILIA
LOVING
LOVINGSTON
LOVINGTON
LOW GAP
LOW GROUND
LOW HAMPTON
LOW MOOR
LOW MOUNTAIN
LOW PEACH TRE
LOWAKE
LOWBER
LOWDEN
LOWDER
LOWELL
LOWELLVILLE
LOWER AUGUSTA
LOWER BRULE
LOWER BURRELL
LOWER CABOT
LOWER CHICHESTER
LOWER GENEGANTSLET CORNER
LOWER GRANVILLE
LOWER GWYNEDD
LOWER KALSKAG
LOWER KINGS ADDITION
LOWER LAKE
LOWER LAPOSADA
LOWER LONGSWAMP
LOWER MAKEFIELD
LOWER MATECUMBE KEY
LOWER MIFFLIN
LOWER MONTVILLE
LOWER NUTRIA
LOWER OSWEGATCHIE
LOWER PAXTON
LOWER PEACH TREE
LOWER PIG PEN
LOWER PLAIN
LOWER PRESTO
LOWER RANCHITO
LOWER ROTTERDAM
LOWER SALEM
LOWER SAN FRANCISCO PLAZA
LOWER SHAFT
LOWER STANLEY
LOWER SUGARLOAF KEY
LOWER SWATARA
LOWER VALLEY
LOWER WATERFORD
LOWER WEBSTERVILLE
LOWES
LOWESVILLE
LOWGAP
LOWLAND
LOWMAN
LOWMANSVILLE
LOWMOOR
LOWNDES
LOWNDESBORO
LOWNDESVILLE
LOWPOINT
LOWRY
LOWRY CITY
LOWVILLE
LOXAHATCHEE
LOXLEY
LOYAL
LOYALHANNA
LOYALL
LOYALSOCK
LOYALSOCKVLE
LOYALTON
LOYDS BRIDGE
LOYOLA BEACH
LOYSBURG
LOYSVILLE
LOZANO
LPOOL
LRAFB
LS
LSL
LTL CHICAGO
LU VERNE
LUANA
LUBBOCK
LUBEC
LUBERS
LUBLIN
LUCAMA
LUCAN
LUCAS
LUCASVILLE
LUCCA
LUCE TWP
LUCERNE
LUCERNE VALLEY
LUCERNEMINES
LUCIA
LUCIEN
LUCILE
LUCINDA
LUCK
LUCKENBACK
LUCKETTS
LUCKEY
LUCKNOW
LUCKY
LUCKY LOSERS
LUCKY MACCAMP
LUCY
LUCY FURNACE
LUDDEN
LUDE
LUDELL
LUDINGTON
LUDLAM
LUDLOW
LUDLOW FALLS
LUDOWICI
LUEBBERING
LUEDERS
LUFKIN
LUGER
LUGERVILLE
LUGO
LUGOFF
LUIS LOPEZ
LUKACHUKAI
LUKE
LUKE AFB
LUKE FIDLER
LUKEVILLE
LUKIN
LULA
LULATON
LULING
LULL
LULU
LUM
LUMAGHI HEIGHTS
LUMBER BRIDGE
LUMBER CITY
LUMBERPORT
LUMBERTON
LUMBERTON TOWNSHIP
LUMBERVILLE
LUMMI ISLAND
LUMPKIN
LUNA
LUNA PIER
LUNANA
LUND
LUNDALE
LUNDS VALLEY
LUNDSTROM HEIGHTS
LUNDYS LANE
LUNENBURG
LUNGERVILLE
LUNING
LUPTON
LUPTON CITY
LUPUS
LURAY
LURGAN
LUSBY
LUSHTON
LUSK
LUSTRE
LUTCHER
LUTESVILLE
LUTHER
LUTHERAN LAKE
LUTHERSBURG
LUTHERSVILLE
LUTHERVILLE
LUTHERVILLE TIMONIUM
LUTON
LUTSEN
LUTTRELL
LUTTS
LUTZ
LUTZTOWN
LUVERNE
LUXEMBURG
LUXOR
LUXORA
LUYSTOWN
LUZERNE
LVPL
LVRPOOL
LWRNCE
LYBURN
LYC CO AIRPRT
LYCAN
LYCOMING
LYDEN
LYDIA
LYDICK
LYERLY
LYFORD
LYKENS
LYKERS
LYLE
LYLES
LYMAN
LYMANTOWN
LYME
LYME CENTER
LYN MAY
LYNBROOK
LYNCH
LYNCH STATION
LYNCHBURG
LYNCO
LYNCOURT
LYND
LYNDEBORO
LYNDEBOROUGH
LYNDELL
LYNDEN
LYNDHURST
LYNDHURST MAYFIELD
LYNDON
LYNDON B JOHNSON SPACE CEN
LYNDON CENTER
LYNDON CORNERS
LYNDON STATION
LYNDON TWP
LYNDONVILLE
LYNDORA
LYNN
LYNN CENTER
LYNN GARDEN
LYNN GROVE
LYNN HAVEN
LYNN SPRING
LYNN TOWNSHIP
LYNNDYL
LYNNEWOOD GARDENS
LYNNFIELD
LYNNVILLE
LYNNWOOD
LYNWOOD
LYNX
LYNXVILLE
LYON
LYON MOUNTAIN
LYON STATION
LYONS
LYONS FALLS
LYONSDALE
LYONSVILLE
LYONVILLE
LYOTH
LYSANDER
LYSITE
LYTLE
LYTLE CREEK
LYTTEN
LYTTLEVILLE
LYTTON
LYTTON SPRINGS
M C B H KANEOHE BAY
MABEL
MABELVALE
MABEN
MABERRY
MABIE
MABLE
MABLETON
MABSCOTT
MABTON
MAC ARTHUR
MAC DILL AFB
MAC DOUGALL
MAC MAHAN
MACARTHUR
MACATAWA
MACCLENNY
MACCLESFIELD
MACDILL
MACDOEL
MACDONA
MACEDON
MACEDONIA
MACEO
MACFARLAN
MACHENS
MACHESNEY PARK
MACHESNEY PK
MACHIAS
MACHIASPORT
MACHIPONGO
MACK
MACKAY
MACKEY
MACKEY BAR
MACKEYVILLE
MACKINAC CITY
MACKINAC ISLAND
MACKINAW
MACKINAW CITY
MACKS CREEK
MACKS INN
MACKSBURG
MACKSVILLE
MACKVILLE
MACLEAN
MACOMB
MACOMB TOWNSHIP
MACOMB TWP
MACON
MACON LAKE
MACUNE
MACUNGIE
MACVILLE
MACY
MACYS BY MAIL
MACYS FINANCE
MAD RIVER
MAD RIVER GLEN
MADAWASKA
MADBURY
MADDENSVILLE
MADDOCK
MADDOX
MADEIRA
MADEIRA BEACH
MADELIA
MADELINE
MADERA
MADERO
MADIGAN ARMY MEDICAL CENTER
MADILL
MADISON
MADISON BUSINESS REPLY MAIL
MADISON HEIGHTS
MADISON LAKE
MADISON MILLS
MADISON PARK
MADISON SQUARE BRM
MADISON SQUARE STA
MADISON-ON-THE-LAKE
MADISONBURG
MADISONVILLE
MADONNA
MADONNAVILLE
MADRAS
MADRAY SPRINGS
MADRID
MADRID SPRINGS
MADSEN
MADSEN BEACH
MAE
MAESER
MAEYSTOWN
MAFB
MAFIC
MAGALIA
MAGAZINE
MAGDA
MAGDALENA
MAGGARD
MAGGIE
MAGGIE VALLEY
MAGIC CITY
MAGIC RESORT
MAGNA
MAGNESS
MAGNET
MAGNET COVE
MAGNETIC SPGS
MAGNETIC SPRING
MAGNETIC SPRINGS
MAGNOLIA
MAGNOLIA BEACH
MAGNOLIA SPRINGS
MAGRA
MAHAFFEY
MAHAN
MAHANOY
MAHANOY CITY
MAHANOY PLANE
MAHASKA
MAHER
MAHNOMEN
MAHOMET
MAHON
MAHONE
MAHONING
MAHOPAC
MAHOPAC FALLS
MAHTOMEDI
MAHTOWA
MAHWAH
MAIDA
MAIDEN
MAIDEN ROCK
MAIDENS
MAIDSTONE
MAIDSVILLE
MAIMI
MAIMI LAKES
MAIN AVENUE
MAIN OFFICE
MAIN OFFICE BOX BRM
MAIN OFFICE FIRMS
MAIN POST OFFICE
MAIN POST OFFICE FIN
MAINE
MAINE MARITIME ACADEMY
MAINESBURG
MAINEVILLE
MAINLAND
MAINSVILLE
MAINVILLE
MAITLAND
MAIZE
MAIZEVILLE
MAJENICA
MAJESTIC
MAKAH AFB
MAKANDA
MAKAWAO
MAKAWELI
MAKINEN
MAKOTI
MALABAR
MALAD
MALAD CITY
MALAGA
MALAKOFF
MALBA
MALCOLM
MALCOM
MALDEN
MALDEN BRG
MALDEN BRIDGE
MALDEN HUDSON
MALDEN ON HUDSON
MALIBU
MALIN
MALINTA
MALJAMAR
MALLARD
MALLET TOWN
MALLIE
MALLORY
MALMO
MALMSTROM A F B
MALO
MALONE
MALONETON
MALOTT
MALOY
MALTA
MALTA BEND
MALTA RIDGE
MALTAVILLE
MALTBY
MALTERSVILLE
MALVERN
MALVERNE
MAMARONECK
MAMERS
MAMMOTH
MAMMOTH CAVE
MAMMOTH HOT SPRINGS
MAMMOTH LAKES
MAMMOTH SPRING
MAMOU
MAN
MANADA GAP
MANAHAWKIN
MANAKIN
MANAKIN SABOT
MANALAPAN
MANALAPAN MALL
MANASOTA
MANASQUAN
MANASSA
MANASSAS
MANASSAS PARK
MANATAWNY
MANAWA
MANAYUNK
MANCELONA
MANCHACA
MANCHAUG
MANCHESTER
MANCHESTER BY THE SEA
MANCHESTER CENTER
MANCHESTER RANCHERIA
MANCHESTER TOWNSHIP
MANCHESTER TWP
MANCHESTER VILLAGE
MANCOS
MANDA
MANDAN
MANDANA
MANDAREE
MANDATA
MANDERFIELD
MANDERSON
MANDEVILLE
MANES
MANF MARKETING SERV
MANFRED
MANGAS SPRINGS
MANGHAM
MANGO
MANGOHICK
MANGONIA PARK
MANGUM
MANHASSET
MANHASSET HILLS
MANHATTAN
MANHATTAN BEACH
MANHATTANVILLE
MANHEIM
MANIFEST
MANILA
MANILLA
MANISTEE
MANISTIQUE
MANITO
MANITOU
MANITOU BEACH
MANITOU SPRINGS
MANITOWISH
MANITOWISH WATERS
MANITOWOC
MANKATO
MANLEY
MANLEY HOT SPRINGS
MANLIUS
MANLY
MANN
MANNBORO
MANNFORD
MANNING
MANNINGTON
MANNINGTON TOWNSHIP
MANNS CHOICE
MANNS HARBOR
MANNSVILLE
MANNVILLE
MANOA
MANOKIN
MANOKOTAK
MANOMET
MANOR
MANOR PARK
MANOR RIDGE
MANORHAVEN
MANORVILLE
MANQUIN
MANSET
MANSFIELD
MANSFIELD CENTER
MANSFIELD DEPOT
MANSFIELD HOLLOW
MANSON
MANSURA
MANSURA JUNCTION
MANSVILLE
MANTADOR
MANTECA
MANTENO
MANTEO
MANTER
MANTEY
MANTI
MANTOLOKING
MANTON
MANTORVILLE
MANTRAP
MANTUA
MANTUA HEIGHTS
MANUELITO
MANUFACTURERS HANOVER TRUST
MANUFACTURES HANOVER
MANVEL
MANVILLE
MANY
MANY FARMS
MANZANITA
MANZANO BASE
MANZANOLA
MAPAVILLE
MAPES
MAPLE
MAPLE BEACH
MAPLE BLUFF
MAPLE CITY
MAPLE DELL
MAPLE FALLS
MAPLE GLEN
MAPLE GROVE
MAPLE GROVE PARK
MAPLE HEIGHTS
MAPLE HILL
MAPLE HTS
MAPLE LAKE
MAPLE LEAF
MAPLE MOUNT
MAPLE PARK
MAPLE PLAIN
MAPLE POINT
MAPLE RAPIDS
MAPLE RIDGE
MAPLE RIVER
MAPLE SHADE
MAPLE SPRINGS
MAPLE VALLEY
MAPLE VIEW
MAPLECREST
MAPLEHURST
MAPLES
MAPLES MILL
MAPLESVILLE
MAPLETON
MAPLETON DEPOT
MAPLETOWN
MAPLEVILLE
MAPLEWOOD
MAPPSVILLE
MAQUAM
MAQUOKETA
MAQUON
MAR
MAR LIN
MAR VISTA
MARAMEC
MARANA
MARATHON
MARATHON CITY
MARATHON SHORES
MARBLE
MARBLE CANYON
MARBLE CITY
MARBLE CLIFF
MARBLE DALE
MARBLE FALLS
MARBLE HILL
MARBLE ROCK
MARBLEHEAD
MARBLEHILL
MARBLEMOUNT
MARBLETON
MARBURY
MARCELINE
MARCELL
MARCELLA
MARCELLINE
MARCELLUS
MARCELLUS FALLS
MARCH AIR FORCE BASE
MARCH AIR RESERVE BASE
MARCHAND
MARCHE
MARCO
MARCO ISLAND
MARCOE
MARCOLA
MARCONIVILLE
MARCUM
MARCUS
MARCUS HOOK
MARCY
MARCY COLONY
MARDELA
MARDELA SPRINGS
MARDELL MANOR
MARENGO
MARENISCO
MARFA
MARFRANCE
MARGARET
MARGARETSVILLE
MARGARETTSVILLE
MARGARETVILLE
MARGATE
MARGATE CITY
MARGIE
MARIA STEIN
MARIAH HILL
MARIAN HELPERS
MARIANNA
MARIAVILLE
MARIBA
MARIBEL
MARICAMP
MARICOPA
MARIEMONT
MARIENTHAL
MARIENVILLE
MARIETTA
MARIGOLD
MARILLA
MARIN CITY
MARINA
MARINA BAY
MARINA DEL REY
MARINE
MARINE CITY
MARINE DRIVE
MARINE MIDLAND
MARINE ON SAINT CROIX
MARINE ON ST CROIX
MARINE ST CRX
MARINETTE
MARINGOUIN
MARINWOOD
MARION
MARION CENTER
MARION FATHERS
MARION HEIGHTS
MARION JUNCTION
MARION STATION
MARIONVILLE
MARIPOSA
MARISSA
MARK
MARK CENTER
MARKED TREE
MARKELSVILLE
MARKES
MARKESAN
MARKET
MARKET CENTER
MARKHAM
MARKLE
MARKLEEVILLE
MARKLETON
MARKLEVILLE
MARKLEYSBURG
MARKSVILLE
MARKTON
MARKVILLE
MARLA BAY
MARLAND
MARLBORO
MARLBOROUGH
MARLER
MARLETTE
MARLIN
MARLINTON
MARLOW
MARLOW HEIGHTS
MARLTON
MARLTON LAKES
MARMADUKE
MARMARTH
MARMET
MARMON
MARMORA
MARNE
MAROA
MARPLE TOWNSHIP
MARQUAND
MARQUETTE
MARQUETTE FARM
MARQUETTE HEIGHTS
MARQUEZ
MARQUISVILLE
MARRERO
MARRIOTT
MARRIOTT-SLATERVILLE CITY
MARRIOTTSVILLE
MARRISA
MARROWBONE
MARROWSTONE IS
MARROWSTONE ISLAND
MARS
MARS HILL
MARSEILLES
MARSH
MARSH HILL
MARSH RUN
MARSHALL
MARSHALL FORD
MARSHALL HALL
MARSHALL JUNCTION
MARSHALLBERG
MARSHALLS CREEK
MARSHALLTON
MARSHALLTOWN
MARSHALLVILLE
MARSHES SIDING
MARSHFIELD
MARSHFIELD HILLS
MARSHLANDS
MARSHVILLE
MARSING
MARSLAND
MARSTELLER
MARSTON
MARSTONS MILLS
MARSTOWN
MART
MARTEL
MARTELL
MARTELLE
MARTENSDALE
MARTHA
MARTHA MILLS
MARTHAS VINEYARD
MARTHASVILLE
MARTHAVILLE
MARTIC
MARTIC FORGE
MARTICVILLE
MARTIN
MARTIN CITY
MARTIN LAKE
MARTIN PARK
MARTINDALE
MARTINEZ
MARTINS CREEK
MARTINS FERRY
MARTINS MILLS
MARTINSBURG
MARTINSDALE
MARTINSTOWN
MARTINSVILLE
MARTINTON
MARTINVILLE
MARTISCO
MARTVILLE
MARTY
MARTZ
MARVEL
MARVEL CAVE PARK
MARVELL
MARVIN
MARWOOD
MARY
MARY ALICE
MARY ALICE HENRY
MARY D
MARY ESTHER
MARY MEYER
MARYDEL
MARYDELL
MARYHILL
MARYKNOLL
MARYLAND
MARYLAND CITY
MARYLAND HEIGHTS
MARYLAND LINE
MARYLAND MOTOR VEHICLE ADMIN
MARYLHURST
MARYNEAL
MARYS CORNER
MARYS HOME
MARYSVALE
MARYSVILLE
MARYUS
MARYVILLE
MARYWOOD
MASARDIS
MASARYKTOWN
MASCOT
MASCOTTE
MASCOUTAH
MASHANTUCKET
MASHFORK
MASHPEE
MASKELL
MASON
MASON CITY
MASON COVE
MASON DIXON
MASON NECK
MASON SHOE
MASON TWP
MASONHALL
MASONIC HOME
MASONIC PARK
MASONS ISLAND
MASONTOWN
MASONVILLE
MASPETH
MASS CITY
MASSAC
MASSACK
MASSADONA
MASSANUTTEN
MASSAPEQUA
MASSAPEQUA PARK
MASSAWEPIE
MASSENA
MASSENA CENTER
MASSENA SPRINGS
MASSEY
MASSEY LAKE
MASSIE
MASSIES MILL
MASSILLON
MASTER CHARGE
MASTER CHARGE PAY DIV
MASTERCARD
MASTERSON
MASTERSONVILLE
MASTIC
MASTIC BEACH
MASURY
MATADOR
MATAGORDA
MATAMORAS
MATAWAN
MATECUMBE KEY
MATERIALS PARK
MATEWAN
MATFIELD GREEN
MATHENY
MATHER
MATHERVILLE
MATHESON
MATHEWS
MATHIAS
MATHIS
MATINBURG
MATINECOCK
MATINICUS
MATLACHA
MATLOCK
MATNEY
MATOACA
MATOAKA
MATRIMONY
MATS MATS
MATSON
MATTAMISCONTIS TWP
MATTAPAN
MATTAPOISETT
MATTAPONI
MATTAWA
MATTAWAMKEAG
MATTAWAN
MATTAWANA
MATTESON
MATTHEW
MATTHEWS
MATTHEWSTOWN
MATTITUCK
MATTOON
MATTOX
MATTYDALE
MATUNUCK
MAUCKPORT
MAUD
MAUGANSVILLE
MAUK
MAULDEN
MAULDIN
MAUMEE
MAUMELLE
MAUNALOA
MAUNIE
MAUPIN
MAUREPAS
MAURERTOWN
MAURICE
MAURICETOWN
MAURICEVILLE
MAURIN
MAURINE
MAURY
MAURY CITY
MAUSDALE
MAUSTON
MAVERICK
MAVISDALE
MAX
MAX MEADOWS
MAXATAWNY
MAXBASS
MAXDALE
MAXEY
MAXEYS
MAXEYVILLE
MAXIE
MAXIM
MAXIMO
MAXTON
MAXVILLE
MAXWELL
MAXWELL AFB
MAXWELTON
MAY
MAY CITY
MAY VALLEY
MAYBEE
MAYBELL
MAYBERRY
MAYBEURY
MAYBROOK
MAYDELLE
MAYER
MAYESVILLE
MAYETTA
MAYFAIR
MAYFIELD
MAYFIELD HEIGHTS
MAYFIELD HTS
MAYFIELD VILLAGE
MAYFIELD VLG
MAYFLOWER
MAYHEW
MAYHILL
MAYKING
MAYLENE
MAYNA
MAYNARD
MAYNARDVILLE
MAYO
MAYO CLINIC
MAYODAN
MAYOWORTH
MAYPEARL
MAYPORT
MAYPORT NAV STA
MAYPORT NAVAL HOUSING
MAYPORT NAVAL STA
MAYPORT NAVAL STATION
MAYPT NAV HOU
MAYS
MAYS LANDING
MAYS LICK
MAYS MISSION
MAYSEL
MAYSFIELD
MAYSLICK
MAYSVILLE
MAYTOWN
MAYVIEW
MAYVIEW PARK
MAYVILLE
MAYWOOD
MAYWOOD PARK
MAYWOOD PK
MAZA
MAZAMA
MAZARN
MAZE
MAZEPPA
MAZIE
MAZOMANIE
MAZON
MBNA
MBNA AMERICA
MBORO
MC ADENVILLE
MC AFEE
MC ALISTER
MC ALISTERVILLE
MC ALISTERVL
MC ALISTERVLE
MC ALLEN
MC ALLISTER
MC ALPIN
MC ANDREWS
MC ARTHUR
MC BAIN
MC BEE
MC BRIDE
MC CABE
MC CAIN
MC CALLA
MC CALLSBURG
MC CAMEY
MC CARR
MC CASKILL
MC CAULLEY
MC CAUSLAND
MC CAYSVILLE
MC CHORD AFB
MC CLAVE
MC CLEARY
MC CLELLAND
MC CLELLANDTOWN
MC CLELLANVILLE
MC CLURE
MC CLURES BEND
MC CLURG
MC CLUSKY
MC COLL
MC COMAS
MC COMB
MC CONNELL
MC CONNELL AFB
MC CONNELLS
MC CONNELLSBURG
MC CONNELLSTOWN
MC CONNELLSVILLE
MC CONNELSVILLE
MC COOK
MC COOL JUNCTION
MC CORDSVILLE
MC CORMICK
MC COY
MC CRACKEN
MC CRORY
MC CULLOUGH
MC CUNE
MC CUTCHENVILLE
MC CUTCHEON FIELD
MC DADE
MC DANIELS
MC DAVID
MC DERMITT
MC DERMOTT
MC DILL
MC DILL AFB
MC DONALD
MC DONOUGH
MC DOUGAL
MC DOWELL
MC ELHATTAN
MC EWEN
MC EWENSVILLE
MC FADDIN
MC FALL
MC FARLAN
MC FARLAND
MC GAHEYSVILLE
MC GAHEYSVLLE
MC GAW PARK
MC GEE
MC GEES MILLS
MC GEHEE
MC GILL
MC GIRK
MC GRADY
MC GRANN
MC GRATH
MC GRAW
MC GRAWS
MC GREGOR
MC GREW
MC GUFFEY
MC GUIRE AIR FORCE BASE
MC HENRY
MC INDOE FALLS
MC INTIRE
MC INTOSH
MC INTYRE
MC KEAN
MC KEE
MC KEES ROCKS
MC KEESPORT
MC KENNA
MC KENNEY
MC KENZIE
MC KENZIE BRIDGE
MC KINLEYVILLE
MC KINNEY
MC KINNON
MC KITTRICK
MC KNIGHT
MC KNIGHTSTOWN
MC KOWNVILLE
MC LAUGHLIN
MC LEAN
MC LEANSBORO
MC LEANSVILLE
MC LEMORESVILLE
MC LEOD
MC LOUTH
MC MECHEN
MC MILLAN
MC MINNVILLE
MC MINNVL
MC MINNVLE
MC MURRAY
MC NABB
MC NARY
MC NAUGHTON
MC NEAL
MC NEIL
MC PHERSON
MC QUADY
MC QUEENEY
MC RAE
MC ROBERTS
MC SHAN
MC SHERRYSTOWN
MC VEIGH
MC VEYTOWN
MC WILLIAMS
MCADOO
MCAFEE
MCALESTER
MCALISTER
MCALISTERVLE
MCALLEN
MCALLISTER
MCALMONT
MCALPIN
MCANDREWS
MCARTHUR
MCAS CHERRY POINT
MCB QUANTICO
MCBAINE
MCBEE
MCBETH
MCBRIDES
MCCABE
MCCAIN
MCCALL
MCCAMEY
MCCAMMON
MCCANNA
MCCARRAN
MCCARTYS
MCCAYSVILLE
MCCHORD AFB
MCCLANAHAN
MCCLEAN
MCCLEARY
MCCLELLAN
MCCLELLANDTOWN
MCCLELLANVILLE
MCCLOUD
MCCLURE
MCCLUSKY
MCCOLL
MCCOMB
MCCOMBS
MCCONNELL
MCCONNELL AFB
MCCONNELLS
MCCONNELLSBURG
MCCONNELSVILLE
MCCOOK
MCCOOK LAKE
MCCOOLE
MCCORDSVILLE
MCCORMICK
MCCOY
MCCOYSVILLE
MCCREA
MCCRORY
MCCULLERS
MCCULLOCHS ML
MCCULLOM LAKE
MCCULLOUGH
MCCUNE
MCCURDY'S
MCCURTAIN
MCCUTCHANVILLE
MCCUTCHEN CROSSROADS
MCCUTCHENVILLE
MCCUTCHEON FIELD
MCDADE
MCDANIEL
MCDANIELS
MCDAVITT
MCDERMITT
MCDERMOTT
MCDILL
MCDILL AFB
MCDONALD
MCDONALDSVILLE
MCDONOGH RUN
MCDONOUGH
MCDOWELL
MCELHATTAN
MCEWEN
MCEWENSVILLE
MCFADDEN
MCFADDIN
MCFALL
MCFARLAND
MCGAFFEY
MCGEES MILLS
MCGEHEE
MCGHEE TYSON ANG BASE
MCGILLSTOWN
MCGINTYTOWN
MCGIRR
MCGRADY
MCGRANN
MCGRATH
MCGRAW
MCGRAW HILL COMPANIES
MCGREGOR
MCGREW
MCGUFFEY
MCGUIREVILLE
MCHENRY
MCINDOE FALLS
MCINTOSH
MCINTYRE
MCJESTER
MCKEANSBURG
MCKEE CITY
MCKEE HALF FL
MCKEES ROCKS
MCKEESPORT
MCKEEVER
MCKENNA
MCKENNEY
MCKENZIE
MCKENZIE BRIDGE
MCKENZIE CROSSROADS
MCKINLEY
MCKINLEYVILLE
MCKINNEY
MCKINNEYSBURG
MCKINNON
MCKITTRICK
MCKNIGHT
MCKNIGHTSTOWN
MCKOWNVILLE
MCLAIN
MCLANE
MCLEAN
MCLEANSBORO
MCLEANSVILLE
MCLEMORESVILLE
MCLEOD
MCLOUD
MCMAHAN
MCMICKEN HEIGHTS
MCMILAN CORNER
MCMILLAN
MCMINNVILLE
MCMULLEN
MCMURRAY
MCNABB
MCNAIR
MCNAIR VILLAGE
MCNALLY
MCNARY
MCNATTS
MCNAUGHTON
MCNEAL
MCNEELY
MCNEIL
MCNEIL ISLAND
MCNETT
MCNUTT
MCPHERSON
MCQUADY
MCQUEENEY
MCRAE
MCSHERRYSTOWN
MCSPARREN
MCVEY
MCVEYTOWN
MCVEYTWN
MCVILLE
MCWHORTER
MCZENA
MD CITY
MDALE
MDBY CENTER
MDT
MEACHAM
MEAD
MEAD WORLD HEADQUARTERS
MEADE
MEADIA HEIGHTS
MEADOR
MEADOR GROVE
MEADOW
MEADOW BLUFF
MEADOW BRIDGE
MEADOW CREEK
MEADOW GAP
MEADOW GROVE
MEADOW LANDS
MEADOW SUMMIT
MEADOW VALLEY
MEADOW VISTA
MEADOWBROOK
MEADOWCREEK
MEADOWDALE
MEADOWLAKES
MEADOWLANDS
MEADOWMERE PARK
MEADOWOOD EST
MEADOWOOD ESTATES
MEADOWS
MEADOWS OF DAN
MEADOWVIEW
MEADOWVILLE
MEADS
MEADVIEW
MEADVILLE
MEALLY
MEANS
MEANSVILLE
MEARS
MEAT CAMP
MEAUX
MEBANE
MECCA
MECH
MECHANCSBRG
MECHANIC
MECHANIC FALLS
MECHANICS GROVE
MECHANICSBURG
MECHANICSTOWN
MECHANICSVILLE
MECHANICSVLLE
MECHANICVILLE
MECHBG
MECKLENBURG
MECKLING
MECKS CORNER
MECO
MECOSTA
MEDALANES
MEDANALES
MEDARYVILLE
MEDBURYVILLE
MEDDYBEMPS
MEDENALES
MEDERVILLE
MEDFIELD
MEDFORD
MEDFORD LAKES
MEDFORD LAKES BORO
MEDFORD TOWNSHIP
MEDIA
MEDIAPOLIS
MEDICAL LAKE
MEDICAL SPRINGS
MEDICINE BOW
MEDICINE LAKE
MEDICINE LAKE LODGE
MEDICINE LODGE
MEDICINE PARK
MEDILL
MEDIMONT
MEDINA
MEDINA LAKE
MEDINAH
MEDLEY
MEDOMAK
MEDON
MEDORA
MEDUSA
MEDWAY
MEEKER
MEEKS
MEEKS BAY
MEERS
MEERSMAN
MEETEETSE
MEETING CREEK
MEETING STREET
MEGARGEL
MEGGETT
MEHAMA
MEHERRIN
MEHLVILLE
MEHOOPANY
MEIGS
MEINERS OAKS
MEISER
MEISERVILLE
MEKINOCK
MEKORYUK
MELBA
MELBER
MELBETA
MELBOURNE
MELBOURNE BEACH
MELBOURNE VILLAGE
MELCHER
MELCHER DALLAS
MELCROFT
MELDER
MELDRIM
MELDRUM
MELFA
MELISSA
MELLEN
MELLENVILLE
MELLETTE
MELLON REGIONAL LOCKBOX NETW
MELLON VALLEY
MELLOTT
MELLOW VALLEY
MELLWOOD
MELMORE
MELROSE
MELROSE HIGHLANDS
MELROSE PARK
MELROSE VISTA
MELRUDE
MELSTONE
MELTONVILLE
MELVERN
MELVILLE
MELVIN
MELVIN VILLAGE
MELVINDALE
MEM
MEMORIAL PARK
MEMORIAL SQUARE
MEMPHIS
MEMPHIS RCSC
MENA
MENAHGA
MENAN
MENANDS
MENARD
MENASHA
MENDENHALL
MENDES
MENDHAM
MENDOCINO
MENDOLA VILLAGE
MENDON
MENDOTA
MENDOTA HEIGHTS
MENDOZA
MENEKAUNEE
MENEMSHA
MENGES MILLS
MENIFEE
MENLO
MENLO PARK
MENLO PK
MENLOW
MENNO
MENNONITE MISSION
MENO
MENOKEN
MENOMINEE
MENOMONEE FALLS
MENOMONIE
MENOS
MENTASTA LAKE
MENTCLE
MENTMORE
MENTONE
MENTOR
MENTOR ON THE LAKE
MEPPEN
MEQUON
MER ROUGE
MERAUX
MERCED
MERCEDES
MERCER
MERCER ISLAND
MERCERSBURG
MERCERVILLE
MERCHANDISE MART
MERCHANTVILLE
MERCURY
MERCYVILLE
MEREDITH
MEREDITH PUBLISHING
MEREDITHVILLE
MEREDOSIA
MEREPOINT
MERETA
MERIDALE
MERIDEN
MERIDIAN
MERIDIAN HEIGHTS
MERIDIAN LAKE
MERIDIANVILLE
MERINO
MERION
MERION PARK
MERION STATION
MERIT
MERIT SYSTEMS PROTECTION BD
MERITCARE CLINIC
MERKEL
MERLIN
MERMENTAU
MERMET
MERNA
MEROA
MEROM
MERONEY
MERRIAM
MERRIAM WOODS VILLAGE
MERRIAN
MERRICK
MERRICKVILLE
MERRICOURT
MERRIFIELD
MERRILL
MERRILL LYNCH
MERRILLAN
MERRILLSVILLE
MERRILLVILLE
MERRIMAC
MERRIMACK
MERRIMAN
MERRIONETTE PARK
MERRITT
MERRITT ISLAND
MERRITTSTOWN
MERRIWEATHER
MERROW
MERRY HILL
MERRY OAKS
MERRY POINT
MERRYVILLE
MERSHON
MERTENS
MERTON
MERTZON
MERTZTOWN
MESA
MESA CENTER
MESA LAKE
MESA POLEO
MESA VERDE
MESA VISTA
MESCAL
MESCALERO
MESCALERO APACHE INDIAN RESE
MESENA
MESERVEY
MESHOPPEN
MESICK
MESILLA
MESILLA PARK
MESITA
MESKEGON
MESKILL
MESOPOTAMIA
MESQUITE
MESSENGERVILLE
MESSER
MESSICK
META
METAIRIE
METAL
METALINE
METALINE FALLS
METALTON
METAMORA
METCALF
METH MEM HOME
METHODIST CAMP
METHODIST HOSP
METHODIST MEM HOME
METHODIST MEMORIAL HOME
METHOW
METHUEN
METIGOSHE
METLAKATLA
METLER VALLEY
METOLIUS
METRO MARKET
METROPARK SOUTH
METROPLITAN MUSEUM OF ART
METROPOLIS
METROPOLITAN LIFE
METROPOLITAN MEDICAL CLAIMS
METTACAHONTS
METTAWA
METTER
METTLER
METUCHEN
METZ
MEXIA
MEXICAN HAT
MEXICAN SPRINGS
MEXICAN WATER
MEXICO
MEXICO BEACH
MEYER
MEYERS
MEYERS CHUCK
MEYERSDALE
MEYERSVILLE
MHEAD
MI DEPARTMENT OF REVENUE
MI WUK VILLAGE
MIAMI
MIAMI BEACH
MIAMI GARDENS
MIAMI LAKES
MIAMI SHORES
MIAMI SPRINGS
MIAMISBURG
MIAMITOWN
MIAMIVILLE
MICA
MICANOPY
MICAVILLE
MICCO
MICCO COMMUNITY
MICCOSUKEE
MICH CITY
MICHAEL
MICHCON
MICHCON BRM
MICHIANA
MICHIANA SHORES
MICHIE
MICHIGAMME
MICHIGAN
MICHIGAN BANKARD
MICHIGAN BLUFF
MICHIGAN CENTER
MICHIGAN CITY
MICHIGANTOWN
MICKLETON
MICO
MICRO
MID CITY EAST
MID CITY WEST
MID FLORIDA
MID HUDSON
MID ISLAND
MID MISSOURI P&DC
MIDAS
MIDDLE
MIDDLE AMANA
MIDDLE BASS
MIDDLE BROOK
MIDDLE CITY EAST
MIDDLE CITY WEST
MIDDLE CREEK
MIDDLE FALLS
MIDDLE GRANVILLE
MIDDLE GROVE
MIDDLE HADDAM
MIDDLE HOPE
MIDDLE INLET
MIDDLE ISLAND
MIDDLE PAXTON
MIDDLE POINT
MIDDLE PT
MIDDLE RIDGE
MIDDLE RIVER
MIDDLE SPRING
MIDDLE TORCH KEY
MIDDLE VILLAGE
MIDDLE VLG
MIDDLEBORO
MIDDLEBOROUGH
MIDDLEBOURNE
MIDDLEBRANCH
MIDDLEBROOK
MIDDLEBROOK SHOPPING PLAZA
MIDDLEBURG
MIDDLEBURG HEIGHTS
MIDDLEBURG HTS
MIDDLEBURGH
MIDDLEBURY
MIDDLEBURY CENTER
MIDDLEBUSH
MIDDLEFIELD
MIDDLEGATE
MIDDLEGROVE
MIDDLEPORT
MIDDLESBORO
MIDDLESBOROUGH
MIDDLESEX
MIDDLESEX CENTER
MIDDLESEX CENTRAL DIST
MIDDLESWARTH
MIDDLESWORTH
MIDDLETON
MIDDLETOWN
MIDDLETOWN SPRINGS
MIDDLETOWN TWP
MIDDLETWN
MIDDLEVILLE
MIDDLEVLE
MIDDLEWAY
MIDFIELD
MIDKIFF
MIDLAND
MIDLAND CITY
MIDLAND HILLS
MIDLAND PARK
MIDLAND PK
MIDLINE
MIDLOTHIAN
MIDLTWN
MIDPARK
MIDPINES
MIDTOWN
MIDVAL
MIDVALE
MIDVALLEY
MIDVILLE
MIDWAY
MIDWAY CITY
MIDWAY PARK
MIDWEST
MIDWEST CITY
MIDWEST SERVICE CENTER
MIESVILLE
MIFFLIN
MIFFLINBURG
MIFFLINTOWN
MIFFLINVILLE
MIFLIN
MIGRATE
MIKADO
MIKANA
MIKKALO
MILACA
MILAGRO
MILAM
MILAM DAIRY
MILAN
MILAN ARMY AMMUNITION PLANT
MILAN CENTER
MILAN TWP
MILAND
MILANE
MILANO
MILANVILLE
MILBORO SPRGS
MILBRIDGE
MILBURN
MILDLAND
MILDRED
MILE HILL
MILE POINT
MILE RUN
MILES
MILES CITY
MILES POND
MILES STATION
MILESBURG
MILESVILLE
MILEY
MILFAY
MILFORD
MILFORD CENTER
MILFORD SQUARE
MILFORD TWP
MILILANI
MILITARY SEALIFT COMMAND
MILL CITY
MILL CREEK
MILL CRK
MILL GAP
MILL GROVE
MILL HALL
MILL IRON
MILL NECK
MILL POINT
MILL RIVER
MILL RUN
MILL SHOALS
MILL SPRING
MILL SPRINGS
MILL VALLEY
MILL VILLAGE
MILLADORE
MILLARD
MILLARD HIGHLANDS
MILLARDSVILLE
MILLARTON
MILLBACH
MILLBACH SPRS
MILLBORO
MILLBORO SPRINGS
MILLBRAE
MILLBROOK
MILLBURN
MILLBURY
MILLCREEK
MILLDALE
MILLEDGEVILLE
MILLEN
MILLENBECK
MILLER
MILLER CITY
MILLER CTY
MILLER LAKE
MILLER PARK
MILLER PLACE
MILLERS
MILLERS CREEK
MILLERS FALLS
MILLERS FERRY
MILLERS MILLS
MILLERS TAVERN
MILLERS TAVRN
MILLERSBG
MILLERSBURG
MILLERSPORT
MILLERSTOWN
MILLERSVIEW
MILLERSVILLE
MILLERTON
MILLERVILLE
MILLFIELD
MILLFORD
MILLHEIM
MILLHOUSEN
MILLHURST
MILLICAN
MILLIGAN
MILLIKEN
MILLIKIN
MILLINGPORT
MILLINGTN
MILLINGTON
MILLINOCKET
MILLIS
MILLMONT
MILLNERVILLE
MILLPORT
MILLRIFT
MILLRY
MILLS
MILLS ORCHARD
MILLSAP
MILLSBORO
MILLSEAT
MILLSTADT
MILLSTON
MILLSTONE
MILLTOWN
MILLVALE
MILLVILLE
MILLWAY
MILLWOOD
MILMAY
MILMINE
MILMONT PARK
MILNER
MILNESAND
MILNESVILLE
MILNOR
MILO
MILPITAS
MILROY
MILTON
MILTON CENTER
MILTON FREEWATER
MILTON FRWTR
MILTON GROVE
MILTON MILLS
MILTON TWP
MILTON VILLAGE
MILTON-FREEWATER
MILTONA
MILTONVALE
MILW
MILWAUKEE
MILWAUKIE
MILWKE
MIMA
MIMBRES
MIMS
MINA
MINATARE
MINBURN
MINCO
MINCY
MINDEN
MINDEN CITY
MINDENMINES
MINDENVILLE
MINDORO
MINE HILL
MINE LA MOTTE
MINE RUN
MINEOLA
MINER
MINERAL
MINERAL BLUFF
MINERAL CITY
MINERAL POINT
MINERAL RIDGE
MINERAL SPRINGS
MINERAL WELLS
MINERS MILL
MINERSVILLE
MINERVA
MINETTO
MINEVILLE
MINFORD
MINGO
MINGO JUNCTION
MINGOVILLE
MINGS CHAPEL
MINGUS
MINIDOKA
MINIER
MINISINK HILLS
MINKLER
MINN MINING BOXES
MINNEAPOLIS
MINNEAPOLIS TRIBUNE
MINNEHAHA
MINNEHAHA SPRINGS
MINNEISKA
MINNEKATA
MINNEOLA
MINNEOTA
MINNESOTA CITY
MINNESOTA LAKE
MINNETONKA
MINNETONKA BEACH
MINNETONKA MILLS
MINNETRISTA
MINNEWANA
MINNEWASKA
MINNEWAUKAN
MINNIE
MINNORA
MINOA
MINOCQUA
MINONG
MINONK
MINOOKA
MINOR HILL
MINORCA
MINORSVILLE
MINOT
MINOT AIR FORCE BASE
MINOTOLA
MINQUADALE
MINSTER
MINT CANYON
MINT HILL
MINT SPRING
MINTER
MINTO
MINTURN
MIO
MIQUON
MIRA
MIRA LOMA
MIRABILE
MIRACLE
MIRACLE MILE
MIRACLE VALLEY
MIRADA
MIRAGE
MIRAMAR
MIRAMAR BEACH
MIRAMONTE
MIRANDA
MIRANDO CITY
MIRROR LAKE
MISENHEIMER
MISHAWAKA
MISHICOT
MISHONGNOVI
MISQUAMICUT
MISSAL
MISSION
MISSION HILL
MISSION HILLS
MISSION HOME
MISSION RAFAEL
MISSION RIDGE
MISSION SQUARE
MISSION VALLEY
MISSION VIEJO
MISSION WOODS
MISSOULA
MISSOURI CITY
MISSOURI VALLEY
MIST
MISTLETOE
MISTON
MITCH
MITCHELL
MITCHELL CITY
MITCHELL FIELD
MITCHELLS
MITCHELLSBURG
MITCHELLSVILLE
MITCHELLVILLE
MITIWANGA
MITTIE
MIXON
MIXVILLE
MIZE
MIZPAH
MLCREEK
MLDN ON HDSN
MNT LAKE PARK
MNTPELIER STA
MO VALLEY
MOAB
MOAPA
MOATSVILLE
MOBEETIE
MOBERLY
MOBET MEADOWS
MOBILE
MOBILE GOV PLZ
MOBILE PRESS
MOBJACK
MOBRIDGE
MOCANAQUA
MOCCASIN
MOCKSVILLE
MOCLIPS
MODALE
MODE
MODEL
MODEL CITY
MODELLO
MODENA
MODERN TALKING PICTURES
MODEST TOWN
MODESTE
MODESTO
MODESTO CA BUS REPLY
MODJESKA
MODJESKA CANYON
MODOC
MOE
MOENAVE
MOENKOPI
MOENVILLE
MOEVILLE
MOFFAT
MOFFATT
MOFFETT
MOFFETT FIELD
MOFFETT FIELD NAS
MOFFIT
MOGADORE
MOGOLLON
MOGOTE
MOGUL
MOHALL
MOHAVE VALLEY
MOHAWK
MOHAWK HILL
MOHEGAN LAKE
MOHICANVILLE
MOHLER
MOHNS HILL
MOHNTON
MOHRSVILLE
MOIESE
MOIRA
MOJAVE
MOKANE
MOKELUMNE HILL
MOKENA
MOKO
MOL
MOLALLA
MOLAND
MOLE LAKE
MOLENA
MOLINA
MOLINE
MOLINE ACRES
MOLINO
MOLLTOWN
MOLLUSK
MOLSON
MOLT
MOLUS
MOMENCE
MON LOUIS
MONA
MONACA
MONADALE
MONAHANS
MONANGO
MONARCH
MONARCH BAY
MONARCH BEACH
MONAVILLE
MONCKS CORNER
MONCLA
MONCLOVA
MONCURE
MONDAMIN
MONDOVI
MONEE
MONESSEN
MONETA
MONETT
MONETTA
MONETTE
MONETTE FERRY
MONEY CREEK
MONFORD
MONGAUP VALLEY
MONGO
MONGUL
MONHEGAN
MONICA
MONICO
MONITOR
MONKEY ISLAND
MONKEY RUN
MONKTON
MONKTON RIDGE
MONMOUTH
MONMOUTH BEACH
MONMOUTH HILLS
MONMOUTH JUNCTION
MONMOUTH PARK
MONO CITY
MONO HOT SPRINGS
MONO LAKE
MONOCACY STATION
MONOLITH
MONON
MONONA
MONONA GROVE
MONONGAH
MONONGAHELA
MONPONSETT
MONROE
MONROE BRIDGE
MONROE CENTER
MONROE CITY
MONROE TOWNSHIP
MONROE TWP
MONROETON
MONROEVILLE
MONROEVILLE MALL
MONROVIA
MONSANTO
MONSE
MONSEY
MONSON
MONT
MONT ALTO
MONT BELVIEU
MONT CLARE
MONT VERNON
MONTAGUE
MONTAGUE CITY
MONTAGUE VILLAGE
MONTALBA
MONTANA CITY
MONTANA MINES
MONTANDON
MONTARA
MONTAUK
MONTBELLO
MONTCALM
MONTCHANIN
MONTCLAIR
MONTCOAL
MONTE ALTO
MONTE NIDO
MONTE RIO
MONTE SERENO
MONTE VISTA
MONTEAGLE
MONTEBELLO
MONTECELLO
MONTECITO
MONTEGUT
MONTELLO
MONTEREY
MONTEREY PARK
MONTERVILLE
MONTESANO
MONTEVALLO
MONTEVIDEO
MONTEVIEW
MONTEZUMA
MONTEZUMA CREEK
MONTFORD
MONTFORT
MONTG
MONTGOMERY
MONTGOMERY BUSINESS REPLY MA
MONTGOMERY CENTER
MONTGOMERY CITY
MONTGOMERY CREEK
MONTGOMERY FY
MONTGOMERY TWP
MONTGOMERY VILLAGE
MONTGOMERY WARD
MONTGOMERY WARDS
MONTGOMERYVILLE
MONTHALIA
MONTICELLO
MONTIER
MONTMORENCI
MONTONGO
MONTOPOLIS
MONTOUR
MONTOUR FALLS
MONTOURSVILLE
MONTPELIER
MONTPELIER JCT
MONTPELIER JUNCTION
MONTPELIER STATION
MONTREAL
MONTREAT
MONTROSE
MONTROSE HEIGHTS
MONTROSS
MONTSERA
MONTSERRAT
MONTVALE
MONTVERDE
MONTVILLE
MONTVILLE TOWNSHIP
MONTZ
MONUMENT
MONUMENT BEACH
MONUMENT LAKE PARK
MONUMENT PARK
MONUMENT VALLEY
MOOAR
MOODUS
MOODY
MOODY AFB
MOODYS
MOOERS
MOOERS FORKS
MOOLEYVILLE
MOON
MOON TOWNSHIP
MOON TWP
MOONACHIE
MOONSHINE
MOORCROFT
MOORE
MOORE HAVEN
MOORE STATION
MOOREDALE
MOOREFIELD
MOORELAND
MOORES CREEK
MOORES CROSSING
MOORES HILL
MOORES PRAIRIE
MOORESBORO
MOORESBURG
MOORESTOWN
MOORESVILLE
MOORETON
MOOREVILLE
MOORHEAD
MOORINGSPORT
MOORLAND
MOORPARK
MOOSE
MOOSE CREEK
MOOSE LAKE
MOOSE PARK
MOOSE PASS
MOOSE RIVER
MOOSEHEART
MOOSIC
MOOSUP
MOQUAH
MORA
MORAGA
MORAINE
MORALES
MORAN
MORANBURG
MORANN
MORATOCK
MORATTICO
MORAVIA
MORAVIAN FALLS
MORDANSVILLE
MOREA
MOREAU
MOREAUVILLE
MOREHEAD
MOREHEAD CITY
MOREHOUSE
MOREHOUSEVILLE
MORELAND
MORELAND HILLS
MORENCI
MORENO
MORENO VALLEY
MORETOWN
MORGAN
MORGAN CITY
MORGAN GUARANTY
MORGAN HEIGHTS
MORGAN HILL
MORGAN MILL
MORGAN PARK
MORGANFIELD
MORGANFLD
MORGANS POINT
MORGANS POINT RESORT
MORGANTON
MORGANTOWN
MORGANVILLE
MORGANZA
MORGES
MORIAH
MORIAH CENTER
MORIAH CORNERS
MORIARTY
MORICHES
MORLAND
MORLEY
MORMON ISLAND
MORMON LAKE
MORNING SUN
MORNING VIEW
MORNINGDALE
MORNINGGLORY
MORNINGSIDE
MORO
MOROBAY
MOROCCO
MORONGO VALLEY
MORONI
MORRAL
MORRELL PARK
MORRICE
MORRILL
MORRILTON
MORRIS
MORRIS CHAPEL
MORRIS FORK
MORRIS PARK
MORRIS PLAINS
MORRIS RANCH
MORRIS RUN
MORRISANIA
MORRISDALE
MORRISON
MORRISON KNUDSEN
MORRISONS CAFETERIA
MORRISONVILLE
MORRISTON
MORRISTOWN
MORRISVALE
MORRISVILLE
MORRISVILLE STATION
MORRO BAY
MORROW
MORROWVILLE
MORSE
MORSE BLUFF
MORSE MILL
MORSEMERE
MORSES LINE
MORSES MILLS
MORTIMER
MORTON
MORTON GROVE
MORTON MILLS
MORTONS GAP
MORVEN
MORVILLE
MORVIN
MORYSVILLE
MOSBY
MOSCA
MOSCOW
MOSCOW MILLS
MOSELEM
MOSELEM SPRINGS
MOSELEY
MOSELLE
MOSES
MOSES LAKE
MOSHANNON
MOSHEIM
MOSHER
MOSHERVILLE
MOSHOLU
MOSIER
MOSINEE
MOSQUERO
MOSQUITOVILLE
MOSS
MOSS BEACH
MOSS BLUFF
MOSS HILL
MOSS LANDING
MOSSVILLE
MOSSY HEAD
MOSSYROCK
MOTBRIDGE
MOTLEY
MOTOR VEHICLE BUREAU
MOTOR VEHICLE DIVISION
MOTT
MOTT HAVEN
MOTT PARK
MOTTVILLE
MOULSTOWN
MOULTON
MOULTONBOROUGH
MOULTRIE
MOUND
MOUND CITY
MOUND HOUSE
MOUND VALLEY
MOUNDRIDGE
MOUNDS
MOUNDS VIEW
MOUNDSVILLE
MOUNDVILLE
MOUNT AETNA
MOUNT AIR
MOUNT AIRY
MOUNT ALLEN
MOUNT ALTO
MOUNT ANGEL
MOUNT ARLINGTON
MOUNT AUBURN
MOUNT AUKUM
MOUNT AYR
MOUNT BERRY
MOUNT BETHEL
MOUNT BLANCHARD
MOUNT BRADDOCK
MOUNT CALM
MOUNT CALVARY
MOUNT CARBON
MOUNT CARMEL
MOUNT CARROLL
MOUNT CHARLESTON
MOUNT CHASE
MOUNT CLARE
MOUNT CLEMENS
MOUNT COBB
MOUNT CORY
MOUNT CRAWFORD
MOUNT CRESTED BUTTE
MOUNT CROGHAN
MOUNT DESERT
MOUNT DORA
MOUNT EATON
MOUNT EDEN
MOUNT ENTERPRISE
MOUNT EPHRAIM
MOUNT ERIE
MOUNT ETNA
MOUNT FREEDOM
MOUNT GAY
MOUNT GILEAD
MOUNT GREENWOOD
MOUNT GRETNA
MOUNT HAMILTON
MOUNT HEALTHY
MOUNT HEBRON
MOUNT HERMON
MOUNT HERSEY
MOUNT HOLLY
MOUNT HOLLY SPGS
MOUNT HOLLY SPRINGS
MOUNT HOLLY TOWNSHIP
MOUNT HOOD
MOUNT HOOD PARKDALE
MOUNT HOOD-PARKDALE
MOUNT HOPE
MOUNT HOREB
MOUNT HULDA
MOUNT IDA
MOUNT IVY
MOUNT JACKSON
MOUNT JEWETT
MOUNT JOY
MOUNT JUDEA
MOUNT JULIET
MOUNT KISCO
MOUNT LAGUNA
MOUNT LAUREL
MOUNT LAUREL TOWNSHIP
MOUNT LEBANON
MOUNT LEMMON
MOUNT LIBERTY
MOUNT LOOKOUT
MOUNT LUCAS
MOUNT MARION
MOUNT MEIGS
MOUNT MERIDIAN
MOUNT MERION PARK
MOUNT MORIAH
MOUNT MORRIS
MOUNT MOURNE
MOUNT NEBO
MOUNT OLIVE
MOUNT OLIVER
MOUNT OLIVET
MOUNT ORAB
MOUNT PALATINE
MOUNT PATRICK
MOUNT PENN
MOUNT PERRY
MOUNT PHILO
MOUNT PISGAH
MOUNT PLEASANT
MOUNT PLEASANT MILLS
MOUNT PLYMOUTH
MOUNT POCONO
MOUNT PRINCETON
MOUNT PROSPECT
MOUNT PULASKI
MOUNT RAINIER
MOUNT ROSS
MOUNT ROYAL
MOUNT SAINT FRANCIS
MOUNT SAINT JOSEPH
MOUNT SAVAGE
MOUNT SELMAN
MOUNT SHARP
MOUNT SHASTA
MOUNT SHERMAN
MOUNT SIDNEY
MOUNT SIGNAL
MOUNT SINAI
MOUNT SNOW
MOUNT SOLON
MOUNT STERLING
MOUNT STORM
MOUNT SUMMIT
MOUNT SUNAPEE
MOUNT TABOR
MOUNT TOM
MOUNT TREMPER
MOUNT ULLA
MOUNT UNION
MOUNT UPTON
MOUNT VERNON
MOUNT VICTORIA
MOUNT VICTORY
MOUNT VISION
MOUNT WALKER
MOUNT WASHINGTON
MOUNT WILSON
MOUNT WOLF
MOUNT ZION
MOUNTAIN
MOUNTAIN BELL
MOUNTAIN BROOK
MOUNTAIN CENTER
MOUNTAIN CITY
MOUNTAIN CREEK
MOUNTAIN DALE
MOUNTAIN FORK
MOUNTAIN GREEN
MOUNTAIN GROVE
MOUNTAIN HOME
MOUNTAIN HOME AIR FORCE BASE
MOUNTAIN HOME VILLAGE
MOUNTAIN HOUSE
MOUNTAIN IRON
MOUNTAIN LAKE
MOUNTAIN LAKE PARK
MOUNTAIN LAKES
MOUNTAIN MESA
MOUNTAIN PARK
MOUNTAIN PASS
MOUNTAIN PINE
MOUNTAIN RANCH
MOUNTAIN REST
MOUNTAIN SPRINGS
MOUNTAIN TOP
MOUNTAIN VALLEY
MOUNTAIN VIEW
MOUNTAIN VILLAGE
MOUNTAINAIR
MOUNTAINAIRE
MOUNTAINBURG
MOUNTAINDALE
MOUNTAINHOME
MOUNTAINSIDE
MOUNTAINVILLE
MOUNTLAKE TERRACE
MOUNTROCK
MOUNTVILLE
MOUSIE
MOUTH OF WILSON
MOUTHCARD
MOVILLE
MOWEAQUA
MOWERSVILLE
MOWRY
MOWRYSTOWN
MOXAHALA
MOXEE
MOXEE CITY
MOXLEY
MOYERS
MOYIE SPRINGS
MOYLAN
MOYOCK
MOZART
MOZELLE
MOZEPPA
MOZIER
MPHS
MPLS
MRETA
MS CITY
MSC
MT AETNA
MT AIRY
MT AUBURN
MT BALDY
MT BLANCHARD
MT CARMEL
MT CARMELL
MT CARROLL
MT CENTER
MT CORY
MT CRAWFORD
MT CRESTED BUTTE
MT GRETNA
MT GRETNA HTS
MT HAMILL
MT HERMON
MT HOLLY SPGS
MT HOLLY SPRINGS
MT HOME
MT HOOD
MT JULIET
MT LAKE PARK
MT LEBANON
MT LOOKOUT
MT MERIDIAN
MT MORRIS
MT OLIVE
MT OLIVE CRRCTNL COMPLEX
MT OLIVER
MT PENN
MT PHILO
MT PINE
MT PISGAH
MT PLEASANT
MT PLEASANT MILLS
MT PLSNT MILLS
MT PROSPECT
MT PULASKI
MT RAINIER
MT REPOSE
MT SINAI
MT ST FRANCIS
MT STERLING
MT SUNAPEE
MT SYLVAN
MT UNION
MT VALLEY
MT VERNON
MT VIEW
MT WASHINGTON
MT ZION
MTGY
MTN BROOK
MTN HOME
MUD BUTTE
MUD CITY
MUD LAKE
MUD LICK
MUDDY
MUDDY CREEK
MUDDY CREEK FORKS
MUDDY GAP
MUDVILLE
MUENSTER
MUHLENBERG
MUHLENBERG PARK
MUIR
MUIR BEACH
MUIR WOODS
MUKILTEO
MUKWONAGO
MULBERRY
MULBERRY GROVE
MULDOON
MULDRAUGH
MULDROW
MULE CREEK
MULESHOE
MULGA
MULHALL
MULINO
MULKEYTOWN
MULLALLY
MULLAN
MULLEN
MULLENS
MULLETT LAKE
MULLICA HILL
MULLIKEN
MULLIN
MULLINS
MULLINS PRAIRIE
MULLINVILLE
MULTI HIGH VOLUME FIRMS
MULVANE
MUMFORD
MUNCIE
MUNCY
MUNCY CREEK
MUNCY VALLEY
MUNDAY
MUNDELEIN
MUNDEN
MUNDS PARK
MUNFORD
MUNFORDVILLE
MUNGER
MUNHALL
MUNICH
MUNISING
MUNITH
MUNITIONS MISSLE COM SCH
MUNNERLYN
MUNNSVILLE
MUNROE FALLS
MUNSON
MUNSON ISLAND
MUNSON TWP
MUNSONS CORNERS
MUNSONVILLE
MUNSTER
MUNTERVILLE
MURCHISON
MURDO
MURDOCK
MUREN
MURFREESBORO
MURFREESBR
MURPHY
MURPHY CITY
MURPHYS
MURPHYS CAMP
MURPHYS CORNER
MURPHYSBORO
MURPHYSVILLE
MURRAY
MURRAY CITY
MURRAY HILL
MURRAY HILL BRM
MURRAY ISLE
MURRAYSVILLE
MURRAYVILLE
MURRELL
MURRELLS INLET
MURRIETA
MURRIETA HOT SPRINGS
MURRY
MURRYSVILLE
MURTAUGH
MUSCADINE
MUSCATINE
MUSCLE SHOALS
MUSCODA
MUSCOTAH
MUSCOY
MUSCULAR DYSTROPHY
MUSE
MUSELLA
MUSES MILLS
MUSKALOUNGE
MUSKEGO
MUSKEGON
MUSKEGON HEIGHTS
MUSKOGEE
MUSSELFORK
MUSSELSHELL
MUSSEY
MUSTANG
MUSTOE
MUTTONTOWN
MUTUAL
MUTUAL OF OMAHA
MV
MVILLE
MW
MYAKKA CITY
MYERS
MYERS FLAT
MYERSDALE
MYERSTOWN
MYERSTWN
MYERSVILLE
MYLO
MYRA
MYRTLE
MYRTLE BEACH
MYRTLE CREEK
MYRTLE GROVE
MYRTLE POINT
MYRTLEWOOD
MYSTIC
MYSTIC ISLANDS
MYTON
NASA
NAU
N ADAMS
N AMITYVILLE
N ANDOVER
NBC
N BABYLON
N BALDWIN
N BALTIMORE
N BARRINGTON
N BAY SHORE
N BEACH
N BELLE VERNON
N BELLMORE
N BELLPORT
N BEND
N BENNINGTON
N BERWICK
N BILLERICA
N BLOOMFIELD
N BONNEVILLE
N BOSTON
N BRANFORD
N BRENTWOOD
N BUENA VISTA
N BURLINGTON
N C CENTRALIZED MAILING
N C LIBRARY
N CANTON
N CHARLESTON
N CHATHAM
N   CHELMSFORD
N   CHITTENDEN
N   CLARENDON
N   COLLEGE HL
N   COLLINS
N   CONWAY
N   CORNWALL
N   CUMBERLD
N   DIGHTON
N   E WATERWORKS
N   EASTON
N   EVANS
N   FALLS
N   FALMOUTH
N   FERRISBURG
N   FIELD
N   FORT MYERS
N   FRANKLIN
N   FT MYERS
N   GRAFTON
N   HP
N   HAMPTON
N   HARTLAND
N   HATFIELD
N   HAVEN
N   HAVERHILL
N   HENDERSON
N   HOLLYWOOD
N   HYDE PARK
N   JAVA
N   KANSAS CITY
N   KC
N   LR
N   LAS VEGAS
N   LEWISBURG
N   LINDENHURST
N   LITCHFIELD
N   LITTLE ROCK
N   LOGAN
N   LONDONDERRY
N   LR
N   MANCHESTER
N   MANKATO
N   MARSHFIELD
N   MASSAPEQUA
N   MERRICK
N   MIDDLETON
N   MILFORD
N   MOUNTAIN
N   MYRTLE BEACH
N   N
N   NATICK
N   ORANGE
N   PALM SPGS
N   PALM SPRINGS
N   PATCHOGUE
N   PAWLET
N   PEMBROKE
N PORT
N POTOMAC
N POWDER
N POWNAL
N PROVIDENCE
N QUINCY
N READING
N SALEM
N SALT LAKE
N SAN JUAN
N SANDWICH
N SEA
N SPRINGFLD
N STAR
N STRATFORD
N SUDBURY
N SUTTON
N SWANZEY
N TERRE HAUTE
N THETFORD
N THOMPSON OUTFITTERS
N TONAWANDA
N TOPSAIL BEACH
N VALLEY STREAM
N VEGAS
N VERSAILLES
N W BELL TELE
N WALPOLE
N WANTAGH
N WASHINGTON
N WHITE PLAINS
N WILKESBORO
N WOODMERE
N WOODSTOCK
N Y AGR AND MKTS
N Y ASSEMBLY
N Y C BANK-AMF-JFK
N Y EMPL RETIREMENT
N Y LABOR DIV EMPL
N Y LABOR UNEMP INS
N Y LOTTERY
N Y WRKMN COMP
NAALEHU
NABB
NABISCO BRANDS
NABNASSET
NACHES
NACHUSA
NACO
NACOGDOCHES
NADA
NADEAU
NADY
NAFEC
NAGEEZI
NAGINEY
NAGS HEAD
NAHANT
NAHCOTTA
NAHMA
NAHUNTA
NAIL
NAKINA
NAKNEK
NALCREST
NALLEN
NAMBE
NAMPA
NANAFALIA
NANCY
NANCY B JEFFERSON
NANJEMOY
NANKIN
NANSON
NANTASKET BEACH
NANTATCHIE
NANTICOKE
NANTUCKET
NANTY GLO
NANUET
NANWALEK
NAOMA
NAOMI
NAPA
NAPAKIAK
NAPANOCH
NAPASKIAK
NAPAVINE
NAPER
NAPERVILLE
NAPFOR
NAPIER
NAPIER FIELD
NAPIERVILLE
NAPLATE
NAPLES
NAPOLEON
NAPOLEONVILLE
NAPONEE
NAPPANEE
NAPTON
NARA VISA
NARANJA
NARBERTH
NARDIN
NARKA
NARRAGANSETT
NARROWS
NARROWSBURG
NARUNA
NARVON
NAS BRUNSWICK
NAS CECIL FIELD
NAS CECIL FLD
NAS JACKSONVLE
NAS JAX
NAS LEMOORE
NASA
NASCHITTI
NASELLE
NASH
NASHOBA
NASHOTAH
NASHPORT
NASHUA
NASHVILLE
NASHVILLE ELEC SERV
NASHVILLE PLT
NASHVL
NASHVLE
NASHWAUK
NASON
NASONS
NASSAU
NASSAU BAY
NASSAU POINT
NASSAWADOX
NAST
NAT STOCK YDS
NATALBANY
NATALIA
NATALIE
NATCH
NATCHEZ
NATCHITOCHES
NATHALIE
NATHANS CREEK
NATHROP
NATICK
NATIONWIDE FULFILL SYSTEMS
NATL AERO AND SPACE ADMIN
NATL AGENCY FOR CHECK INQ
NATL ARCHIVES AND RECORDS
NATL ASSN LETTER CARRIERS
NATL CAPITOL PLANNING
NATL COMM ON SOCIAL SEC
NATL FAMILY OPINION
NATL INSTITUTE OF EDUC
NATL INSTITUTE STDS & TECH
NATL LABOR RELATIONS BOARD
NATL REPUB CONG COMM
NATL SAVINGS AND TRUST
NATL TRANS SAFETY BOARD
NATOMA
NATRONA
NATRONA HEIGHTS
NATURAL BRG
NATURAL BRIDGE
NATURAL BRIDGE STATION
NATURAL BRIDGES
NATURAL DAM
NATURAL STEPS
NATURITA
NATURL BR STA
NAU
NAUBINWAY
NAUGATUCK
NAUVOO
NAVAJO
NAVAJO ARMY DEPOT
NAVAJO DAM
NAVAJO STATION
NAVAJO WINGATE VILLAGE
NAVAL ACADEMY
NAVAL AIR STA N O
NAVAL AIR STATION/ JRB
NAVAL AIR SYSTEM COMMAND
NAVAL AMPHIBIOUS BASE
NAVAL BASE
NAVAL COMMUNICATIONS AREA MA
NAVAL INTELLIGENCE COM
NAVAL INTELLIGENCE SUPPORT C
NAVAL INVESTIGATIVE SERVICE
NAVAL RESEARCH LABORATORY
NAVAL SEA SYSTEMS COMMAND
NAVAL STATION ANACOSTIA
NAVAL STATION EVERETT
NAVAL STATION MOBILE
NAVAL SUBMARINE BASE
NAVAL SUPPLY CENTER
NAVAL SUPPLY SYSTEM COMMAND
NAVAL SURFACE WEAPONS CENTER
NAVAL TELECOMMUNICATIONS COM
NAVAL WEAPONS STA
NAVAL WEAPONS STATION
NAVARINO
NAVARRE
NAVARRE BEACH
NAVARRO
NAVARRO MILLS
NAVASOTA
NAVASSA
NAVELENCIA
NAVESINK
NAVILLETON
NAVSUB BASE
NAVY ANNEX
NAVY OBSERVATORY
NAVY SEA SYSTEMS COMMAND
NAVY SECURITY GROUP
NAVY SHIPS
NAVY SUP DPT
NAVY YARD
NAVY YARD CITY
NAXERA
NAYLOR
NAYTAHWAUSH
NAZARETH
NAZLINI
NCNB
NCSU STUDENT HOUSING
NE MADISON
NEADMORE
NEAFUS
NEAH BAY
NEAHKAHNIE
NEAL
NEAPOLIS
NEAVE
NEAVITT
NEBISH
NEBO
NEBR CITY
NEBRASKA
NEBRASKA CITY
NEBRASKA TOWNSHIP
NECEDAH
NECHANITZ
NECHE
NECHES
NECK CITY
NED
NEDERLAND
NEDROW
NEEDA
NEEDHAM
NEEDHAM HEIGHTS
NEEDHAM JCT
NEEDLES
NEEDMORE
NEEDVILLE
NEELEY
NEELYTON
NEELYVILLE
NEENACH
NEENAH
NEESES
NEFFS
NEFFSVILLE
NEGAUNEE
NEGLEY
NEGREET
NEHALEM
NEHAWKA
NEIHART
NEILLSVILLE
NEILS
NEILTON
NEIMAN MARCUS
NEKOMA
NEKOOSA
NELAGONY
NELIGH
NELLIS
NELLIS AFB
NELLIS AIR FORCE BASE
NELLISTON
NELLYSFORD
NELMA
NELSE
NELSON
NELSON LAGOON
NELSONIA
NELSONVILLE
NELVIK
NEMACOLIN
NEMAH
NEMAHA
NEMO
NEMOURS
NENANA
NENZEL
NEODATA
NEODATA BUSINESS REPLY
NEODESHA
NEOGA
NEOLA
NEON
NEOPIT
NEOSHO
NEOSHO FALLS
NEOSHO RAPIDS
NEOTSU
NEPAUG
NEPHI
NEPONSET
NEPONSIT
NEPTON
NEPTUNE
NEPTUNE BEACH
NEPTUNE CITY
NERINX
NERSTRAND
NESBITT
NESCO
NESCONSET
NESCOPECK
NESHANIC STA
NESHANIC STATION
NESHANNOCK
NESHKORO
NESHOBE BEACH
NESKOWIN
NESMITH
NESPELEM
NESQUEHONING
NESS CITY
NESTOR
NETARTS
NETAWAKA
NETC
NETCONG
NETHER PROVIDENCE
NETT LAKE
NETT RIVER
NETTIE
NETTLECREEK
NEUNERT
NEUSE
NEUSE FOREST
NEUSONS
NEUTRAL
NEUVILLE
NEVA CORNERS
NEVADA
NEVADA CITY
NEVADA EMPLOYMENT SECURITY
NEVADA INDUSTRIAL COMM
NEVADA MASS
NEVADA MILLS
NEVADA MOTOR VEHICLE
NEVERSINK
NEVILLE
NEVILLE ISLAND
NEVILS
NEVINS
NEVIS
NEVISDALE
NEW ALBANY
NEW ALBIN
NEW ALEXANDER
NEW ALEXANDRIA
NEW ALLEN
NEW ALMADEN
NEW ALMELO
NEW ALSACE
NEW ASHFORD
NEW ATHENS
NEW AUBURN
NEW AUGUSTA
NEW BADEN
NEW BALTIMORE
NEW BAVARIA
NEW BEDFORD
NEW BELLEDEAU
NEW BERLIN
NEW BERLIN JUNCTION
NEW BERLINS
NEW BERLINVILLE
NEW BERN
NEW BETHLEHEM
NEW BLAINE
NEW BLOOMFIELD
NEW BLOOMFLD
NEW BLOOMINGTON
NEW BOSTON
NEW BRAINTREE
NEW BRANCH
NEW BRAUNFELS
NEW BREMAN
NEW BREMEN
NEW BRIDGEVILLE
NEW BRIGHTON
NEW BRIGHTON BOXES
NEW BRIT
NEW BRITAIN
NEW BROCKTON
NEW BRUNSWICK
NEW BUFFALO
NEW BURLINGTN
NEW BURLINGTON
NEW BURNSIDE
NEW CAMBRIA
NEW CAMP
NEW CANAAN
NEW CANADA
NEW CANEY
NEW CANTON
NEW CARLISLE
NEW CARROLLTON
NEW CASSEL
NEW CASTLE
NEW CENTERVILLE
NEW CENTURY
NEW CHICAGO
NEW CHURCH
NEW CITY
NEW CLARKSON
NEW CMBRLND
NEW COLONY
NEW COLUMBIA
NEW CONCORD
NEW CORN HILL
NEW CREEK
NEW CUMB
NEW CUMBERLAND
NEW CUMBERLAND ARMY D
NEW CUMBERLND
NEW CUYAMA
NEW CYPRESS
NEW DANVILLE
NEW DEAL
NEW DELHI
NEW DERRY
NEW DIANA
NEW DOUGLAS
NEW DURHAM
NEW EAGLE
NEW EDINBURG
NEW EFFINGTON
NEW EGYPT
NEW ELLENTON
NEW ELLIOTT
NEW EMPIRE
NEW ENGLAND
NEW ENGLAND BUSINESS
NEW ENTERPRISE
NEW ERA
NEW FAIRFIELD
NEW FLORENCE
NEW FRANKEN
NEW FRANKLIN
NEW FREEDOM
NEW FREEPORT
NEW GALILEE
NEW GARDEN
NEW GENEVA
NEW GERMANTOWN
NEW GERMANY
NEW GLARUS
NEW GLOUCESTER
NEW GOSHEN
NEW GRETNA
NEW HAGERSTOWN
NEW HAMBURG
NEW HAMPSHIRE
NEW HAMPTON
NEW HANOVER
NEW HARBOR
NEW HARMONY
NEW HARRISBURG
NEW HARTFD
NEW HARTFORD
NEW HAVEN
NEW HAVEN HEIGHTS
NEW HAVEN JCT
NEW HAVEN JUNCTION
NEW HAVEN MILLS
NEW HEBRON
NEW HELENA
NEW HEMPSTEAD
NEW HILL
NEW HOLLAND
NEW HOLLAND CROSSROADS
NEW HOLSTEIN
NEW HOME
NEW HOPE
NEW HOPE ACADEMY
NEW HOUSE
NEW HRADEC
NEW HUDSON
NEW HYDE PARK
NEW IBERIA
NEW IDRIA
NEW IPSWICH
NEW JERUSALEM
NEW JOHANNESBURG
NEW JOHNSONVILLE
NEW KENSINGTON
NEW KENT
NEW KINGSTON
NEW KINGSTOWN
NEW KNOXVILLE
NEW LAGUNA
NEW LANCASTER
NEW LEAKSVILLE
NEW LEBANON
NEW LEBANON CENTER
NEW LEIPZIG
NEW LENOX
NEW LEXINGTON
NEW LIBERTY
NEW LIGHT
NEW LIMA
NEW LIMERICK
NEW LISBON
NEW LONDON
NEW LOTHROP
NEW LYME
NEW MADISON
NEW MADRID
NEW MANCHESTER
NEW MARION
NEW MARKET
NEW MARLBORO
NEW MARLBOROUGH
NEW MARSHFIELD
NEW MARTINSVILLE
NEW MATAMORAS
NEW MAYSVILLE
NEW MEADOWS
NEW MELLE
NEW MEMPHIS
NEW MIAMI
NEW MIDDLETON
NEW MIDDLETOWN
NEW MIDWAY
NEW MILFORD
NEW MILLPORT
NEW MILLTOWN
NEW MILTON
NEW MINDEN
NEW MINE
NEW MINES
NEW MONMOUTH
NEW MOUNT PLEASANT
NEW MOUNTAIN
NEW MT PLEASANT
NEW MUNICH
NEW MUNSTER
NEW OFFENBURG
NEW ORAIBI
NEW ORLEANS
NEW ORLEANS NAVAL AIR
NEW ORLEANS PUB SERV
NEW OXFORD
NEW PALESTINE
NEW PALTZ
NEW PARIS
NEW PARK
NEW PHILADELPHIA
NEW PINE CREEK
NEW PITTSBURG
NEW PITTSBURGH
NEW PLYMOUTH
NEW POINT
NEW PORT RICHEY
NEW PORTLAND
NEW POST
NEW PR
NEW PRAGUE
NEW PRESTON
NEW PRESTON MARBLE DALE
NEW PRESTON MARBLEDALE
NEW PRESTON-MARBLE DALE
NEW PROCESS
NEW PROVIDENCE
NEW RAYMER
NEW RICHLAND
NEW RICHMOND
NEW RIEGEL
NEW RINGGOLD
NEW RIVER
NEW ROADS
NEW ROCHELLE
NEW ROCKFORD
NEW ROCKFRD
NEW ROSS
NEW RUMLEY
NEW RUSSIA
NEW RUSSIA TOWNSHIP
NEW SALEM
NEW SALISBURY
NEW SARPY
NEW SCANDIA
NEW SCHAEFFERSTOWN
NEW SEABURY
NEW SHARON
NEW SHOREHAM
NEW SITE
NEW SMITHVILLE
NEW SMYRNA BEACH
NEW SPRINGFIELD
NEW SQUARE
NEW STANTON
NEW STRAITSVILLE
NEW STRAWN
NEW STREET
NEW STUYAHOK
NEW SUFFOLK
NEW SUMMERFIELD
NEW SWEDEN
NEW TAITON
NEW TAZEWELL
NEW TEXAS
NEW TOWN
NEW TRENTON
NEW TRIPOLI
NEW TROY
NEW TRUXTON
NEW TULSA
NEW ULM
NEW UNDERWOOD
NEW VERDA
NEW VERDA COMMUNITY
NEW VERNON
NEW VIENNA
NEW VINEYARD
NEW VIRGINIA
NEW WASHINGTON
NEW WASHOE CITY
NEW WATERFORD
NEW WAVERLY
NEW WDSTOCK
NEW WELLS
NEW WESTON
NEW WHITELAND
NEW WILMINGTON
NEW WINCHESTER
NEW WINDSOR
NEW WOODSTOCK
NEW YORK
NEW YORK CITY
NEW YORK MILLS
NEW ZION
NEWAGEN
NEWALD
NEWALLA
NEWARK
NEWARK HOLLOW
NEWARK VALLEY
NEWAUKUM
NEWAYGO
NEWBERG
NEWBERN
NEWBERNE
NEWBERRY
NEWBERRY SPRINGS
NEWBERRYTOWN
NEWBORN
NEWBRANCH
NEWBURG
NEWBURG CORNERS
NEWBURGH
NEWBURGH HEIGHTS
NEWBURY
NEWBURY CENTER
NEWBURY PARK
NEWBURY TWP
NEWBURYPORT
NEWBY
NEWCASTLE
NEWCMBRLND
NEWCOMB
NEWCOMB HALL
NEWCOMERSTOWN
NEWDALE
NEWELL
NEWELLTON
NEWFANE
NEWFIELD
NEWFIELDS
NEWFOLDEN
NEWFOUNDLAND
NEWGULF
NEWHALEM
NEWHALL
NEWHOPE
NEWINGTON
NEWKIRK
NEWLAND
NEWLIFE
NEWLIGHT
NEWLIN
NEWLLANO
NEWMAN
NEWMAN GROVE
NEWMAN LAKE
NEWMANSTOWN
NEWMANSVILLE
NEWMARKET
NEWNAN
NEWPORT
NEWPORT BEACH
NEWPORT CENTER
NEWPORT CITY
NEWPORT COAST
NEWPORT HILLS
NEWPORT NEWS
NEWPORTVILLE
NEWPRT
NEWRY
NEWSOM
NEWSOMS
NEWSTEAD
NEWTN HAMLTN
NEWTOK
NEWTON
NEWTON CENTER
NEWTON CENTRE
NEWTON CNTR
NEWTON FALLS
NEWTON GROVE
NEWTON HAMILTON
NEWTON HIGHLANDS
NEWTON HOOK
NEWTON JUNCTION
NEWTON LOWER FALLS
NEWTON UPPER FALLS
NEWTONIA
NEWTONSVILLE
NEWTONVILLE
NEWTOWN
NEWTOWN SQUARE
NEWVILLE
NEY
NEZPERCE
NH INSURANCE
NHL ALL-STAR BALLOTING
NIAGARA
NIAGARA FALLS
NIANGUA
NIANTIC
NIARADA
NIBLEY
NICASIO
NICE
NICEVILLE
NICHOLASVILLE
NICHOLLS
NICHOLS
NICHOLS HILLS
NICHOLSON
NICHOLVILLE
NICKEL
NICKEL MINES
NICKELSVILLE
NICKERSON
NICKSVILLE
NICKTOWN
NICOLAUS
NICOLLET
NICOLVILLE
NICOMA PARK
NICUT
NIEDERWALD
NIELSVILLE
NIGHTHAWK
NIGHTMUTE
NIGTON
NIKISHKA
NIKISKI
NIKOLAEVSK
NIKOLAI
NIKOLSKI
NILAND
NILE
NILES
NILES VALLEY
NILWOOD
NIMBUS
NIMITZ
NIMMONSBURG
NIMROD
NIMSHEW
NINAVIEW
NIND
NINDE
NINE MILE FALLS
NINEPOINTS
NINETEEN
NINETY SIX
NINEVEH
NINEVEH JUNCTION
NINILCHIK
NINNEKAH
NINOLE
NIOBE
NIOBRARA
NIOTA
NIOTAZE
NIPINNAWASSEE
NIPOMO
NIPPA
NIPTON
NISBET
NISKAYUNA
NISLAND
NISQUALLY
NISSEQUOGUE
NISSON
NISSWA
NISULA
NITER
NITRO
NIVERVILLE
NIWOT
NIX
NIXA
NIXBURG
NIXON
NIXVILLE
NKC
NLR
NLV
NMB
NO ADAMS
NO ATTLEBORO
NO BALTIMORE
NO BENNINGTON
NO BERWICK
NO BRENTWOOD
NO BURLINGTON
NO CANAAN
NO CHAS
NO CLYMER
NO CONWAY
NO EASTON
NO EATON
NO EGREMONT
NO FERRISBURG
NO FIELD
NO GRAFTON
NO HAMPTON
NO HATFIELD
NO HAVEN
NO HAVERHILL
NO HERO
NO KANSAS CITY
NO LAS VEGAS
NO LITTLE ROCK
NO MACON
NO MANKATO
NO MONTPELIER
NO NAME
NO NAME KEY
NO NATICK
NO OAKS
NO PALM SPRINGS
NO POWNAL
NO PROVIDENCE
NO QUINCY
NO SALEM
NO STRATFORD
NO VEGAS
NO WALPOLE
NOACK
NOAH
NOANK
NOATAK
NOBE
NOBLE
NOBLEBORO
NOBLESBORO
NOBLESTOWN
NOBLESVILLE
NOBLETON
NOCATEE
NOCONA
NOCTOR
NODAWAY
NODE
NODINE
NOEL
NOGAL
NOGALES
NOGALUS
NOKESVILLE
NOKOMIS
NOLAN
NOLANVILLE
NOLENSVILLE
NOLES LANDING
NOMA
NOME
NOMINI GROVE
NONANTUM
NONDALTON
NONQUITT
NOODLE
NOOK
NOOKSACK
NOONAN
NOONDAY
NOORVIK
NORA
NORA SPRINGS
NORBECK
NORBORNE
NORCATUR
NORCO
NORCROSS
NORD
NORDEN
NORDHEIM
NORDLAND
NORDMAN
NORDMONT
NORDNESS
NORDSTROM
NORE
NORENE
NORFOLK
NORFOLK DOWNS
NORFOLK NAVAL AIR STATION
NORFOLK NAVAL PUBLIC WORKS C
NORFOLK NAVAL STATION
NORFOLK WEST RWY
NORFOLK WESTERN RWY
NORFORK
NORGE
NORIAS
NORLAND PARK
NORLINA
NORMA
NORMAL
NORMALVILLE
NORMAN
NORMAN PARK
NORMAN RANCH
NORMANDALE
NORMANDY
NORMANDY BEACH
NORMANDY ISLE
NORMANDY PARK
NORMANGEE
NORMANNA
NORMANS CROSSING
NORMANTOWN
NOROTON
NOROTON HEIGHTS
NORPHLET
NORRIDGE
NORRIDGEWOCK
NORRIE
NORRIS
NORRIS CITY
NORRISTOWN
NORSE
NORTH
NORTH ADAMS
NORTH AFTON
NORTH ALBEMARLE
NORTH AMERICAN OUTDOOR GROUP
NORTH AMHERST
NORTH AMITY
NORTH AMITYVILLE
NORTH ANDOVER
NORTH ANSON
NORTH APOLLO
NORTH ARGYLE
NORTH ARLINGTON
NORTH ATLANTA
NORTH ATTLEBORO
NORTH AUBURN
NORTH AUGUSTA
NORTH AURORA
NORTH AVONDALE
NORTH BABYLON
NORTH BALDWIN
NORTH BALTIMORE
NORTH BANGOR
NORTH BARRINGTON
NORTH BAY
NORTH BAY SHORE
NORTH BAY VILLAGE
NORTH BEACH
NORTH BELLMORE
NORTH BELLPORT
NORTH BEND
NORTH BENNINGTON
NORTH BENTON
NORTH BERGEN
NORTH BERWICK
NORTH BETHESDA
NORTH BILLERICA
NORTH BINGHAM
NORTH BLENHEIM
NORTH BLOOMFIELD
NORTH BONNEVILLE
NORTH BOSTON
NORTH BRANCH
NORTH BRANFORD
NORTH BRENTWOOD
NORTH BRIDGEWATER
NORTH BRIDGTON
NORTH BROADALBIN
NORTH BROOKFIELD
NORTH BRUNSWICK
NORTH BUENA VISTA
NORTH BURLINGTON
NORTH CALAIS
NORTH CALDWELL
NORTH CAMBRIDGE
NORTH CANAAN
NORTH CANTON
NORTH CAPE MAY
NORTH CARMEN
NORTH CARVER
NORTH CASTLE
NORTH CEDAR
NORTH CENTER
NORTH CHARLEROI
NORTH CHARLESTON
NORTH CHATHAM
NORTH CHELMSFORD
NORTH CHESTER
NORTH CHICAGO
NORTH CHICHESTER
NORTH CHILI
NORTH CHITTENANGO
NORTH CHITTENDEN
NORTH CITY
NORTH CLARENDON
NORTH CLEVELAND
NORTH CLYMER
NORTH COHOCTON
NORTH COLLEGE PARK
NORTH COLLINS
NORTH COLUMBIA
NORTH CONCORD
NORTH CONWAY
NORTH CORNERS
NORTH COVE
NORTH CREEK
NORTH DARTMOUTH
NORTH DECATUR
NORTH DELRAN
NORTH DENNIS
NORTH DERBY
NORTH DIGHTON
NORTH DURHAM
NORTH DUXBURY
NORTH EAST
NORTH EASTHAM
NORTH EASTON
NORTH EATON
NORTH EGREMONT
NORTH ELIZABETH
NORTH ENGLEWOOD
NORTH ENGLISH
NORTH EVANS
NORTH FAIRFIELD
NORTH FALMOUTH
NORTH FAYSTON
NORTH FENTON
NORTH FERRISBURG
NORTH FLORENCE
NORTH FOND DU LAC
NORTH FORK
NORTH FORT MYERS
NORTH FRANKLIN
NORTH FREEDOM
NORTH FRYEBURG
NORTH GARDEN
NORTH GEORGETOWN
NORTH GRAFTON
NORTH GRANBY
NORTH GRAND
NORTH GRANVILLE
NORTH GREECE
NORTH GREENBUSH
NORTH GROSVENDALE
NORTH GROSVENORDALE
NORTH HADLEY
NORTH HALEDON
NORTH HAMPTON
NORTH HANNIBAL
NORTH HANOVER
NORTH HARPERSFIELD
NORTH HARTLAND
NORTH HATFIELD
NORTH HAVEN
NORTH HAVERHILL
NORTH HAYDEN
NORTH HEBRON
NORTH HEIDELBERG
NORTH HENDERSON
NORTH HERO
NORTH HIBBING
NORTH HIGHLAND
NORTH HIGHLAND FINANCE
NORTH HIGHLANDS
NORTH HILL
NORTH HILLS
NORTH HODGE
NORTH HOLLYWOOD
NORTH HOOSICK
NORTH HOUSTON
NORTH HUDSON
NORTH HUNTINGDON
NORTH HURLEY
NORTH HYDE PARK
NORTH ILION
NORTH INDUSTRY
NORTH IRWIN
NORTH JACKSON
NORTH JAVA
NORTH JAY
NORTH JOHNS
NORTH JUDSON
NORTH KANSAS CITY
NORTH KC
NORTH KINGSTOWN
NORTH KINGSVILLE
NORTH KORTRIGHT
NORTH LA JUNTA
NORTH LAKE
NORTH LAKEPORT
NORTH LAKEWOOD
NORTH LANCASTER
NORTH LAS VEGAS
NORTH LAUDERDALE
NORTH LAWRENCE
NORTH LEBANON
NORTH LEECHBURG
NORTH LEVERETT
NORTH LEWISBURG
NORTH LIBERTY
NORTH LILBOURN
NORTH LIMA
NORTH LINDENHURST
NORTH LITTLE ROCK
NORTH LOGAN
NORTH LOMA LINDA
NORTH LONG BEACH
NORTH LONG BRANCH
NORTH LOUP
NORTH LYME
NORTH MADISON
NORTH MANCHESTER
NORTH MANHEIM
NORTH MANITOU
NORTH MANKATO
NORTH MARLTON
NORTH MARSHFIELD
NORTH MASSAPEQUA
NORTH MATEWAN
NORTH MENOMONIE
NORTH MERRICK
NORTH METRO
NORTH MIAMI
NORTH MIAMI BEACH
NORTH MIDDLESEX
NORTH MIDDLETOWN
NORTH MONMOUTH
NORTH MONROEVILLE
NORTH MONTPELIER
NORTH MOUNDS
NORTH MUSKEGON
NORTH MYRTLE BEACH
NORTH NATICK
NORTH NEW HYDE PARK
NORTH NEW PORTLAND
NORTH NEWTON
NORTH NORWICH
NORTH OAKS
NORTH OCEAN CITY
NORTH OGDEN
NORTH OLMSTED
NORTH ORANGE
NORTH ORWELL
NORTH OTIS
NORTH OTTAWA
NORTH OXFORD
NORTH PALM BEACH
NORTH PALM SPRINGS
NORTH PARK
NORTH PARKERSBURG
NORTH PATCHOGUE
NORTH PAWLET
NORTH PEKIN
NORTH PEMBROKE
NORTH PERRY
NORTH PETERSBURG
NORTH PHARSALIA
NORTH PITCHER
NORTH PLAINFIELD
NORTH PLAINS
NORTH PLATTE
NORTH PLYMOUTH
NORTH POINTE
NORTH POLE
NORTH POMFRET
NORTH PORT
NORTH POTOMAC
NORTH POWDER
NORTH POWNAL
NORTH PRAIRIE
NORTH PROSSER
NORTH PROVIDENCE
NORTH QUINCY
NORTH RANDALL
NORTH RANDOLPH
NORTH READING
NORTH REDINGTON BEACH
NORTH RICHLAND HILLS
NORTH RICHMOND
NORTH RIDGEVILLE
NORTH RIM
NORTH RIVER
NORTH RIVERSIDE
NORTH ROBINSON
NORTH ROSE
NORTH ROYALTON
NORTH RUPERT
NORTH RUSSELL
NORTH SACRAMENTO
NORTH SAINT PAUL
NORTH SALEM
NORTH SALT LAKE
NORTH SAN JUAN
NORTH SAN YSIDRO
NORTH SANDWICH
NORTH SANFORD
NORTH SCITUATE
NORTH SEA
NORTH SHAFTSBURY
NORTH SHAPLEIGH
NORTH SHORE
NORTH SHREWSBURY
NORTH SIOUX CITY
NORTH SMITHFIELD
NORTH SPRING
NORTH SPRINGFIELD
NORTH SPRINGS
NORTH STAR
NORTH STERLING
NORTH STOCKHOLM
NORTH STONINGTON
NORTH STRATFORD
NORTH STREET
NORTH SUBURBAN
NORTH SUDBURY
NORTH SULLIVAN
NORTH SUTTON
NORTH SWANZEY
NORTH SYRACUSE
NORTH TARRYTOWN
NORTH TAZEWELL
NORTH TERRE HAUTE
NORTH TEXAS MPC
NORTH THETFORD
NORTH THOMPSONVILLE
NORTH TISBURY
NORTH TONAWANDA
NORTH TOWN
NORTH TROY
NORTH TRURO
NORTH TUNBRIDGE
NORTH TURNER
NORTH UNION
NORTH UNIONTOWN
NORTH UXBRIDGE
NORTH VALLEY STREAM
NORTH VASSALBORO
NORTH VEGAS
NORTH VERNON
NORTH VERSAILLES
NORTH VIDOR
NORTH WALES
NORTH WALPOLE
NORTH WALTHAM
NORTH WANTAGH
NORTH WARREN
NORTH WASHINGTON
NORTH WATERBORO
NORTH WATERFORD
NORTH WEBSTER
NORTH WELTON
NORTH WESTCHESTER
NORTH WESTMINSTER
NORTH WEYMOUTH
NORTH WHITE PLAINS
NORTH WICHITA
NORTH WILDWOOD
NORTH WILKESBORO
NORTH WILMURT
NORTH WINDHAM
NORTH WINFIELD
NORTH WOLCOTT
NORTH WOODBURY
NORTH WOODMERE
NORTH WOODS BEACH
NORTH WOODSTOCK
NORTH YARMOUTH
NORTH ZULCH
NORTHAMPTON
NORTHBORO
NORTHBOROUGH
NORTHBRIDGE
NORTHBROOK
NORTHBUSH
NORTHCOTE
NORTHCREST
NORTHDALE
NORTHEAST
NORTHEAST HARBOR
NORTHEAST UNIV
NORTHERN
NORTHERN CAMBRIA
NORTHERN OAKS
NORTHERN VIRGINIA
NORTHFIELD
NORTHFIELD CENTER
NORTHFIELD FALLS
NORTHFIELD TWP
NORTHFIELD VILLAGE
NORTHFORD
NORTHFORK
NORTHGATE
NORTHGLENN
NORTHLAKE
NORTHLAND
NORTHMORE HEIGHTS
NORTHOME
NORTHPINE ESTATES
NORTHPOINT
NORTHPORT
NORTHPORT POINT
NORTHRICHLAND HILLS
NORTHRIDGE
NORTHROP
NORTHSIDE
NORTHSTAR
NORTHTOWN
NORTHUMBERLAND
NORTHUP
NORTHVALE
NORTHVILLE
NORTHVILLE TOWNSHIP
NORTHWAY
NORTHWEST
NORTHWESTERN
NORTHWESTERN UNIV ADMINSTRN
NORTHWESTERN UNIV RESIDENTAL
NORTHWOOD
NORTHWOODS
NORTON
NORTON HILL
NORTON SHORES
NORTONSVILLE
NORTONVILLE
NORVELL
NORVELT
NORWALK
NORWAY
NORWAY CENTER
NORWELL
NORWICH
NORWICHTOWN
NORWOOD
NORWOOD HOLLOW
NORWOOD PARK
NORWOOD YOUNG AMERICA
NORWOODVILLE
NOSSVILLE
NOT USED
NOTASULGA
NOTI
NOTNAC
NOTRE DAME
NOTREES
NOTTAWA
NOTTINGHAM
NOTTINGHILL
NOTTOWAY
NOTUS
NOUNAN
NOVA
NOVATO
NOVELTY
NOVI
NOVI TOWNSHIP
NOVICE
NOVINGER
NOVOHRAD
NOWATA
NOWLIN
NOXEN
NOXIE
NOXON
NOXVILLE
NOYES
NOYO
NPORT
NSL
NSU
NU MINE
NUANGOLA
NUBIEBER
NUCKOLS
NUCLA
NUCLEAR REGULATORY COMM
NUEVO
NUIQSUT
NULATO
NULLTOWN
NUMA
NUMBER EIGHT
NUMBER ONE
NUMIDIA
NUNAM IQUA
NUNAPITCHUK
NUNDA
NUNEZ
NUNICA
NUNLEY
NUNN
NUNNELLY
NUREMBERG
NURSERY
NUT TREE
NUTLEY
NUTRIAS
NUTRIOSO
NUTTER FORT
NUTTING LAKE
NUTTINGS LAKE
NUTTSVILLE
NUTWOOD
NUYAKA
NW CUMB
NW CUMBERLAND
NW CUMBERLND
NW NATURAL
NW NATURAL GAS
NWPRT
NY
NY CITY
NY MILLS
NY STANDARDS AND PURC
NYA
NYACK
NYC
NYE
NYESVILLE
NYMORE
NYONA LAKE
NYSSA
NYSTED
O BRIEN
O FALLON
O KEAN
O NEALS
O' NEILL
OACOMA
OAHE
OAK
OAK BAY
OAK BEACH
OAK BLUFFS
OAK BROOK
OAK BROOK MALL BRANCH
OAK CITY
OAK CREEK
OAK DALE
OAK FOREST
OAK GLEN
OAK GROVE
OAK HALL
OAK HARBOR
OAK HILL
OAK HILLS
OAK ISLAND
OAK LANE
OAK LAWN
OAK LEAF
OAK LODGE
OAK PARK
OAK PARK HEIGHTS
OAK POINT
OAK RIDGE
OAK RUN
OAK SPRINGS
OAK VALLEY
OAK VIEW
OAKALLA
OAKBORO
OAKBROOK
OAKBROOK TER
OAKBROOK TERRACE
OAKDALE
OAKES
OAKESDALE
OAKFIELD
OAKFORD
OAKGROVE
OAKHAM
OAKHILL
OAKHURST
OAKLAND
OAKLAND ACRES
OAKLAND CITY
OAKLAND GARDENS
OAKLAND MILLS
OAKLAND PARK
OAKLAND TOWNSHIP
OAKLANDON
OAKLAWN
OAKLEIGH
OAKLEVEL
OAKLEY
OAKLYN
OAKMAN
OAKMONT
OAKPARK
OAKRIDGE
OAKRYN
OAKS
OAKS CORNERS
OAKSVILLE
OAKTON
OAKTOWN
OAKVALE
OAKVIEW
OAKVILLE
OAKWOOD
OAKWOOD HILLS
OAKWOOD LAKE
OAKWOOD SHORES
OAKWOOD VILLAGE
OAKY GROVE
OARK
OASIS
OATES
OATMAN
OATMEAL
OATS
OATSVILLE
OATVILLE
OBER
OBERLIN
OBERLIN GARDENS
OBERLIN GDNS
OBERNBURG
OBERON
OBERT
OBETZ
OBION
OBLONG
OBRIEN
OBSERVATORY
OBSIDIAN
OCALA
OCATE
OCCIDENTAL
OCCOQUAN
OCCUM
OCEAN
OCEAN BAY PARK
OCEAN BEACH
OCEAN BLUFF
OCEAN CITY
OCEAN DR BEACH
OCEAN DRIVE
OCEAN DRIVE BEACH
OCEAN GATE
OCEAN GROVE
OCEAN ISLE
OCEAN ISLE BEACH
OCEAN MALL
OCEAN PARK
OCEAN PNES
OCEAN REEF CLUB
OCEAN RIDGE
OCEAN SHORES
OCEAN SPRAY
OCEAN VIEW
OCEANA
OCEANO
OCEANPORT
OCEANSIDE
OCEANVIEW
OCEANVILLE
OCEE
OCEOLA
OCHELATA
OCHEYEDAN
OCHLOCKNEE
OCHLOCKONEE BAY
OCHOPEE
OCIE
OCILLA
OCKLAWAHA
OCOEE
OCONEE
OCONO LUFTY
OCONOMOWOC
OCONTO
OCONTO FALLS
OCONTOFALLS
OCOSTA
OCOTILLO
OCOYA
OCRACOKE
OCTAVIA
ODANAH
ODD
ODDS
ODDVILLE
ODEBOLT
ODELL
ODEM
ODEN
ODENBURG
ODENTON
ODENVILLE
ODESSA
ODGEN
ODIN
ODON
ODONNELL
ODONNELL SPUR
ODRA
ODUM
OELLA
OELRICHS
OELWEIN
OENAVILLE
OFALLON
OFARRELL
OFELIA
OFFERLE
OFFERMAN
OFFICE PERSONNEL MGMT
OFFICIAL MAIL
OFFUTT
OFFUTT AIR FORCE BASE
OFFUTT LAKE
OGALLAH
OGALLALA
OGD
OGDEN
OGDEN DUNES
OGDEN PARK
OGDENSBURG
OGELTHORPE
OGEMA
OGILVIE
OGLALA
OGLE
OGLESBY
OGLETHORPE
OGONTZ CAMPUS
OGUNQUIT
OH CITY
OHATCHEE
OHEM
OHIO
OHIO CASUALTY INS
OHIO CITY
OHIO GROVE
OHIO LOTTERY
OHIOPYLE
OHIOWA
OHLEY
OHLMAN
OHOOPEE
OHOP
OIL
OIL CENTER
OIL CITY
OIL CREEK
OIL SPRINGS
OIL TROUGH
OIL VALLEY
OILMONT
OILTON
OILVILLE
OJAI
OJIBWA
OJITO
OJO
OJO CALIENTE
OJO FELIZ
OJO SARCO
OJUELAS
OJUS
OKABENA
OKAHUMPKA
OKALOOSA
OKANOGAN
OKARCHE
OKATIE
OKATON
OKAUCHEE
OKAWVILLE
OKAY
OKEANA
OKEECHOBEE
OKEENE
OKEEWEMEE
OKEFENOKEE
OKEMAH
OKEMOS
OKESA
OKETO
OKLAHOMA CITY
OKLAHOMA NATURAL GAS
OKLAUNION
OKLAWAHA
OKLEE
OKMULGEE
OKOBOJI
OKOBOJO
OKOLONA
OKOME
OKREEK
OKTAHA
OLA
OLALLA
OLALLA VALLEY
OLAMON
OLANCHA
OLANTA
OLAR
OLATHE
OLATON
OLCOTT
OLD ALEXANDRIA
OLD ALLEN
OLD APPLETON
OLD BATH
OLD BENNINGTON
OLD BERLIN
OLD BETHPAGE
OLD BOSTON
OLD BRAZORIA
OLD BRIDGE
OLD BROOKVILLE
OLD CAMP
OLD CHATHAM
OLD CHELSEA BRM
OLD FIELD
OLD FIELDS
OLD FORGE
OLD FORT
OLD FORT JIM
OLD FREDONIA
OLD FURNACE
OLD GILCHRIST
OLD GLORY
OLD GREENWICH
OLD HAMBURG
OLD HARBOR
OLD HICKORY
OLD JOE
OLD KANE
OLD LAGUNA
OLD LANDING
OLD LARISSA
OLD LINE
OLD LONDON
OLD LYCOMING
OLD LYME
OLD MASTIC
OLD MILL CREEK
OLD MILL CRK
OLD MILO
OLD MINES
OLD MISSION
OLD MOBEETIE
OLD MONROE
OLD MOULTON
OLD MYSTIC
OLD NEVADA
OLD OCEAN
OLD ORAIBI
OLD ORCHARD BEACH
OLD PICACHO
OLD PORT
OLD RIPLEY
OLD ROUND ROCK
OLD SALEM
OLD SAYBROOK
OLD SHAWNEETOWN
OLD SNOWMASS
OLD SOMERSET
OLD SPARTA
OLD STATION
OLD STONINGTON
OLD TAPPAN
OLD TOWN
OLD UNION
OLD WASHINGTN
OLD WASHINGTON
OLD WESTBURY
OLD WESTFIELD
OLD WILLAPA
OLD WOOLAM
OLD WOOLLAM
OLD ZIONSVILLE
OLDE FARM
OLDEN
OLDENBURG
OLDFIELD
OLDFORT
OLDHAM
OLDHAMS
OLDS
OLDSMAR
OLDSMOBILE
OLDTOWN
OLDWICK
OLEAN
OLEMA
OLENA
OLETHA
OLEY
OLEY FURNACE
OLGA
OLGETHORPE
OLIN
OLINDA
OLINGHOUSE
OLINKRAFT
OLIPHANT FURNACE
OLIVE
OLIVE BRANCH
OLIVE HILL
OLIVEBRIDGE
OLIVEBURG
OLIVEHILL
OLIVEHURST
OLIVENHAIN
OLIVER
OLIVER SPRINGS
OLIVEREA
OLIVERS CROSSROADS
OLIVESBURG
OLIVET
OLIVETTE
OLIVIA
OLJATO
OLLA
OLLIE
OLMITO
OLMITZ
OLMOS
OLMOS PARK
OLMSTEAD
OLMSTED
OLMSTED FALLS
OLMSTED TWP
OLMSTEDVILLE
OLNEY
OLNEY SPRINGS
OLPE
OLSBURG
OLSON
OLSONVILLE
OLTON
OLUSTEE
OLY
OLYMPIA
OLYMPIA FIELDS
OLYMPIA HEIGHTS
OLYMPIAN VILLAGE
OLYMPIC COMM
OLYMPIC MEDIA CENTER
OLYMPIC VALLEY
OLYMPIC VIEW
OLYMPIC VILLAGE
OLYMPUS
OLYPHANT
OMA
OMAHA
OMAK
OMAR
OMEGA
OMEMEE
OMEN
OMENA
OMER
OMO RANCH
OMRO
ONA
ONAGA
ONAKA
ONALASKA
ONAMIA
ONANCOCK
ONARGA
ONAWA
ONAWAY
ONCHIOTA
ONE AMER PL
ONE AMERICAN PLACE
ONE FINANCIAL PLAZA
ONE HUNDRED PALMS
ONECO
ONEGO
ONEIDA
ONEIDA CASTLE
ONEILL
ONEKAMA
ONEMO
ONEONTA
ONG
ONIA
ONIDA
ONIGUM
ONIZUKA AFB
ONLEY
ONLY
ONO
ONON HILL
ONONDAGA
ONONDAGA NATION
ONSET
ONSLOW
ONSTED
ONTARIO
ONTARIO CENTER
ONTARIO STREET
ONTARIOVILLE
ONTELAUNEE
ONTONAGON
ONWARD
ONYX
OOKALA
OOLITIC
OOLOGAH
OOLTEWAH
OOSTBURG
OP
OPA LOCKA
OPAL
OPDYKE
OPELIKA
OPELOUSAS
OPHEIM
OPHELIA
OPHIR
OPOLIS
OPP
OPPELO
OPPENHEIM
OPPORTUNITY
OPS
OPTIMA
OQUAGA LAKE
OQUAWKA
OQUINN
OQUOSSOC
ORA
ORACLE
ORADELL
ORAIBI
ORAL
ORAL ROBERTS UNIV
ORALABOR
ORAN
ORANGE
ORANGE BEACH
ORANGE CITY
ORANGE COVE
ORANGE GROVE
ORANGE LAKE
ORANGE PARK
ORANGE PK
ORANGE SPRINGS
ORANGE VILLAGE
ORANGEBURG
ORANGEFIELD
ORANGEVALE
ORANGEVILLE
ORAVILLE
ORBISONIA
ORCAS
ORCHARD
ORCHARD BEACH
ORCHARD CITY
ORCHARD FARM
ORCHARD HEIGHTS
ORCHARD HILL
ORCHARD ISLAND
ORCHARD LAKE
ORCHARD LANE
ORCHARD MINES
ORCHARD PARK
ORCHARDS
ORCHARDVILLE
ORCHID
ORCUTT
ORD
ORDBEND
ORDERVILLE
ORDINARY
ORDWAY
ORE CITY
ORE VALLEY
OREANA
OREFIELD
OREGON
OREGON CITY
OREGON HILL
OREGON HOUSE
OREGONIA
OREL
ORELAND
OREM
ORENCO
ORESTES
ORETECH
OREVILLE
ORFORD
ORFORDVILLE
ORGAN
ORGAS
ORICK
ORIENT
ORIENT POINT
ORIENTA
ORIENTAL
ORILLIA
ORIN
ORINDA
ORIOLE
ORION
ORION TOWNSHIP
ORION TWP
ORISKA
ORISKANY
ORISKANY FALLS
ORKNEY
ORKNEY SPGS
ORKNEY SPRINGS
ORKNEY SPRNGS
ORLA
ORLAND
ORLAND HILLS
ORLAND PARK
ORLANDO
ORLEAN
ORLEANS
ORLINDA
ORLO VISTA
ORMA
ORMAS
ORMOND
ORMOND BEACH
ORMONDE
ORMSBY
ORO GRANDE
ORO VALLEY
OROFINO
OROGRANDE
ORONDO
ORONO
ORONOCO
ORONOGO
OROSI
OROVADA
OROVILLE
ORR
ORRICK
ORRIN
ORRINGTON
ORRS ISLAND
ORRSTOWN
ORRTANNA
ORRUM
ORRVILLE
ORSON
ORTING
ORTIZ
ORTLEY
ORTLEY BEACH
ORTON
ORTONVILLE
ORVISTON
ORWELL
ORWIGSBURG
ORWIN
OSAGE
OSAGE BEACH
OSAGE BEND
OSAGE BLUFF
OSAGE CITY
OSAKIS
OSAWATOMIE
OSBORN
OSBORNE
OSBORNSVILLE
OSBORNVILLE
OSBURN
OSCALOOSA
OSCAR
OSCAWANA LAKE
OSCEOLA
OSCEOLA MILLS
OSCO
OSCODA
OSGOOD
OSHKOSH
OSHOTO
OSHTEMO
OSKALOOSA
OSLO
OSLUND
OSMOND
OSNABROCK
OSNABURG
OSO
OSPREY
OSPUR
OSSAMI LAKE
OSSEO
OSSIAN
OSSINEKE
OSSINING
OSSIPEE
OSTBY
OSTEEN
OSTERBURG
OSTERDOCK
OSTERVILLE
OSTRANDER
OSTRICA
OSWAYO
OSWEGATCHIE
OSWEGO
OSWEGO CENTER
OTEEN STA
OTEGO
OTENEAGEN
OTEY
OTHELLO
OTHO
OTIS
OTIS A F B
OTIS ANG
OTIS ANGB
OTIS GRANT COLLINS
OTIS ORCHARDS
OTISCO
OTISCO VALLEY
OTISFIELD
OTISVILLE
OTLEY
OTO
OTOE
OTRANTO
OTSDAWA
OTSEGO
OTSELIC
OTTAWA
OTTAWA LAKE
OTTER
OTTER CREEK
OTTER LAKE
OTTER RIVER
OTTER ROCK
OTTER VILLAGE
OTTERBEIN
OTTERBIEN HOME
OTTERTAIL
OTTERVILLE
OTTINE
OTTO
OTTO MALL
OTTOSEN
OTTOVILLE
OTTSVILLE
OTTUMWA
OTTUMWA JUNCTION
OTWAY
OTWELL
OUAQUAGA
OURAY
OUTING
OUTINGDALE
OUTLOOK
OUTWATER
OUTWOOD
OUZINKIE
OVAL
OVALE
OVALO
OVANDO
OVAPA
OVEN FORK
OVERALL
OVERBROOK
OVERBROOK HILLS
OVERGAARD
OVERLAND
OVERLAND PARK
OVERLOOK
OVERLOOK SRU
OVERLY
OVERPECK
OVERSTREET
OVERTON
OVERTON BEACH
OVID
OVIEDO
OVILLA
OWANECO
OWANKA
OWASA
OWASCO
OWASSO
OWATONNA
OWEGO
OWEN
OWENDALE
OWENS
OWENS CORNING
OWENS CROSS ROADS
OWENS ILLINOIS
OWENS X RDS
OWENS X ROADS
OWENSBORO
OWENSBURG
OWENSVILLE
OWENTON
OWINGS
OWINGS MILLS
OWINGSVILLE
OWLS BEND
OWLS HEAD
OWLS HEAD HARBOR
OWOSSO
OWYHEE
OWYHEE CORNERS
OXBOW
OXFORD
OXFORD JCT
OXFORD JUNCTION
OXFORD MILLS
OXLEY
OXLY
OXMOOR HOUSE
OXNARD
OXON HILL
OYENS
OYHAT
OYLEN
OYSTER
OYSTER BAY
OYSTER BAY COVE
OYSTER CREEK
OYSTER POINT
OYSTERVILLE
OZAN
OZARK
OZARK LITHIA
OZAWKIE
OZETTE
OZONA
OZONE
OZONE PARK
PEPCO
P HILL
PJS
PA BLUE SHIELD
PAAUHAU
PAAUILO
PABLO
PACE
PACHECO
PACIFIC
PACIFIC BEACH
PACIFIC BELL
PACIFIC CITY
PACIFIC GROVE
PACIFIC HOUSE
PACIFIC JUNCTION
PACIFIC PALISADES
PACIFIC TEL
PACIFIC VALLEY
PACIFICA
PACKANACK LAKE
PACKANACK LK
PACKARD
PACKARD ELEC CO DIV GM
PACKSVILLE
PACKTON
PACKWAUKEE
PACKWOOD
PACOIMA
PACOLET
PACOLET MILLS
PACTOLA LAKE
PACTOLUS
PADANARAM VILLAGE
PADDOCK LAKE
PADDY HILL
PADEN
PADEN CITY
PADERBORN
PADRONI
PADUA
PADUCAH
PADUCAH MALL
PADUS
PAEONIAN SPRINGS
PAGE
PAGE FIELD
PAGEDALE
PAGELAND
PAGETON
PAGEVILLE
PAGODA
PAGOSA LAKES
PAGOSA SPRINGS
PAGUATE
PAHALA
PAHOA
PAHOKEE
PAHRUMP
PAIA
PAICINES
PAIGE
PAINCOURTVILLE
PAINES HOLLOW
PAINESDALE
PAINESVILLE
PAINEVILLE
PAINT LICK
PAINT MILL LAKE
PAINT ROCK
PAINTED POST
PAINTED ROCKS
PAINTER
PAINTERSVILLE
PAINTON
PAINTSVILLE
PAISAJE
PAISLEY
PAJARITO
PAJARO
PALA
PALACE
PALACIOS
PALATINE
PALATINE BRIDGE
PALATKA
PALAVA
PALCO
PALENVILLE
PALERMO
PALESTINE
PALISADE
PALISADES
PALISADES PARK
PALITO BLANCO
PALL MALL
PALM
PALM BAY
PALM BAY WEST
PALM BEACH
PALM BEACH GARDENS
PALM BEACH SHORES
PALM CITY
PALM COAST
PALM DESERT
PALM GROVE
PALM HARBOR
PALM RIVER
PALM SPRINGS
PALM SPRINGS MUNICIPAL AIRPO
PALM SPRINGS NORTH
PALM VILLAGE
PALMA
PALMA CEIA
PALMA SOLA
PALMDALE
PALMER
PALMER LAKE
PALMER PARK
PALMER SPRINGS
PALMER TOWNSHIP
PALMERDALE
PALMERSPRINGS
PALMERSVILLE
PALMERTON
PALMETTO
PALMHURST
PALMS
PALMVIEW
PALMYRA
PALO
PALO ALTO
PALO ALTO BATTLEFIELD NATION
PALO CEDRO
PALO PINTO
PALO VERDE
PALOMA
PALOMAR MOUNTAIN
PALOMINAS
PALOMINO VALLEY
PALOPINTO
PALOS HEIGHTS
PALOS HILLS
PALOS PARK
PALOS VERDES ESTATES
PALOS VERDES PENINSULA
PALOUSE
PALUXY
PAMELIA
PAMELIA FOUR CORNERS
PAMPA
PAMPLICO
PAMPLIN
PAMRAPO
PANA
PANACA
PANACEA
PANAMA
PANAMA CITY
PANAMA CITY BEACH
PANAMINT SPRINGS
PANAMOKA
PANARAMA PARK
PANCAKE
PANDORA
PANGBURN
PANGUITCH
PANHANDLE
PANNA MARIA
PANOCHE
PANOLA
PANORA
PANORAMA
PANORAMA CITY
PANORAMA HEIGHTS
PANORAMA VILLAGE
PANSEY
PANSY
PANTEGO
PANTHER
PANTHER CREEK
PANTHER FOREST
PANTHER VALLEY
PANTON
PAOLA
PAOLI
PAONIA
PAPAALOA
PAPAIKOU
PAPALOTE
PAPER MILL VILLAGE
PAPILLION
PAPINEAU
PARACHUTE
PARADE
PARADIS
PARADISE
PARADISE HILL
PARADISE HOT SPRINGS
PARADISE INN
PARADISE LAKE
PARADISE LAKES
PARADISE PARK
PARADISE PINES
PARADISE VALLEY
PARADOX
PARADOX LAKE
PARAGON
PARAGONAH
PARAGOULD
PARAJE
PARAMOUNT
PARAMUS
PARCEL RETURN RENO
PARCHMENT
PARCOAL
PARDEESVILLE
PARDEEVILLE
PARHAMS
PARIS
PARIS CROSSING
PARIS HILL
PARISH
PARISHVILLE
PARISHVILLE CENTER
PARK
PARK CITY
PARK FALLS
PARK FLETCHER
PARK FOREST
PARK HALL
PARK HEIGHTS
PARK HILL
PARK HILLS
PARK PLACE
PARK RAPIDS
PARK RIDGE
PARK RIVER
PARK ROW
PARK TERRACE
PARK VALLEY
PARK VIEW
PARKANDBUSH
PARKDALE
PARKER
PARKER CITY
PARKER CROSSROADS
PARKER DAM
PARKER FORD
PARKER LAKE
PARKERFORD
PARKERS LAKE
PARKERS PR
PARKERS PRAIRIE
PARKERS SETTLEMENT
PARKERSBURG
PARKERTON
PARKERTOWN
PARKESBURG
PARKFIELD
PARKHILL
PARKIN
PARKLAND
PARKMAN
PARKROSE
PARKS
PARKS CROSSROADS
PARKSIDE
PARKSIDE MANOR
PARKSLEY
PARKSTON
PARKSVILLE
PARKTON
PARKVIEW
PARKVILLE
PARKWAY
PARKWOOD
PARLERS
PARLIER
PARLIN
PARMA
PARMA HEIGHTS
PARMELE
PARMELEE
PARNASSUS
PARNELL
PARON
PAROWAN
PARRAL
PARRIS ISLAND
PARRISH
PARROT
PARROTT
PARROTTSVILLE
PARRS MILL
PARRYVILLE
PARSHALL
PARSIPPANY
PARSIPPANY TROY HILLS
PARSONS
PARSONSBURG
PARSONSFIELD
PARSONVILLE
PARTHENON
PARTLOW
PARTOUN
PARTRIDGE
PARVIN
PASADENA
PASADENA HILLS
PASADENA PARK
PASCO
PASCOAG
PASCOLA
PASKENTA
PASO ROBLES
PASS A GRILLE BEACH
PASS A GRILLE BRANCH
PASSADUMKEAG
PASSAIC
PASSAIC PARK
PASSMORE
PASSPORT OFFICE
PASSUMPSIC
PASSYUNK
PASTORIA
PASTURA
PATAGONIA
PATAPSCO
PATASKALA
PATCH GROVE
PATCH LEG
PATCHOGUE
PATENT
PATEROS
PATERSON
PATETOWN
PATHFORK
PATMOS
PATOKA
PATON
PATRIA
PATRICIA
PATRICK
PATRICK AFB
PATRICK SPRINGS
PATRICKSBURG
PATRIOT
PATRONVILLE
PATROON
PATSBURG
PATSEY
PATSVILLE
PATTEN
PATTENBURG
PATTERSON
PATTERSON CREEK
PATTERSON HEIGHTS
PATTERSON SPRINGS
PATTERSONVILLE
PATTISON
PATTON
PATTON HILL
PATTON VILLAGE
PATTONSBURG
PATTONVILLE
PATUXENT RIVER
PATUXENT RIVER NAVAL AIR STA
PAUL
PAUL SMITHS
PAUL SPUR
PAULDEN
PAULDING
PAULINA
PAULINE
PAULLINA
PAULS VALLEY
PAULSBORO
PAUMA VALLEY
PAUPACK
PAVILION
PAVILLION
PAVO
PAVONIA
PAW CREEK
PAW PAW
PAWCATUCK
PAWELEKVILLE
PAWHUSKA
PAWLET
PAWLEYS IS
PAWLEYS ISLAND
PAWLING
PAWNEE
PAWNEE CITY
PAWNEE ROCK
PAWNEE STATION
PAWTUCKET
PAX
PAXICO
PAXINOS
PAXSON
PAXTANG
PAXTANG MANOR
PAXTON
PAXTONIA
PAXTONVILLE
PAXVILLE
PAYDOWN
PAYETTE
PAYNE
PAYNE CITY
PAYNE GAP
PAYNES CREEK
PAYNES POINT
PAYNESVILLE
PAYNEVILLE
PAYSON
PAYTRUST
PE ELL
PEA RIDGE
PEABODY
PEACE DALE
PEACE HAVEN ESTATES
PEACE VALLEY
PEACH BOTTOM
PEACH CREEK
PEACH GLEN
PEACH ORCHARD
PEACH SPRINGS
PEACHAM
PEACHGROVE
PEACHLAND
PEACHTREE CITY
PEACHTREE CORNERS
PEACOCK
PEAK
PEAKS ISLAND
PEAKSVILLE
PEAKVILLE
PEALERTOWN
PEANUT
PEAPACK
PEAR RIDGE
PEAR VALLEY
PEARBLOSSOM
PEARCE
PEARCOT
PEARCY
PEARDALE
PEARISBURG
PEARL
PEARL BEACH
PEARL CITY
PEARL HARBOR
PEARL RIVER
PEARLAND
PEARSALL
PEARSON
PEARSONIA
PEARSONVILLE
PEARY
PEASE
PEASEVILLE
PEASLEEVILLE
PEASON
PEASTER
PEBBLE
PEBBLE BEACH
PEBWORTH
PECAN ACRES
PECAN GAP
PECAN WAY TERRACE
PECANGROVE
PECATONICA
PECK
PECK SLIP
PECK SLIP BRM
PECKHAM
PECKS MILL
PECKSRIDGE
PECKVILLE
PECONIC
PECOS
PECULIAR
PEDDEN ACRES
PEDDLER HILL
PEDEN
PEDIGO
PEDRICKTOWN
PEDRO
PEDRO BAY
PEEBLES
PEEKSKILL
PEEL
PEELL
PEERLESS
PEETZ
PEEVER
PEGGS
PEGGY
PEGRAM
PEJEPSCOT
PEKIN
PEKIN HEIGHTS
PEKIN MALL
PELETIER
PELHAM
PELHAM MANOR
PELICAN
PELICAN BAY
PELICAN LAKE
PELICAN RAPIDS
PELION
PELKIE
PELL CITY
PELL LAKE
PELLA
PELLSTON
PELLVILLE
PELSOR
PELZER
PEMAQUID
PEMBERTON
PEMBERVILLE
PEMBINA
PEMBINE
PEMBROKE
PEMBROKE LAKES
PEMBROKE PARK
PEMBROKE PINES
PEN ARGYL
PEN MAR
PENA BLANCA
PENACOOK
PENALOSA
PENASCO
PENASSE
PENBROOK
PENCE
PENCE SPRINGS
PENCER
PENCIL BLUFF
PENDARIES
PENDER
PENDERGRASS
PENDLETON
PENDROY
PENELOPE
PENFIELD
PENFLD
PENGILLY
PENHOOK
PENIEL CROSSROADS
PENINSULA
PENINSULA VILLAGE
PENITAS
PENITENTIARY
PENLAND
PENLLYN
PENN
PENN AVON
PENN HILL
PENN HILLS
PENN LAIRD
PENN LAKE
PENN PARK
PENN RUN
PENN VALLEY
PENN WYNNE
PENN YAN
PENNDEL
PENNELLVILLE
PENNERSVILLE
PENNEY FARMS
PENNGROVE
PENNINGTON
PENNINGTON GAP
PENNOCK
PENNS CREEK
PENNS GROVE
PENNS PARK
PENNSAUKEN
PENNSBORO
PENNSBURG
PENNSDALE
PENNSIDE
PENNSVILLE
PENNSYLVANIA BLUE SHIELD
PENNSYLVANIA FURNACE
PENNTOWN
PENNVILLE
PENOBSCOT
PENOKEE
PENROD
PENROSE
PENRYN
PENSACOLA
PENSACOLA BEACH
PENSAUKEE
PENTAGON
PENTRESS
PENTWATER
PENTZ
PENWELL
PEOA
PEOGA
PEONIA
PEOPLES
PEOPLES PARK
PEORIA
PEORIA HEIGHTS
PEORIA JOURNAL STAR
PEOSTA
PEOTONE
PEP
PEPCO
PEPEEKEO
PEPIN
PEPLIN
PEPPER PIKE
PEPPERELL
PEPPERTOWN
PEQUABUCK
PEQUANNOCK
PEQUANNOCK TOWNSHIP
PEQUEA
PEQUOP
PEQUOT LAKES
PERALTA
PERCH
PERCH RIVER
PERCILLA
PERCIVAL
PERCY
PERDIDO
PERDIDO BEACH
PERDIDO KEY
PERDIX
PERDUE HILL
PEREA
PEREZVILLE
PERHAM
PERIDOT
PERIMETER CENTER FINANCE
PERKASIE
PERKINS
PERKINS CORNER
PERKINSTOWN
PERKINSVILLE
PERKIOMENVILLE
PERKS
PERLA
PERLEE
PERLEY
PERMANENTE
PERNELL
PERNITAS POINT
PEROTE
PERRIN
PERRINE
PERRINEVILLE
PERRINTON
PERRIS
PERRONVILLE
PERRY
PERRY HALL
PERRY PARK
PERRY POINT
PERRY SQUARE
PERRY VILLAGE
PERRYHALL
PERRYMAN
PERRYOPOLIS
PERRYS MILLS
PERRYSBURG
PERRYSVILLE
PERRYTON
PERRYTOWN
PERRYVILLE
PERSHING
PERSIA
PERTH
PERTH AMBOY
PERU
PERULACK
PESCADERO
PESCADO
PESHASTIN
PESHAWBESTOWN
PESHTIGO
PESOTUM
PETACA
PETALUMA
PETER STUYVESANT
PETERBORO
PETERBOROUGH
PETERMAN
PETERS
PETERSBORO
PETERSBURG
PETERSBURGH
PETERSHAM
PETERSON
PETERSON AIR FORCE BASE
PETERSTOWN
PETERSVILLE
PETOSKEY
PETRA
PETREY
PETRIFIED FOREST NATL PK
PETROLEUM
PETROLIA
PETRONILA
PETROS
PETROSS
PETTEWAY
PETTIBONE
PETTIGREW
PETTISVILLE
PETTIT
PETTUS
PETTY
PEVELY
PEWAMO
PEWAUKEE
PEWEE VALLEY
PEYTON
PEYTONA
PEYTONSBURG
PEYTONSVILLE
PFAFFTOWN
PFEIFER
PFLUGERVILLE
PG CONTEST MAIL
PG ENERGY
PGH
PHALANX
PHAROAH
PHARR
PHELAN
PHELPS
PHENIX
PHENIX CITY
PHIL CAMPBELL
PHILA
PHILADELPHIA
PHILADELPHIA BMC
PHILATELIC CENTER
PHILATELIC SALES BRA
PHILATELIC SALES DIVISION
PHILIP
PHILIP MORRIS
PHILIPPI
PHILIPSBURG
PHILIPSE MANOR
PHILIPSTOWN
PHILLIPS
PHILLIPS PETROLEUM
PHILLIPS RANCH
PHILLIPSBURG
PHILLIPSPORT
PHILLIPSTON
PHILLIPSTOWN
PHILLIPSVILLE
PHILMONT
PHILO
PHILOMATH
PHILOMONT
PHILPOT
PHILPOTT
PHINIZY
PHIPPSBURG
PHLOX
PHOENICIA
PHOENIX
PHOENIX PARK
PHOENIXVILLE
PHONETON
PHYLLIS
PHYST
PIASA
PIATT
PIC N PAY SHOES
PICABO
PICACHO
PICATINNY ARSENAL
PICHER
PICK CITY
PICKARDVILLE
PICKAWAY
PICKENS
PICKEREL
PICKERING
PICKERINGTON
PICKETT
PICKFORD
PICKLEVILLE
PICKRELL
PICKSTOWN
PICKTON
PICKWICK
PICKWICK DAM
PICNIC POINT
PICO HEIGHTS
PICO RIVERA
PICTURE ROCKS
PICURIS
PIDCOKE
PIE TOWN
PIEDMONT
PIEDMONT AVIATION
PIEDRA
PIEDRE PARK
PIERCE
PIERCE CITY
PIERCEFIELD
PIERCES CHAPEL
PIERCES CORNER
PIERCETON
PIERCETOWN
PIERCEVILLE
PIERCY
PIERMONT
PIERPONT
PIERRE
PIERRE PART
PIERREPONT
PIERREPONT MANOR
PIERRON
PIERSON
PIERSON STATION
PIERZ
PIETY HILL
PIFFARD
PIGEON
PIGEON COVE
PIGEON FALLS
PIGEON FORGE
PIGGOTT
PIKE
PIKE BAY
PIKE ROAD
PIKE STATION
PIKES FALLS
PIKESVILLE
PIKESVILLE FINANCE
PIKETON
PIKETOWN
PIKEVILLE
PILAR
PILESGROVE
PILESGROVE TOWNSHIP
PILGER
PILGRIM
PILGRIM GARDENS
PILGRIMS KNOB
PILLAGER
PILLAR POINT
PILLOW
PILLSBURY
PILOT
PILOT GROVE
PILOT HILL
PILOT KNOB
PILOT MNT
PILOT MOUND
PILOT MOUNTAIN
PILOT MT
PILOT MTS
PILOT POINT
PILOT ROCK
PILOT STATION
PILOTTOWN
PILSEN
PIMA
PIMENTO
PIMMIT
PINCH
PINCKARD
PINCKNEY
PINCKNEYVILLE
PINCONNING
PINDALL
PINE
PINE AIR
PINE APPLE
PINE BEACH
PINE BLUFF
PINE BLUFFS
PINE BROOK
PINE BUSH
PINE CANYON
PINE CASTLE
PINE CITY
PINE CLIFF
PINE CLIFF LAKE
PINE COUPEE
PINE CREEK
PINE FOREST
PINE FORGE
PINE GROVE
PINE GROVE FURNACE
PINE GROVE MILLS
PINE HALL
PINE HAVEN
PINE HILL
PINE HILLS
PINE ISLAND
PINE KNOLL SHORES
PINE KNOT
PINE LAKE
PINE LAWN
PINE LEVEL
PINE MEADOW
PINE MEADOWS
PINE MOUNTAIN
PINE MOUNTAIN CLUB
PINE MOUNTAIN VALLEY
PINE NECK
PINE PLAINS
PINE POINT
PINE PRAIRIE
PINE RIDGE
PINE RIDGE RESERVATION
PINE RIVER
PINE RUN
PINE SPRINGS
PINE SUMMIT
PINE SWAMP
PINE TOP
PINE VALLEY
PINE VIEW
PINE VILLAGE
PINE WOODS
PINEBLUFF
PINEBROOK
PINECASTLE
PINECLIFFE
PINECRAFT
PINECREEK
PINECREST
PINEDALE
PINEGROVE
PINEHAVEN
PINEHILL
PINEHURST
PINELAND
PINELLAS PARK
PINEOLA
PINEORA
PINER
PINERIDGE
PINERO
PINES LAKE
PINESDALE
PINETOP
PINETOPS
PINETOWN
PINETTA
PINEVIEW
PINEVILLE
PINEWILD
PINEWOOD
PINEY
PINEY BLUFF
PINEY CREEK
PINEY FLATS
PINEY FORK
PINEY GROVE
PINEY POINT
PINEY PT
PINEY RIVER
PINEY VIEW
PINGREE
PINGREE GROVE
PINGRYVILLE
PINHOOK
PINK
PINK HILL
PINKNEY
PINKSTAFF
PINNACLE
PINNACLES
PINOLA
PINOLE
PINON
PINON CANYON
PINON HILLS
PINOPOLIS
PINOS ALTOS
PINSON
PINSONFORK
PINTADA
PINTO
PINTURA
PINYON PINES
PIOCHE
PIONEER
PIONEER POINT
PIONEER TOWN
PIONEERTOWN
PIONEERVILLE
PIOPOLIS
PIPE CREEK
PIPER
PIPER CITY
PIPERSVILLE
PIPERTON
PIPESTEM
PIPESTONE
PIPPA PASSES
PIQUA
PIRTLE
PIRTLEVILLE
PIRU
PISCATAWAY
PISECO
PISEK
PISGAH
PISGAH FOREST
PISINEMO
PISMO BEACH
PISO
PISTOL RIVER
PITCAIRN
PITCHER
PITKIN
PITMAN
PITNER JUNCTION
PITSBURG
PITT
PITTS
PITTSBORO
PITTSBURG
PITTSBURGH
PITTSFIELD
PITTSFIELD TWP
PITTSFORD
PITTSFORD MILLS
PITTSGROVE
PITTSGROVE TOWNSHIP
PITTSTON
PITTSTON TOWNSHIP
PITTSTOWN
PITTSVIEW
PITTSVILLE
PITTVILLE
PITZER
PIXLEY
PIZEN SWITCH
PIZITZ
PJS
PL GROVE
PLACEDO
PLACENTIA
PLACERVILLE
PLACIDA
PLACITA
PLACITAS
PLAIN
PLAIN CITY
PLAIN DEALING
PLAIN VIEW
PLAINEDGE
PLAINFIELD
PLAINFIELD CENTER
PLAINS
PLAINS TOWNSHIP
PLAINSBORO
PLAINSVILLE
PLAINVIEW
PLAINVILLE
PLAINWELL
PLAISTOW
PLANADA
PLANDOME
PLANETARIUM STATION
PLANEVIEW
PLANK
PLANKINTON
PLANKTON
PLANO
PLANT
PLANT CITY
PLANTATION
PLANTATION KEY
PLANTERSVILLE
PLANTSVILLE
PLAQUEMINE
PLASSE
PLATEAU CITY
PLATINA
PLATINUM
PLATO
PLATO CENTER
PLATTE
PLATTE CENTER
PLATTE CITY
PLATTE WOODS
PLATTEKILL
PLATTENVILLE
PLATTER
PLATTEVILLE
PLATTSBURG
PLATTSBURGH
PLATTSMOUTH
PLATTVILLE
PLAUCHEVILLE
PLAYA
PLAYA DEL REY
PLAYA VISTA
PLAYAS
PLAZA
PLAZA TOWER
PLEAK
PLEASANT CITY
PLEASANT DALE
PLEASANT GAP
PLEASANT GARDEN
PLEASANT GDN
PLEASANT GDNS
PLEASANT GREEN
PLEASANT GROVE
PLEASANT HALL
PLEASANT HILL
PLEASANT HILLS
PLEASANT HOME
PLEASANT HOPE
PLEASANT LAKE
PLEASANT LANE
PLEASANT MILLS
PLEASANT MOUND
PLEASANT MOUNT
PLEASANT PLAIN
PLEASANT PLAINS
PLEASANT PRAIRIE
PLEASANT RIDGE
PLEASANT RUN
PLEASANT RUN FARMS
PLEASANT SHADE
PLEASANT STRM
PLEASANT UNITY
PLEASANT VALLEY
PLEASANT VIEW
PLEASANT VLY
PLEASANTDALE
PLEASANTHILL
PLEASANTON
PLEASANTVIEW
PLEASANTVILLE
PLEASURE RIDGE PARK
PLEASUREVILLE
PLEDGER
PLENTYWOOD
PLESSIS
PLEVNA
PLINY
PLOVER
PLUCK
PLUCKEMIN
PLUM
PLUM BAYOU
PLUM BRANCH
PLUM CITY
PLUM CREEK
PLUM GROVE
PLUM ISLAND
PLUM LAKE
PLUM SPRINGS
PLUM TREE
PLUMA
PLUMERVILLE
PLUMFIELD
PLUMMER
PLUMMERS LANDING
PLUMMERS LNDG
PLUMMERS MILL
PLUMSTEADVILLE
PLUMSTED
PLUMSTED TOWNSHIP
PLUMSTED TWP
PLUMTREE
PLUMVILLE
PLUNKETTS CRK
PLUSH
PLYLER
PLYMOUTH
PLYMOUTH KINGDOM
PLYMOUTH MEETING
PLYMOUTH TWP
PLYMOUTH UNION
PLYMOUTH VALLEY
PLYMPTON
PMI
PNC
PNTE VDRA BCH
PO BOXES
POAGES MILL
POCA
POCAHONTAS
POCANTICO HILLS
POCASSET
POCATALIGO
POCATELLO
POCOLA
POCOMOKE
POCOMOKE CITY
POCONO LAKE
POCONO LAKE PRESERVE
POCONO MANOR
POCONO PINES
POCONO SUMMIT
POCOPSON
PODUNK
POE
POESTENKILL
POESVILLE
POETOWN
POGUE
POHNPEI
POHNPEI CAROLINE ISLANDS
POINCIANA
POINDEXTER
POINEER SQUARE
POINT
POINT ARENA
POINT ARENA AIR FORCE STATIO
POINT BAKER
POINT CEDAR
POINT CLAIR
POINT CLEAR
POINT COMFORT
POINT COMMERCE
POINT ENTERPRISE
POINT FARM
POINT FOSDICK
POINT HARBOR
POINT HOPE
POINT JUDITH
POINT LAY
POINT LOOKOUT
POINT MARION
POINT MUGU NAWC
POINT O WOODS
POINT OF ROCKS
POINT PLEASANT
POINT PLEASANT BEACH
POINT REYES STATION
POINT RICHMOND
POINT ROBERTS
POINT ROCK
POINT SHIRLEY
POINT SUR
POINT VIVIAN
POINT WASHINGTON
POINTBLANK
POINTE A LA HACHE
POINTE AUX BARQUES
POINTE AUX PINS
POINTE VENTURE
POINTER
POINTS
POJOAQUE
POJOAQUE VALLEY
POLACCA
POLAND
POLAND SPRING
POLAR
POLARIS
POLEBRIDGE
POLING
POLK
POLK CITY
POLKTON
POLKTOWN
POLKVILLE
POLLARD
POLLARDS CORNER
POLLEY
POLLOCK
POLLOCK PINES
POLLOCKSVILLE
POLLOK
POLO
POLONIA
POLSGROVE
POLSON
POLVADERA
POMARIA
POMERENE
POMEROY
POMEROYTON
POMFRET
POMFRET CENTER
POMFRET LANDING
POMONA
POMONA PARK
POMONOK
POMPANO BEACH
POMPEII
POMPEY
POMPEYS PILLAR
POMPTON FALLS
POMPTON JUNCTION
POMPTON LAKES
POMPTON PLAINS
PONCA
PONCA CITY
PONCE DE LEON
PONCE INLET
PONCHA SPRINGS
PONCHATOULA
POND
POND COVE
POND CREEK
POND EDDY
POND GAP
PONDER
PONDERAY
PONDEROSA
PONDEROSA ESTATES
PONDS RESORT
PONE
PONEMAH
PONETO
PONFRET CENTER
PONIATOWSKI
PONSFORD
PONT
PONTA
PONTE VEDRA
PONTE VEDRA BEACH
PONTIAC
PONTO LAKE
PONTOON
PONTOON BEACH
PONTOOSUC
PONTOTOC
PONY
POOL
POOLE
POOLER
POOLESVILLE
POOLETOWN
POOLEVILLE
POOLVILLE
POPCORN
POPE
POPE AFB
POPE AIR FORCE BASE
POPE MILLS
POPE VALLEY
POPEJOY
POPLAR
POPLAR BLUFF
POPLAR BRANCH
POPLAR CITY
POPLAR FLAT
POPLAR GROVE
POPLAR PLAINS
POPLAR RIDGE
POPLARVILLE
POPPLE
POPPLE RIVER
POPSQUASH
POQUETANUCK
POQUONOCK
POQUONOCK BRIDGE
POQUOSON
POQUOTT
PORCUPINE
PORFIRIO
PORT ACRES
PORT ALEXANDER
PORT ALLEGANY
PORT ALLEN
PORT ALSWORTH
PORT ALTO
PORT ANGELES
PORT ARANSAS
PORT ARTHUR
PORT AUSTIN
PORT BARRE
PORT BOLIVAR
PORT BYRON
PORT CANAVERAL
PORT CARBON
PORT CHARLOTTE
PORT CHESTER
PORT CHICAGO
PORT CLINTON
PORT CLYDE
PORT COSTA
PORT CRANE
PORT DEPOSIT
PORT DICKINSON
PORT EADS
PORT EDWARDS
PORT ELIZABETH
PORT EVERGLADES
PORT EWEN
PORT GAMBLE
PORT GIBSON
PORT GRAHAM
PORT GRIFFITH
PORT HADLOCK
PORT HAYWOOD
PORT HEIDEN
PORT HENRY
PORT HOPE
PORT HUENEME
PORT HUENEME CBC BASE
PORT HUENEME NAVAL CONSTRUCT
PORT HURON
PORT HURON TOWNSHIP
PORT ISABEL
PORT JEFFERSON
PORT JEFFERSON STATION
PORT JERVIS
PORT KENT
PORT LAVACA
PORT LEYDEN
PORT LIONS
PORT LUDLOW
PORT MANSFIELD
PORT MATILDA
PORT MONMOUTH
PORT MURRAY
PORT NECHES
PORT NORRIS
PORT O CONNOR
PORT O' CONNOR
PORT ONTARIO
PORT ORANGE
PORT ORCHARD
PORT ORFORD
PORT PENN
PORT READING
PORT REPUBLIC
PORT RICHEY
PORT ROYAL
PORT SAINT JOE
PORT SAINT JOHN
PORT SAINT LUCIE
PORT SALERNO
PORT SANILAC
PORT SHELDON
PORT STANLEY
PORT SULPHUR
PORT TOBACCO
PORT TOWNSEND
PORT TREVORTON
PORT VINCENT
PORT VUE
PORT WASH
PORT WASHINGTON
PORT WENTWORTH
PORT WILLIAM
PORT WING
PORT-AU-PECK
PORTAGE
PORTAGE DES SIOUX
PORTAGE LAKE
PORTAGEVILLE
PORTAL
PORTALES
PORTCHESTER
PORTER
PORTER CORNERS
PORTER RANCH
PORTER SPRINGS
PORTER SQUARE
PORTERDALE
PORTERFIELD
PORTERS FALLS
PORTERS SIDELING
PORTERSVILLE
PORTERVILLE
PORTHILL
PORTIA
PORTIS
PORTLAND
PORTLAND CORNERS
PORTLAND MILLS
PORTLANDVILLE
PORTOLA
PORTOLA HILLS
PORTOLA VALLEY
PORTSMOUTH
PORTUGUESE BEND
PORTVILLE
PORTWAY ACRES
PORUM
POSEN
POSEY
POSEYVILLE
POSKIN
POSSESSION
POSSUM FORK
POST
POST FALLS
POST LAKE
POST MILLS
POST OAK
POSTELLE
POSTOAK
POSTON
POSTVILLE
POT CREEK
POTASH
POTASH BAY
POTASH POINT
POTATO CREEK
POTEAU
POTECASI
POTEET
POTH
POTLATCH
POTOMAC
POTOMAC FALLS
POTOSI
POTRERO
POTSDAM
POTTER
POTTER BROOK
POTTER JUNCTION
POTTER VALLEY
POTTERS FORK
POTTERSDALE
POTTERSVILLE
POTTERVILLE
POTTS GROVE
POTTSBORO
POTTSGROVE
POTTSTOWN
POTTSVILLE
POTWIN
POUGHKEEPSIE
POUGHQUAG
POULAN
POULSBO
POULTNEY
POUND
POUND RIDGE
POUNDING MILL
POWAY
POWDER RIVER
POWDER SPRINGS
POWDERHORN
POWDERLY
POWDERVILLE
POWELL
POWELL BUTTE
POWELL POINT
POWELLS CROSSROADS
POWELLS POINT
POWELLS VLY
POWELLSVILLE
POWELLTON
POWELLVILLE
POWER
POWERS
POWERS LAKE
POWERS LK
POWERSBURG
POWERSITE
POWERSVILLE
POWERVILLE
POWHATAN
POWHATAN POINT
POWHATAND
POWHATANO
POWHATTAN
POWNAL
POWNAL CENTER
POWYS
POY SIPPI
POYDRAS
POYEN
POYNETTE
POYNOR
POYNTELLE
POZO
PR FREDERICK
PR WASH
PR WSHNGTN
PRACO
PRAESEL
PRAGUE
PRAHA
PRAIRIE
PRAIRIE CENTER
PRAIRIE CITY
PRAIRIE CREEK
PRAIRIE DELL
PRAIRIE DOG
PRAIRIE DU CHIEN
PRAIRIE DU ROCHER
PRAIRIE DU SAC
PRAIRIE FARM
PRAIRIE GROVE
PRAIRIE HILL
PRAIRIE HOME
PRAIRIE LAKE
PRAIRIE LEA
PRAIRIE RIDGE
PRAIRIE ROSE
PRAIRIE VIEW
PRAIRIE VILLAGE
PRAIRIEBURG
PRAIRIETON
PRAIRIETOWN
PRAIRIEVIEW
PRAIRIEVILLE
PRAISE
PRATER
PRATHER
PRATHERSVILLE
PRATT
PRATTS
PRATTS HOLLOW
PRATTSBURGH
PRATTSVILLE
PRATTVILLE
PRAY
PRE INAUGURAL COMMITTEE
PREACHERS SLOUGH
PREAKNESS
PREBLE
PRECEPT
PREDMORE
PREEMPTION
PREMIER
PREMIUM
PREMONT
PRENTER
PRENTICE
PRENTISS
PRENTISS TWP
PRESCOTT
PRESCOTT VALLEY
PRESHO
PRESIDENTIAL TRANSITION TEAM
PRESIDIO
PRESIDIO OF MONTEREY
PRESIDIO OF SAN FRANCISCO
PRESQUE ISLE
PRESS TELEGRAM
PRESTO
PRESTON
PRESTON FERRY
PRESTON HILL
PRESTON HLOW
PRESTON HOLLOW
PRESTON PARK
PRESTONSBURG
PRESTONVILLE
PRESTONWOOD
PRESTWICK
PRETTY LAKE
PRETTY PRAIRIE
PREUSS
PREWITT
PRICE
PRICE HILL
PRICEDALE
PRICES BRANCH
PRICES FORK
PRICETOWN
PRICHARD
PRIDDY
PRIDE
PRIDES CROSSING
PRIDGEN
PRIEST LAKE
PRIEST RIVER
PRIM
PRIMERA
PRIMGHAR
PRIMM
PRIMM SPRINGS
PRIMOS
PRIMOS SECANE
PRIMOS-SECANE
PRIMROSE
PRINCE
PRINCE FREDERICK
PRINCE GEORGE
PRINCE GEORGE PLAZA
PRINCE WILLIAM
PRINCE WM
PRINCESS
PRINCESS ANNE
PRINCESS HOUSE
PRINCETON
PRINCETON BY THE SEA
PRINCETON JCT
PRINCETON JUNCTION
PRINCETON TOWNSHIP
PRINCETON TWP
PRINCETOWN
PRINCEVILLE
PRINCEWICK
PRINCIPAL FINANCIAL
PRINEVILLE
PRINGLE
PRINSBURG
PRINTER
PRIOR LAKE
PRITCHARDVILLE
PRITCHETT
PROBERTA
PROCIOUS
PROCTOR
PROCTORSVILLE
PROCTORVILLE
PROGRESO
PROGRESO LAKES
PROGRESS
PROGRESS ACRES
PROGRESS VILLAGE
PROGRESSIVE FARMER
PROGRESSO
PROJECT CITY
PROLE
PROMISE
PROMISE CITY
PROMISED LAND
PROMONTORY
PROMPTON
PROPHETSTOWN
PROPST CROSSROADS
PROSPECT
PROSPECT HARBOR
PROSPECT HEIGHTS
PROSPECT HILL
PROSPECT HTS
PROSPECT PARK
PROSPECT PK
PROSPECTVILLE
PROSPER
PROSPERITY
PROSSER
PROSSER LAKEVIEW
PROTECTION
PROTECTION IS
PROTECTION ISLAND
PROTEM
PROTIVIN
PROVDENCE FRG
PROVENCAL
PROVIDENCE
PROVIDENCE FORGE
PROVIDENT CITY
PROVINCETOWN
PROVO
PROWERS
PRT ANGELES
PRT JEFFERSON
PRT JEFFERSON STATION
PRUDEN
PRUDENCE ISLAND
PRUDENTIAL AARP INSURANCE
PRUDENTIAL MUTUAL FUND SERVI
PRUDENVILLE
PRUDHOE BAY
PRUE
PRUITT
PRUNEDALE
PRYOR
PRYSE
PT A LA HACHE
PT ACRES
PT ALLEGANY
PT ANGELES
PT CLINTON
PT COMMERCE
PT FOSDICK
PT ISABEL
PT JEFFERSON STATION
PT JERVIS
PT LOOKOUT
PT OF PINES
PT ORANGE
PT ORCHARD
PT PLEASANT
PT REPUBLIC
PT REYES STATION
PT ROYAL
PT TOWNSEND
PT WASH
PUBLIC
PUBLIC SAFETY BLDG
PUBLIC SERVICE COMPANY
PUBLISHERS CLEAR HOUSE
PUBLISHERS CLEARING HOUSE
PUDDING CREEK
PUEBLITO
PUEBLITOS
PUEBLO
PUEBLO ARMY DEPOT
PUEBLO DEPOT ACTIVITY
PUEBLO OF ACOMA
PUEBLO PINTADO
PUEBLO VALLEY
PUEBLO WEST
PUERTA DE LUNA
PUERTO RICO
PUGET ISLAND
PUGET SOUND NAVAL SHIPYARD
PUKALANI
PUKWANA
PULASKI
PULCIFER
PULGA
PULLEYS MILL
PULLMAN
PULTENEY
PULTNEYVILLE
PUMPHREY
PUMPKIN BEND
PUMPKIN CENTER
PUNGOTEAGUE
PUNKIN CENTER
PUNTA GORDA
PUNXSUTAWNEY
PUPOSKY
PURCELL
PURCELLVILLE
PURCHASE
PURDIN
PURDON
PURDUM
PURDY
PURDY STATION
PURDYS
PURDYS MILLS
PURE AIR
PURGATORY
PURGITSVILLE
PURITAN
PURITAS PK
PURLEAR
PURLING
PURMELA
PURSGLOVE
PURSLEY
PURYEAR
PURYSBURGH
PUT IN BAY
PUT-IN- BAY
PUTMAN
PUTNAM
PUTNAM HALL
PUTNAM HEIGHTS
PUTNAM STATION
PUTNAM TWP
PUTNAM VALLEY
PUTNAMVILLE
PUTNEY
PUTNM
PUUNENE
PUXICO
PUY
PUYALLUP
PVILLE
PYATT
PYATTE
PYLESVILLE
PYOTE
PYRAMID
PYRITES
PYRITON
PYRON
QUAID
QUAIL
QUAIL HEIGHTS
QUAIL VALLEY
QUAILTOWN
QUAKAKE
QUAKER
QUAKER CITY
QUAKER HILL
QUAKER SPRINGS
QUAKER STREET
QUAKERTOWN
QUALITY
QUALLS
QUAMBA
QUANAH
QUANDAHL
QUANTICO
QUAPAW
QUARRY
QUARRYVILLE
QUARTELES
QUARTZ HILL
QUARTZSITE
QUASQUETON
QUAY
QUEALY
QUEBECK
QUECHEE
QUECREEK
QUEEN
QUEEN ANNE
QUEEN CITY
QUEEN CITY PARK
QUEEN CREEK
QUEEN VALLEY
QUEENS VILLAGE
QUEENSBOROUGH
QUEENSBURY
QUEENSGATE
QUEENSTOWN
QUEENSVILLE
QUEETS
QUEMADO
QUENEMO
QUENTIN
QUERINDA PARK
QUERINO
QUESTA
QUICK
QUICKSAND
QUICKSBURG
QUIGGLEVILLE
QUILCENE
QUIMBY
QUINAULT
QUINBY
QUINCY
QUINCY CENTER
QUINEBAUG
QUINHAGAK
QUINLAN
QUINN
QUINN RIVER CROSSING
QUINNESEC
QUINNEVILLE
QUINQUE
QUINTANA
QUINTER
QUINTON
QUINWOOD
QUIOQUE
QUIRING
QUITAQUE
QUITMAN
QUITO
QUIVIRA
QULIN
QUOGUE
QWAY
QWEST
R R DONNELLEY & SONS
R R DONNELLEY LOGISTICS
R R DONNELLY
RABB
RABBIT HASH
RABBIT HOLE
RABBS
RABBS PRAIRIE
RABER
RABUN GAP
RACCOON
RACCOON BEND
RACCOON FORD
RACCOON KEY
RACELAND
RACHAL
RACHEL
RACINE
RACKERBY
RACKET
RACO
RADBURN
RADCLIFF
RADCLIFFE
RADDLE
RADERSBURG
RADFORD
RADIANT
RADICAL
RADIO BIBLE CLASS
RADIO CITY BRM
RADISON
RADISSON
RADIUM
RADIUM SPGS
RADIUM SPRINGS
RADLEY
RADNOR
RADOM
RAEFORD
RAFT IS
RAFT ISLAND
RAFT RIVER
RAGAN
RAGAN VILLAGE
RAGERSVILLE
RAGGED POINT
RAGGED POINT BEACH
RAGLAND
RAGLESVILLE
RAGLEY
RAGO
RAGSDALE
RAGTOWN
RAHNS
RAHWAY
RAIFORD
RAIL ROAD FLAT
RAILROAD
RAILROAD FLAT
RAINBOW
RAINBOW CITY
RAINBOW LAKE
RAINELLE
RAINIER
RAINS
RAINSBORO
RAINSVILLE
RAISIN
RAISIN CITY
RAKE
RALEIGH
RALEIGH BUSINESS REPLY
RALLS
RALPH
RALPHO
RALSTON
RALSTON CORNER
RALSTON PURINA
RAMAGE
RAMAH
RAMAH COMMUNITY
RAMER
RAMEY
RAMIREZ
RAMON
RAMONA
RAMPART
RAMROD KEY
RAMSAY
RAMSEUR
RAMSEY
RANBURNE
RANCH TAOS
RANCHES OF TAOS
RANCHESTER
RANCHITA
RANCHITO
RANCHITOS
RANCHO BERNARDO
RANCHO CALIFORNIA
RANCHO CORDOVA
RANCHO CUCAMONGA
RANCHO DOMINGUEZ
RANCHO HAVEN
RANCHO LA TUNA CANYON
RANCHO MIRAGE
RANCHO MURIETA
RANCHO PALOS VERDES
RANCHO PARK
RANCHO SANTA FE
RANCHO SANTA MARGARITA
RANCHO TAOS
RANCHO VIEJO
RANCHO WEST
RANCHOS DE TAOS
RANCHOS TAOS
RANCOCAS
RANCOCAS WOODS
RAND
RANDALIA
RANDALL
RANDALL ISLAND
RANDALLS ISLAND
RANDALLSTOWN
RANDALLSVILLE
RANDLE
RANDLEMAN
RANDLES
RANDLETT
RANDOLPH
RANDOLPH AIR FORCE BASE
RANDOLPH CENTER
RANDOM LAKE
RANDS
RANDSBURG
RANGE
RANGELEY
RANGELY
RANGER
RANGERVILLE
RANIER
RANKIN
RANLO
RANSHAW
RANSOM
RANSOM CANYON
RANSOMVILLE
RANSON
RANTOUL
RANTOWELS
RAPATEE
RAPELJE
RAPHANCK ACAD
RAPHINE
RAPID CITY
RAPID RIVER
RAPIDAN
RAPIDES
RAPIDS CITY
RAPPAHANNOCK ACADEMY
RAPPNHANCK
RAQUETTE LAKE
RARDEN
RARDIN
RARE METALS
RAREVILLE
RARITAN
RASPEBURG
RATCLIFF
RATES AND CLASSIFICATION
RATHBUN
RATHDRUM
RATIBOR
RATLIFF CITY
RATON
RATTAN
RAUB
RAUCHTOWN
RAUGUST
RAUSCHS
RAUVILLE
RAVALLI
RAVEN
RAVEN CREEK
RAVEN RUN
RAVENA
RAVENCLIFF
RAVENDALE
RAVENDEN
RAVENDEN SPRINGS
RAVENEL
RAVENNA
RAVENSCROFT
RAVENSDALE
RAVENSWOOD
RAVENWOOD
RAVIA
RAVINE
RAVINIA
RAWHIDE
RAWL
RAWLEY SPRINGS
RAWLEY SPRNGS
RAWLINGS
RAWLINS
RAWLINSVILLE
RAWSON
RAWSONVILLE
RAY
RAY BROOK
RAY CITY
RAY TOWNSHIP
RAY TWP
RAYBON
RAYBURN
RAYFORD
RAYLAND
RAYLE
RAYMAR
RAYMER
RAYMERTOWN
RAYMOND
RAYMONDVILLE
RAYMORE
RAYNE
RAYNESFORD
RAYNHAM
RAYNHAM CENTER
RAYSAL
RAYSVILLE
RAYTOWN
RAYVILLE
RAYWICK
RAYWOOD
RBC
RCA MUSIC
REA
REA VALLEY
READASORUS
READBURN
READER
READER'S DIGEST
READERS DIGEST
READFIELD
READING
READING CENTER
READING STATION
READINGTON
READLAND
READLYN
READS LANDING
READSBORO
READSTOWN
READSVILLE
READVILLE
READYVILLE
REAGAN
REALITOS
REAMSTOWN
REARDAN
REASNOR
REBECCA
REBEL CREEK
REBER
REBERSBURG
REBUCK
RECLUSE
RECTOR
RECTORTOWN
RECTORVILLE
RECYCLE
RED ASH
RED BAY
RED BIRD
RED BLUFF
RED BOILING SPRINGS
RED BRIDGE
RED BUD
RED CANYON
RED CHUTE
RED CLIFF
RED CLOUD
RED CREEK
RED CROSS
RED DESERT
RED DEVIL
RED ELM
RED FALLS
RED FEATHER LAKES
RED FISH
RED FORK
RED GATE
RED GUM
RED HILL
RED HOOK
RED HOUSE
RED IRON LAKE
RED JACKET
RED LAKE
RED LAKE FALLS
RED LEAF
RED LEVEL
RED LINE
RED LION
RED LODGE
RED MESA
RED MILLS
RED MOUNTAIN
RED OAK
RED OWL
RED RANGER
RED RIVER
RED RIVER ARMY DEPOT
RED ROCK
RED SCAFFOLD
RED SHIRT
RED SPRINGS
RED TOWN
RED VALLEY
RED VILLAGE
RED WING
REDAN
REDART
REDBIRD
REDBUD
REDBUSH
REDBY
REDCREST
REDDELL
REDDICK
REDDING
REDDING CENTER
REDDING RIDGE
REDFIELD
REDFISH LAKE
REDFORD
REDFORD TWP
REDFOX
REDGRANITE
REDHAW
REDIG
REDINGS MILL
REDINGTON
REDINGTON BEACH
REDINGTON SHORES
REDKEY
REDLAKE
REDLAND
REDLANDS
REDLAWN
REDMESA
REDMON
REDMOND
REDOAK
REDONDO
REDONDO BEACH
REDROCK
REDRUN
REDSTAR
REDSTONE
REDSTONE ARSENAL
REDSTONE CENTRAL
REDTOWN
REDVALE
REDVILLE
REDWATER
REDWAY
REDWOOD
REDWOOD CITY
REDWOOD ESTATES
REDWOOD FALLS
REDWOOD LODGE
REDWOOD VALLEY
REE HEIGHTS
REECE
REECE CITY
REED
REED CITY
REED HARTMAN
REED POINT
REED STATION
REEDER
REEDERS
REEDERS GROVE
REEDLEY
REEDS
REEDS CROSS ROADS
REEDS GAP
REEDS SPRING
REEDS STATION
REEDSBURG
REEDSPORT
REEDSVILLE
REEDTOWN
REEDURBAN
REEDVILLE
REEDY
REEDY CREEK
REELSVILLE
REES
REESE
REESE RIVER
REESE STATION
REESEVILLE
REESVILLE
REEVE
REEVES
REEVESVILLE
REFORM
REFTON
REFUGE
REFUGIO
REG INSPECTION SERVICE
REG LIB HANDICAPPED
REGAN
REGENCY
REGENT
REGER
REGGIO
REGINA
REGION
REGIONAL OFFICE
REGISTER
REGO
REGO PARK
REGO PK
REGULUS WEST
REHOBETH
REHOBOTH
REHOBOTH BEACH
REHRERSBURG
REIDLAND
REIDSVILLE
REIDVILLE
REIFFSBURG
REIFFTON
REILIES ACRES
REILLY
REILY
REINBECK
REINERSVILLE
REINERTON
REINHOLDS
REIPETOWN
REISTERSTOWN
REISTERSTOWN RD PLAZA
REISTVILLE
REKLAW
RELAMPAGO
RELFS BLUFF
RELIANCE
RELIEF
REMBERT
REMBRANDT
REMER
REMERTON
REMINDERVILLE
REMINGTON
REMLAP
REMLIK
REMMEL
REMOTE
REMSEN
REMSENBURG
REMUS
RENAISSANCE
RENAULT
RENCHVILLE
RENCONA
REND CITY
RENDER
RENFREW
RENFRO VALLEY
RENICK
RENNER
RENNERDALE
RENO
RENO BEACH
RENO HILTON
RENO HILTON HOTEL
RENOVO
RENSSELAER
RENSSELAER FALLS
RENSSELAERVILLE
RENTCHLER
RENTIESVILLE
RENTON
RENTZ
RENVILLE
RENWICK
REO
REPLETE
REPRESA
REPTON
REPUBLIC
REPUBLICAN
REPUBLICAN CITY
REPUBLICAN GROVE
RESACA
RESCUE
RESEARCH TRIANGLE PARK
RESEARCH TRIANGLE PK
RESEDA
RESERVE
RESIGHINI RANCHERIA
RESOLUTN TRUST OVERSIGHT BRD
RESTON
RETREAT
RETSIL
RETSOF
REUBEN
REUBENS
REV.MILTON R.BRUNSON STATION
REVA
REVELO
REVERE
REVERE BEACH
REVERIE TN
REVILLO
REVLOC
REW
REWARD
REWEY
REX
REXBURG
REXCRAFT
REXFORD
REXMERE
REXMONT
REXVILLE
REYDELL
REYDON
REYNARD
REYNO
REYNOLDS
REYNOLDS PLANTATION
REYNOLDS STATION
REYNOLDSBURG
REYNOLDSVILLE
RHAME
RHAWNHURST
RHEEMS
RHEIDERLAND
RHINE
RHINEBECK
RHINECLIFF
RHINEHART
RHINELAND
RHINELANDER
RHOADES
RHOADESVILLE
RHODELIA
RHODELL
RHODES
RHODES POINT
RHODESDALE
RHODESVILLE
RHODHISS
RHODHIZZ
RHODODENDRON
RHODODENDRON PARK
RHOME
RHONESBORO
RHYOLITE
RIALTO
RIB FALLS
RIB LAKE
RIB MOUNTAIN
RIBERA
RIBOLT
RIC
RICARD
RICARDO
RICE
RICE LAKE
RICE RIVER
RICEBORO
RICELAND
RICES CROSSING
RICES LANDING
RICES MILLS
RICETOWN
RICEVILLE
RICH
RICH CREEK
RICH FOUNTAIN
RICH HILL
RICH SQUARE
RICHARDS
RICHARDS GRV
RICHARDSON
RICHARDSON CORNERS
RICHARDSON SPRINGS
RICHARDSVILLE
RICHARDTON
RICHBORO
RICHBURG
RICHELIEU
RICHEY
RICHEYVILLE
RICHFIELD
RICHFIELD HEIGHTS
RICHFIELD SPRINGS
RICHFORD
RICHGROVE
RICHLAND
RICHLAND CENTER
RICHLAND GROVE
RICHLAND HILLS
RICHLAND SPRINGS
RICHLANDS
RICHLANDTOWN
RICHMND
RICHMOND
RICHMOND BEACH
RICHMOND DALE
RICHMOND FURN
RICHMOND HEIGHTS
RICHMOND HIGHLANDS
RICHMOND HILL
RICHMOND NEWSPAPERS
RICHMOND SQ
RICHMOND SQUARE
RICHMOND TOWNSHIP
RICHMONDALE
RICHMONDVILLE
RICHTON PARK
RICHVALE
RICHVIEW
RICHVILLE
RICHWOOD
RICHWOODS
RICKENBACKER AIR FORCE BASE
RICKETTS
RICKMAN
RICKREALL
RICO
RIDDLE
RIDDLE HILL
RIDDLESBURG
RIDDLETON
RIDERWOOD
RIDGE
RIDGE FARM
RIDGE MANOR ESTATES
RIDGE MILLS
RIDGE SPRING
RIDGECREST
RIDGEDALE
RIDGEFIELD
RIDGEFIELD PARK
RIDGELAND
RIDGELEY
RIDGELY
RIDGEMONT
RIDGEPORT
RIDGETOP
RIDGEVIEW
RIDGEVILLE
RIDGEVILLE CORNERS
RIDGEWAY
RIDGEWOOD
RIDGWAY
RIDLEY PARK
RIDOTT
RIEGELSVILLE
RIEGELWOOD
RIESEL
RIFE
RIFFEL
RIFFLE
RIFLE
RIFTON
RIG
RIGA
RIGBY
RIGDON
RIGGINS
RIGGS
RIGGSTON
RILEY
RILEY COVE
RILEY TOWNSHIP
RILEYVILLE
RILLITO
RILLTON
RIMERSBURG
RIMFOREST
RIMINI
RIMPAU
RIMROCK
RINARD
RINARD MILLS
RINCON
RINCONADO
RINDAL
RINDGE
RINELY
RINER
RINEYVILLE
RINGGOLD
RINGLE
RINGLING
RINGO
RINGOES
RINGOLD
RINGOS MILLS
RINGSTED
RINGTOWN
RINGWOOD
RIO
RIO BLANCO
RIO BRAVO
RIO CHIQUITO
RIO CREEK
RIO DEL MAR
RIO DELL
RIO FRIO
RIO GRANDE
RIO GRANDE CITY
RIO HONDO
RIO LINDA
RIO LUCIO
RIO MEDINA
RIO NIDO
RIO OSO
RIO RANCHO
RIO RICO
RIO VERDE
RIO VISTA
RION
RIOS
RIPARIUS
RIPLEY
RIPLINGER
RIPON
RIPPEY
RIPPLEMEAD
RIPPON
RIPTON
RIRIE
RISCO
RISING CITY
RISING FAWN
RISING STAR
RISING SUN
RISINGDALE
RISINGER WOODS
RISINGSUN
RISNER
RISON
RITCHIE
RITNER
RITO DE LAS SILLAS
RITTER
RITTMAN
RITZ
RITZIE VLG
RITZVILLE
RIVA
RIVER
RIVER CORNERS
RIVER EDGE
RIVER FALLS
RIVER FOREST
RIVER GROVE
RIVER HAVEN
RIVER HEIGHTS
RIVER HILLS
RIVER JUNCTION
RIVER KERN
RIVER OAKS
RIVER PINES
RIVER RANCH
RIVER RIDGE
RIVER ROUGE
RIVER VALE
RIVER VIEW PARK
RIVERBEND
RIVERCHASE
RIVERDALE
RIVEREDGE
RIVERHEAD
RIVERLEA
RIVERMINES
RIVERMONT
RIVERS EDGE
RIVERSIDE
RIVERSIDE PARK
RIVERSVILLE
RIVERTON
RIVERTOWN TRADING
RIVERVALE
RIVERVIEW
RIVERWATCH
RIVERWOOD
RIVERWOODS
RIVES
RIVES JUNCTION
RIVESVILLE
RIVIERA
RIVIERA BEACH
RIXEY
RIXEYVILLE
RIXFORD
RIXIE
RMX
ROACH
ROACHDALE
ROACHES
ROAD CREEK JUNCTION
ROAD FORKS
ROADSIDE
ROADWAY EXPRESS
ROAMING ROCK SHORES
ROAMING SHORES
ROAN MOUNTAIN
ROANN
ROANOKE
ROANOKE RAPIDS
ROANOKE RAPIDS AIR FORCE STA
ROANS PRAIRIE
ROARING BRANCH
ROARING CREEK
ROARING GAP
ROARING RIVER
ROARING SPRING
ROARING SPRINGS
ROARK
ROBA
ROBARDS
ROBBINS
ROBBINSDALE
ROBBINSTON
ROBBINSVILLE
ROBBS
ROBEIN
ROBELINE
ROBERSONVILLE
ROBERT
ROBERT LEE
ROBERT LEFLORE JR.
ROBERTA
ROBERTO CLEMENTE
ROBERTS
ROBERTSBURG
ROBERTSDALE
ROBERTSON
ROBERTSVILLE
ROBERTVILLE
ROBESON
ROBESONIA
ROBEY
ROBIN
ROBINETTE
ROBINS
ROBINS AIR FORCE BASE
ROBINSON
ROBINSON CREEK
ROBINSON RANCH
ROBINSONS CORNER
ROBLES DEL RIO
ROBSON
ROBSTOWN
ROBY
ROCA
ROCH
ROCHDALE
ROCHDALE VILLAGE
ROCHELLE
ROCHELLE PARK
ROCHEPORT
ROCHERT
ROCHERTY
ROCHESTER
ROCHESTER HILLS
ROCHESTER MILLS
ROCHFORD
ROCIADA
ROCK
ROCK BRIDGE
ROCK CAMP
ROCK CANYON
ROCK CASTLE
ROCK CAVE
ROCK CITY
ROCK CITY FALLS
ROCK CREEK
ROCK CREST
ROCK FALLS
ROCK GLEN
ROCK GROVE
ROCK HALL
ROCK HILL
ROCK ISLAND
ROCK ISLAND ARSONAL
ROCK ISLAND JUNCTION
ROCK LAKE
ROCK MILLS
ROCK POINT
ROCK PORT
ROCK PT
ROCK QUARRY
ROCK RAPIDS
ROCK RIVER
ROCK SPRING
ROCK SPRINGS
ROCK STREAM
ROCK TAVERN
ROCK VALLEY
ROCK VIEW
ROCKAWAY
ROCKAWAY BEACH
ROCKAWAY PARK
ROCKAWAY POINT
ROCKAWAY VALLEY
ROCKBRG BATHS
ROCKBRIDGE
ROCKBRIDGE BATHS
ROCKCASTLE
ROCKDALE
ROCKEAGLE
ROCKEFELLER
ROCKEFELLER CENTER BRM
ROCKER
ROCKERVILLE
ROCKET CENTER
ROCKFALL
ROCKFIELD
ROCKFISH
ROCKFORD
ROCKHAM
ROCKHILL FURNACE
ROCKHOLDS
ROCKHOUSE
ROCKHURST
ROCKINGHAM
ROCKLAKE
ROCKLAND
ROCKLEDGE
ROCKLEIGH
ROCKLIN
ROCKLYN
ROCKMART
ROCKPORT
ROCKRIMMIN RIDGE
ROCKRIMMON
ROCKSPRINGS
ROCKTON
ROCKVALE
ROCKVIEW
ROCKVILLE
ROCKVILLE CENTER
ROCKVILLE CENTRE
ROCKWALL
ROCKWELL
ROCKWELL CITY
ROCKWELL COLLINS
ROCKWELL SPRINGS
ROCKWELLS MILLS
ROCKWOOD
ROCKY
ROCKY BAR
ROCKY BOY
ROCKY BRANCH
ROCKY BUTTE
ROCKY COMFORT
ROCKY DALE
ROCKY FACE
ROCKY FORD
ROCKY FORK LAKE
ROCKY GAP
ROCKY GROVE
ROCKY HILL
ROCKY MOUNT
ROCKY MT
ROCKY NOOK
ROCKY POINT
ROCKY RIDGE
ROCKY RIVER
ROCKY SPRINGS
ROCKYBRANCH
ROCKYFORD
RODALE PRESS
RODANTHE
RODARTE
RODEO
RODERFIELD
RODESSA
RODEY
RODMAN
RODNEY
RODOC
RODUCO
ROE
ROEBLING
ROEBUCK
ROEBUCK PLAZA
ROEDERSVILLE
ROELAND PARK
ROELYN
ROESSLEVILLE
ROFF
ROGANVILLE
ROGER P. MC AULIFFE
ROGERS
ROGERS CITY
ROGERS FLAT
ROGERS HEIGHTS
ROGERS HILL
ROGERS MESA
ROGERS PARK
ROGERSLACY
ROGERSON
ROGERSVILLE
ROGGEN
ROGUE ELK
ROGUE RIVER
ROHERSTOWN
ROHNERT PARK
ROHRERSTOWN
ROHRERSVILLE
ROHRS
ROHRSBURG
ROHWER
ROKEBY
ROLAND
ROLAND COLONY
ROLAND PARK
ROLESVILLE
ROLETTE
ROLFE
ROLINDA
ROLL
ROLLA
ROLLAG
ROLLIN
ROLLING ACRES
ROLLING HILLS
ROLLING HILLS ESTATES
ROLLING MDWS
ROLLING MEADOWS
ROLLING PR
ROLLING PRAIRIE
ROLLINGBAY
ROLLINGSTONE
ROLLINGWOOD
ROLLINS
ROLLINS BRANCH
ROLLINS FORK
ROLLINSFORD
ROLLINSVILLE
ROLLO
ROLLS
ROMA
ROMANCE
ROMAYOR
ROMBAUER
ROME
ROME CITY
ROME HEIGHTS
ROMEO
ROMEOVILLE
ROMEROVILLE
ROMINGER
ROMNEY
ROMOLAND
ROMONA
ROMULUS
RONALD
RONAN
RONCEVERTE
RONCO
RONDA
RONKONKOMA
RONKS
ROODHOUSE
ROOK
ROOKS CREEK
ROOPVILLE
ROOSEVELT
ROOSEVELT CORNER
ROOSEVELT FIELD
ROOSEVELT ISLAND
ROOSEVELT PK
ROOSEVELTOWN
ROOT
ROOTSTOWN
ROPER
ROPESVILLE
ROQUE BLUFFS
ROSA
ROSALIA
ROSALIE
ROSAMOND
ROSANKY
ROSATI
ROSAUERS
ROSBORO
ROSBURG
ROSCOE
ROSCOMMON
ROSE
ROSE BUD
ROSE CITY
ROSE CREEK
ROSE HILL
ROSE HILL GARDENS
ROSE LAKE
ROSE LODGE
ROSE TREE
ROSE VALLEY
ROSEANN
ROSEAU
ROSEBERRY
ROSEBOOM
ROSEBORO
ROSEBUD
ROSEBURG
ROSEBUSH
ROSECRANS
ROSEDALE
ROSEFIELD
ROSEGLEN
ROSEHILL
ROSEL
ROSELAND
ROSELAWN
ROSELAWN FINANCE
ROSELLE
ROSELLE PARK
ROSEMARK
ROSEMARY BEACH
ROSEMEAD
ROSEMONT
ROSEMOUNT
ROSENBERG
ROSENDALE
ROSENHAYN
ROSENTHAL
ROSEPINE
ROSETO
ROSETTE
ROSEVILLE
ROSEVILLE BOXES
ROSEVINE
ROSEWOOD
ROSEWORTH
ROSHARON
ROSHOLT
ROSICLARE
ROSIE
ROSIER
ROSINE
ROSINTON
ROSITA
ROSLINDALE
ROSLYN
ROSLYN ESTATES
ROSLYN HARBOR
ROSLYN HEIGHTS
ROSMAN
ROSS
ROSS CORNERS
ROSS SIDING
ROSSBURG
ROSSER
ROSSFORD
ROSSIE
ROSSITER
ROSSLYN
ROSSMOOR
ROSSMORE
ROSSMOYNE
ROSSTON
ROSSVILLE
ROSTRAVER
ROSWELL
ROSWELL INDUSTRIAL AIR CENTE
ROSWELL PARK MEMORIAL INSTIT
ROTAN
ROTE
ROTH
ROTHBURY
ROTHSAY
ROTHSCHILD
ROTHSVILLE
ROTHVILLE
ROTONDA WEST
ROTTERDAM
ROTTERDAM JUNCTION
ROTTERDAM SQUARE BRANCH
ROUBAIX
ROUGEMONT
ROUGH AND READY
ROUGH ROCK
ROUGON
ROULETTE
ROULO
ROUND GROVE
ROUND HILL
ROUND KNOB
ROUND LAKE
ROUND LAKE BEACH
ROUND LAKE HEIGHTS
ROUND LAKE PARK
ROUND LK BCH
ROUND LK HTS
ROUND LK PARK
ROUND MOUNTAIN
ROUND O
ROUND OAK
ROUND PEAK
ROUND POND
ROUND PRAIRIE
ROUND ROCK
ROUND ROCK FRONTIER
ROUND SPRING
ROUND TOP
ROUND VALLEY
ROUNDHEAD
ROUNDHILL
ROUNDUP
ROUSE
ROUSES POINT
ROUSEVILLE
ROUSSEAU
ROUTON
ROUZERVILLE
ROVANA
ROVER
ROWAN
ROWAYTON
ROWDY
ROWE
ROWELL
ROWENA
ROWESVILLE
ROWLAND
ROWLAND HEIGHTS
ROWLESBURG
ROWLETT
ROWLETTS
ROWLEY
ROWSBURG
ROXANA
ROXBORO
ROXBURY
ROXBURY CROSSING
ROXBURY FLAT
ROXOBEL
ROXTON
ROY
ROYAL
ROYAL CENTER
ROYAL CITY
ROYAL LAKE
ROYAL LAKE RESORT
ROYAL LAKES
ROYAL OAK
ROYAL OAK TWP
ROYAL OAKS
ROYAL PALM BEACH
ROYAL PINES
ROYAL PLM BEACH
ROYAL SLOPE
ROYALSTON
ROYALTON
ROYALTY
ROYER LAKE
ROYERSFORD
ROYERTON
ROYSE CITY
ROYSTON
ROZEL
ROZELLVILLE
ROZET
ROZETTA
RR DONNELLEY & SONS
RR DONNELLY
RUBICON
RUBICON BAY
RUBIDOUX
RUBIO
RUBLE
RUBONIA
RUBOTTOM
RUBY
RUBY CORNER
RUBY JUNCTION
RUBY VALLEY
RUCKER
RUCKERSVILLE
RUDD
RUDDELS MILLS
RUDDERVILLE
RUDOLPH
RUDY
RUDYARD
RUDYTOWN
RUEDI
RUETER
RUFE
RUFF
RUFFIN
RUFFNER
RUFFS DALE
RUFUS
RUGBY
RUGGLES
RUGGLES BEACH
RUIDOSO
RUIDOSO DOWNS
RULE
RULISON
RULO
RUMA
RUMBLEY
RUMELY
RUMFORD
RUMFORD CENTER
RUMFORD POINT
RUMLEY
RUMNEY
RUMPUS RIDGE
RUMSEY
RUMSON
RUNA
RUNAWAY BAY
RUNEBERG
RUNGE
RUNNELLS
RUNNEMEDE
RUNNING SPRINGS
RUNNING WATER
RUPERT
RUPLE
RURAL
RURAL GROVE
RURAL HALL
RURAL HILL
RURAL RETREAT
RURAL RIDGE
RURAL VALLEY
RUSCO
RUSH
RUSH CENTER
RUSH CITY
RUSH HILL
RUSH RIVER
RUSH SPRINGS
RUSH VALLEY
RUSHFORD
RUSHING
RUSHLAND
RUSHMORE
RUSHSYLVANIA
RUSHTOWN
RUSHVILLE
RUSK
RUSKIN
RUSO
RUSSELL
RUSSELL GARDENS
RUSSELL ISLAND
RUSSELL SPGS
RUSSELL SPRINGS
RUSSELL TOWNSHIP
RUSSELLS POINT
RUSSELLTON
RUSSELLVILLE
RUSSELS POINT
RUSSELVILLE
RUSSETT
RUSSIA
RUSSIAN MISSION
RUSSIAN RIVER MDWS
RUSSIAVILLE
RUSSTOWN
RUSTBURG
RUSTON
RUTERSVILLE
RUTH
RUTHER GLEN
RUTHERFORD
RUTHERFORD HT
RUTHERFORDTON
RUTHERGLEN
RUTHERON
RUTHERWOOD
RUTHTON
RUTHVEN
RUTHVILLE
RUTLAND
RUTLAND TOWN
RUTLEDGE
RUXTON
RVC
RVSD
RYAN
RYAN PARK
RYDAL
RYDE
RYDER
RYDERWOOD
RYE
RYE BEACH
RYE BROOK
RYE PATCH
RYE VALLEY
RYEGATE
RYEGATE CORNER
RYELAND
RYER ISLAND
RYLAND
RYLAND HEIGHTS
RYLAND HGHT
RYNO
S ACWORTH
S AMHERST
S BARRINGTON
S BELMAR
S BEND
S BERWICK
S BLOOMFIELD
S BOSTON
S BOWIE
S BTV
S BURL
S BURLINGTON
S C DEPARTMENT OF HIGHWAYS
S C ELECTRIC AND GAS
S CARROLLTON
S CHARLESTON
S CHEEKTOWAGA
S CHITTENDEN
S COFFEYVILLE
S DANVILLE
S DAYTON
S DAYTONA
S DAYTONA BCH
S DEERFIELD
S   DENNIS
S   DORSET
S   EASTON
S   EDMESTON
S   EDWARDS
S   EFFINGHAM
S   FA
S   FAU
S   F AUSTIN U
S   F AUSTIN UNIV
S   FARMINGDALE
S   FORT MYERS
S   FRANKLIN
S   GLASTONBURY
S   HADLEY
S   HAMPTON
S   HAUPPAUGE
S   HAVEN
S   HEMPSTEAD
S   HERO
S   HUNTINGTON
S   HUTCHINSON
S   INT FALLS
S   INTL FALLS
S   JAMESPORT
S   JORDAN
S   LANCASTER
S   LAWRENCE
S   LONDONDERRY
S   MACON
S   MIDDLETON
S   MOUNTAIN
S   NAKNEK
S   NATICK
S   NEWBURY
S   NEWPORT
S   ONON
S   OZONE PARK
S   OZONE PK
S   PLYMOUTH
S   RICHMOND HILL
S   ROYALSTON
S   ROYALTON
S   RUTLAND
S   SAINT PAUL
S   SALT LAKE
S   SEASIDE PK
S   SETAUKET
S   SUTTON
S   TAMWORTH
S   TOMS RIVER
S   UNY
S   VIENNA
S   W INDIAN FOUN
S   WALES
S   WALLINGFORD
S   WALPOLE
S   WASHINGTON
S WILLIAMSPORT
S WILLINGTON
S WOODSTOCK
S YARMOUTH
SABAEL
SABATTIS
SABATTUS
SABBATH DAY POINT
SABETHA
SABILLASVILLE
SABIN
SABINA
SABINAL
SABINE
SABINE PASS
SABINSVILLE
SABOT
SABRATON
SABULA
SAC CITY
SACANDAGA
SACATON
SACHSE
SACKETS HARBOR
SACO
SACRAMENTO
SACRED HEART
SACRED MOUNTAIN
SACUL
SADDLE
SADDLE BROOK
SADDLE RIVER
SADDLE ROCK
SADDLE ROCK ESTATES
SADDLEBROOKE
SADDLESTRING
SADIEVILLE
SADLER
SADORUS
SADSBURYVILLE
SAEGERTOWN
SAFE
SAFE HARBOR
SAFECO PLAZA
SAFETY HARBOR
SAFFELL
SAFFORD
SAG HARBOR
SAGAMORE
SAGAMORE BEACH
SAGAMORE HILL
SAGAMORE HILLS
SAGAPONACK
SAGE
SAGERTON
SAGEVILLE
SAGINAW
SAGLE
SAGOLA
SAGON
SAGRADA
SAGUACHE
SAHUARITA
SAILES
SAILOR SPRINGS
SAINT AGATHA
SAINT ALBANS
SAINT ALBANS BAY
SAINT AMANT
SAINT ANDREWS
SAINT ANN
SAINT ANNE
SAINT ANSGAR
SAINT ANTHONY
SAINT AUGUSTINE
SAINT AUGUSTINE BEACH
SAINT BENEDICT
SAINT BERNARD
SAINT BERNICE
SAINT BETHLEHEM
SAINT BONAVENTURE
SAINT BONIFACE
SAINT BONIFACIUS
SAINT CATHARINE
SAINT CHARLES
SAINT CLAIR
SAINT CLAIR SHORES
SAINT CLAIR SHRS
SAINT CLAIR TOWNSHIP
SAINT CLAIRSVILLE
SAINT CLEMENT
SAINT CLOUD
SAINT CROIX
SAINT CROIX FALLS
SAINT DAVID
SAINT DAVIDS
SAINT DAVIDS CHURCH
SAINT DONATUS
SAINT EDWARD
SAINT ELIZABETH
SAINT ELMO
SAINT FRANCIS
SAINT FRANCISVILLE
SAINT GABRIEL
SAINT GEORGE
SAINT GEORGE ISLAND
SAINT GEORGES
SAINT GERMAIN
SAINT GERTRUDE
SAINT HEDWIG
SAINT HELEN
SAINT HELENA
SAINT HELENA ISLAND
SAINT HELENS
SAINT HENRY
SAINT HILAIRE
SAINT HUBERTS
SAINT IGNACE
SAINT IGNATIUS
SAINT INIGOES
SAINT JACOB
SAINT JAMES
SAINT JAMES CITY
SAINT JO
SAINT JOE
SAINT JOHN
SAINT JOHNS
SAINT JOHNSBURY
SAINT JOHNSBURY CENTER
SAINT JOHNSVILLE
SAINT JOSEPH
SAINT LABRE MISSION
SAINT LANDRY
SAINT LAWRENCE
SAINT LEO
SAINT LEON
SAINT LEONARD
SAINT LIBORY
SAINT LOUIS
SAINT LOUIS PARK
SAINT LOUISVILLE
SAINT LUCAS
SAINT LUCIE WEST
SAINT MARIE
SAINT MARIES
SAINT MARKS
SAINT MARTIN
SAINT MARTINS
SAINT MARTINVILLE
SAINT MARY
SAINT MARY OF THE WOODS
SAINT MARYS
SAINT MARYS CITY
SAINT MARYS MEDICAL CENTER
SAINT MATTHEWS
SAINT MAURICE
SAINT MEINRAD
SAINT MICHAEL
SAINT MICHAELS
SAINT NAZIANZ
SAINT OLAF
SAINT ONGE
SAINT PARIS
SAINT PATRICK
SAINT PAUL
SAINT PAUL ISLAND
SAINT PAUL PARK
SAINT PAULS
SAINT PETE BEACH
SAINT PETER
SAINT PETERS
SAINT PETERSBURG
SAINT PETERSBURG BCH
SAINT REGIS
SAINT REGIS FALLS
SAINT REMY
SAINT ROBERT
SAINT ROBERTS
SAINT ROCKS
SAINT ROSE
SAINT SIMONS ISLAND
SAINT STEPHEN
SAINT STEPHENS
SAINT STEPHENS CHURCH
SAINT TERESA
SAINT THOMAS
SAINT URBANS
SAINT VINCENT
SAINT VRAIN
SAINT XAVIER
SAINTE GENEVIEVE
SAINTE MARIE
SALADO
SALAMANCA
SALAMONIA
SALAMONIE
SALCHA
SALDEE
SALE CITY
SALE CREEK
SALEM
SALEM CENTER
SALEMBURG
SALESVILLE
SALFORD
SALFORDVILLE
SALIDA
SALINA
SALINAS
SALINE
SALINE CITY
SALINENO
SALINEVILLE
SALISBURY
SALISBURY BEACH
SALISBURY CENTER
SALISBURY HEIGHTS
SALISBURY MILLS
SALITPA
SALIX
SALKEHATCHIE
SALKUM
SALLADASBURG
SALLEY
SALLIE MAE
SALLISAW
SALMON
SALMON CREEK
SALO
SALOL
SALOME
SALOMONIA
SALONA
SALSBURY COVE
SALT CREEK
SALT FLAT
SALT GUM
SALT LAKE CITY
SALT LAKE OLYMPIC COMMITTEE
SALT LICK
SALT POINT
SALT POND
SALT RIVER
SALT ROCK
SALT SPRINGS
SALT WELLS
SALTAIRE
SALTER PATH
SALTERS
SALTESE
SALTILLO
SALTON CITY
SALTSBURG
SALTUS
SALTVILLE
SALTY
SALUDA
SALUDA GARDENS
SALUDA TERRACE
SALUNGA
SALUVIA
SALVATORIAN CENTER
SALVISA
SALVO
SALYER
SALYERSVILLE
SAM RAYBURN
SAMANTHA
SAMARIA
SAMBURG
SAMISH ISLAND
SAMMAMISH
SAMMONSVILLE
SAMNORWOOD
SAMOA
SAMOSET
SAMOTH
SAMPLE
SAMSON
SAMSONVILLE
SAMUELS
SAN ACACIA
SAN ACACIO
SAN ANDREAS
SAN ANGELO
SAN ANSELMO
SAN ANTONIO
SAN ANTONITO
SAN ARDO
SAN AUGUSTINE
SAN BENITO
SAN BERNARDINO
SAN BRUNO
SAN CARLOS
SAN CARLOS PARK
SAN CLEMENTE
SAN CRISTOBAL
SAN DIEGO
SAN DIEGO WATER UTILITIES
SAN DIMAS
SAN ELIZARIO
SAN FELIPE
SAN FELIPE PB
SAN FERNANDO
SAN FIDEL
SAN FRANCISCO
SAN FRANCISCO PLAZA
SAN GABRIEL
SAN GERONIMO
SAN GREGORIO
SAN HAVEN
SAN ILDEFONSO PUEBLO
SAN ISABEL
SAN ISIDRO
SAN JACINTO
SAN JOAQUIN
SAN JON
SAN JOSE
SAN JOSE MERCURY NEWS
SAN JOSE WATER COMPANY
SAN JUAN
SAN JUAN BAUTISTA
SAN JUAN CAPISTRANO
SAN JUAN COMMUNITY
SAN JUAN ISLAND
SAN JUAN PUEBLO
SAN LEANDRO
SAN LEANNA
SAN LEON
SAN LORENZO
SAN LUCAS
SAN LUIS
SAN LUIS OBISPO
SAN LUIS REY
SAN MANUEL
SAN MARCOS
SAN MARGHERITA
SAN MARIN
SAN MARINO
SAN MARTIN
SAN MATEO
SAN MIGUEL
SAN PABLO
SAN PATRICIO
SAN PEDRO
SAN PERLITA
SAN PIERRE
SAN QUENTIN
SAN RAFAEL
SAN RAFEAL
SAN RAMON
SAN REMO
SAN SABA
SAN SIMEON
SAN SIMON
SAN YGNACIO
SAN YSIDRO
SANATOGA
SANATOR
SANBEIMER
SANBORN
SANBORNTON
SANBORNVILLE
SANCTUARIO
SAND BARRENS
SAND CANYON
SAND CITY
SAND COULEE
SAND CREEK
SAND DRAW
SAND FORK
SAND HILL
SAND LAKE
SAND PASS
SAND POINT
SAND PRAIRIE
SAND RIDGE
SAND ROCK
SAND SPRING
SAND SPRINGS
SANDBEACH
SANDBERG
SANDBORN
SANDCUT
SANDERS
SANDERSDALE
SANDERSON
SANDERSVILLE
SANDFORD
SANDFORDVILLE
SANDGAP
SANDGATE
SANDIA
SANDIA BASE
SANDIA PARK
SANDIA PUEBLO
SANDISFIELD
SANDLAKE
SANDLICK
SANDOVAL
SANDOWN
SANDPOINT
SANDROCK
SANDS
SANDS POINT
SANDSTON
SANDSTONE
SANDTOWN
SANDUSKY
SANDWICH
SANDWOOD
SANDY
SANDY CORNER
SANDY CREEK
SANDY FORK
SANDY HILL
SANDY HOOK
SANDY HOOK PARK
SANDY KORNER
SANDY LAKE
SANDY LEVEL
SANDY MUSH
SANDY PLAINS
SANDY POINT
SANDY RIDGE
SANDY SPRING
SANDY SPRINGS
SANDY VALLEY
SANDYTOWN
SANDYVILLE
SANFORD
SANG
SANG RUN
SANGER
SANGERFIELD
SANGERVILLE
SANGO
SANGRE DE CRISTO RANCHES
SANIBEL
SANISH
SANITARIA SPRINGS
SANOSTEE
SANSARC
SANSOM PARK
SANTA
SANTA ANA
SANTA ANA PUEBLO
SANTA ANNA
SANTA BARBARA
SANTA CATALINA
SANTA CATARINA
SANTA CLARA
SANTA CLARA PUEBLO
SANTA CLARITA
SANTA CLAUS
SANTA CRUZ
SANTA ELENA
SANTA FE
SANTA FE RAILWAY
SANTA FE SPRINGS
SANTA MARGARITA
SANTA MARIA
SANTA MONICA
SANTA NELLA
SANTA PAULA
SANTA RITA
SANTA RITA FOOTHILLS
SANTA RITA PARK
SANTA ROSA
SANTA ROSA BEACH
SANTA ROSA VALLEY
SANTA SUSANA
SANTA TERESA
SANTA VENETIA
SANTA WESTERN
SANTA YNEZ
SANTA YSABEL
SANTAQUIN
SANTEE
SANTIAGO
SANTO
SANTO DOMINGO PUEBLO
SANTO NINO
SANTO TOMAS
SANVILLE
SAPELLO
SAPELO ISLAND
SAPINERO
SAPP
SAPPA
SAPPHIRE
SAPPHO
SAPPINGTON
SAPULPA
SARAGOSA
SARAGOSSA
SARAH ANN
SARAHSVILLE
SARALAND
SARANAC
SARANAC LAKE
SARASOTA
SARASOTA SQUARE
SARATOGA
SARATOGA CENTER
SARATOGA HILLS
SARATOGA SPRINGS
SARBEN
SARCO
SARCOXIE
SARDINIA
SARDIS
SARDIS CITY
SAREPTA
SARGEANT
SARGENT
SARGENTS
SARGENTS SCHOOL
SARGENTVILLE
SARITA
SARLES
SARONA
SARONVILLE
SARTELL
SARTON
SARTORIA
SARVER
SASABE
SASAKWA
SASPAMCO
SASSAFRAS
SASSAMANSVILLE
SASSER
SATANTA
SATELLITE BEACH
SATIN
SATSOP
SATSUMA
SATTLER
SATTLEY
SATTRE
SATURN
SAUDE
SAUGATUCK
SAUGERTIES
SAUGET
SAUGUS
SAUK CENTRE
SAUK CITY
SAUK RAPIDS
SAUK VILLAGE
SAUKVILLE
SAUL
SAULSBURY
SAULSVILLE
SAULT SAINTE MARIE
SAUM
SAUNDERS
SAUNDERSTOWN
SAUNDERSVILLE
SAUNEMIN
SAUQUOIT
SAUSALITO
SAUTEE NACOOCHEE
SAVAGE
SAVANNA
SAVANNA ARMY DEPOT
SAVANNAH
SAVANNAH RIVER PLANT
SAVERTON
SAVERY
SAVILLE
SAVONA
SAVONBURG
SAVOONGA
SAVOY
SAWMILL
SAWPIT
SAWYER
SAWYER DISTRICT
SAWYERS BAR
SAWYERVILLE
SAXAPAHAW
SAXE
SAXEVILLE
SAXIS
SAXON
SAXONBURG
SAXONVILLE
SAXTON
SAXTONS RIVER
SAYBROOK
SAYDEL
SAYLER PARK FINANCE
SAYLORSBURG
SAYLORVILLE
SAYNER
SAYRE
SAYREVILLE
SAYVILLE
SCAGGSVILLE
SCALES MOUND
SCALESMOUND
SCALF
SCALLORN
SCALY MOUNTAIN
SCAMMON
SCAMMON BAY
SCANDIA
SCANDINAVIA
SCANLON
SCANTIC
SCAPPOOSE
SCARBORO
SCARBOROUGH
SCARBRO
SCARSDALE
SCARSDALE PARK
SCARVILLE
SCENERY HILL
SCENIC
SCENIC HEIGHTS
SCENIC HILL
SCENIC HTS
SCHAEFERVILLE
SCHAEFFERSTOWN
SCHAFFER
SCHAGHTICOKE
SCHALLER
SCHAPVILLE
SCHAUMBURG
SCHAUPPS
SCHDY
SCHEFIELD
SCHELL CITY
SCHELLER
SCHELLSBURG
SCHELLVILLE
SCHENECTADY
SCHENEVUS
SCHENLEY
SCHERERVILLE
SCHERR
SCHERTZ
SCHILLER PARK
SCHLEGAL
SCHLESWIG
SCHLEY
SCHLUERSBURG
SCHNECKSVILLE
SCHNEIDER
SCHNEIDERS PRAIRIE
SCHNELLVILLE
SCHODACK LANDING
SCHOENCHEN
SCHOENECK
SCHOENTOWN
SCHOFER
SCHOFIELD
SCHOFIELD BARRACKS
SCHOHARIE
SCHOLLS
SCHOOL CREEK
SCHOOLCRAFT
SCHOOLEYS MOUNTAIN
SCHOOLFIELD
SCHRAM CITY
SCHRIEVER
SCHRIEVER AIR FORCE BASE
SCHRIEVER AIR STATION
SCHROEDER
SCHROEPPEL
SCHROON LAKE
SCHUBERT
SCHULENBURG
SCHULINES
SCHULTE
SCHULTER
SCHULTZTOWN
SCHULTZVILLE
SCHURZ
SCHUYLER
SCHUYLER FALLS
SCHUYLER LAKE
SCHUYLERVILLE
SCHUYLKILL HAVEN
SCHWENKSVILLE
SCHWERTNER
SCIENCE HILL
SCIENTIFIC LAB
SCIO
SCIO TOWNSHIP
SCIOTA
SCIOTO FURNACE
SCIOTO MILLS
SCIOTOVILLE
SCIPIO
SCIPIO CENTER
SCIPIOVILLE
SCITICO
SCITUATE
SCITUATE CENTER
SCITUATE HARBOR
SCOBEY
SCOFIELD
SCOPUS
SCOREBALL
SCOTCH GROVE
SCOTCH PLAINS
SCOTCH RIDGE
SCOTCHBUSH
SCOTCHTOWN BRANCH
SCOTIA
SCOTLAND
SCOTLAND NECK
SCOTLANDVILLE
SCOTRUN
SCOTT
SCOTT AFB
SCOTT AIR FORCE BASE
SCOTT BAR
SCOTT CITY
SCOTT DEPOT
SCOTTDALE
SCOTTOWN
SCOTTS
SCOTTS BEACH
SCOTTS CORNERS
SCOTTS HILL
SCOTTS MILLS
SCOTTS VALLEY
SCOTTSBLUFF
SCOTTSBORO
SCOTTSBURG
SCOTTSDALE
SCOTTSMOOR
SCOTTSVILLE
SCOTTVILLE
SCOVEL
SCRANTON
SCREETON
SCREVEN
SCRIBA
SCRIBA CENTER
SCRIBNER
SCRIBNER CORNERS
SCROGGINS
SCROGGSFIELD
SCRUGGS
SCUDDY
SCULLVILLE
SCURRY
SCYOC
SCYRENE
SE REE
SEA BRIGHT
SEA CLIFF
SEA GIRT
SEA ISLAND
SEA ISLE CITY
SEA RANCH LAKES
SEABECK
SEABOARD
SEABROOK
SEABROOK ISLAND
SEACLIFF
SEADRIFT
SEAFORD
SEAFORTH
SEAGERS
SEAGOVILLE
SEAGRAVES
SEAGROVE
SEAHURST
SEAL BEACH
SEAL COVE
SEAL HARBOR
SEAL ROCK
SEALE
SEALEVEL
SEALSTON
SEALY
SEAMAN
SEANOR
SEARCHLIGHT
SEARCY
SEARLES
SEARS
SEARS CORNERS
SEARS LOCKBOX
SEARS MERCHANDISE GROUP
SEARS ROEBUCK
SEARS ROEBUCK AND COMPANY
SEARS TOWER
SEARSBORO
SEARSBURG
SEARSMONT
SEARSPORT
SEASCAPE
SEASIDE
SEASIDE HEIGHTS
SEASIDE PARK
SEAT PLEASANT
SEATAC
SEATON
SEATON DUMP
SEATONVILLE
SEATTLE
SEATTLE HEIGHTS
SEATTLE NAVAL SUPPORT ACTIVI
SEAVIEW
SEAVILLE
SEAWILLOW
SEBAGO
SEBAGO LAKE
SEBASCO ESTATES
SEBASTIAN
SEBASTIANS BRANCH
SEBASTOPOL
SEBEC
SEBEC LAKE
SEBEKA
SEBEWAING
SEBOEIS PLT
SEBOYETA
SEBREE
SEBRING
SECANE
SECAUCUS
SECO
SECOND MESA
SECONDCREEK
SECOR
SECRETARY
SECTION
SECURITIES AND EXCHANGE COMM
SECURITY
SECURITY BENEFIT LIFE
SECURITY COURIERS
SEDALIA
SEDAN
SEDGEFIELD
SEDGES GARDEN
SEDGEWICKVILLE
SEDGWICK
SEDILLO
SEDLEY
SEDONA
SEDRO WOOLLEY
SEEBERT
SEEKONK
SEELEY
SEELEY LAKE
SEELYVILLE
SEFFNER
SEGNO
SEGOVIA
SEGUIN
SEGUNDO
SEIAD VALLEY
SEIBERT
SEIFERT CORNERS
SEIGLING
SEILCREST ACRES
SEILING
SEITZ
SEIVERN
SEJITA
SEKIU
SELAH
SELAWIK
SELBY
SELBYVILLE
SELDEN
SELDOVIA
SELEA
SELECT AND SAVE
SELECTIVE SERVICE
SELECTIVE SERVICE SYSTEM
SELFRIDGE
SELFRIDGE AIR NATL GUARD
SELFRIDGE ANGB
SELIGMAN
SELINSGROVE
SELKIRK
SELLERS
SELLERSBURG
SELLERSVILLE
SELLS
SELMA
SELMAN
SELMAN CITY
SELMER
SELTZER
SELVIN
SELZ
SEMINARY
SEMINOLE
SEMINOLE HEIGHTS
SEMIRAH SPRINGS
SEMMES
SEMORA
SEMPRONIUS
SENA
SENATH
SENATOR CLARKE FIELD
SENECA
SENECA CASTLE
SENECA CORNERS
SENECA CORS
SENECA FALLS
SENECA HILL
SENECA ROCKS
SENECAVILLE
SENEY
SENIA
SENNETT
SENOIA
SENTELL
SENTERVILLE
SENTINEL
SENTINEL BUTTE
SENTINEL HEIGHTS
SEPAR
SEPO
SEPULVEDA
SEQUATCHIE
SEQUIM
SERAFINA
SERENA
SERENE LAKES
SERENO
SERGEANT BLUFF
SERGEANTSVILLE
SERVIA
SERVILLETA PLAZA
SESSER
SESSOMS
SETAUKET
SETH
SETON VILLAGE
SEVASTOPOL
SEVEN BAYS
SEVEN CORNERS
SEVEN DEVILS
SEVEN FIELDS
SEVEN FOUNTAINS
SEVEN HILLS
SEVEN LAKES
SEVEN MILE
SEVEN MILE FORD
SEVEN OAKS
SEVEN PINES
SEVEN POINTS
SEVEN RIVERS
SEVEN SISTERS
SEVEN SPRINGS
SEVEN STARS
SEVEN VALLEYS
SEVENPOINTS
SEVENTY SIX
SEVERANCE
SEVERN
SEVERNA PARK
SEVERY
SEVIER
SEVIERVILLE
SEVILLE
SEWAGE WATER BOARD
SEWAL
SEWALLS POINT
SEWANEE
SEWARD
SEWAREN
SEWELL
SEWELLTON
SEWICKLEY
SEXTON
SEXTON CITY
SEXTONS CREEK
SEXTONVILLE
SEYBOLD
SEYFERT
SEYMOUR
SEYMOUR JOHNSON AFB
SF
SFA
SGT BLUFF
SHABBONA
SHACKLEFORDS
SHACKPORT
SHACKTOWN
SHADE
SHADE GAP
SHADE VALLEY
SHADEHILL
SHADEMORE
SHADLE GARLAND
SHADOW
SHADOW HILLS
SHADWELL
SHADY
SHADY BEACH
SHADY BROOK
SHADY CAMP
SHADY COVE
SHADY DALE
SHADY GLEN
SHADY GROVE
SHADY HILLS
SHADY LAKE
SHADY NOOK
SHADY POINT
SHADY SHORES
SHADY SIDE
SHADY SPRING
SHADY VALLEY
SHADYNOOK
SHADYSIDE
SHAFER
SHAFFTON
SHAFT
SHAFTER
SHAFTSBURG
SHAFTSBURY
SHAFTSBURY CENTER
SHAGELUK
SHAKER HEIGHTS
SHAKERAG
SHAKERTOWN
SHAKESPEARE
SHAKOPEE
SHAKTOOLIK
SHALE CITY
SHALERSVILLE
SHALIMAR
SHALLMAR
SHALLOTTE
SHALLOWATER
SHALLOWELL
SHAMBAUGH
SHAMOKIN
SHAMOKIN DAM
SHAMONG
SHAMONG TOWNSHIP
SHAMROCK
SHAMROCK LAKES
SHAMROCK LKS
SHAMROCK SHORES
SHAMROCK STATION
SHANDAKEN
SHANDON
SHANESVILLE
SHANGHAI CITY
SHANIKO
SHANKLEVILLE
SHANKS
SHANKSVILLE
SHANNOCK
SHANNON
SHANNON CITY
SHANNON HILLS
SHANNON PLAZA
SHANNONDALE
SHANTYTOWN
SHAPLEIGH
SHARED BRM
SHARED FIRM
SHARED FIRM ZIP
SHARED FIRM ZIP CODE
SHARED RETURN ZIP
SHARED ZIP CODE
SHARED ZIP FOR BRM
SHARK RIVER HILLS
SHARK RIVER MANOR
SHARKEY
SHARON
SHARON CENTER
SHARON GROVE
SHARON HILL
SHARON HOLLOW
SHARON SPGS
SHARON SPRINGS
SHARON TOWNSHIP
SHARON VALLEY
SHARONVILLE
SHARP
SHARP ELECTRONIC MANUFAC
SHARP PARK
SHARPE
SHARPES
SHARPLES
SHARPS
SHARPS CHAPEL
SHARPS CORNER
SHARPSBURG
SHARPSTOWN
SHARPSVILLE
SHARPTOWN
SHARTLESVILLE
SHARYLAND
SHASTA
SHASTA LAKE
SHATLEY SPRINGS
SHATTUC
SHATTUCK
SHATTUCKVILLE
SHAUCK
SHAVANO PARK
SHAVER LAKE
SHAVERTOWN
SHAW
SHAW AFB
SHAW CREST
SHAW ISLAND
SHAWANEE
SHAWANESE
SHAWANO
SHAWBORO
SHAWHAN
SHAWMUT
SHAWNEE
SHAWNEE HILLS
SHAWNEE MISSION
SHAWNEE ON DELAWARE
SHAWNEETOWN
SHAWONDASSE
SHAWONDASSEE
SHAWS
SHAWSVILLE
SHAWSWICK
SHAWVILLE
SHEAKLEYVILLE
SHEARSON AMERICAN EXPRESS
SHEARSON LEHMAN AM EXPRESS
SHEBOYGAN
SHEBOYGAN FALLS
SHEDD
SHEDDSVILLE
SHEDS
SHEELITE
SHEEP RANCH
SHEEP SPRINGS
SHEFFIELD
SHEFFIELD LAKE
SHEFFIELD SQUARE
SHEFFIELD TWP
SHEFFIELD VILLAGE
SHEKOMEKO
SHELBIANA
SHELBINA
SHELBURN
SHELBURNE
SHELBURNE FALLS
SHELBY
SHELBY GAP
SHELBY TOWNSHIP
SHELBY TWP
SHELBYVILLE
SHELDAHL
SHELDON
SHELDON CREEK
SHELDON JUNCTION
SHELDON SPRINGS
SHELDONS GROVE
SHELDONVILLE
SHELL
SHELL BEACH
SHELL BLUFF
SHELL KNOB
SHELL LAKE
SHELL POINT
SHELL RIVER
SHELL ROCK
SHELLEY
SHELLMAN
SHELLMAN BLUFF
SHELLSBURG
SHELLSVILLE
SHELLY
SHELOCTA
SHELTER COVE
SHELTER INSURANCE
SHELTER ISLAND
SHELTER ISLAND HEIGHTS
SHELTON
SHENADOAH
SHENANDOAH
SHENANDOAH CAVERNS
SHENANDOAH HEIGHTS
SHENANDOAH JUNCTION
SHENANDOAH VALLEY AIRPOT
SHENANGO
SHENKS FERRY
SHENOROCK
SHEP
SHEPARD
SHEPARDSVILLE
SHEPHERD
SHEPHERDSTOWN
SHEPHERDSVILLE
SHEPLEY
SHEPPARD AFB
SHEPPTON
SHERANDO
SHERBORN
SHERBURN
SHERBURNE
SHERIDAN
SHERIDAN LAKE
SHERIDAN PARK
SHERMAN
SHERMAN LAKE
SHERMAN MILLS
SHERMAN OAKS
SHERMAN STATION
SHERMAN VILLAGE
SHERMANS DALE
SHERMANSDALE
SHERRARD
SHERRILL
SHERRILLS FORD
SHERRODSVILLE
SHERRY
SHERWIN
SHERWIN BAY
SHERWOOD
SHERWOOD FOREST
SHERWOOD HILLS
SHERWOOD PARK
SHERWOOD VALLEY RANCHERIA
SHESHEBEE
SHEVLIN
SHEYENNE
SHIBLEYS POINT
SHICKLEY
SHICKSHINNY
SHIDELER
SHIDLER
SHIELDS
SHILLINGTON
SHILOH
SHILOH HILL
SHIMPSTOWN
SHINDLE
SHINDLER
SHINE
SHINEBONE
SHINER
SHINGLE HOLLOW
SHINGLE SPRINGS
SHINGLEHOUSE
SHINGLEHSE
SHINGLETON
SHINGLETOWN
SHINGOBEE
SHINHOPPLE
SHINNSTON
SHINROCK
SHINTOWN
SHIOCTON
SHIP BOTTOM
SHIPLEY
SHIPMAN
SHIPOLOVI
SHIPPEN
SHIPPENSBURG
SHIPPENVILLE
SHIPPINGPORT
SHIPPS BEND
SHIPROCK
SHIPSHEWANA
SHIREMANSTOWN
SHIRKLEVILLE
SHIRLAND
SHIRLEY
SHIRLEY BASIN
SHIRLEY CENTER
SHIRLEY MILLS
SHIRLEYSBURG
SHIRO
SHISHMAREF
SHIVE
SHIVELY
SHIVES
SHNDOH NAT PK
SHOAL
SHOAL CREEK
SHOALS
SHOALS JUNCTION
SHOBONIER
SHOCK
SHOCKS MILLS
SHOEMAKERS
SHOEMAKERSVILLE
SHOHOLA
SHOKAN
SHOKOKON
SHONGALOO
SHONGOPOVI
SHONKIN
SHONTO
SHOOK
SHOOKS
SHOPE GARDENS
SHORBES HILL
SHORE
SHORE ACRES
SHOREACRES
SHOREHAM
SHORELINE
SHOREVIEW
SHOREWOOD
SHOREWOOD BEACH
SHOREWOOD HILLS
SHORT
SHORT CREEK
SHORT GAP
SHORT HILLS
SHORTER
SHORTERVILLE
SHORTSVILLE
SHORTT GAP
SHOSHONE
SHOSHONI
SHOTLEY
SHOUP
SHOVEL LAKE
SHOW LOW
SHOWELL
SHRADERS
SHREVE
SHREVE ISLAND
SHREVEPORT
SHREWSBURY
SHREWSBURY TOWNSHIP
SHRUB OAK
SHUBERT
SHULERVILLE
SHULLS MILLS
SHULLSBERG
SHULLSBURG
SHULTS
SHUMANS
SHUMWAY
SHUNGNAK
SHUNK
SHUSHAN
SHUTESBURY
SIAM
SIAS
SIASCONSET
SIBERIA
SIBLEY
SICHOMOVI
SICILY
SICILY ISLAND
SICKLERVILLE
SIDDONSBURG
SIDE LAKE
SIDELL
SIDESTOWN
SIDMAN
SIDNAW
SIDNEY
SIDNEY CENTER
SIDON
SIEBOLDT
SIEGLE
SIENA
SIEPER
SIERRA
SIERRA ARMY DEPOT
SIERRA BLANCA
SIERRA BONITA
SIERRA CITY
SIERRA MADRE
SIERRA VISTA
SIERRAVILLE
SIESTA KEY
SIGEL
SIGLERVILLE
SIGNAL HILL
SIGNAL MOUNTAIN
SIGOURNEY
SIGURD
SIKES
SIKESTON
SIKESVILLE
SIL NAKAYA
SILAS
SILE
SILER
SILER CITY
SILERTON
SILESIA
SILETZ
SILEX
SILHOUETTE BOOKS
SILICA
SILK HOPE
SILOAM
SILOAM SPRINGS
SILSBEE
SILT
SILURIA
SILVA
SILVANA
SILVER
SILVER BAY
SILVER BEACH
SILVER CITY
SILVER CLIFF
SILVER CREEK
SILVER CREEK PLUNGE
SILVER CROSS
SILVER DOLLAR CITY
SILVER FORD
SILVER FORK
SILVER GATE
SILVER GROVE
SILVER HILL
SILVER KNOLLS
SILVER LAKE
SILVER LAKES
SILVER LANE
SILVER PLUME
SILVER POINT
SILVER SPRING
SILVER SPRINGS
SILVER STAR
SILVER VALLEY
SILVERADO
SILVERBOW
SILVERCREEK
SILVERDALE
SILVERHILL
SILVERLAKE
SILVERPEAK
SILVERSTONE
SILVERSTREET
SILVERTHORNE
SILVERTON
SILVERVILLE
SILVERWOOD
SILVIS
SIMBURY
SIMCOE
SIMI VALLEY
SIMILK BEACH
SIMLA
SIMMESPORT
SIMMONS
SIMMONSTOWN
SIMMONSVILLE
SIMMS
SIMON
SIMONSVILLE
SIMONTON
SIMPLICITY PATTERN
SIMPSON
SIMPSONS
SIMPSONVILLE
SIMS
SIMSBORO
SIMSBURY
SINAI
SINCLAIR
SINCLAIR CITY
SINCLAIRVILLE
SINGAC
SINGER
SINGER ISLAND
SINGERS GLEN
SINGERSVILLE
SINGLETON
SINKING SPRING
SINKS GROVE
SINNAMAHONING
SINSHEIM
SINSINAWA
SINTON
SIOUX CENTER
SIOUX CITY
SIOUX FALLS
SIOUX RAPIDS
SIPES MILL
SIPESVILLE
SIPSEY
SIREN
SISQUOC
SISSETON
SISSONVILLE
SISTER BAY
SISTERDALE
SISTERS
SISTERSVILLE
SITES
SITKA
SIX LAKES
SIX MILE
SIX MILE RUN
SIXES
SIZEROCK
SKAGWAY
SKAMANIA
SKAMOKAWA
SKAN
SKAN FA
SKANAWAN
SKANDIA
SKANEATELES
SKANEATELES FALLS
SKANEE
SKELLYTOWN
SKELTON
SKIATOOK
SKIDMORE
SKIDWAY LAKE
SKILLMAN
SKIME
SKINNER LAKE
SKIPPACK
SKIPPERS
SKIPPERVILLE
SKIPWITH
SKOK
SKOKIE
SKOKOMISH
SKOKOMISH NATION
SKOWHEGAN
SKULL VALLEY
SKUNKHOLLOW
SKWENTNA
SKY ACRES
SKY RANCH
SKY VALLEY
SKYFOREST
SKYGUSTY
SKYKOMISH
SKYLAND
SKYLINE
SKYLINE LAKES
SKYLINE VIEW
SKYTOP
SKYWAY
SLAB CITY
SLAB FORK
SLACKWATER
SLADE
SLAG PILE
SLAGLE
SLANA
SLANESVILLE
SLAP OUT
SLAT
SLATE HILL
SLATE RUN
SLATEDALE
SLATER
SLATERSVILLE
SLATERVILLE
SLATERVILLE SPRINGS
SLATEVILLE
SLATINGTON
SLATON
SLATYFORK
SLAUGHTER
SLAUGHTERS
SLAYDEN
SLAYTON
SLC
SLEEPY EYE
SLEEPY HOLLOW
SLEEPY HOLLOW MANOR
SLEEPY VALLEY
SLEETMUTE
SLEMP
SLICK
SLICK ROCK
SLICKVILLE
SLIDELL
SLIFER
SLIGHS
SLIGO
SLINGER
SLINGERLANDS
SLIPPERY ROCK
SLOAN
SLOANS VALLEY
SLOANSVILLE
SLOATSBURG
SLOCOMB
SLOCUM
SLOUGHHOUSE
SLOVAC
SLOVAN
SLU
SM
SMACKOVER
SMALL
SMALL BUSINESS ADM
SMALL BUSINESS ADMIN
SMALL POINT
SMALLWOOD
SMARR
SMARTT
SMARTVILLE
SMC
SMEARNEY
SMELTERTOWN
SMELTERVILLE
SMETHPORT
SMICKSBURG
SMILAX
SMILEY
SMILEY HEIGHTS
SMITH
SMITH CENTER
SMITH HILL
SMITH LAKE
SMITH MILLS
SMITH RIVER
SMITHBORO
SMITHBURG
SMITHERS
SMITHFIELD
SMITHLAND
SMITHMILL
SMITHS
SMITHS BASIN
SMITHS BEND
SMITHS CREEK
SMITHS GROVE
SMITHS PARK
SMITHS STATION
SMITHSBURG
SMITHSHIRE
SMITHSONIAN INSTITUTE
SMITHTON
SMITHTOWN
SMITHVILLE
SMITHVILLE CENTER
SMITHVILLE FLATS
SMITHVLE FL
SMITHWICK
SMOAKS
SMOCK
SMOCKVILLE
SMOKE CREEK
SMOKE SIGNAL
SMOKE TREE
SMOKERUN
SMOKETOWN
SMOKEY POINT
SMOKY HOLLOW
SMOKY VALLEY
SMOLAN
SMOOT
SMUGGLERS NOTCH
SMYER
SMYRE
SMYRNA
SMYRNA MILLS
SN MARGARITA
SNAPFINGER
SNAPPER CREEK
SNEAD
SNEADS
SNEADS FERRY
SNEDEKERVILLE
SNEEDVILLE
SNELL
SNELLING
SNELLMAN
SNELLVILLE
SNICARTE
SNIPESVILLE
SNOHOMISH
SNOOK
SNOQUALMIE
SNOQUALMIE PASS
SNOVER
SNOW
SNOW CAMP
SNOW CREEK
SNOW HILL
SNOW LAKE
SNOW SHOE
SNOWBIRD
SNOWDEN
SNOWFLAKE
SNOWLINE CAMP
SNOWMASS
SNOWMASS VILLAGE
SNOWSHOE
SNOWVILLE
SNUG HARBOR
SNYDER
SNYDER CORNER
SNYDER SQUARE
SNYDERS
SNYDERS CORNERS
SNYDERS LAKE
SNYDERSBURG
SNYDERTOWN
SNYDERVILLE
SO ACWORTH
SO AMHERST
SO BAPT RADIO AND TV COMM
SO BAPTIST THEO SEM
SO BEND
SO BERWICK
SO BURLINGTON
SO CENTRAL BELL
SO CHARLESTON
SO DANVILLE
SO DEERFIELD
SO DORSET
SO EASTON
SO EFFINGHAM
SO EGREMONT
SO FLORAL PARK
SO FORT MITCHELL
SO FRANKLIN
SO HADLEY
SO HAMPTON
SO HERO
SO HUNTINGTON
SO HUTCHINSON
SO LANCASTER
SO MACON
SO NATICK
SO NEWPORT
SO PORTLAND
SO SAINT PAUL
SO SALT LAKE
SO SHAFTSBURY
SO STRAFFORD
SO TAMWORTH
SO UTE INDIAN RES
SO VIENNA
SO YARMOUTH
SOAP LAKE
SOAPSTONE MOUNTAIN
SOBIESKI
SOBOBA HOT SPRINGS
SOC AUTO ENGINEERS
SOCIAL CIRCLE
SOCIAL HILL
SOCIAL SEC ADMIN
SOCIAL SECURITY
SOCIAL SECURITY ADMIN
SOCIAL SECURITY ADMINISTRAT
SOCIETY HILL
SOCIETY OF THE DIVINE SAVIOR
SOCORRO
SOD
SODA SPRINGS
SODAK PARK
SODDY DAISY
SODDY-DAISY
SODERVILLE
SODOM
SODTOWN
SODUS
SODUS CENTER
SODUS POINT
SODVILLE
SOFIA
SOFT SHELL
SOHAM
SOL DUC HOT SPRINGS
SOLANA BEACH
SOLANO
SOLDIER
SOLDIER POND
SOLDIERS AIRMENS HOME
SOLDIERS FIELD
SOLDIERS GROVE
SOLDOTNA
SOLEBURY
SOLEDAD
SOLEN
SOLGOHACHIA
SOLITUDE
SOLLITT
SOLMS
SOLO
SOLOMON
SOLOMONS
SOLON
SOLON MILLS
SOLON SPRINGS
SOLSBERRY
SOLSVILLE
SOLVANG
SOLVAY
SOLWAY
SOMBRILLO
SOMERDALE
SOMERS
SOMERS LANE
SOMERS POINT
SOMERS TOWN
SOMERSET
SOMERSET CENTER
SOMERSVILLE
SOMERSWORTH
SOMERTON
SOMERVILLE
SOMES BAR
SOMESBAR
SOMIS
SOMONAUK
SONDHEIMER
SONESTOWN
SONGER
SONNETTE
SONOITA
SONOMA
SONORA
SONYEA
SOPCHOPPY
SOPER
SOPERTON
SOPHIA
SOPRIS
SOQUEL
SORADOVILLE
SORENTO
SORRELL
SORRENTO
SORTERS
SOUDAN
SOUDER
SOUDERSBURG
SOUDERTON
SOUL CITY
SOULES CHAPEL
SOULSBYVILLE
SOUND BEACH
SOUR LAKE
SOURIS
SOUTH
SOUTH ABERDEEN
SOUTH ABINGTON TOWNSHIP
SOUTH ACWORTH
SOUTH ALBEMARLE
SOUTH ALBION
SOUTH AMANA
SOUTH AMBOY
SOUTH AMHERST
SOUTH APALACHIN
SOUTH ARGYLE
SOUTH ARLINGTON
SOUTH ASHBURNHAM
SOUTH ASHFIELD
SOUTH ATTLEBORO
SOUTH BARRE
SOUTH BARRINGTON
SOUTH BASE
SOUTH BAY
SOUTH BAY VILLAGE
SOUTH BEACH
SOUTH BEAVER DAM
SOUTH BELMAR
SOUTH BELOIT
SOUTH BEND
SOUTH BEND TRIBUNE
SOUTH BERNE
SOUTH BERWICK
SOUTH BETHLEHEM
SOUTH BISBEE
SOUTH BLOOMFIELD
SOUTH BLOOMINGVILLE
SOUTH BOARDMAN
SOUTH BOLIVAR
SOUTH BOMBAY
SOUTH BOSTON
SOUTH BOUND BROOK
SOUTH BOWIE
SOUTH BRANCH
SOUTH BRISTOL
SOUTH BRITAIN
SOUTH BROADWAY
SOUTH BROOKFIELD
SOUTH BRUNSWICK
SOUTH BURLINGTON
SOUTH BUTLER
SOUTH BYRON
SOUTH CAIRO
SOUTH CALUMET AVENUE
SOUTH CAMDEN
SOUTH CANAAN
SOUTH CANTERBURY
SOUTH CARROLLTON
SOUTH CARVER
SOUTH CASCO
SOUTH CENTRAL BELL
SOUTH CHAPLIN
SOUTH CHARLESTON
SOUTH CHASE
SOUTH CHATHAM
SOUTH CHEEKTOWAGA
SOUTH CHELMSFORD
SOUTH CHICAGO
SOUTH CHICAGO HEIGHTS
SOUTH CHINA
SOUTH CHITTENDEN
SOUTH CLE ELUM
SOUTH CLINTON
SOUTH COFFEYVILLE
SOUTH COLBY
SOUTH COLTON
SOUTH COLUMBIA
SOUTH CONGAREE
SOUTH CONNELLSVILLE
SOUTH CORINTH
SOUTH CREEK
SOUTH CROSSETT
SOUTH CROUCH
SOUTH DANBY
SOUTH DANVILLE
SOUTH DARTMOUTH
SOUTH DAYTON
SOUTH DAYTONA
SOUTH DEERFIELD
SOUTH DENNIS
SOUTH DES MOINES
SOUTH DORSET
SOUTH DOS PALOS
SOUTH DURHAM
SOUTH DUXBURY
SOUTH EASTON
SOUTH EDMESTON
SOUTH EDWARDS
SOUTH EFFINGHAM
SOUTH EGG HARBOR
SOUTH EGREMONT
SOUTH EL MONTE
SOUTH ELGIN
SOUTH ELM
SOUTH ELMA
SOUTH END
SOUTH ENGLISH
SOUTH ENOLA
SOUTH ERIE
SOUTH EUCLID
SOUTH FALLSBURG
SOUTH FARMINGDALE
SOUTH FILLMORE
SOUTH FLORAL PARK
SOUTH FLORIDA
SOUTH FORK
SOUTH FORT MITCHELL
SOUTH FREEPORT
SOUTH FULTON
SOUTH GARDEN
SOUTH GARDINER
SOUTH GASTONIA
SOUTH GATE
SOUTH GIBSON
SOUTH GIFFORD
SOUTH GLASTONBURY
SOUTH GLENS FALLS
SOUTH GOULDSBORO
SOUTH GRAFTON
SOUTH GRANVILLE
SOUTH GREENFIELD
SOUTH GREENSBORO
SOUTH HACKENSACK
SOUTH HADLEY
SOUTH HADLEY FALLS
SOUTH HAMILTON
SOUTH HAMPTON
SOUTH HANNIBAL
SOUTH HANOVER
SOUTH HARPSWELL
SOUTH HARRISON TOWNSHIP
SOUTH HARWICH
SOUTH HAUPPAUGE
SOUTH HAVEN
SOUTH HEART
SOUTH HEIGHTS
SOUTH HEMPSTEAD
SOUTH HERMITAGE
SOUTH HERO
SOUTH HIGHLANDS
SOUTH HILL
SOUTH HILLS
SOUTH HILLS VILLAGE
SOUTH HOLLAND
SOUTH HOUSTON
SOUTH HUNTINGTON
SOUTH HUTCHINSON
SOUTH ILION
SOUTH JACKSON
SOUTH JAMESPORT
SOUTH JORDAN
SOUTH KEARNY
SOUTH KENNER
SOUTH KENT
SOUTH KILLINGLY
SOUTH KINGSTOWN
SOUTH KORTRIGHT
SOUTH LAGUNA
SOUTH LAKE
SOUTH LAKE TAHOE
SOUTH LAKE WALES
SOUTH LANCASTER
SOUTH LAWRENCE
SOUTH LEBANON
SOUTH LEE
SOUTH LEXINGTON
SOUTH LIMA
SOUTH LINCOLN
SOUTH LONDONDERRY
SOUTH LORAIN
SOUTH LOUP
SOUTH LUNENBURG
SOUTH LYME
SOUTH LYNCHBURG
SOUTH LYNNFIELD
SOUTH LYON
SOUTH MADISON
SOUTH MAIN
SOUTH MANHEIM
SOUTH MANITOU
SOUTH MASHPEE
SOUTH MIAMI
SOUTH MIAMI HEIGHTS
SOUTH MILFORD
SOUTH MILLS
SOUTH MILWAUKEE
SOUTH MINDEN
SOUTH MOLINE
SOUTH MONTESANO
SOUTH MONTROSE
SOUTH MOUNTAIN
SOUTH NAKNEK
SOUTH NATICK
SOUTH NEW BERLIN
SOUTH NEWBURY
SOUTH NEWFANE
SOUTH NEWPORT
SOUTH NEWTON
SOUTH NINEVEH
SOUTH NORFOLK
SOUTH NORWALK
SOUTH NYACK
SOUTH OF THE BORDER
SOUTH OGDEN
SOUTH ONONDAGA
SOUTH ORANGE
SOUTH ORLEANS
SOUTH OROVILLE
SOUTH OTSELIC
SOUTH OTTUMWA
SOUTH OWEGO
SOUTH OXFORD
SOUTH OZONE PARK
SOUTH PADRE ISLAND
SOUTH PALM BEACH
SOUTH PARIS
SOUTH PARK
SOUTH PARK VILLAGE
SOUTH PASADENA
SOUTH PASS
SOUTH PASS CITY
SOUTH PATERSON
SOUTH PEACHAM
SOUTH PEKIN
SOUTH PITTSBURG
SOUTH PLAINFIELD
SOUTH PLAINS
SOUTH PLATTE
SOUTH PLATTSBURGH
SOUTH PLYMOUTH
SOUTH POINT
SOUTH POMFRET
SOUTH PORTLAND
SOUTH PORTSMOUTH
SOUTH POULTNEY
SOUTH POWNAL
SOUTH PRAIRIE
SOUTH PURMELA
SOUTH QUINCY
SOUTH RANGE
SOUTH READING
SOUTH RENOVO
SOUTH RICHMOND HILL
SOUTH RIDING
SOUTH RIVER
SOUTH ROANOKE
SOUTH ROCKWOOD
SOUTH ROME
SOUTH ROXANA
SOUTH ROYALSTON
SOUTH ROYALTON
SOUTH RUSHFORD
SOUTH RUSSELL
SOUTH RUTLAND
SOUTH RYEGATE
SOUTH SAINT PAUL
SOUTH SALEM
SOUTH SALT LAKE
SOUTH SAN FRANCIS
SOUTH SAN FRANCISCO
SOUTH SAN GABRIEL
SOUTH SAN PEDRO
SOUTH SAN YSIDRO
SOUTH SANDISFIELD
SOUTH SEASIDE PARK
SOUTH SEAVILLE
SOUTH SETAUKET
SOUTH SHAFTSBURY
SOUTH SHERIDAN
SOUTH SHORE
SOUTH SIOUX CITY
SOUTH SOLON
SOUTH SOUND
SOUTH ST PAUL
SOUTH STANDARD
SOUTH STARKSBORO
SOUTH STERLING
SOUTH STRAFFORD
SOUTH STREATOR
SOUTH SUBURBAN
SOUTH SUTTON
SOUTH TAMWORTH
SOUTH TEXARKANA
SOUTH THOMASTON
SOUTH TOMS RIVER
SOUTH TRENTON
SOUTH TUCSON
SOUTH TWIGG
SOUTH UNION
SOUTH UNION STREET
SOUTH VAN BUREN
SOUTH VESTAL
SOUTH VIENNA
SOUTH VINELAND
SOUTH WALDEN
SOUTH WALES
SOUTH WALLINGFORD
SOUTH WALPOLE
SOUTH WALTHAM
SOUTH WANATAH
SOUTH WARDSBORO
SOUTH WASHINGTON
SOUTH WATERFORD
SOUTH WAVERLY
SOUTH WAYNE
SOUTH WEBER
SOUTH WEBSTER
SOUTH WELLFLEET
SOUTH WEST CITY
SOUTH WESTERLO
SOUTH WEYMOUTH
SOUTH WHEELOCK
SOUTH WHITLEY
SOUTH WILLIAMSON
SOUTH WILLIAMSPORT
SOUTH WILLINGTON
SOUTH WILMINGTON
SOUTH WINDHAM
SOUTH WINDSOR
SOUTH WINNFIELD
SOUTH WOODBURY
SOUTH WOODSTOCK
SOUTH WORCESTER
SOUTH WORTHINGTON
SOUTH YANKTON
SOUTH YARMOUTH
SOUTH ZANESVILLE
SOUTHAM
SOUTHAMPTON
SOUTHAMPTON TWP
SOUTHARD
SOUTHBORO
SOUTHBOROUGH
SOUTHBRIDGE
SOUTHBURY
SOUTHEAST
SOUTHEAST FINANCE
SOUTHEASTERN
SOUTHEASTERN LOUISIANA UNIV
SOUTHERN
SOUTHERN BELL
SOUTHERN BELL TEL
SOUTHERN HILLS
SOUTHERN LIVING
SOUTHERN MD BRMAS
SOUTHERN PINES
SOUTHERN SHORES
SOUTHERN VIEW
SOUTHFIELD
SOUTHFIELD TOWNSHIP
SOUTHFIELDS
SOUTHGATE
SOUTHILL
SOUTHINGTON
SOUTHLAKE
SOUTHLAND
SOUTHMAYD
SOUTHMONT
SOUTHOLD
SOUTHPOINT
SOUTHPORT
SOUTHSIDE
SOUTHSIDE PLACE
SOUTHTOWN
SOUTHTOWN MALL
SOUTHVIEW
SOUTHWEST
SOUTHWEST HARBOR
SOUTHWEST OSWEGO
SOUTHWEST RANCHES
SOUTHWESTERN BANKCARD
SOUTHWESTERN BELL
SOUTHWESTERN INVESTMENT
SOUTHWESTERN PUBLIC SERVICE
SOUTHWICK
SOUTHWIRE
SOUTHWOOD
SOUTHWORTH
SPACE & NAVAL WARFARE SYSTEM
SPADE
SPAIN
SPALDING
SPANAWAY
SPANGLE
SPANGLER
SPANGSVILLE
SPANISH CAMP
SPANISH FLAT
SPANISH FORK
SPANISH FORT
SPANISH LAKE
SPANISH RANCH
SPANISH SPRINGS
SPANISHBURG
SPANKERTON
SPAR CITY
SPARKILL
SPARKMAN
SPARKS
SPARKS GLENCOE
SPARLAND
SPARR
SPARROW BUSH
SPARROWBUSH
SPARROWS POINT
SPARTA
SPARTANBURG
SPARTANSBURG
SPAULDING
SPAVINAW
SPDWAY
SPDWY
SPEAKS
SPEAR
SPEARFISH
SPEARFISH CANYON
SPEARMAN
SPEARS GROVE
SPEARSVILLE
SPEARVILLE
SPECKTOWN
SPECTACLE LAKE
SPECULATOR
SPEED
SPEEDSVILLE
SPEEDWAY
SPEEDWELL
SPEEGLEVILLE
SPEER
SPEIGHT
SPEIGLETOWN
SPELTER
SPELTER CITY
SPELTERVILLE
SPENCE
SPENCE STA
SPENCE STATION
SPENCER
SPENCER HEIGHTS
SPENCER MOUNTAIN
SPENCER PARK
SPENCER SETTLEMENT
SPENCERPORT
SPENCERTOWN
SPENCERVILLE
SPEONK
SPERRY
SPERRYVILLE
SPFD
SPFLD
SPG VALLEY
SPICELAND
SPICER
SPICEWOOD
SPICKARD
SPILLVILLE
SPINDALE
SPINDLEVILLE
SPINK
SPINK COLONY
SPINNERSTOWN
SPINNERVILLE
SPIRES
SPIRIT FALLS
SPIRIT LAKE
SPIRITWOOD
SPIRITWOOD LAKE
SPIRO
SPIVEY
SPLANE PLACE
SPLENDORA
SPLIT ROCK
SPOFFORD
SPOKANE
SPOKANE CITY TREA
SPOKANE DISTRICT OFFICE
SPOKEVILLE
SPOONER
SPOONERVILLE
SPORTING HILL
SPOTSWOOD
SPOTSYLVANIA
SPOTTSVILLE
SPOTTSWOOD
SPOTTWOOD
SPOUT SPRING
SPRAGGS
SPRAGUE
SPRAGUE RIVER
SPRAGUEVILLE
SPRAKERS
SPRANKLE MILLS
SPRAY
SPRECKELS
SPRIGG
SPRING
SPRING ARBOR
SPRING BAY
SPRING BLUFF
SPRING BRANCH
SPRING BROOK
SPRING CHURCH
SPRING CITY
SPRING CREEK
SPRING DALE
SPRING GAP
SPRING GARDEN
SPRING GLEN
SPRING GREEN
SPRING GROVE
SPRING GROVE HEIGHTS
SPRING GRV HTS
SPRING HEIGHTS
SPRING HILL
SPRING HILL ESTATES
SPRING HOPE
SPRING HOUSE
SPRING ISLAND
SPRING LAKE
SPRING LAKE HEIGHTS
SPRING LAKE PARK
SPRING LICK
SPRING MILLS
SPRING MOUNT
SPRING PARK
SPRING RANCH
SPRING RUN
SPRING VALLEY
SPRING VALLEY ESTATES
SPRING VALLEY LAKE
SPRINGBORO
SPRINGBROOK
SPRINGCREEK
SPRINGDALE
SPRINGER
SPRINGERSVILLE
SPRINGERTON
SPRINGERVILLE
SPRINGFIELD
SPRINGFIELD (EL)
SPRINGFIELD (LONG)
SPRINGFIELD CENTER
SPRINGFIELD GARDENS
SPRINGFIELD TOWNSHIP
SPRINGFLD CENTER
SPRINGFORK
SPRINGHILL
SPRINGHOUSE
SPRINGLAKE
SPRINGMONT
SPRINGPORT
SPRINGRIDGE
SPRINGS
SPRINGSTEAD
SPRINGTOWN
SPRINGVALE
SPRINGVIEW
SPRINGVILLE
SPRINGWATER
SPRINGWOOD
SPRINKLE
SPROTT
SPROUL
SPROUSES CORNER
SPROUT BROOK
SPRUCE
SPRUCE CREEK
SPRUCE HEAD
SPRUCE HILL
SPRUCE PINE
SPRY
SPUR
SPURGEON
SPURGER
SPURLOCKVILLE
SPUYTEN DUYVIL
SQUANTUM
SQUARE BUTTE
SQUAW LAKE
SQUAW POINT
SQUAW VALLEY
SQUIRE
SQUIRES
SQUIRREL
SQUIRREL HILL
SQUIRREL ISLAND
SSF
SSL
ST ALBANS
ST ALBANS BAY
ST ANDREWS
ST ANNE
ST ANTHONY
ST ANTHONY VILLAGE
ST AUGUSTINE
ST BENEDICT
ST BERNARD
ST BERNARD GROVE
ST BERNICE
ST BETHLEHEM
ST BONAVENTURE
ST CATHARINE
ST CHARLES
ST CLAIR
ST CLAIR SHORES
ST CLAIR TOWNSHIP
ST CLAIR TWP
ST CLAIRSVILLE
ST COLUMBANS
ST CROIX
ST CROIX BEACH
ST CROIX FALLS
ST CROIX FLS
ST DAVID
ST DAVIDS
ST ELMO
ST FRANCIS
ST FRANCIS HOSP
ST FRANCISVILLE
ST GENEVIEVE
ST GEORGE
ST GERMAIN
ST GERTRUDE
ST HEIGHTS
ST HELENA
ST HELENS
ST HENRY
ST INIGOES
ST JAMES
ST JOE
ST JOHN
ST JOHN PLT
ST JOHNS
ST JOSEPH
ST JOSEPH INDIAN SCHOOL
ST LANDRY
ST LAWRENCE
ST LAWRENCE PARK
ST LEONARD
ST LIBORY
ST LOUIS
ST LOUIS PK
ST LOUISVILLE
ST LUCAS
ST MARIES
ST MARTIN
ST MARY
ST MARY OF THE WOODS
ST MARYS
ST MARYS POINT
ST MATTHEWS
ST MAURICE
ST MEINRAD
ST MICHAEL
ST MORGAN
ST MOUNTAIN
ST MTN
ST NAZIANZ
ST NICHOLAS
ST PARIS
ST PAUL
ST PAUL ISLAND
ST PAUL PARK
ST PETE BEACH
ST PETER
ST PETERS
ST PETERSBURG
ST PETERSBURG BEACH
ST REGIS
ST REGIS FALLS
ST REMY
ST ROBERT
ST ROBERTS
ST ROCKS
ST ROSE
ST STEPHEN
ST STEPHENS
ST STEPHENS CHURCH
ST TERESA
ST THOMAS
ST VRAIN
STA #10
STA A
STA C
STAATSBURG
STAATSBURGH
STAB
STACK TOWN
STACY
STACY BASIN
STACY FORK
STACYVILLE
STADIUM
STAFFORD
STAFFORD SP
STAFFORD SPGS
STAFFORD SPRINGS
STAFFORD TOWNSHIP
STAFFORDSVILLE
STAFFORDVILLE
STAGECOACH
STAHL
STAHLSTOWN
STAIRTOWN
STALEY
STALLINGS
STALLION SPRINGS
STALWART
STAMBAUGH
STAMEY BRANCH
STAMFORD
STAMP DISTRIBUTION NETWORK
STAMPEDE
STAMPERS CREEK
STAMPERS CRK
STAMPING GROUND
STAMPS
STANAFORD
STANARDSVILLE
STANBERRY
STANCHFIELD
STANDALE
STANDARD
STANDARD CITY
STANDARD LIFE AND ACCIDENT
STANDARDVILLE
STANDING ROCK
STANDING ROCK RESERVATION
STANDISH
STANFIELD
STANFORD
STANFORD RANCH
STANFORDVILLE
STANGELVILLE
STANHOPE
STANLEY
STANLEY CORNER
STANLEYTOWN
STANLEYVILLE
STANNARD
STANSBURY PARK
STANSEL
STANTON
STANTON POINT
STANTONSBURG
STANTONVILLE
STANVILLE
STANWIX
STANWIX HEIGHTS
STANWOOD
STANZEL
STAPLEHURST
STAPLES
STAPLES MILL
STAPLETON
STAR
STAR CITY
STAR JUNCTION
STAR LAKE
STAR PRAIRIE
STAR RANCH
STAR TANNERY
STAR VALLEY
STARBUCK
STARCREST OF CAL
STARFORD
STARK
STARK CITY
STARK TERRACE
STARKE
STARKENBURG
STARKS
STARKSBORO
STARKVILLE
STARKWEATHER
STARLAKE
STARLIGHT
STARLIGHT HILLS
STARNERS STATION
STARR
STARRHS FERRY
STARRUCCA
STARRVILLE
START
STARTEX
STARTOWN
STARTUP
STARTZVILLE
STARVIEW
STATEBURG
STATELINE
STATEN ISLAND
STATENVILLE
STATESBORO
STATESVILLE
STATESVILLE WEST
STATEVILLE
STATHAM
STATIC
STATION F
STATTS MILLS
STAUNTON
STAUNTON PARK
STAVANGER
STAVES
STAVETOWN
STAYTON
STE MARIE
STEAD
STEAM CORNERS
STEAMBOAT
STEAMBOAT CANYON
STEAMBOAT ROCK
STEAMBOAT SPRINGS
STEAMBURG
STEARLEYVILLE
STEARNS
STEBBINS
STEDMAN
STEEDMAN
STEEL CITY
STEELE
STEELE CITY
STEELEBURG
STEELES
STEELES TAVERN
STEELES TAVRN
STEELEVILLE
STEELMANTOWN
STEELMANVILLE
STEELSTOWN
STEELTON
STEELTOWN
STEELVILLE
STEEN
STEEP FALLS
STEEP HOLLOW
STEESE
STEFF
STEFFENVILLE
STEGALL
STEGER
STEHEKIN
STEILACOOM
STEINAUER
STEINHATCHEE
STEINSVILLE
STEIRMAN
STELLA
STELLA NIAGARA
STELLAR
STELLE
STEM
STENDAL
STEPHAN
STEPHEN
STEPHEN CREEK
STEPHEN F AUSTIN UNIV
STEPHEN HOLSTON
STEPHENS
STEPHENS CITY
STEPHENSBURG
STEPHENSON
STEPHENSPORT
STEPHENTOWN
STEPHENTOWN CENTER
STEPHENVILLE
STEPNEY
STEPROCK
STEPTOE
STERLING
STERLING CITY
STERLING FOREST
STERLING HEIGHTS
STERLING HTS
STERLING JUNCTION
STERLINGTON
STERRETT
STET
STETSON
STETSONVILLE
STEUBEN
STEUBEN VALLEY
STEUBENVILLE
STEVENS
STEVENS CREEK
STEVENS POINT
STEVENS POTTERY
STEVENS VILLAGE
STEVENSBURG
STEVENSON
STEVENSON RANCH
STEVENSVILLE
STEVERS MILLS
STEVINSON
STEWARD
STEWARDS MILL
STEWARDSON
STEWART
STEWART HEIGHTS
STEWART MANOR
STEWARTS POINT
STEWARTS POINT RANCHERIA
STEWARTSTOWN
STEWARTSVILLE
STEWARTVILLE
STIBNITE
STICKNEY
STICKS
STIDHAM
STIEFELTOWN
STIGLER
STILES
STILESVILLE
STILL POND
STILL RIVER
STILLMAN VALLEY
STILLMAN VLY
STILLMORE
STILLWATER
STILLWELL
STILSON
STILWELL
STINESVILLE
STINNETT
STINSON BEACH
STINSON LAKE
STIPPVILLE
STIRITZ
STIRLING
STIRLING CITY
STIRRAT
STIRUM
STITES
STITH
STITTVILLE
STITZER
STKN
STOCK ISLAND
STOCK YARDS
STOCKBRIDGE
STOCKDALE
STOCKERTOWN
STOCKETT
STOCKHAM
STOCKHOLM
STOCKLAND
STOCKMAN
STOCKPORT
STOCKTON
STOCKTON SPRINGS
STOCKVILLE
STOCKWELL
STODDARD
STOKES
STOKES BRIDGE
STOKESDALE
STOLLINGS
STONE
STONE ARABIA
STONE CREEK
STONE HARBOR
STONE HEAD
STONE LAKE
STONE MILLS
STONE MOUNTAIN
STONE PARK
STONE RIDGE
STONEBORO
STONEBURG
STONEFORT
STONEGA
STONEHAM
STONELICK
STONER
STONERSVILLE
STONES CORNER
STONES MILL
STONETOWN
STONEVILLE
STONEWALL
STONEWALL JACKSON TRAINING S
STONEWOOD
STONEY BROOK
STONEY CREEK
STONEY FORK
STONEY HILL
STONEY POINT
STONEYBREAK
STONEYVILLE
STONINGTON
STONY BATTERY
STONY BOTTOM
STONY BROOK
STONY CREEK
STONY CREEK MILLS
STONY FORK
STONY HILL
STONY KNOLL
STONY POINT
STONY RIDGE
STONY RIVER
STONY RUN
STONYBROOK
STONYCREEK
STONYFORD
STONYFORK
STOODLEY CORNERS
STOP
STOPOVER
STORDEN
STORLA
STORM LAKE
STORMVILLE
STORRIE
STORRS
STORRS MANSFIELD
STORRS/MANSFIELD
STORY
STORY CITY
STOTESBURY
STOTTS CITY
STOTTVILLE
STOUCHSBURG
STOUFFERSTOWN
STOUGHSTOWN
STOUGHTON
STOUT
STOUTLAND
STOUTS MILLS
STOUTSVILLE
STOVALL
STOVE PIPE WELLS
STOVER
STOVERDALE
STOVERSTOWN
STOW
STOWE
STOWELL
STOY
STOYSTOWN
STRABANE
STRAFFORD
STRAIGHT CREEK
STRAIGHT MOUNTAIN
STRAIN
STRAITS CORNERS
STRANDBURG
STRANDELL
STRANDQUIST
STRANG
STRANGE CREEK
STRASBURG
STRATFORD
STRATHAM
STRATHCONA
STRATHMERE
STRATHMORE
STRATMOOR HILLS
STRATTANVILLE
STRATTON
STRATTON MNT
STRATTON MOUNTAIN
STRAUBVILLE
STRAUGHN
STRAUSS
STRAUSSTOWN
STRAW
STRAWBERRY
STRAWBERRY PLAINS
STRAWBERRY POINT
STRAWBERRY RG
STRAWBERRY VALLEY
STRAWBRIDGE
STRAWN
STRAWTOWN
STREAM SIDE
STREAMWOOD
STREATOR
STREATOR EAST
STREATOR WEST
STREET
STREETER
STREETMAN
STREETROAD
STREETSBORO
STRICKLERSTWN
STRINESTOWN
STRING PRAIRIE
STRINGTOWN
STRODES MILLS
STROH
STROMSBURG
STRONACH
STRONG
STRONG CITY
STRONGHURST
STRONGS
STRONGS NECK
STRONGSTOWN
STRONGSVILLE
STROOL
STROTHER
STROUD
STROUDSBURG
STRUBLE
STRUCTURE
STRUM
STRUNK
STRUTHERS
STRYKER
STRYKERSVILLE
STUART
STUART PLACE
STUARTS DRAFT
STUBBLEFIELD
STUCKEY
STUDIO CITY
STUDLEY
STUMP CREEK
STUMPTOWN
STUMPY POINT
STUNTZ
STURBRIDGE
STURDIVANT
STURGEON
STURGEON BAY
STURGEON LAKE
STURGES CORNER
STURGILLS
STURGIS
STURKIE
STURTEVANT
STUTTGART
STUYVESANT
STUYVESANT FALLS
SUAMICO
SUB BASE NEW LONDON
SUBIACO
SUBLETT
SUBLETTE
SUBLIME
SUBLIMITY
SUBMARINE BASE
SUBN MD FAC
SUBTLE
SUBURB MARYLAND FAC
SUBURBAN HEIGHTS
SUBURBAN MD BRMAS
SUCCASUNNA
SUCCESS
SUCHES
SUDAN
SUDBURY
SUDITH
SUDLERSVILLE
SUDLEY SPRINGS
SUEDBURG
SUFFERN
SUFFIELD
SUFFOLK
SUGAR BUSH
SUGAR CAMP
SUGAR CITY
SUGAR CREEK
SUGAR GROVE
SUGAR GROVE LAKE
SUGAR HILL
SUGAR LAND
SUGAR LOAF
SUGAR NOTCH
SUGAR RIDGE
SUGAR RUN
SUGAR TREE
SUGAR TREE RIDGE
SUGAR VALLEY
SUGARBUSH VALLEY
SUGARCREEK
SUGARGROVE
SUGARHILL
SUGARLOAF
SUGARLOAF KEY
SUGARLOAF SHORES
SUGARTOWN
SUGARVILLE
SUGGSVILLE
SUISUN CITY
SUITLAND
SUL ROSS
SULA
SULLIGENT
SULLIVAN
SULLIVAN CITY
SULLIVANS IS
SULLIVANS ISLAND
SULLY
SULLY STATION
SULPHUR
SULPHUR BLUFF
SULPHUR ROCK
SULPHUR SPGS
SULPHUR SPRINGS
SULPHUR WELL
SULTAN
SULTANA
SUMACH
SUMAS
SUMATRA
SUMAVA RESORTS
SUMERCO
SUMERDUCK
SUMITON
SUMM
SUMMER GROVE
SUMMER HILL
SUMMER LAKE
SUMMER POINT
SUMMER SHADE
SUMMERDALE
SUMMERFIELD
SUMMERFORD
SUMMERHILL
SUMMERLAND
SUMMERLAND KEY
SUMMERLEE
SUMMERS
SUMMERSET
SUMMERSVILLE
SUMMERTON
SUMMERTOWN
SUMMERVILLE
SUMMIT
SUMMIT ARGO
SUMMIT AVENUE
SUMMIT CITY
SUMMIT GROVE
SUMMIT HILL
SUMMIT LAKE
SUMMIT PARK
SUMMIT POINT
SUMMIT STA
SUMMIT STATION
SUMMIT-ARGO
SUMMITT
SUMMITVILLE
SUMMUM
SUMNER
SUMNEYTOWN
SUMPTER
SUMPTER TWP
SUMTER
SUMTERVILLE
SUN
SUN CITY
SUN CITY CENTER
SUN CITY WEST
SUN LAKES
SUN PRAIRIE
SUN RIVER
SUN VALLEY
SUN VILLAGE
SUNAPEE
SUNBEAM
SUNBRIGHT
SUNBURG
SUNBURST
SUNBURY
SUNCOOK
SUNCREST
SUNDANCE
SUNDERLAND
SUNDERLINVLE
SUNDIAL
SUNDOWN
SUNFIELD
SUNFISH
SUNFISH LAKE
SUNFLOWER
SUNIZONA
SUNKEN MEADOW
SUNKIST
SUNLAND
SUNLAND PARK
SUNMAN
SUNNY ACRES
SUNNY BAY
SUNNY HILL
SUNNY HILL ESTATES
SUNNY HILLS
SUNNY ISLES
SUNNY ISLES BEACH
SUNNY POINT MILITARY OCEAN T
SUNNY SIDE
SUNNY SOUTH
SUNNYBROOK
SUNNYBURN
SUNNYDELL
SUNNYHILL
SUNNYLAND
SUNNYSIDE
SUNNYSLOPE
SUNNYVALE
SUNOL
SUNRAY
SUNRISE
SUNRISE BEACH
SUNRISE SPRINGS
SUNRIVER
SUNSET
SUNSET ACRES
SUNSET BCH
SUNSET BEACH
SUNSET COLONY
SUNSET HARBOR
SUNSET HILL
SUNSET HILLS
SUNSET ISLAND
SUNSET PINES
SUNSET POINT
SUNSET VALLEY
SUNSET VIEW
SUNSET WHITNEY RANCH
SUNSHINE
SUNSITES
SUNSPOT
SUNTREE
SUNTRUST
SUNTRUST SERVICE
SUNY STONY BROOK
SUPAI
SUPERIOR
SUPERIOR TOWNSHIP
SUPERSTITION MOUNTAIN
SUPLEE
SUPPLY
SUQUAMISH
SURF CITY
SURFSIDE
SURFSIDE BEACH
SURGOINSVILLE
SURING
SURPRISE
SURRENCY
SURREY
SURRY
SURVEY
SURVEY CREEK
SURVEYOR
SUSAN
SUSANK
SUSANVILLE
SUSIE
SUSQUEHANNA
SUSSEX
SUTCLIFFE
SUTERSVILLE
SUTHERLAND
SUTHERLAND SPRINGS
SUTHERLIN
SUTLIFF
SUTTER
SUTTER CREEK
SUTTER HILL
SUTTER ISLAND
SUTTON
SUTTON PARK
SUTTONS BAY
SUWANEE
SUWANNEE
SVEA
SW BAPTIST THEOLOGICAL SMRY
SW MADISON
SWAIN
SWAINSBORO
SWAINSVILLE
SWAINTON
SWALEDALE
SWALES
SWALL MEADOWS
SWAMP BRANCH
SWAMP RD
SWAMPERS
SWAMPSCOTT
SWAMPTON
SWAN
SWAN CREEK
SWAN LAKE
SWAN POINT
SWAN RIVER
SWAN STATION
SWAN VALLEY
SWANBURG
SWANLAKE
SWANNANOA
SWANPOND
SWANQUARTER
SWANS ISLAND
SWANSBORO
SWANSBORO COUNTRY
SWANSEA
SWANTON
SWANVILLE
SWANWICK
SWANZEY
SWARTHMORE
SWARTSWOOD
SWARTZ
SWARTZ CREEK
SWARTZVILLE
SWASTIKA
SWATARA
SWATARA STA
SWAYZEE
SWEA CITY
SWEDEBORG
SWEDEN
SWEDEN VALLEY
SWEDESBORO
SWEDESBURG
SWEDONA
SWEEDEN
SWEEK HOLLOW
SWEENEY
SWEENY
SWEENY SWITCH
SWEET
SWEET BRIAR
SWEET BRIER
SWEET GRASS
SWEET HOME
SWEET LAKE
SWEET SPRINGS
SWEET VALLEY
SWEET WATER
SWEETLAND
SWEETSER
SWEETWATER
SWEETWATER STATION
SWENGEL
SWEPCO
SWEPSONVILLE
SWETT
SWIFT
SWIFTON
SWIFTWATER
SWINEFORD
SWINK
SWISHER
SWISS
SWISS ALP
SWISS COLONY
SWISS COLONY BUS REPLY
SWISSDALE
SWISSHOME
SWISSVALE
SWITCHBACK
SWITZ CITY
SWITZER
SWITZERLAND
SWOOPE
SWORDS CREEK
SWORMVILLE
SWOYERSVILLE
SWYGERT
SYBERT
SYBERTSVILLE
SYCAMORE
SYCAMORE PARK
SYCAMORE SQUARE
SYCAMORE TWP
SYCAMORE VALLEY
SYCAWAY
SYDNEY
SYKESTON
SYKESVILLE
SYLACAUGA
SYLMAR
SYLVA
SYLVAN
SYLVAN BEACH
SYLVAN DELL
SYLVAN GROVE
SYLVAN HILLS
SYLVAN LAKE
SYLVAN SPRINGS
SYLVAN TWP
SYLVANIA
SYLVANIA TOWNSHIP
SYLVESTER
SYLVIA
SYMBOL
SYMERTON
SYMMES
SYMMES TWP
SYMSONIA
SYNAREP
SYNDICATE
SYNER
SYOSSET
SYR
SYRACUSE
SYRACUSE AMF
SYRE
SYRIA
SYRINGA
T OR C
T V GUIDE
T VILLE
TABB
TABER
TABERG
TABERNACLE
TABERNACLE TWP
TABERNASH
TABERTOWN
TABERVILLE
TABIONA
TABLE GROVE
TABLE ROCK
TABOR
TABOR CITY
TABORTON
TACNA
TACOMA
TACOMA PARK
TACONEY
TACONIC
TACONIC LAKE
TACONITE
TAD
TAFB
TAFT
TAFTON
TAFTON-WRIGHTVILLE
TAFTSVILLE
TAFTVILLE
TAGUS
TAHAWUS
TAHCHEE
TAHLEQUAH
TAHOE CITY
TAHOE DONNER
TAHOE PARADISE
TAHOE PINES
TAHOE VALLEY
TAHOE VISTA
TAHOKA
TAHOLAH
TAHOMA
TAHUYA
TAIBAN
TAINTOR
TAITON
TAJIQUE
TAKOMA PARK
TAKOMA PK
TAKOTNA
TALALA
TALBERT
TALBOT
TALBOTS
TALBOTT
TALBOTTON
TALCO
TALCOTT
TALCOTT VILLAGE
TALCOTTVILLE
TALCUM
TALENT
TALIHINA
TALISHEEK
TALKEETNA
TALKING ROCK
TALL TIMBERS
TALLA BENA
TALLADEGA
TALLAHASSEE
TALLANT
TALLAPOOSA
TALLASSEE
TALLEGA
TALLEVAST
TALLEYRAND
TALLEYS CROSSING
TALLEYVILLE
TALLMADGE
TALLMAN
TALLMANSVILLE
TALLULA
TALLULAH
TALLULAH FALLS
TALMADGE
TALMAGE
TALMAR
TALMO
TALMOON
TALOGA
TALPA
TAMA
TAMAHA
TAMAL
TAMALCO
TAMALPAIS VALLEY
TAMAQUA
TAMARAC
TAMARACK
TAMAROA
TAMARRON
TAMASSEE
TAMAYA
TAMC
TAMEGA
TAMIMENT
TAMINA
TAMMS
TAMORA
TAMPA
TAMPA PALMS
TAMPICO
TAMS
TAMWORTH
TANACROSS
TANANA
TANEYTOWN
TANEYVILLE
TANGENT
TANGERINE
TANGIER
TANGIPAHOA
TANGLEWOOD
TANGLEWOOD ACRES
TANKSLEY
TANNEHILL
TANNER
TANNERSVILLE
TANNERY
TANSBORO
TAOPI
TAOS
TAOS PUEBLO
TAOS SKI VALLEY
TAPLIN
TAPOCO
TAPPAHANNOCK
TAPPAN
TAPPEN
TAR HEEL
TARA
TARA HILLS
TARAWA
TARAWA TERRACE
TARAWA TR
TARBORO
TARENTUM
TARIFF
TARIFFVILLE
TARKINGTON PRAIRIE
TARKIO
TARLTON
TARNOV
TARPLEY
TARPON SPRINGS
TARRANT
TARRANTS
TARRS
TARRY
TARRYALL
TARRYTOWN
TARZAN
TARZANA
TASLEY
TASSAJARA HOT SPRINGS
TASWELL
TATAMY
TATE
TATE SPRINGS
TATEVILLE
TATITLEK
TATOOSH IS
TATOOSH ISLAND
TATUM
TATUMS
TAULBEE
TAUNTON
TAURUS
TAVARES
TAVENER
TAVERNIER
TAVISTOCK
TAWAS CITY
TAXAHAW
TAYCHEEDAH
TAYLOR
TAYLOR HILL
TAYLOR LAKE VILLAGE
TAYLOR MILL
TAYLOR MINES
TAYLOR PARK
TAYLOR RIDGE
TAYLOR SPRINGS
TAYLORS
TAYLORS FALLS
TAYLORS ISLAND
TAYLORSPORT
TAYLORSTOWN
TAYLORSVILLE
TAYLORTOWN
TAYLORVILLE
TAZEWELL
TEA
TEABERRY
TEACHEY
TEAGUE
TEANAWAY
TEANECK
TEASDALE
TEASELVILLE
TEATICKET
TEAYS
TEBBETTS
TECATE
TECHNY
TECOPA
TECOPA HOT SPRINGS
TECULA
TECUMSEH
TEDDERS
TEEC NOS POS
TEEDS GROVE
TEESTO
TEFFT
TEGA CAY
TEHACHAPI
TEHAMA
TEHERAN
TEHUACANA
TEIGEN
TEKAKWITHA
TEKAMAH
TEKOA
TEKONSHA
TEKTRONIX
TELEDYNE WATER PIK
TELEGRAPH
TELFERNER
TELFORD
TELL
TELL CITY
TELLER
TELLICO PLAINS
TELLURIDE
TELMA
TELOGIA
TEMECULA
TEMP TERR
TEMPE
TEMPERANCE
TEMPERANCEVILLE
TEMPIUTE
TEMPLAR PARK
TEMPLE
TEMPLE BAR MARINA
TEMPLE CITY
TEMPLE HILL
TEMPLE HILLS
TEMPLE TERR
TEMPLE TERRACE
TEMPLETON
TEMPLEVILLE
TEMVIK
TEN LAKE
TEN MILE
TEN SLEEP
TENAFLY
TENAHA
TENAKEE SPRINGS
TENANTS HARBOR
TENDOY
TENINO
TENMILE
TENN RIDGE
TENNANT
TENNENT
TENNERTON
TENNERYVILLE
TENNESSEE
TENNESSEE ACRES
TENNESSEE COLONY
TENNESSEE RDG
TENNESSEE RIDGE
TENNESSEE VALLEY AUTH
TENNEY
TENNGA
TENNILLE
TENNIS
TENNYSON
TENOKA
TENSAS BLUFF
TENSED
TENSTRIKE
TENVILLE JUNCTION
TEQUESTA
TERA NORTH
TERCIO
TERERRO
TERESITA
TERLINGUA
TERLTON
TERMINAL ISLAND
TERMO
TERRA
TERRA ALTA
TERRA BELLA
TERRA CEIA
TERRA CEIA ISLAND
TERRA LINDA
TERRACE
TERRACE PARK
TERRAL
TERRAVILLE
TERRE HAUTE
TERRE HILL
TERREBONNE
TERRELL
TERRELL HILLS
TERRETON
TERRIL
TERRY
TERRY PEAK
TERRYS CHAPEL
TERRYTOWN
TERRYVILLE
TESCOTT
TESLA
TESUQUE
TESUQUE PUEBLO
TETERBORO
TETLIN
TETON
TETON VILLAGE
TETONIA
TEUTOPOLIS
TEWKSBURY
TEXANNA
TEXARKANA
TEXAS CHRISTIAN UNIV
TEXAS CITY
TEXAS CREEK
TEXAS TOWNSHIP
TEXAS VALLEY
TEXAS WORKFORCE COMMISSION
TEXHOMA
TEXICO
TEXLINE
TEXOLA
TEXON
TEXTILE
TEXTILE BOXES
THACKER
THACKERAY
THACKERVILLE
THALMAN
THARPTOWN
THATCHER
THAWVILLE
THAXTON
THAYER
THAYNE
THE BLUFFS
THE BURG
THE CEDARS
THE CITADEL
THE COLONY
THE DALLES
THE EXCHANGE AT TALCOTT VILL
THE GAP
THE GEYSERS
THE GLEN
THE HIGHLANDS
THE HOLLOW
THE LAKES
THE LEDGES
THE MAIL BOX
THE MEADOWS
THE PLAINS
THE ROCK
THE SEA RANCH
THE TERRACE
THE VANGUARD GROUP
THE VILLAGES
THE VLY
THE W I CHEESEMAN
THE WHITE HOUSE
THE WOODLANDS
THEALKA
THEBES
THEDFORD
THEILMAN
THELMA
THENDARA
THEODORE
THEODOSIA
THEOLOGICAL SEMINARY
THEON
THERESA
THERIOT
THERMAL
THERMALITO
THERMOPOLIS
THETA
THETFORD
THETFORD CENTER
THETFORD HILL
THIBODAUX
THICKET
THIDA
THIEF RIVER FALLS
THIELLS
THIENSVILLE
THIRD LAKE
THISTLE
THOMAS
THOMAS BRIDGE
THOMAS HILL
THOMAS JUNCTION
THOMAS ROAD BAPT CHURCH
THOMASBORO
THOMASTON
THOMASTOWN
THOMASVILLE
THOMPSON
THOMPSON BEACH
THOMPSON FALLS
THOMPSON PLACE
THOMPSON RIDGE
THOMPSONS
THOMPSONS LAKE
THOMPSONS STATION
THOMPSONTOWN
THOMPSONVILLE
THOMSON
THONOTOSASSA
THOR
THOREAU
THORN HILL
THORNBURG
THORNCREEK
THORNDALE
THORNDIKE
THORNE
THORNE BAY
THORNFIELD
THORNHILL
THORNHURST
THORNTON
THORNTOWN
THORNVILLE
THORNWOOD
THOROFARE
THORP
THORPE
THORSBY
THOUSAND ISLAND PARK
THOUSAND OAKS
THOUSAND PALMS
THOUSAND SPRINGS
THOUSANDSTICKS
THRALI
THRALL
THRASHERS CORNER
THREE BRIDGES
THREE CHURCHES
THREE CREEK
THREE FORKS
THREE LAKES
THREE MILE
THREE MILE BAY
THREE NOTCH
THREE OAKS
THREE POINT
THREE POINTS
THREE RIVERS
THREE ROCKS
THREE SPRINGS
THREEFORKS
THRELKEL
THRIFT
THRIFTY
THROCKMORTON
THROGGS NECK
THROOP
THUNDER HAWK
THUNDER LAKE
THUNDER MOUNTAIN
THUNDERBOLT
THUNE
THURMAN
THURMOND
THURMONT
THURSTON
TIAWAH
TIBBIE
TIBURON
TICABOO
TICE
TICHNOR
TICKFAW
TICONDEROGA
TICONIC
TIDD DALE
TIDEWATER
TIDIOUTE
TIDWELL PRAIRIE
TIE SIDING
TIERRA AMARILLA
TIERRA BUENA
TIERRA VERDE
TIETON
TIFF
TIFF CITY
TIFFANY
TIFFIN
TIFTON
TIGARD
TIGER
TIGER POINT
TIGERTON
TIGERVILLE
TIGHTWAD
TIGNALL
TIGRETT
TIJERAS
TIKI ISLAND
TILDEN
TILFORD
TILGHMAN
TILINE
TILLAMOOK
TILLAR
TILLEDA
TILLER
TILLERY
TILLICUM
TILLMAN
TILLSON
TILLY
TILMON
TILTON
TILTONSVILLE
TIMBER
TIMBER COVE
TIMBER LAKE
TIMBER TRAILS
TIMBERHURST
TIMBERLAKE
TIMBERLAND HEIGHTS
TIMBERLANE ACRES
TIMBERLINE LODGE
TIMBERON
TIMBERVILLE
TIMBLIN
TIMBO
TIME LIFE
TIME WARNER
TIME-LIFE CUSTOMER SERVICE
TIME/LIFE
TIMES BEACH
TIMES SQUARE
TIMES SQUARE BRM
TIMEWELL
TIMKEN
TIMMER
TIMMONSVILLE
TIMNATH
TIMONIUM
TIMOTHY
TIMPANOGOS
TIMPAS
TIMPSON
TINA
TINAJA
TINCUP
TINGLEY
TINICUM
TINICUM TOWNSHIP
TINKER AFB
TINLEY PARK
TINMOUTH
TINNIE
TINSLEY
TINTAH
TINTON FALLS
TINTOWN
TINY TOWN
TIOGA
TIOGA CENTER
TIONA
TIONESTA
TIPLER
TIPP
TIPP CITY
TIPPECANOE
TIPTON
TIPTONVILLE
TIPTOP
TIRE HILL
TIRO
TISBURY
TISCH MILLS
TISHOMINGO
TISKILWA
TISON
TITONKA
TITUS
TITUSVILLE
TIVERTON
TIVOLI
TIVY VALLEY
TIVYDALE
TN RIDGE
TOAD HOP
TOANO
TOAST
TOBACCOVILLE
TOBIAS
TOBIN
TOBINSPORT
TOBOYNE
TOBYHANNA
TOCA
TOCCOA
TOCCOA FALLS
TOCITO
TOCSIN
TOD
TODD
TODD VALLEY
TODDS MILL
TODDVILLE
TOETERVILLE
TOFTE
TOG SHOP
TOGIAK
TOGO
TOGUS
TOHATCHI
TOHLAKAI
TOIMI
TOIVOLA
TOK
TOKELAND
TOKENEKE
TOKIO
TOKSOOK BAY
TOLACON
TOLAND
TOLANI
TOLANI LAKES
TOLAR
TOLEDO
TOLEDO BEND
TOLEDO BLADE
TOLER
TOLIVER
TOLL GATE
TOLL GATE HEIGHTS
TOLLAND
TOLLESBORO
TOLLESON
TOLLEY
TOLLGATE
TOLLHOUSE
TOLLIVER TOWN
TOLLVILLE
TOLNA
TOLONA
TOLONO
TOLOVANA PARK
TOLSTOY
TOLTEC
TOLU
TOLUCA
TOLUCA LAKE
TOM
TOM BEAN
TOMAH
TOMAHAWK
TOMAHAWK BLUFF
TOMALES
TOMATO
TOMB
TOMBALL
TOMBERLIN
TOMBSTONE
TOME
TOMKINS COVE
TOMPKINS
TOMPKINS CORNERS
TOMPKINSVILLE
TOMS BROOK
TOMS RIVER
TOMSTOWN
TONALEA
TONASKET
TONAWANDA
TONEY
TONEYFORK
TONEYVILLE
TONGANOXIE
TONGUE POINT
TONICA
TONKA BAY
TONKAWA
TONOPAH
TONOPAH AIR FORCE STATION
TONTITOWN
TONTO BASIN
TONTOGANY
TONY
TONYVILLE
TOOELE
TOOELE ARMY DEPOT
TOOLESBORO
TOOMSBORO
TOONE
TOONERVILLE
TOPANGA
TOPAWA
TOPAZ
TOPAZ LAKE
TOPAZ LODGE
TOPAZ RANCH ESTATES
TOPEKA
TOPIA
TOPINABEE
TOPMOST
TOPOCK
TOPONAS
TOPPENISH
TOPPING
TOPSAIL BEACH
TOPSEY
TOPSFIELD
TOPSHAM
TOPSHAM FOUR CORNERS
TOPTON
TOQUERVILLE
TORBERT
TORCH
TOREVA
TORNADO
TORNILLO
TORO
TORONTO
TORRANCE
TORREON
TORRES CANON
TORRESDALE SOUTH
TORREY
TORRINGTON
TORTILLA FLAT
TORTUGAS
TOSTON
TOTAL PETROLEUM
TOTEM LAKE
TOTO
TOTOWA
TOTOWA BORO
TOTZ
TOUCHET
TOUGHKENAMON
TOULON
TOULOUSE
TOURISON
TOURISTVILLE
TOURS
TOUTLE
TOVEY
TOW
TOWACO
TOWANDA
TOWAOC
TOWER
TOWER CITY
TOWER HILL
TOWER LAKES
TOWER SQUARE
TOWN AND COUNTRY
TOWN BLUFF
TOWN BRANCH
TOWN CENTER
TOWN CREEK
TOWN N CNTRY
TOWN N COUNTRY
TOWN OF TONAWANDA
TOWNCREST VLG
TOWNE OAKS
TOWNER
TOWNLEY
TOWNLINE
TOWNSEND
TOWNSENDS INLET
TOWNSHEND
TOWNSHIP OF WASHINGTON
TOWNSVILLE
TOWNVILLE
TOWSON
TOWSON FINANCE
TOXEY
TOYAH
TOYAHVALE
TOYEI
TPA
TR FALLS
TRABUCO
TRABUCO CANYON
TRABUCO CYN
TRACE
TRACK CITY
TRACY
TRACY CITY
TRACY CREEK
TRACY-CLARK
TRACYS LANDING
TRACYTON
TRADE
TRADE CENTER
TRADE LAKE
TRADERS POINT
TRAER
TRAFALGAR
TRAFFORD
TRAIL
TRAIL CITY
TRAIL CREEK
TRAILER ESTATES
TRAINER
TRAINSMEADOW
TRAM
TRAMMEL
TRAMMELLS
TRAMPAS
TRAMWAY
TRANQUILITY
TRANQUILLITY
TRANSFER
TRANSYLVANIA
TRAPHILL
TRAPPE
TRAPPER CREEK
TRAPPIST
TRASKWOOD
TRAUNIK
TRAVEL LODGE
TRAVELERS INS
TRAVELERS INSURANCE
TRAVELERS REST
TRAVER
TRAVERSE CITY
TRAVIS
TRAVIS AFB
TRAVIS HEIGHTS
TRAVISVILLE
TRAVLERS INSURANCE
TREADWAY
TREADWELL
TREASURE ISLAND
TREASURY
TREATY LINE MUSEUM
TREATY LN MUS
TRECHADO
TREDYFFRIN
TREECE
TREES
TREETOP
TREGO
TREICHLERS
TRELIPE
TRELOAR
TREMENTINA
TREMLEY
TREMLEY POINT
TREMONT
TREMONT CITY
TREMONTON
TREMPEALEAU
TRENARY
TRENT
TRENT WOODS
TRENTON
TRES PIEDRAS
TRES PINOS
TRES RITOS
TRESCKOW
TREVAT
TREVETT
TREVILIANS
TREVLAC
TREVOR
TREVORTON
TREVOSE
TREXLER
TREXLERTOWN
TREYNOR
TREZEVANT
TRI CITIES
TRI LAKES
TRIADELPHIA
TRIANA
TRIANGLE
TRIANGLE LAKE
TRIBBEY
TRIBES HILL
TRIBOJI BEACH
TRIBOROUGH
TRIBUNE
TRIDELL
TRIDENT
TRIGG FURNACE
TRILBY
TRILLA
TRIMBELLE
TRIMBLE
TRIMONT
TRINCHERA
TRINDLE SPRG
TRINIDAD
TRINITY
TRINITY CENTER
TRINITY SPRGS
TRINITY SPRINGS
TRINWAY
TRIO
TRION
TRIPLE LAKE HEIGHTS
TRIPLER AMC
TRIPLET
TRIPLETT
TRIPOLI
TRIPP
TRIPPE
TRISLER
TRIUMPH
TRIUNE
TRIVOLI
TROJAN
TROMMALD
TRONA
TROPHY CLUB
TROPIC
TROPICO VILLAGE
TROSKY
TROSPER
TROTTERS
TROTWOOD
TROUP
TROUPSBURG
TROUSDALE
TROUT
TROUT CREEK
TROUT DALE
TROUT LAKE
TROUT RIVER
TROUT RUN
TROUT VALLEY
TROUTDALE
TROUTLAKE
TROUTMAN
TROUTVILLE
TROW HILL
TROWBRIDGE
TROXELVILLE
TROY
TROY GROVE
TROY HILLS
TROY MILLS
TRUAX
TRUCHAS
TRUCKEE
TRUCKSVILLE
TRUCKTON
               TRUE
TRUE BLUE
TRUESDAIL
TRUESDALE
TRUFANT
TRUMAN
TRUMANN
TRUMANSBURG
TRUMBAUERSVILLE
TRUMBAVERSVILLE
TRUMBULL
TRURO
TRUSCOTT
TRUSSVILLE
TRUST
TRUTH OR CONQ
TRUTH OR CONS
TRUTH OR CONSEQUENCES
TRUTHVILLE
TRUXTON
TRYON
TSAIL
TSAILE
TSE BONITA
TUALATIN
TUBA CITY
TUBAC
TUCKAHOE
TUCKASEGEE
TUCKER
TUCKERDALE
TUCKERMAN
TUCKERTON
TUCKERTON BORO
TUCKERTOWN
TUCSON
TUCUMCARI
TUJUNGA
TUKERTOWN
TUKWILA
TULALIP
TULARE
TULAROSA
TULELAKE
TULETA
TULIA
TULIP
TULL
TULLAHASSEE
TULLAHOMA
TULLOS
TULLY
TULLYTOWN
TULPEHOCKEN
TULSA
TULSA CITY UTILITIES
TULUKSAK
TUM TUM
TUMACACORI
TUMBLING SHOALS
TUMTUM
TUMWATER
TUNAS
TUNBRIDGE
TUNGSTEN
TUNICA
TUNKER
TUNKHANNOCK
TUNNEL
TUNNEL CITY
TUNNEL HILL
TUNNELTON
TUNNERVILLE
TUNTUTULIAK
TUNUNAK
TUOLUMNE
TUOLUMNE MEADOWS
TUPELO
TUPMAN
TUPPER LAKE
TUPPERS PLAINS
TURAH
TURBETT
TURBEVILLE
TURBOTVILLE
TURIN
TURKEY
TURKEY CITY
TURKEY CREEK
TURKEY RIDGE
TURKEY RIVER
TURKEY RUN
TURKEYFOOT
TURLEY
TURLINGTON
TURLOCK
TURMAN
TURNER
TURNER CENTER
TURNERS
TURNERS FALLS
TURNERS STATION
TURNERSBURG
TURNERSVILLE
TURNERTOWN
TURNERVILLE
TURNEY
TURNPIKE
TURON
TURPIN
TURRELL
TURRET
TURTLE CREEK
TURTLE LAKE
TURTLE LK
TURTLE RIVER
TURTLEPOINT
TURTLETOWN
TURTON
TUSAYAN
TUSC
TUSCALOOSA
TUSCARAWAS
TUSCARORA
TUSCARORA HTS
TUSCAWILLA
TUSCOLA
TUSCULAM
TUSCUMBIA
TUSKAHOMA
TUSKEEGO
TUSKEGEE
TUSKEGEE INST
TUSKEGEE INSTITUTE
TUSSY
TUSTIN
TUTHILL
TUTOR KEY
TUTTLE
TUXEDO
TUXEDO PARK
TV GUIDE BRM
TVILLE
TWAIN
TWAIN HARTE
TWELVE MILE
TWENTY MILE STAND
TWENTY SECOND STREET
TWENTYNINE PALMS
TWENTYNINE PALMS MCB
TWIG
TWIGG
TWIGHTWEE
TWILIGHT
TWIN ARROWS
TWIN BRANCH
TWIN BRIDGES
TWIN BROOKS
TWIN BUTTES
TWIN CITIES AMF
TWIN CITY
TWIN FALLS
TWIN GROVES
TWIN HILLS
TWIN LAKE
TWIN LAKE HILL
TWIN LAKES
TWIN MOUNTAIN
TWIN OAKS
TWIN ORCHARDS
TWIN PEAKS
TWIN ROCK
TWIN ROCKS
TWIN VALLEY
TWIN VIEW HEIGHTS
TWINING
TWINSBURG
TWISP
TWIST
TWITTY
TWNTYNINE PLM
TWO BUTTES
TWO DOT
TWO GRAY HILLS
TWO HARBORS
TWO RIVERS
TWO ROCK COAST GUARD STATION
TWO ROCK RANCH STA
TWO STORY
TWYMANS MILL
TY TY
TYASKIN
TYBEE ISLAND
TYE
TYE RIVER
TYGH VALLEY
TYHEE
TYLER
TYLER HILL
TYLER PARK
TYLERSBURG
TYLERSPORT
TYLERSVILLE
TYLERTON
TYNAN
TYNDALL
TYNDALL AFB
TYNER
TYNGSBORO
TYNGSBOROUGH
TYONEK
TYPE
TYPO
TYRE
TYRINGHAM
TYRO
TYRONE
TYRONZA
TYSON
TYTY
U CITY
U S A F ACADEMY
USCC
U S COAST GUARD ACAD
U S ENGINEERS
U S GEOLOGICAL SURVEY
U S P S OFFICIAL
U S P S PM MSC OFC
U S PENCIL COMPANY
U S POSTAL SERVICE
U S PURCHASING EXCHANGE
U S TRADE REPRESENTATIVE
U S WEST COMMUNICATIONS
UA MONTICELLO
UBET
UBLY
UC BERKELEY
UCA
UCF
UCI
UCLA
UCON
UCSB STUDENT DORM BOXES
UDALL
UDELL
UEHLING
UHLAND
UHRICHSVILLE
UINTAH
UKIAH
ULAH
ULEDI
ULEN
ULER
ULETA
ULLIN
ULM
ULMAN
ULMER
ULSTER
ULSTER PARK
ULVAH
ULYSSES
UMATILLA
UMBARGER
UMPIRE
UMPQUA
UN MED CENTER
UNA
UNADILLA
UNADILLA FORKS
UNAKA
UNALAKLEET
UNALASKA
UNC A CHAPEL HILL SCHLS ADM
UNC-G
UNC-GREENSBORO
UNCASVILLE
UNCERTAIN
UNCLE SAM
UNDERHILL
UNDERHILL CENTER
UNDERHILL FLATS
UNDERWOOD
UNEEDA
UNEEDUS
UNGER
UNICOI
UNIDILLA
UNION
UNION BEACH
UNION BRIDGE
UNION CENTER
UNION CHAPEL
UNION CHURCH
UNION CITY
UNION CROSS
UNION CROSSROADS
UNION CTY
UNION CY
UNION DALE
UNION DEPOSIT
UNION FIDELITY BUSI REPLY
UNION FIDELITY POSTAGE PD
UNION FURNACE
UNION GAP
UNION GROVE
UNION HALL
UNION HILL
UNION LAKE
UNION LEVEL
UNION MILLS
UNION PACIFIC RR
UNION PARK
UNION PIER
UNION PLANTERS NATL BX 2121
UNION PLANTERS NATL BX 387
UNION POINT
UNION SPRINGS
UNION SQUARE
UNION STAR
UNIONDALE
UNIONPORT
UNIONTOWN
UNIONVILLE
UNIONVILLE CENTER
UNIOPOLIS
UNIQUE EXPRESSIONS
UNIQUE FIRM ZIP
UNIROYAL GOODRICH
UNISYS
UNITED
UNITED CABLE TV
UNITED FAITH FOUND
UNITED SERVICE AUTO ASSC
UNITY
UNITY HOUSE
UNITY PLAZA
UNITY VILLAGE
UNITY VLG
UNITYVILLE
UNIV CITY
UNIV N V ADMIN
UNIV NV LAS VEGAS
UNIV PARK
UNIVERSAL
UNIVERSAL CITY
UNIVERSITY CENTER
UNIVERSITY CITY
UNIVERSITY GARDENS
UNIVERSITY HEIGHTS
UNIVERSITY HTS
UNIVERSITY PARK
UNIVERSITY PLACE
UNM
UNO
UPALCO
UPATOI
UPHAM
UPHAMS CORNER
UPLAND
UPPER ALLEN
UPPER ANTON CHICO
UPPER ARLINGTON
UPPER AUGUSTA
UPPER BERN
UPPER BLACK EDDY
UPPER BROOKVILLE
UPPER CHICHESTER
UPPER DARBY
UPPER DUBLIN
UPPER FAIRFLD
UPPER FAIRMOUNT
UPPER FALLS
UPPER FRANKFD
UPPER FREEHOLD
UPPER FREEHOLD TOWNSHIP
UPPER FRENCHVILLE
UPPER GRANDVIEW
UPPER GREASEWOOD TRADING POS
UPPER GREENWOOD LAKE
UPPER HILL
UPPER HOH
UPPER HOLLAND
UPPER JAY
UPPER KEY LARGO
UPPER KINGS ADDITION
UPPER LAKE
UPPER LAWN
UPPER LISLE
UPPER LONG LAKE
UPPER MAHANOY
UPPER MAHANTONGO
UPPER MAKEFIELD
UPPER MARLBORO
UPPER MATECUMBE KEY
UPPER MIFFLIN
UPPER MILL
UPPER MONTCLAIR
UPPER NYACK
UPPER PAXTON
UPPER PIG PEN
UPPER PROVIDENCE
UPPER SADDLE RIVER
UPPER SAINT CLAIR
UPPER SAINT REGIS
UPPER SANDUSKY
UPPER ST CLAIR
UPPER STEPNEY
UPPER STRASBG
UPPER SUGARLOAF KEY
UPPER TRACT
UPPER TULPEHOCKEN
UPPER TYGART
UPPER UNION
UPPER VALLEY
UPPER WHEATFIELDS
UPPERCO
UPPERGLADE
UPPERSTRASBURG
UPPERVILLE
UPPR FREE TWP
UPR MARLBORO
UPSALA
UPSON
UPTON
UPTOWN
URANIA
URBAIN
URBAN
URBANA
URBANCREST
URBANDALE
URBANETTE
URBANNA
URIAH
URICH
URIE
URMEYVILLE
URSA
URSINA
URSINE
USA FULFILLMENT
USAF ACADEMY
USC
USCGS
USHERS
USK
USMMA
USTA
USTICK
UT
UT SW MEDICAL CENTER
UTE
UTE PARK
UTE PASS
UTICA
UTIDA
UTILITY
UTLEYVILLE
UTOPIA
UVA
UVADA
UVALDA
UVALDE
UVM
UWCHLAND
UWHARIE
UXBRIDGE
VA
V A REGIONAL OFFICE
V C HIGHLANDS
VEPCO
VA MEDICAL CENTER
VAB
VACAVILLE
VACHERIE
VADA
VADER
VADIS
VADITO
VADNAIS HEIGHTS
VADO
VAIL
VAIL HOMES
VAIL MILLS
VAILS GATE
VAILSBURG
VAL VERDA
VAL VERDE
VALATIE
VALDERS
VALDESE
VALDEZ
VALDOSTA
VALE
VALEENE
VALENCIA
VALENTINE
VALENTINES
VALERA
VALERIA
VALERIE
VALHALLA
VALHERMOSO SPRINGS
VALIER
VALKARIA
VALLAMONT HLS
VALLE CRUCIS
VALLE DE ORO
VALLE ESCONDIDO
VALLECITO
VALLECITOS
VALLEJO
VALLES MINES
VALLEY
VALLEY BEND
VALLEY CENTER
VALLEY CHAPEL
VALLEY CITY
VALLEY COTTAGE
VALLEY FALLS
VALLEY FARMS
VALLEY FORD
VALLEY FORGE
VALLEY FORK
VALLEY FURNACE
VALLEY GROVE
VALLEY HEAD
VALLEY HOME
VALLEY LEE
VALLEY LODGE
VALLEY MILLS
VALLEY OF ENCHANTMENT
VALLEY OF FIRE
VALLEY PARK
VALLEY RIVER CENTER
VALLEY SPRING
VALLEY SPRINGS
VALLEY STATION
VALLEY STREAM
VALLEY TOWNSHIP
VALLEY VIEW
VALLEY VILLAGE
VALLEYDALE
VALLEYFORD
VALLEYVIEW
VALLIANT
VALLONIA
VALLONIA SPRINGS
VALLSCREEK
VALMEAD
VALMEYER
VALMORA
VALMY
VALOIS
VALONA
VALPARAISO
VALPO
VALRICO
VALYERMO
VAMORI
VAN
VAN ALSTYNE
VAN BUREN
VAN BUREN BAY
VAN BUREN POINT
VAN BUREN TWP
VAN BURENSBURG
VAN CLEVE
VAN COTT
VAN DEUSENVILLE
VAN DYNE
VAN ETTEN
VAN HORN
VAN HORNE
VAN HORNESVILLE
VAN LEAR
VAN METER
VAN METRE
VAN NUYS
VAN ORIN
VAN TASSELL
VAN VLECK
VAN VOORHIS
VAN WERT
VAN WYCK
VANADIUM
VANCE
VANCEBORO
VANCEBURG
VANCLEVE
VANCOURT
VANCOUVER
VANDALIA
VANDEMERE
VANDENBERG AIR FORCE BASE
VANDENBERG VILLAGE
VANDER
VANDERBILT
VANDERBILT BEACH
VANDERBURG
VANDERGRIFT
VANDERPOOL
VANDERVOORT
VANDERWAGEN
VANDIVER
VANDIVER VILLAGE
VANDLING
VANDUSER
VANETIA
VANITY CORNER
VANITY FAIR MILLS
VANLEER
VANLUE
VANNDALE
VANPORT
VANSANT
VANTAGE
VANZANT
VARINA
VARNA
VARNADO
VARNELL
VARNEY
VARNVILLE
VARYSBURG
VASA
VASHON
VASHON ISLAND
VASHTI
VASS
VASSALBORO
VASSAR
VATTMANVILLE
VAUCLUSE
VAUGHAN
VAUGHN
VAUGHNSVILLE
VAUXHALL
VAYLAND
VC HIGHLANDS
VCU/MCV EAST
VCU/WEST
VEALE
VEALMOOR
VEAZIE
VEBLEN
VEDIC CITY
VEEDERSBURG
VEEDUM
VEGA
VEGUITA
VEHICLE LICENSE PLATES
VELARDE
VELDA VILLAGE
VELDA VILLAGE HILLS
VELMA
VELPEN
VELVA
VENANGO
VENDOR
VENEDOCIA
VENEDY
VENETA
VENETIA
VENETIAN ISLANDS
VENETIAN SHORES
VENETIAN VILLAGE
VENETIE
VENIA
VENICE
VENICE CENTER
VENTERO
VENTERS
VENTNOR
VENTNOR CITY
VENTNOR HEIGHTS
VENTRESS
VENTURA
VENTURIA
VENUS
VEO
VERA
VERA CRUZ
VERADALE
VERBENA
VERBOORT
VERDA
VERDEL
VERDEMONT
VERDEN
VERDI
VERDIGRE
VERDIGRIS
VERDILLA
VERDON
VERDOY
VERDUGO CITY
VERDUNVILLE
VERE CRUZ
VERENDRYE
VERGA
VERGAS
VERGENNES
VERHALEN
VERIBEST
VERIZON
VERMILION
VERMILION DAM
VERMILION ON THE LAKE
VERMILIONVILLE
VERMILLION
VERMILLION ACRES
VERMILLION ESTATES
VERMONT
VERMONTVILLE
VERNAL
VERNALIS
VERNANT PARK
VERNDALE
VERNER
VERNON
VERNON CENTER
VERNON HILL
VERNON HILLS
VERNON ROCKVILLE
VERNON SPRINGS
VERNON-ROCKVILLE
VERNONIA
VERO BEACH
VERONA
VERONA BEACH
VERONA LANDING
VERPLANCK
VERRET
VERSAILLES
VERSHIRE
VERTREES
VESELI
VESPER
VEST
VESTA
VESTABURG
VESTAL
VESTAL CENTER
VESTAL GARDENS
VESTAVIA
VESTAVIA HILLS
VESUVIUS
VETAL
VETERAN
VETERANS ADMIN
VETERANS ADMIN FAC
VETERANS ADMIN. FAC.
VETERANS ADMINISTRATION
VETERANS ADMINISTRATION FACI
VETERANS ADMINISTRATION HOSP
VETERANS BENEFITS OFFICE
VETS ROW
VEVAY
VEYO
VIAN
VIBORAS
VIBORG
VIBURNUM
VICCO
VICHY
VICI
VICK
VICKERY
VICKSBURG
VICTOR
VICTORIA
VICTORIAS SECRET CATALOGUE
VICTORVILLE
VICTORY
VICTORY CITY
VICTORY MILLS
VIDA
VIDAL
VIDAL JUNCTION
VIDALIA
VIDETTE
VIDOR
VIENNA
VIERA
VIEREGG
VIETNAM VET MEM FUND
VIEUX CARRE
VIEW
VIEW MONT
VIEW PARK
VIEWFIELD
VIEWMONT
VIEWTOWN
VIGIL
VIGO PARK
VIGUS
VIKING
VILAS
VILLA BEACH
VILLA CAVAZOS
VILLA GRANDE
VILLA GROVE
VILLA HILLS
VILLA MARIA
VILLA NORTH
VILLA NUEVA
VILLA PARK
VILLA RICA
VILLA RIDGE
VILLA VERONA
VILLAGE
VILLAGE CREEK
VILLAGE GREEN
VILLAGE MILLS
VILLAGE OF FOUR SEASONS
VILLAGE OF GOLF
VILLAGE OF LAKEWOOD
VILLAGE OF NAGOG WOODS
VILLAGE OF OAKVIEW
VILLAGE OF PALM SPRINGS
VILLAGE STATION
VILLAMONT
VILLANOVA
VILLANUEVA
VILLARD
VILLAREALES
VILLAS
VILLE PLATTE
VILLEGREEN
VILLISCA
VILONIA
VINA
VINALHAVEN
VINCENNES
VINCENT
VINCENTOWN
VINE GROVE
VINEBURG
VINEGAR BEND
VINELAND
VINEMONT
VINES LOOP
VINEYARD
VINEYARD HAVEN
VINING
VININGS
VINITA
VINITA PARK
VINNINGS
VINSON
VINT HILL FARMS
VINTAGE
VINTON
VINTONDALE
VIOLA
VIOLET
VIOLET HILL
VIPER
VIRA
VIRDEN
VIRGIE
VIRGIL
VIRGILIA
VIRGILINA
VIRGIN
VIRGINIA
VIRGINIA BEACH
VIRGINIA CITY
VIRGINIA DALE
VIRGINIA FOOTHILLS
VIRGINIA GARDENS
VIRGINIA POINT
VIRGINIA TECH
VIRGINVILLE
VIRNER
VIROQUA
VISA
VISA LOTTERY
VISA MASTERCARD
VISALIA
VISCHER FERRY
VISTA
VISTA DEL MAR
VISTA GROVE
VIVIAN
VIXEN
VLG OF NAGOG WOODS
VLIETS
VOCA
VOGANVILLE
VOLANT
VOLBORG
VOLCANO
VOLCANOVILLE
VOLENTE
VOLGA
VOLIN
VOLNEY
VOLO
VOLTAIRE
VOLUNTEER
VOLUNTOWN
VON ORMY
VONA
VONACHEN KNOLLS
VONORE
VOORHEES
VOORHEES KIRKWOOD
VOORHEES TOWNSHIP
VOORHEESVILLE
VOORHIES
VORDEN
VOSS
VOTAW
VOTH
VOWELLS MILL
VOWINCKEL
VREDENBURGH
VROMAN
VULCAN
W HARTFORD
W ACTON
W ALEX
W ALEXANDER
W ALEXANDRIA
W AMHERST
W ASHEVILLE
W BABYLON
W BADEN SPGS
W BARNSTABLE
W BAY SHORE
W BECKET
W BELMAR
W BEND
W BETHESDA
W BLOOMFIELD
W BOUNTIFUL
W BOWDOIN
W BOWIE
W BRENTWOOD
W BRIDGEWATER
W BROOKFIELD
W BURLINGTON
W CARROLLTON
W CARTHAGE
W   CHARLESTON
W   CHESTER
W   CHESTERFIELD
W   CHESTERFLD
W   CHILLISQUAQ
W   CLARKSVILLE
W   COCOA
W   CONCORD
W   DENNIS
W   DES MOINES
W   DOVER
W   DUMMERSTON
W   ELIZABETH
W   FAIRVIEW
W   FALLS
W   FALMOUTH
W   FIELD
W   FRANKLIN
W   FULTON
W   GILGO BEACH
W   GLOVER
W   GREENWICH
W   GROTON
W   HAMPTON
W   HAMPTON BEACH
W   HARRISON
W   HATFIELD
W   HAVEN
W   HEMPSTEAD
W   HILLS
W   HOMESTEAD
W   HTFD
W   HURLEY
W   HYATTSVILLE
W   ISLIP
W   JEFFERSON
W   JORDAN
W   KEANSBURG
W   LAFAYETTE
W   LEBANON
W   LEIPSIC
W   LEISENRING
W   LINN
W   MANCHESTER
W   MANSFLD
W   MEDFORD
W   MIDDLESEX
W   MIDDLETON
W   MIDDLETOWN
W   MIFFLIN FIN
W   MIFFLIN/PLEASANT HILLS
W   MILLGROVE
W   MILTON
W   NEWTON
W   NOTTINGHAM
W   OKOBOJI
W   OSSIPEE
W   PANAMA CITY BEACH
W PATERSON
W PENNSBORO
W PETERBORO
W PETERBOROUGH
W PITTSBURG
W PLAINS
W ROXBURY
W RUSHVILLE
W SAINT PAUL
W SAYVILLE
W SENECA
W SHOKAN
W SPRINGFIELD
W ST PAUL
W STEWARTSTOWN
W STEWARTSTWN
W SUFFIELD
W SWANTON
W SWANZEY
W TERRE HAUTE
W TOWNSEND
W UPTON
W VALLEY
W WARDSBORO
W WAREHAM
W WARREN
W WARWICK
W WENDOVER
W WILLINGTON
W WINDSOR
W WINDSOR TOWNSHIP
W WOODSTOCK
W YARMOUTH
WA KEENEY
WAASA
WABAN
WABANINGO
WABASH
WABASHA
WABASSO
WABBASEKA
WABEDO
WABEK
WABENO
WABUSKA
WACCABUC
WACHAPREAGUE
WACHOVIA BLDG VIM
WACHOVIA MASTER CHRG
WACHULA
WACISSA
WACKER
WACO
WACONIA
WADDAMS GROVE
WADDELL
WADDINGTON
WADDY
WADE
WADENA
WADESBORO
WADESTOWN
WADESVILLE
WADEVILLE
WADHAMS
WADING RIVER
WADLEY
WADMALAW IS
WADMALAW ISLAND
WADSWORTH
WAELDER
WAGARVILLE
WAGENER
WAGGAMAN
WAGGONER
WAGNER
WAGON MOUND
WAGON WHEEL GAP
WAGONER
WAGONTOWN
WAGRAM
WAHATOYA
WAHIAWA
WAHKIACUS
WAHKON
WAHNETA
WAHOO
WAHPETON
WAIALUA
WAIANAE
WAIKOLOA
WAIKOLOA CS
WAILEA
WAILUKU
WAIMANALO
WAIMEA
WAINSCOTT
WAINWRIGHT
WAIPAHU
WAITE
WAITE HILL
WAITE PARK
WAITEVILLE
WAITS
WAITS RIVER
WAITSBURG
WAITSFIELD
WAITSFIELD COMMON
WAKA
WAKARUSA
WAKE
WAKE CROSSROADS
WAKE FOREST
WAKE ISLAND
WAKE VILLAGE
WAKEENEY
WAKEFIELD
WAKEFIELD VILLAGE
WAKEMAN
WAKENDA
WAKITA
WAKONDA
WAKPALA
WAKULLA SPRINGS
WALBRIDGE
WALBROOK
WALBURG
WALCOTT
WALDECK
WALDEN
WALDENBURG
WALDO
WALDOBORO
WALDORF
WALDPORT
WALDRIP
WALDRON
WALDRON LAKE
WALDWICK
WALES
WALES CENTER
WALES TOWNSHIP
WALESKA
WALESVILLE
WALFORD
WALHALLA
WALHONDING
WALKER
WALKER LAKE
WALKER LANDING
WALKER SPGS
WALKER SPRINGS
WALKER VALLEY
WALKERS MILL
WALKERSVILLE
WALKERTON
WALKERTOWN
WALKERVILLE
WALL
WALL LAKE
WALL STREET BRM
WALLA WALLA
WALLACE
WALLACE RIDGE
WALLACETON
WALLAGRASS
WALLAND
WALLBACK
WALLBURG
WALLED LAKE
WALLER
WALLING
WALLINGFORD
WALLINGTON
WALLINS
WALLINS CREEK
WALLIS
WALLIS RUN
WALLISVILLE
WALLKILL
WALLKILL LAKE
WALLOOMSAC
WALLOON LAKE
WALLOPS ISLAND
WALLOWA
WALLPACK CENTER
WALLSBURG
WALLSEND
WALLULA
WALMSLEY
WALNUT
WALNUT BOTTOM
WALNUT CITY
WALNUT COVE
WALNUT CREEK
WALNUT GROVE
WALNUT HEIGHTS
WALNUT HILL
WALNUT HILLS
WALNUT HTS
WALNUT PARK
WALNUT PRAIRIE
WALNUT RIDGE
WALNUT SHADE
WALNUT SPRINGS
WALNUTPORT
WALNUTTOWN
WALPI
WALPOLE
WALSENBURG
WALSH
WALSH STATION
WALSHVILLE
WALSTON
WALSTONBURG
WALTER DRAKE
WALTER REED ARMY MED CENTER
WALTERBORO
WALTERS
WALTERSBURG
WALTERVILLE
WALTHAM
WALTHILL
WALTHOURVILLE
WALTON
WALTON HILLS
WALTONVILLE
WALTZ
WALUM
WALWORTH
WAMAC
WAMEGO
WAMIC
WAMPOO
WAMPSVILLE
WAMPUM
WAMSUTTER
WAN I GAN
WANA
WANAKENA
WANAMAKER
WANAMAKERS
WANAMASSA
WANAMINGO
WANAQUE
WANATAH
WANBLEE
WANCHESE
WANDA
WANDA LAKE
WANDEROOS
WANDO
WANETA
WANETTE
WANKERS CORNERS
WANLOCK
WANN
WANNASKA
WANO
WANSHIP
WANTAGE
WANTAGE TWP
WANTAGH
WAPAK
WAPAKONETA
WAPANUCKA
WAPATO
WAPELLA
WAPELLO
WAPITI
WAPPAPELLO
WAPPING
WAPPINGER
WAPPINGERS FALLS
WAPWALLOPEN
WAQUOIT
WAR
WARBA
WARBRANCH
WARCO
WARD
WARD COVE
WARD HILL
WARD PRAIRIE
WARDA
WARDBORO
WARDELL
WARDEN
WARDENSVILLE
WARDNER
WARDS CREEK
WARDS IS
WARDS ISLAND
WARDSBORO
WARDSBOROUGH
WARDSVILLE
WARDTOWN
WARDVILLE
WARE
WARE NECK
WARE SHOALS
WAREHAM
WAREHOUSE POINT
WARESBORO
WARETOWN
WARFIELD
WARFORDSBURG
WARING
WARLOCK
WARM LAKE
WARM RIVER
WARM SPRINGS
WARMAN
WARMINSTER
WARNE
WARNER
WARNER ROBINS
WARNER SPRINGS
WARNERS
WARNERVILLE
WARNOCK
WARR ACRES
WARREN
WARREN CENTER
WARREN GROVE
WARRENDALE
WARRENS
WARRENSBURG
WARRENSVILLE
WARRENSVILLE HEIGHTS
WARRENSVILLE HTS
WARRENTON
WARRENVILLE
WARRINGTON
WARRIOR
WARRIOR RUN
WARRIORMINE
WARRIORS MARK
WARROAD
WARSAW
WARSON WOODS
WARTBURG
WARTHEN
WARTRACE
WARWICK
WARWOOD
WASCO
WASCOTT
WASECA
WASH
WASH GAS
WASHBURN
WASHGTIN
WASHING
WASHINGTN
WASHINGTN C H
WASHINGTN PARK
WASHINGTON
WASHINGTON BMC
WASHINGTON BORO
WASHINGTON BRIDGE
WASHINGTON CH
WASHINGTON COURT HOUSE
WASHINGTON CROSSING
WASHINGTON DC POST OFFICE
WASHINGTON DEPOT
WASHINGTON GAS
WASHINGTON GREEN
WASHINGTON GROVE
WASHINGTON HT
WASHINGTON INTEL BUR
WASHINGTON ISLAND
WASHINGTON MILLS
WASHINGTON NAVY YARD
WASHINGTON PARK
WASHINGTON PK
WASHINGTON POST
WASHINGTON STREET
WASHINGTON TERRACE
WASHINGTON TNSHP
WASHINGTON TOWNSHIP
WASHINGTON TWNSHP
WASHINGTON TWP
WASHINGTON TWPS
WASHINGTON TWSP
WASHINGTON XING
WASHINGTONS BIRTHPLACE
WASHINGTONVILLE
WASHITA
WASHOE
WASHOE VALLEY
WASHOUGAL
WASHTA
WASHTUCNA
WASILLA
WASIOJA
WASKISH
WASKOM
WASOLA
WASSAIC
WASSON
WASTA
WASTEDO
WASTELLA
WATAGA
WATAUGA
WATCH HILL
WATCHUNG
WATER DEPARTMENT
WATER GAP
WATER MILL
WATER VALLEY
WATER VIEW
WATERBORO
WATERBURY
WATERBURY CENTER
WATEREE
WATERFALL
WATERFLOW
WATERFORD
WATERFORD SPUR
WATERFORD TOWNSHIP
WATERFORD WORKS
WATERGAP
WATERLOO
WATERMAN
WATERMILL
WATERPORT
WATERPROOF
WATERS
WATERS BLUFF
WATERSMEET
WATERTOWN
WATERTOWN FINANCIAL
WATERVIEW
WATERVILLE
WATERVILLE VALLEY
WATERVILLE VLY
WATERVLIET
WATFORD CITY
WATFORD CTY
WATFORD CY
WATHA
WATHENA
WATKINS
WATKINS GLEN
WATKINSVILLE
WATONGA
WATOVA
WATROUS
WATSEKA
WATSESSING
WATSON
WATSONIA
WATSONTOWN
WATSONVILLE
WATT
WATTENBURG
WATTENSAW
WATTON
WATTS
WATTS BAR DAM
WATTS MILL
WATTSBURG
WATTSVILLE
WAUBAY
WAUBEEK
WAUBEKA
WAUBUN
WAUCHULA
WAUCOMA
WAUCONDA
WAUGHTOWN
WAUKAU
WAUKEE
WAUKEGAN
WAUKENA
WAUKENABO
WAUKESHA
WAUKOMIS
WAUKON
WAUKON JUNCTION
WAUMANDEE
WAUNA
WAUNA SHORES
WAUNAKEE
WAUNCH PRAIRIE
WAUNETA
WAUPACA
WAUPUN
WAUREGAN
WAURIKA
WAUSA
WAUSAU
WAUSAUKEE
WAUSEON
WAUTAUGA BEACH
WAUTOMA
WAUWATOSA
WAUZEKA
WAVE CREST
WAVELAND
WAVERLEY
WAVERLY
WAVERLY HALL
WAVES
WAWA
WAWAKA
WAWARSING
WAWATOSA
WAWINA
WAWONA
WAX
WAXAHACHIE
WAXHAW
WAYAN
WAYCROSS
WAYLAND
WAYMART
WAYNE
WAYNE CENTER
WAYNE CITY
WAYNE HEIGHTS
WAYNECASTLE
WAYNEDALE
WAYNESBORO
WAYNESBURG
WAYNESFIELD
WAYNESVILLE
WAYNETOWN
WAYNOKA
WAYSIDE
WAYSIDE NURSERIES
WAYTON
WAYZATA
WBAMC
WDBERRY FORST
WDBG
WEARE
WEARGUARD
WEATHERBY
WEATHERBY LAKE
WEATHERFORD
WEATHERLY
WEATHERSFIELD
WEATHERSFIELD BOW
WEATHERSFIELD CENTER
WEATOGUE
WEAUBLEAU
WEAVER
WEAVERLAND
WEAVERSFORD
WEAVERTOWN
WEAVERVILLE
WEBB
WEBB CITY
WEBB LAKE
WEBBER
WEBBERS FALLS
WEBBERVILLE
WEBBS CROSS ROADS
WEBBVILLE
WEBER
WEBER CITY
WEBSTER
WEBSTER CITY
WEBSTER CROSSING
WEBSTER GROVES
WEBSTER MILLS
WEBSTER PARK
WEBSTER SPRINGS
WEBSTER SQUARE
WEBSTERS UNIFIED
WEBSTERVILLE
WEBTOWN
WECHES
WECOTA
WEDDERBURN
WEDDINGTON
WEDGEFIELD
WEDGWOOD
WEDONIA
WEDOWEE
WEDRON
WEED
WEED HEIGHTS
WEEDHAVEN
WEEDSPORT
WEEDVILLE
WEEHAWKEN
WEEKI WACHEE
WEEKS MILLS
WEEKSBURY
WEEKSTOWN
WEEMS
WEEPING WATER
WEEQUAHIC
WEESATCHE
WEGATCHIE
WEIDMAN
WEIDMANVILLE
WEIGH SCALE
WEIKEL
WEIKERT
WEIL
WEIMAR
WEIN
WEINER
WEINERT
WEINGARTEN
WEIPPE
WEIR
WEIRS BEACH
WEIRSDALE
WEIRTON
WEIRWOOD
WEISBURG
WEISER
WEISHAMPLE
WEISSERT
WEISSPORT
WEITCHPEC
WEITZ
WEKIVA SPRINGS
WELAKA
WELBY
WELCH
WELCHES
WELCHS CREEK
WELCOME
WELD
WELDA
WELDON
WELDON SPRING
WELDON SPRING HEIGHTS
WELDONA
WELEETKA
WELGE
WELLBORN
WELLER
WELLERSBURG
WELLESLEY
WELLESLEY FMS
WELLESLEY HILLS
WELLESLEY ISLAND
WELLFLEET
WELLFORD
WELLING
WELLINGTON
WELLMAN
WELLPINIT
WELLS
WELLS BRIDGE
WELLS FARGO
WELLS RIVER
WELLS TANNERY
WELLSBORO
WELLSBURG
WELLSTON
WELLSVILLE
WELLTON
WELSH
WELSH RUN
WELTON
WELTONVILLE
WELTY
WELTYS
WEMME
WENATCHEE
WENATCHEE HEIGHTS
WENDEL
WENDELIN
WENDELL
WENDELL DEPOT
WENDEN
WENDOVER
WENDT
WENHAM
WENONA
WENONAH
WENTWORTH
WENTWORTH SPRINGS
WENTZ
WENTZVILLE
WEOGUFKA
WEOTT
WEQUETONSING
WERNER
WERNERSVILLE
WERTZVILLE
WESCO
WESCOSVILLE
WESER
WESKAN
WESLACO
WESLEY
WESLEY CHAPEL
WESLEY HILLS
WESLEYAN
WESLEYVILLE
WESO
WESSINGTON
WESSINGTON SPRINGS
WEST
WEST HARTFORD
WEST ACRES
WEST ACTON
WEST ADAMS
WEST ADDISON
WEST AKRON
WEST ALEX
WEST ALEXANDER
WEST ALEXANDRIA
WEST ALIQUIPPA
WEST ALLENHURST
WEST ALLIS
WEST ALTON
WEST AMANA
WEST AMERICAN INS
WEST AMHERST
WEST AMWELL
WEST ANDOVER
WEST ANNVILLE
WEST ARLINGTON
WEST ASHFORD
WEST ASHVILLE
WEST ATCO
WEST ATHERTON
WEST ATLANTIC CITY
WEST AUGUSTA
WEST BABYLON
WEST BADEN SPRINGS
WEST BAINBRIDGE
WEST BALDWIN
WEST BANGOR
WEST BARABOO
WEST BARNET
WEST BARNSTABLE
WEST BATH
WEST BAY SHORE
WEST BEACH STATION
WEST BEAVER
WEST BELMAR
WEST BEND
WEST BERKSHIRE
WEST BERLIN
WEST BERNE
WEST BETHEL
WEST BETHESDA
WEST BINGHAM
WEST BLOCTON
WEST BLOOMFIELD
WEST BLUE
WEST BOLTON
WEST BOOTHBAY HARBOR
WEST BOUNTIFUL
WEST BOWDOIN
WEST BOXFORD
WEST BOYLSTON
WEST BRADENTON
WEST BRAINTREE
WEST BRANCH
WEST BRATTLEBORO
WEST BRENTWOOD
WEST BRIDGEWATER
WEST BRISTOL
WEST BROOK ACRES
WEST BROOKFIELD
WEST BROOKLYN
WEST BRUNSWICK
WEST BUECHEL
WEST BUFFALO
WEST BURKE
WEST BURLINGTON
WEST BUSH
WEST BUXTON
WEST CALDWELL
WEST CAMERON
WEST CAMP
WEST CANDOR
WEST CAPE MAY
WEST CARROLLTON
WEST CARTERET
WEST CARTHAGE
WEST CASE
WEST CASTLETON
WEST CHARLESTON
WEST CHARLTON
WEST CHATHAM
WEST CHAZY
WEST CHENANGO
WEST CHESTER
WEST CHESTERFIELD
WEST CHICAGO
WEST CHOP
WEST CITY
WEST CLARKSFIELD
WEST CLARKSVILLE
WEST COLESVILLE
WEST COLLEGE CORNER
WEST COLLINGSWOOD
WEST COLLINGSWOOD HEIGHTS
WEST COLUMBIA
WEST CONCORD
WEST CONSHOHOCKEN
WEST COPAKE
WEST CORINTH
WEST CORNERS
WEST CORNWALL
WEST COVINA
WEST COXSACKIE
WEST CREEK
WEST CRESSONA
WEST CROSSETT
WEST CUMMINGTON
WEST DANBY
WEST DANVILLE
WEST DAVENPORT
WEST DEAL
WEST DECATUR
WEST DEERFIELD
WEST DELHI
WEST DELRAY BEACH
WEST DENNIS
WEST DERBY
WEST DES MOINES
WEST DONEGAL
WEST DOVER
WEST DULUTH
WEST DUMMERSTON
WEST DUNDEE
WEST DURHAM
WEST EASTON
WEST EATON
WEST EDMESTON
WEST ELIZABETH
WEST ELKTON
WEST ELWOOD
WEST ELY
WEST EMINENCE
WEST END
WEST ENDICOTT
WEST ENFIELD
WEST ENGLEWOOD
WEST ENOLA
WEST ENOSBURG
WEST EXETER
WEST FAIRLEE
WEST FAIRVIEW
WEST FALLS
WEST FALMOUTH
WEST FARGO
WEST FARM
WEST FARMINGTON
WEST FARMS
WEST FARMS MALL
WEST FERRISBURG
WEST FINLEY
WEST FORK
WEST FORKS
WEST FORT ANN
WEST FORT DODGE
WEST FORT LEE
WEST FRANKFORT
WEST FRANKLIN
WEST FRIENDSHIP
WEST FROST PROOF
WEST FULTON
WEST GALVESTON
WEST GARDINER
WEST GILGO BEACH
WEST GLACIER
WEST GLENS FALLS
WEST GLENVILLE
WEST GLENWOOD
WEST GLOVER
WEST GRANBY
WEST GRANVILLE
WEST GREEN
WEST GREENE
WEST GREENWICH
WEST GROTON
WEST GROUP
WEST GROVE
WEST GUM SPRINGS
WEST HALIFAX
WEST HALLOCK
WEST HAMBURG
WEST HAMLIN
WEST HAMPTON
WEST HAMPTON BEACH
WEST HANOVER
WEST HARPERSFIELD
WEST HARRISON
WEST HARTFORD
WEST HARTLAND
WEST HARWICH
WEST HATFIELD
WEST HAVEN
WEST HAVERSTRAW
WEST HAWLEY
WEST HAZLETON
WEST HEBRON
WEST HELENA
WEST HEMLOCK
WEST HEMPSTEAD
WEST HENRIETTA
WEST HICKORY
WEST HILL
WEST HILLS
WEST HILLSBOROUGH
WEST HOLLYWOOD
WEST HOMESTEAD
WEST HURLEY
WEST HYANNISPORT
WEST HYATTSVILLE
WEST INDIANAPOLIS
WEST IRVINE
WEST ISLIP
WEST JEFFERSON
WEST JERSEY
WEST JORDAN
WEST JUNIUS
WEST KAYSVILLE
WEST KEANSBURG
WEST KENNEBUNK
WEST KILL
WEST KINGSTON
WEST LAFAYETTE
WEST LAKE HILLS
WEST LAKE WALES
WEST LAKELAND
WEST LANCASTER
WEST LAS VEGAS
WEST LATHAM
WEST LAURENS
WEST LAWN
WEST LAYTON
WEST LEBANON
WEST LEE
WEST LEECHBURG
WEST LEIPSIC
WEST LEISENRING
WEST LEROY
WEST LEXINGTON
WEST LEYDEN
WEST LIBERTY
WEST LIMA
WEST LINCOLN
WEST LINE
WEST LINN
WEST LINTON
WEST LOGAN
WEST LONG BRANCH
WEST LOS ANGELES
WEST LOUISVILLE
WEST LOWVILLE
WEST LYNN
WEST MANCHESTER
WEST MANSFIELD
WEST MARCHE
WEST MARLBORO
WEST MCLEAN
WEST MECCA
WEST MEDFORD
WEST MELBOURNE
WEST MEMPHIS
WEST MENLO PARK
WEST MEREDITH
WEST MIAMI
WEST MIDDLESEX
WEST MIDDLETON
WEST MIDDLETOWN
WEST MIFFLIN
WEST MIFFLIN CENTURY MALL
WEST MIFFLIN FINANCE
WEST MILFORD
WEST MILFORD LAKES
WEST MILLBURY
WEST MILLGROVE
WEST MILTMORE
WEST MILTON
WEST MILWAUKEE
WEST MINEOLA
WEST MINERAL
WEST MINOT
WEST MINSTER
WEST MONOCACY
WEST MONROE
WEST MUNCIE
WEST MYSTIC
WEST NANTICOKE
WEST NEW YORK
WEST NEWARK
WEST NEWBURY
WEST NEWFIELD
WEST NEWTON
WEST NOTTINGHAM
WEST NYACK
WEST OCEAN CITY
WEST OKOBOJI
WEST OLIVE
WEST ONEONTA
WEST ORANGE
WEST OSSIPEE
WEST OTIS
WEST PADUCAH
WEST PALM BCH
WEST PALM BEACH
WEST PALM SPRINGS
WEST PANAMA CITY BEACH
WEST PARIS
WEST PARISHVILLE
WEST PARK
WEST PATERSON
WEST PAWLET
WEST PAYNE
WEST PEABODY
WEST PENN
WEST PEORIA
WEST PERRY
WEST PERU
WEST PETERBOROUGH
WEST PETERSBURG
WEST PIERREPONT
WEST PIKE
WEST PITTSBURG
WEST PITTSTON
WEST PLAINS
WEST PLATTSBURGH
WEST POINT
WEST POINT MILITARY RESERVAT
WEST POINTE A LA HACHE
WEST POLAND
WEST PORT ARTHUR
WEST PORTSMOUTH
WEST POTSDAM
WEST QUINCY
WEST READING
WEST REDDING
WEST RENOVO
WEST RICHFIELD
WEST RICHLAND
WEST RICHMONDVILLE
WEST RIDGE
WEST RIVER
WEST ROCK
WEST ROCKPORT
WEST ROXBURY
WEST RUPERT
WEST RUSH
WEST RUSHVILLE
WEST RUTLAND
WEST SACRAMENTO
WEST SAINT PAUL
WEST SALEM
WEST SALISBURY
WEST SAND LAKE
WEST SAUGERTIES
WEST SAYVILLE
WEST SCARBOROUGH
WEST SEATTLE
WEST SEDONA
WEST SENECA
WEST SHOKAN
WEST SIDE
WEST SIMSBURY
WEST SLOPE
WEST SOMERSET
WEST SOMERVILLE
WEST SPRINGFIELD
WEST SPRINGFLD
WEST ST PAUL
WEST STAFFORD
WEST STAYTON
WEST STEWARTSTOWN
WEST STOCKBRIDGE
WEST STOCKBRIDGE CENTER
WEST STOCKHOLM
WEST STORM LAKE
WEST SUFFIELD
WEST SUNBURY
WEST SWANTON
WEST SWANZEY
WEST TAWAKONI
WEST TERRE HAUTE
WEST TEXAS CITY
WEST TISBURY
WEST TOLUCA LAKE
WEST TOPSHAM
WEST TOWNSEND
WEST TOWNSHEND
WEST TREMONT
WEST TRENTON
WEST TRUCKEE
WEST TUCKERTON
WEST TURIN
WEST UNION
WEST UNITY
WEST UNIVERSITY PLACE
WEST UPTON
WEST VAIL
WEST VALLEY
WEST VALLEY CITY
WEST VALLEY FALLS
WEST VAN LEAR
WEST VIEW
WEST VILLAGE
WEST VIOLA
WEST WARDSBORO
WEST WAREHAM
WEST WARREN
WEST WARWICK
WEST WATERFORD
WEST WAUREGAN
WEST WEBER
WEST WENATCHEE
WEST WENDOVER
WEST WHATELY
WEST WILDWOOD
WEST WILLOW
WEST WIN TOW
WEST WINDSOR
WEST WINFIELD
WEST WOODS
WEST WOODSTOCK
WEST WYOMING
WEST WYOMISSING
WEST YARMOUTH
WEST YELLOWSTONE
WEST YORK
WESTAMPTON
WESTAMPTON TOWNSHIP
WESTBEND
WESTBORO
WESTBOROUGH
WESTBOYLSTON
WESTBROOK
WESTBROOK PARK
WESTBROOKFIELD
WESTBROOKVILLE
WESTBURY
WESTBY
WESTCHASE
WESTCHESTER
WESTCLIFFE
WESTDALE
WESTEL
WESTERLO
WESTERLY
WESTERN
WESTERN AREA
WESTERN GROVE
WESTERN HILLS
WESTERN I R S CENTER
WESTERN SPRINGS
WESTERNPORT
WESTERNVILLE
WESTERVELT
WESTERVILLE
WESTFALL
WESTFIELD
WESTFIELD CENTER
WESTFIELD TER
WESTFIR
WESTFORD
WESTGATE
WESTHAMPTON
WESTHAMPTON BEACH
WESTHAMPTON DUNES
WESTHAVEN
WESTHOFF
WESTHOPE
WESTINGHOUSE AIR BRAKE
WESTLAKE
WESTLAKE VILLAGE
WESTLAND
WESTLEY
WESTLINE
WESTMANLAND
WESTMARK
WESTMERE
WESTMINSTER
WESTMINSTER PARK
WESTMINSTER STATION
WESTMINSTER WEST
WESTMONT
WESTMORE
WESTMORELAND
WESTMORELAND CITY
WESTMORLAND
WESTON
WESTON MILLS
WESTON PLACE
WESTON PRIORY
WESTONS MILLS
WESTOVER
WESTOVER ACRES
WESTOVER AFB
WESTOVER HILLS
WESTPHALIA
WESTPOINT
WESTPORT
WESTPORT ADDITION
WESTPORT ADDN
WESTPORT POINT
WESTSIDE
WESTTOWN
WESTVALE
WESTVERN
WESTVIEW
WESTVILLE
WESTVILLE CENTER
WESTVILLE GROVE
WESTVILLE LAKE
WESTWEGO
WESTWOOD
WESTWOOD AREA 2
WESTWOOD HILLS
WESTWOOD LAKE
WESTWOOD VILLAGE
WESTWORTH VILLAGE
WETAUG
WETH
WETHERSFIELD
WETHERSFLD
WETMORE
WETMOREXX
WETONA
WETONKA
WETUMKA
WETUMPKA
WEURTSBURG
WEVER
WEVERTOWN
WEWAHITCHKA
WEWELA
WEWOKA
WEXFORD
WEY LAKE
WEYANOKE
WEYAUWEGA
WEYBRIDGE
WEYBRIDGE HILL
WEYERHAEUSER
WEYERS CAVE
WEYMOUTH
WEYMOUTH LNDG
WEYMOUTH NAS
WHALAN
WHALEY
WHALEY LAKE
WHALEYVILLE
WHALLONSBURG
WHARNCLIFFE
WHARTON
WHAT CHEER
WHATELY
WHATLEY
WHATLEY LANDING
WHEAT RIDGE
WHEATCROFT
WHEATFIELD
WHEATLAND
WHEATLEY
WHEATLEY HEIGHTS
WHEATON
WHEATONVILLE
WHEELER
WHEELER ARMY AIRFIELD
WHEELERSBURG
WHEELERVILLE
WHEELING
WHEELOCK
WHEELON
WHEELWRIGHT
WHELEN SPRINGS
WHETSTONE
WHICK
WHIDBEY ISLAND NAVAL AIR
WHIGHAM
WHIPHOLT
WHIPPANY
WHIPPLE
WHIPPLEVILLE
WHISKEY FLATS
WHISKEYTOWN
WHISPERING OAKS
WHISPERING PINES
WHISTLER
WHITACRE
WHITAKER
WHITAKERS
WHITAKERVILLE
WHITBY
WHITCOMB
WHITCOMB HEIGHTS
WHITE
WHITE BEAR
WHITE BEAR LAKE
WHITE BEAR TOWNSHIP
WHITE BIRD
WHITE BLUFF
WHITE BUTTE
WHITE CASTLE
WHITE CENTER
WHITE CITY
WHITE CLAY
WHITE CLOUD
WHITE COTTAGE
WHITE CREEK
WHITE DEER
WHITE EARTH
WHITE ELM
WHITE HALL
WHITE HAVEN
WHITE HEATH
WHITE HILL
WHITE HORSE
WHITE HORSE BEACH
WHITE HOUSE
WHITE HOUSE STAFF
WHITE HOUSE STATION
WHITE LAKE
WHITE MARSH
WHITE MESA
WHITE MILLS
WHITE MOUNTAIN
WHITE MOUNTAIN LAKE
WHITE OAK
WHITE OWL
WHITE PASS
WHITE PIGEON
WHITE PINE
WHITE PLAINS
WHITE POND
WHITE POST
WHITE RIVER
WHITE RIVER BLUFFS
WHITE RIVER JUNCTION
WHITE ROCK
WHITE RVR BLFS
WHITE SALMON
WHITE SANDS
WHITE SANDS MISSILE RANGE
WHITE SETTLEMENT
WHITE SHIELD
WHITE SPRINGS
WHITE STONE
WHITE SULPHUR SPRINGS
WHITE SWAN
WHITE TOWER
WHITE WATER
WHITECLAY
WHITEFACE
WHITEFACE MOUNTAIN
WHITEFIELD
WHITEFISH
WHITEFISH BAY
WHITEFORD
WHITEHALL
WHITEHAVEN
WHITEHEAD
WHITEHORSE
WHITEHOUSE
WHITEHOUSE STATION
WHITELAND
WHITELAW
WHITEMAN AIR FORCE BASE
WHITEOAK
WHITERIVER
WHITEROCKS
WHITES
WHITES ADDITION
WHITES CHAPEL
WHITES CITY
WHITES CREEK
WHITES CROSSING
WHITES XING
WHITESBORO
WHITESBURG
WHITESIDE
WHITESPRINGS
WHITESTONE
WHITESTOWN
WHITESVILLE
WHITETAIL
WHITETHORN
WHITETOP
WHITETOWN
WHITEVILLE
WHITEWATER
WHITEWOOD
WHITEWRIGHT
WHITFIELD
WHITHARRAL
WHITING
WHITINGHAM
WHITINSVILLE
WHITLASH
WHITLEY CITY
WHITLEY HEIGHTS
WHITLEYVILLE
WHITMAN
WHITMER
WHITMIRE
WHITMORE
WHITMORE LAKE
WHITNEL
WHITNEY
WHITNEY POINT
WHITNEYVILLE
WHITSETT
WHITSON
WHITT
WHITTAKER
WHITTEMORE
WHITTEN
WHITTIER
WHITTIER ASB
WHITTINGTON
WHITTLESEY
WHITWELL
WHON
WHTDEER
WHY
WIBAUX
WICCOPEE
WICHITA
WICHITA FALLS
WICK
WICKATUNK
WICKENBURG
WICKER PARK
WICKES
WICKETT
WICKFORD
WICKHAM SPUR
WICKHAVEN
WICKLIFFE
WICKSVILLE
WICOMICO
WICOMICO CHUR
WICOMICO CHURCH
WICONISCO
WIDE RUINS
WIDECREEK
WIDEFIELD
WIDEMAN
WIDEN
WIDENER
WIDNER
WIDNOON
WIDOWVILLE
WIED
WIEDERKEHR VILLAGE
WIERGATE
WIESTON
WIGGANS
WIGGINS
WIKIEUP
WILA
WILBAR
WILBER
WILBERFORCE
WILBERN
WILBERTON
WILBRAHAM
WILBUR
WILBUR SPRINGS
WILBURN
WILBURTON
WILCOE
WILCOX
WILD HORSE
WILD PEACH VILLAGE
WILD RICE
WILD ROSE
WILDA
WILDCAT
WILDCAT LAKE
WILDER
WILDERNESS VILLAGE
WILDERS GROVE
WILDERSVILLE
WILDERVILLE
WILDHORSE MESA
WILDIE
WILDOMAR
WILDORADO
WILDROSE
WILDSVILLE
WILDWOOD
WILDWOOD CAMP
WILDWOOD CITY
WILDWOOD CREST
WILDWOOD LAKE
WILDWOOD LANDING
WILEY
WILEY FORD
WILEYS CORNER
WILEYVILLE
WILFORD
WILFORD HALL U S A F HOSP
WILFRED
WILHELM
WILHOIT
WILKES BARRE
WILKES BARRE TOWNSHIP
WILKESBORO
WILKESON
WILKESVILLE
WILKINS
WILKINSBURG
WILKINSON
WILKINSONVILLE
WILKINSVILLE
WILLACOOCHEE
WILLAMAR
WILLAMETTE
WILLAMINA
WILLAPA
WILLARD
WILLARDS
WILLAURA ESTATES
WILLCOX
WILLERNIE
WILLET
WILLETSVILLE
WILLEY
WILLEYS
WILLHITE
WILLIAM PENN ANNEX EAST
WILLIAM PENN ANNEX WEST
WILLIAMS
WILLIAMS ACRES
WILLIAMS BAY
WILLIAMS CENTER
WILLIAMS GRV
WILLIAMS JUNCTION
WILLIAMS MOUNTAIN
WILLIAMS TOWNSHIP
WILLIAMSBRIDGE
WILLIAMSBURG
WILLIAMSFIELD
WILLIAMSON
WILLIAMSPORT
WILLIAMSTN
WILLIAMSTON
WILLIAMSTOWN
WILLIAMSVILLE
WILLIANA
WILLIFORD
WILLIMANSETT
WILLIMANTIC
WILLINGBORO
WILLINGTON
WILLIS
WILLIS WHARF
WILLISBURG
WILLISTON
WILLISTON PARK
WILLISVILLE
WILLITS
WILLMAR
WILLMATHSVILLE
WILLOUGHBY
WILLOUGHBY HILLS
WILLOW
WILLOW BEACH
WILLOW BEND
WILLOW BRANCH
WILLOW BRK
WILLOW BROOK
WILLOW CITY
WILLOW CREEK
WILLOW GLEN
WILLOW GROVE
WILLOW HILL
WILLOW ISLAND
WILLOW LAKE
WILLOW OAK
WILLOW PARK
WILLOW POINT
WILLOW RANCH
WILLOW RIDGE
WILLOW RIVER
WILLOW RUN
WILLOW SHADE
WILLOW SPRING
WILLOW SPRINGS
WILLOW STREET
WILLOW TREE
WILLOW VALLEY
WILLOW VIEW HEIGHTS
WILLOW WOOD
WILLOWBROOK
WILLOWCREEK
WILLOWDALE
WILLOWICK
WILLOWS
WILLOWVALE
WILLS CROSSROADS
WILLS POINT
WILLSBORO
WILLSBORO POINT
WILLSEYVILLE
WILLSHIRE
WILLWOOD
WILM
WILMAR
WILMER
WILMERDING
WILMETH
WILMETTE
WILMINGTON
WILMINGTON ISLAND
WILMINGTON MEDICAL CENTER
WILMINGTON TRUST
WILMONT
WILMORE
WILMOT
WILMOT FLAT
WILNA
WILPEN
WILSALL
WILSEY
WILSEYVILLE
WILSHIRE PARK
WILSHIRE-LA BREA
WILSIE
WILSON
WILSON CORNER
WILSON CREEK
WILSON LAKE
WILSONA
WILSONA GARDENS
WILSONBURG
WILSONDALE
WILSONIA
WILSONS
WILSONS MILL
WILSONS MILLS
WILSONVILLE
WILTON
WILTON CENTER
WILTON MANORS
WIMAUMA
WIMBERLEY
WIMBLEDON
WINAMAC
WINBURNE
WINCHENDON
WINCHENDON SPRINGS
WINCHESTER
WINCHESTER BAY
WINCHESTER CENTER
WINCHESTER HILLS
WINCOMA
WIND BLOW
WIND CAVE
WIND GAP
WIND LAKE
WIND RIDGE
WINDBER
WINDCREST
WINDEMERE LAKE
WINDER
WINDERMERE
WINDERS CROSS ROADS
WINDFALL
WINDHAM
WINDING GULF
WINDING HILL
WINDLEY KEY
WINDMILL POINT
WINDMILL PT
WINDOM
WINDOW ROCK
WINDSOR
WINDSOR CASTLE
WINDSOR FARMS
WINDSOR HEIGHTS
WINDSOR HILLS
WINDSOR LOCKS
WINDSOR MILL
WINDSOR MILLS
WINDSOR PARK
WINDSORVILLE
WINDTHORST
WINDY
WINDY GAP
WINDY POINT
WINDYVILLE
WINE HILL
WINESBURG
WINFALL
WINFIELD
WINFIELD PARK
WINFRED
WINFREE
WING
WING RIVER
WINGANON
WINGATE
WINGDALE
WINGER
WINGETT RUN
WINGINA
WINGO
WINHALL
WINIFRED
WINIFREDE
WINIGAN
WINK
WINKELMAN
WINKLE
WINKLER
WINLOCK
WINN
WINNABOW
WINNEBAGO
WINNEBAGO HEIGHTS
WINNECONNE
WINNEMUCCA
WINNEMUCCA COLONY
WINNER
WINNETKA
WINNETOON
WINNETT
WINNFIELD
WINNIE
WINNISQUAM
WINNSBORO
WINNSBORO MILLS
WINONA
WINONA LAKE
WINOOSKI
WINSIDE
WINSLOW
WINSLOW PARK
WINSOR
WINSTED
WINSTON
WINSTON SALEM
WINSTON SALEM BUSINESS REPLY
WINSTON SALEM COURTESY REPLY
WINSTON-SALEM
WINTER
WINTER BEACH
WINTER GARDEN
WINTER HARBOR
WINTER HAVEN
WINTER HILL
WINTER HVN
WINTER PARK
WINTER SPRINGS
WINTERGREEN
WINTERHAVEN
WINTERPORT
WINTERS
WINTERS CHAPEL
WINTERSET
WINTERSVILLE
WINTERTHUR
WINTERVILLE
WINTHROP
WINTHROP HARBOR
WINTHROP HBR
WINTHROP HLDS
WINTON
WINWOOD
WIOTA
WIRT
WIRTZ
WISACKY
WISCASSET
WISCONSIN DELLS
WISCONSIN FULFILLMENT
WISCONSIN RAPIDS
WISCOTTA
WISCOY
WISDOM
WISE
WISE RIVER
WISEMAN
WISETOWN
WISHEK
WISHKAH
WISHON
WISHRAM
WISNER
WISTER
WITCH WELLS
WITHAMS
WITHAMSVILLE
WITHEE
WITHERBEE
WITHERS MILL
WITHERSPOON
WITHROW
WITMER
WITMER MANOR
WITOKA
WITT
WITTELL
WITTEN
WITTENBERG
WITTENSVILLE
WITTER
WITTER SPRINGS
WITTING
WITTMAN
WITTMANN
WITTS
WITTS SPRINGS
WIVILLE
WIXOM
WLMG
WMSBG
WMSTOWN
WOBURN
WODEN
WOFFORD HEIGHTS
WOLBACH
WOLCO
WOLCOTT
WOLCOTTVILLE
WOLF
WOLF BAYOU
WOLF COAL
WOLF CREEK
WOLF ISLAND
WOLF LAKE
WOLF PEN
WOLF POINT
WOLF RUN
WOLF SUMMIT
WOLFCREEK
WOLFE
WOLFE CITY
WOLFEBORO
WOLFEBORO FALLS
WOLFFORTH
WOLFLAKE
WOLFORD
WOLFPIT
WOLFS X RDS
WOLFTOWN
WOLLASTON
WOLLOCHET
WOLSETH
WOLSEY
WOLUMSAK
WOLVERINE
WOLVERINE LAKE
WOLVERINE WORLD WIDE
WOLVERTON
WOMAC
WOMACK
WOMELSDORF
WONALANCET
WONDER LAKE
WONEWOC
WONNIE
WOOD
WOOD DALE
WOOD HEIGHTS
WOOD LAKE
WOOD RIDGE
WOOD RIVER
WOOD RIVER JUNCTION
WOOD SPRINGS
WOOD STOCK
WOOD VILLAGE
WOOD-RIDGE
WOODACRE
WOODARDVILLE
WOODBERRY FOREST
WOODBINE
WOODBORO
WOODBOURNE
WOODBRANCH
WOODBRIDGE
WOODBURN
WOODBURY
WOODBURY HEIGHTS
WOODCHOPPERTOWN
WOODCLIFF
WOODCLIFF LAKE
WOODCREEK
WOODCREST
WOODFORD
WOODFORDS
WOODGATE
WOODGATE EAST
WOODHAVEN
WOODHULL
WOODINVILLE
WOODLAKE
WOODLAND
WOODLAND ADDITION
WOODLAND BEACH
WOODLAND HILLS
WOODLAND MILLS
WOODLAND PARK
WOODLANDVILLE
WOODLAWN
WOODLAWN PARK
WOODLEAF
WOODLEIGH
WOODLINVILLE
WOODLYN
WOODLYNNE
WOODMAN
WOODMERE
WOODMONT BEACH
WOODMOOR
WOODPECKER VILLAGE
WOODRIDGE
WOODROW
WOODRUFF
WOODS
WOODS CORNERS
WOODS CR RDS
WOODS CROSS
WOODS CROSS RDS
WOODS CROSS ROADS
WOODS CRS RDS
WOODS HOLE
WOODS LANDING
WOODSBORO
WOODSBURGH
WOODSFIELD
WOODSHOLE
WOODSIDE
WOODSON
WOODSON TERRACE
WOODSPRINGS
WOODSTOCK
WOODSTOCK VALLEY
WOODSTON
WOODSTOWN
WOODSVILLE
WOODVILLE
WOODWARD
WOODWAY
WOODWORTH
WOODY
WOODY ACRES
WOODY CREEK
WOODYARD
WOOLCOTT
WOOLDRIDGE
WOOLFORD
WOOLLUM
WOOLRICH
WOOLSEY
WOOLSTOCK
WOOLWICH
WOOLWICH TOWNSHIP
WOOLWINE
WOONSOCKET
WOOSTER
WOOSUNG
WOOTON
WORCESTER
WORD RECORD BUS REPLY
WORDEN
WORKERS COMPENSATION
WORKINGER BAYOU ROAD
WORKMAN
WORLAND
WORLD VISION BRM
WORLEY
WORLEYTOWN
WORMAN
WORMLEYSBG
WORMLEYSBURG
WORMS
WORONOCO
WORONOCO HEIGHTS
WORTH
WORTH TOWNSHIP
WORTHAM
WORTHING
WORTHINGTON
WORTHINGTON SPRINGS
WORTHVILLE
WORTON
WOUNDED KNEE
WOXALL
WRANGELL
WRAY
WREN
WRENS
WRENSHALL
WRENTHAM
WRIGHT
WRIGHT CITY
WRIGHT PAT
WRIGHT PATTERSON
WRIGHT PATTERSON AFB
WRIGHTS
WRIGHTS CORNER
WRIGHTS SHOP
WRIGHTSBORO
WRIGHTSDALE
WRIGHTSTOWN
WRIGHTSVILLE
WRIGHTSVILLE BEACH
WRIGHTWOOD
WRIGLEY
WTBY
WTOWN
WTR MILL
WURTLAND
WURTSBORO
WYACONDA
WYALUSING
WYANDANCH
WYANDOT
WYANDOTTE
WYANET
WYANO
WYARNO
WYATT
WYBARK
WYCKOFF
WYCO
WYCOMBE
WYE LAKE
WYE MILLS
WYETH
WYEVILLE
WYKAGYL
WYKOFF
WYLIE
WYLLIESBURG
WYMAN
WYMER
WYMORE
WYNANTSKILL
WYNCOTE
WYNDHAM HILLS
WYNDMERE
WYNDMOOR
WYNNBURG
WYNNE
WYNNEWOOD
WYNONA
WYNOOSE
WYNOT
WYOCENA
WYOLA
WYOMING
WYOMISSING
WYOMISSING HILLS
WYSOX
WYTHEVILLE
WYTOPITLOCK
XENIA
XEROX
XMAS
Y CITY
YAAK
YACHATS
YACOLT
YADKIN
YADKINVILLE
YAKIMA
YAKIMA FIRING CENTER
YAKUTAT
YALAHA
YALE
YALESVILLE
YALEVILLE
YAMHILL
YAMPA
YANCEY
YANCEY MILLS
YANCEYVILLE
YANCOPIN
YANKEE HILL
YANKEE JIMS
YANKEE LAKE
YANKEE SPRINGS
YANKEETOWN
YANKTON
YANTIC
YANTIS
YANTISVILLE
YANTLEY
YAP
YAP CAROLINE ISLANDS
YAPHANK
YARBO
YARD
YARDELLE
YARDLEY
YARDS
YARDVILLE
YARMOUTH
YARMOUTH PORT
YARMOUTHPORT
YARNABY
YARNELL
YARRELTON
YARROW
YARROW POINT
YATAHEY
YATES
YATES CENTER
YATES CITY
YATESBORO
YATESVILLE
YAUPON BEACH
YAWKEY
YBOR CITY
YEADDISS
YEADON
YEAGERTOWN
YEAGERTWN
YEAMAN
YELLOW HOUSE
YELLOW JACKET
YELLOW LAKE
YELLOW PINE
YELLOW ROCK
YELLOW SPGS
YELLOW SPRING
YELLOW SPRINGS
YELLOWTAIL
YELLVILLE
YELM
YEMASSEE
YEOMAN
YEOWARD ADDITION
YEOWARDVILLE
YERINGTON
YERKES
YERMO
YESCAS
YESO
YETTEM
YETTER
YOAKUM
YOCANA
YOCKEY
YOCUM
YOCUM CREEK
YOCUMTOWN
YODER
YOE
YOLO
YOLYN
YOMAN FERRY
YONCALLA
YONGES ISLAND
YONKERS
YORBA LINDA
YORK
YORK BEACH
YORK HARBOR
YORK HAVEN
YORK NEW SALEM
YORK ROAD
YORK SPRINGS
YORK TWP
YORKANA
YORKLYN
YORKSHIRE
YORKTOWN
YORKTOWN HEIGHTS
YORKTOWN HGTS
YORKTOWN NAVAL WEAPONS STATI
YORKVILLE
YOSEMITE
YOST WOODS
YOUNG
YOUNG AMERICA
YOUNG HARRIS
YOUNG WARD
YOUNGDALE
YOUNGS
YOUNGS CREEK
YOUNGSPORT
YOUNGSTOWN
YOUNGSTOWN ACRES
YOUNGSTOWN MEADOWS
YOUNGSVILLE
YOUNGTOWN
YOUNGWOOD
YOUNKERS
YOUNT
YOUNTVILLE
YOUREE
YPSILANTI
YREKA
YUBA
YUBA CITY
YUCAIPA
YUCCA
YUCCA VALLEY
YUKON
YULAN
YULEE
YUMA
YUTAN
YUTON
ZABCIKVILLE
ZACATA
ZACHARIAH
ZACHARY
ZACHOW
ZAHL
ZALESKI
ZALMA
ZAMORA
ZANESFIELD
ZANESVILLE
ZANETA
ZANONI
ZAP
ZAPATA
ZAREPATH
ZAREPHATH
ZAVALLA
ZEARING
ZEBULON
ZEBULON BRANCH
ZEELAND
ZEIGLER
ZELIENOPLE
ZELL
ZELLWOOD
ZEMPLE
ZENDA
ZENIA
ZENITH
ZENORIA
ZEONA
ZEPHYR
ZEPHYR COVE
ZEPHYR POINT
ZEPHYRHILLS
ZERBE
ZERKEL
ZERO
ZIA PUEBLO
ZIEGLERSVILLE
ZIEGLERVILLE
ZIGZAG
ZILLAH
ZIM
ZIMMER
ZIMMERDALE
ZIMMERMAN
ZINC
ZION
ZION CITY
ZION CROSSRDS
ZION CROSSROADS
ZION GROVE
ZIONHILL
ZIONSVILLE
ZIONVILLE
ZIPPERLENVILLE
ZIRCONIA
ZOAR
ZOARVILLE
ZOE
ZOLFO SPRINGS
ZOOK SPUR
ZOOKS CORNER
ZOOKS DAM
ZORTMAN
ZULLINGER
ZULU
ZUMBRO FALLS
ZUMBROTA
ZUNI
ZUNI PUEBLO
ZURICH
ZWINGLE
ZWOLLE
ZYLKS
                                     Commercial and Inherently Governmental FTE Inventory Worksheet




                 Org Unit               Location                                  Status
   Seq                                                            Total Activity              Reason
   No. Agy_BurAbbreviationState    City                   Country FTEs Fct Code Status Reason Sub_Code
       1 020-00 IG - Imm. Off.DC   Washington               US       12  I100      I
       2 020-00 IG - Counsel DC    Washington               US         7 I105      I
       3 020-00 IG - PAR      DC   Washington               US       10  D702      I
       4 020-00 IG - PAR      DC   Washington               US         5 C400      I
       5 020-00 IG - OI - ImmDC    Washington               US       15  I520      I
       6 020-00 IG - OPE      DC   Washington               US       15  D707      I
       7 020-00 IG - OA - Imm DC   Washington               US       13  I110      I
       8 020-00 IG - OHC - ImmDC   Washington               US         4 I115      I
       9 020-00 IG - MID      VA   Arlington                US       16  I520      I
      10 020-00 IG - EID      NY   New York                 US       14  I520      I
      11 020-00 IG - CID      IL   Chicago                  US       10  I520      I
      12 020-00 IG - WID      CA   San Francisco            US       11  I520      I
      13 020-00 IG - OMS      DC   Washington               US       10  W100      I
      14 020-00 IG - OMS      DC   Washington               US         6 W310     C B
      15 020-00 IG - PAR - HR DC   Washington               US         3 B710      I
      16 020-00 IG - PAR - HR DC   Washington               US         3 B700     C B
      17 020-00 IG - PAR - HR DC   Washington               US         1 B200     C B
      18 020-00 Fin. Stmt. Aud.
                              DC   Washington               US       26  I420     C D
      19 020-00 Fin. Stmt. Aud.
                              DC   Washington               US         3 I420      I
      20 020-00 IG - ITAS     DC   Washington               US       10  I440      I
      21 020-00 IG - ITAS     DC   Washington               US        6 W826      C B
      22 020-00 IG - ESS      DC   Washington               US        3 F520       I
      23 020-00 IG - ESS      DC   Washington               US        4 F520      C B
      24 020-00 IG - WCD      DC   Washington               US        5  I120      I
      25 020-00 IG - WCD * DC      Washington               US        8  I420     C B
      26 020-00 Single Audits PA   Philadelphia             US        2  I420     C B
      27 020-00 SRF           CA   San Francisco            US        4  I420     C B
      28 020-00 Asst. Agrmts.DC    Washington               US        5  I420     C B
      29 020-00 IG - EAD      MA   Boston                   US       23  I430      I
      30 020-00 IG - EAD * MA      Boston                   US        6  I420     C B
      31 020-00 IG - MAD      PA   Philadelphia             US       18  I430      I
      32 020-00 IG - SAD      GA   Atlanta                  US       15  I430      I
      33 020-00 IG - NAD      IL   Chicago                  US       16  I430      I
      34 020-00 IG - CAD      KS   Kansas City              US       21  I430      I
      35 020-00 IG - WAD      CA   San Francisco            US       13  I430      I
      36 020-00 IG - HAD      DC   Washington               US       23  I430      I




fair2002epaoig7. Inventory                                      Page 1 of 1                              11/14/02
Agy_BurOrg Unit            Last Name          First Name   Prefix   Suffix Email




005-03
456-00




fair2002epaoig6. Contact               Page 1 of 2                                 11/14/02
Phone




fair2002epaoig6. Contact   Page 2 of 2   11/14/02
Prefix     Suffix       Agy_Bur
                        005-03
Miss       Jr.          005-04
Mr.        Sr.          005-05
Mrs.       II           005-06
Ms.        III          005-08
           IV           005-10
                        005-13
                        005-15
                        005-18
                        005-20
                        005-32
                        005-35
                        005-37
                        005-45
                        005-47
                        005-49
                        005-53
                        005-55
                        005-68
                        005-84
                        005-96
                        006-05
                        006-06
                        006-07
                        006-08
                        006-25
                        006-30
                        006-40
                        006-48
                        006-51
                        006-53
                        006-54
                        006-55
                        006-60
                        007-10
                        007-20
                        007-25
                        007-30
                        007-40
                        009-10
                        009-15
                        009-17
                        009-20
                        009-25
                        009-30
                        009-33
                        009-38
                        009-70
                        009-75
                        009-90
                        009-91
                        009-92
                        010-04
                        010-06
                        010-08
                        010-10
                        010-11
                        010-12


fair2002epaoig5. Misc             Page 1 of 8   11/14/02
                        010-18
                        010-24
                        010-76
                        010-84
                        010-85
                        010-86
                        010-88
                        010-90
                        010-91
                        010-92
                        011-03
                        011-04
                        011-05
                        011-10
                        011-12
                        011-15
                        011-20
                        011-21
                        012-05
                        012-11
                        012-12
                        012-15
                        012-18
                        012-19
                        012-20
                        012-25
                        014-05
                        014-15
                        014-25
                        015-04
                        015-05
                        015-08
                        015-10
                        015-13
                        015-15
                        015-20
                        015-25
                        015-35
                        015-45
                        015-55
                        015-57
                        015-58
                        016-00
                        018-30
                        018-40
                        018-45
                        018-50
                        018-80
                        019-05
                        019-10
                        019-20
                        019-50
                        019-60
                        020-00
                        021-04
                        021-06
                        021-08
                        021-12
                        021-15


fair2002epaoig5. Misc            Page 2 of 8   11/14/02
                        021-17
                        021-18
                        021-27
                        021-36
                        021-40
                        021-50
                        021-56
                        021-61
                        021-70
                        023-05
                        023-10
                        023-30
                        025-35
                        026-00
                        027-00
                        028-00
                        029-15
                        029-30
                        029-40
                        100-00
                        184-15
                        184-20
                        184-25
                        184-35
                        184-40
                        184-50
                        200-15
                        200-18
                        200-20
                        200-25
                        200-45
                        202-00
                        306-00
                        309-00
                        310-00
                        313-00
                        323-00
                        326-00
                        338-00
                        339-00
                        343-00
                        345-00
                        347-00
                        350-00
                        351-00
                        352-00
                        355-00
                        356-00
                        357-10
                        357-20
                        357-30
                        357-40
                        360-00
                        361-00
                        362-00
                        364-00
                        365-00
                        366-00
                        367-00


fair2002epaoig5. Misc            Page 3 of 8   11/14/02
                        368-00
                        369-00
                        370-00
                        372-00
                        378-00
                        381-00
                        382-00
                        387-00
                        389-00
                        393-00
                        394-00
                        400-00
                        413-00
                        415-00
                        417-00
                        418-00
                        420-00
                        421-00
                        422-00
                        424-00
                        429-00
                        431-00
                        432-00
                        434-00
                        435-00
                        436-00
                        438-00
                        446-00
                        449-00
                        452-00
                        455-00
                        456-00
                        465-00
                        467-00
                        474-00
                        485-00
                        487-00
                        492-00
                        510-00
                        511-00
                        512-00
                        513-00
                        514-00
                        517-00
                        518-00




fair2002epaoig5. Misc            Page 4 of 8   11/14/02
Agy_Bur                                        state
                                            AK
                                            AL
                                            AR
                                            AZ
                                            CA
                                            CO
                                            CT
                                            DC
                                            DE
                                            FL
                                            FM
                                            GA
                                            HI
                                            IA
                                            ID
                                            IL
                                            IN
                                            KS
                                            KY
                                            LA
                                            MA
                                            MD
                                            ME
                                            MI
                                            MN
                                            MO
                                            MT
                                            NC
                                            ND
                                            NE
                                            NH
                                            NJ
                                            NM
                                            NV
                                            NY
                                            OH
                                            OK
                                            OR
                                            PA
                                            RI
                                            SC
                                            SD
                                            TN
                                            TX
                                            UT
                                            VA
                                            VT
                                            WA
                                            WI
                                            WV
                                            WY




      fair2002epaoig5. Misc   Page 5 of 8              11/14/02
fair2002epaoig5. Misc   Page 6 of 8   11/14/02
fair2002epaoig5. Misc   Page 7 of 8   11/14/02
fair2002epaoig5. Misc   Page 8 of 8   11/14/02
